<html>
<title> - OCEAN POLICY PRIORITIES IN THE UNITED STATES; AND H.R. 21, OCEANS CONSERVATION, EDUCATION, AND NATIONAL STRATEGY FOR THE 21ST CENTURY ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
  OCEAN POLICY PRIORITIES IN THE UNITED STATES; AND H.R. 21, OCEANS 
 CONSERVATION, EDUCATION, AND NATIONAL STRATEGY FOR THE 21ST CENTURY 
                                  ACT

=======================================================================

                   OVERSIGHT AND LEGISLATIVE HEARINGS

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                   March 29, 2007, and April 26, 2007

                               __________

                           Serial No. 110-10

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
34-377                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Stevan Pearce, New Mexico
Rush D. Holt, New Jersey             Henry E. Brown, Jr., South 
Raul M. Grijalva, Arizona                Carolina
Madeleine Z. Bordallo, Guam          Luis G. Fortuno, Puerto Rico
Jim Costa, California                Cathy McMorris Rodgers, Washington
Dan Boren, Oklahoma                  Bobby Jindal, Louisiana
John P. Sarbanes, Maryland           Louie Gohmert, Texas
George Miller, California            Tom Cole, Oklahoma
Edward J. Markey, Massachusetts      Rob Bishop, Utah
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Dean Heller, Nevada
Patrick J. Kennedy, Rhode Island     Bill Sali, Idaho
Ron Kind, Wisconsin                  Doug Lamborn, Colorado
Lois Capps, California               Vacancy
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth, South Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Bobby Jindal, Louisiana
Solomon P. Ortiz, Texas              Tom Cole, Oklahoma
Frank Pallone, Jr., New Jersey       Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall II, West Virginia, 
    ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 29, 2007.........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina, Prepared statement of.........    38
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     3
    Kennedy, Hon. Patrick J., a Representative in Congress from 
      the State of Rhode Island..................................     5
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     5
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     3
        Prepared statement of....................................     4
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, Prepared statement of...........................    39

Statement of Witnesses:
    Glackin, Mary M., Assistant Administrator for Program 
      Planning and Integration, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................    25
        Prepared statement of....................................    28
    Panetta, Hon. Leon, Co-Chair, Joint Ocean Commission 
      Initiative.................................................    11
        Prepared statement of....................................    14
    Watkins, Admiral James D., U.S. Navy (Retired), and Co-Chair, 
      Joint Ocean Commission Initiative..........................     7
        Prepared statement of....................................    14
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, April 26, 2007.........................    61

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam    61
        Prepared statement of....................................    62
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................    63
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................    70
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland, Prepared statement of...............    95
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................    64
        Prepared statement of....................................    65
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, Statement submitted for the record..............   104

Statement of Witnesses:
    Allen, Hon. Thomas H., a Representative in Congress from the 
      State of Maine.............................................    68
        Prepared statement of....................................    69
    Benton, David, Executive Director, Marine Conservation 
      Alliance...................................................   133
        Prepared statement of....................................   135
    Chasis, Sarah, Senior Attorney, Natural Resources Defense 
      Council....................................................   116
        Prepared statement of....................................   118
    Dunnigan, Jack, Assistant Administrator, National Ocean 
      Service, National Oceanic and Atmospheric Administration, 
      U.S. Department of Commerce................................    71
        Prepared statement of....................................    73
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California..............................................    66
        Prepared statement of....................................    67
    Grader, W.F. ``Zeke'' Jr., Executive Director, Pacific Coast 
      Federation of Fishermen's Associations.....................   107
        Prepared statement of....................................   109
        Response to questions submitted for the record...........   111
    Leyden, Kathleen, Chair, Coastal States Organization Regional 
      Ocean Governance Work Group and Director, Maine Coastal 
      Program....................................................    81
        Prepared statement of....................................    83
        Response to questions submitted for the record...........    86
    Rosenberg, Andrew A., Ph.D., Member, U.S. Commission on Ocean 
      Policy and the Joint Oceans Commission Initiative..........   124
        Prepared statement of....................................   126
        Response to questions submitted for the record...........   129

Additional materials supplied:
    Cousteau, Philippe, Co-Founder, President and Chief Executive 
      Officer, and Board Member, EarthEcho International, 
      Statement submitted for the record.........................   148
    Vinick, Charles C., President and CEO, Alliance to Protect 
      Nantucket Sound, Statement submitted for the record........   149


   OVERSIGHT HEARING ON OCEAN POLICY PRIORITIES IN THE UNITED STATES

                              ----------                              


                        Thursday, March 29, 2007

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:10 a.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Brown, Gilchrest, Sali, 
Rahall, Pallone, Kennedy, Capps, Farr, and Allen.

  STATEMENT OF THE HON. MADELEINE Z. BORDALLO, A DELEGATE IN 
                       CONGRESS FROM GUAM

    Ms. Bordallo. The hearing by the Subcommittee on Fisheries, 
Wildlife, and Oceans will now come to order.
    The Subcommittee is meeting today to hear testimony on 
ocean policy priorities in the United States, and the 
recommendations of the Joint Ocean Commission Initiative.
    Before recognizing the witnesses, I would like to extend a 
very warm welcome to my boss, the overall Chairman of the 
Resources Committee, the Hon. Nick Rahall, and of course, the 
former Chairman of this Subcommittee, Mr. Wayne Gilchrest. It 
is very nice to have both of you. And Mr. Sam Farr, a long-time 
friend of mine who is also with us. Thank you very much.
    Under Committee Rule 4[g], the Chairman and the Ranking 
Minority Member can make opening statements. I will also 
recognize our Chairman and Ranking Member of the full committee 
who are with us this morning, as I just did. If any other 
Members have statements, they can be included in the hearing 
record under unanimous consent.
    I ask unanimous consent that Representatives Farr and Allen 
have permission to sit on the dais and participate in the 
hearing. Without objection, I so order.
    This morning's hearings will focus on priorities for ocean 
policy reform in the United States, and the recommendations of 
the Joint Ocean Commission Initiative. This collaborative 
effort merges the findings of two separate national commissions 
that made a broad range of ocean policy recommendations to 
Congress and other government entities in 2003 and 2004.
    The importance of these recommendations cannot be 
overstated. As the very first page of the U.S. Commission on 
Ocean Policy's report illustrates, the United States is an 
ocean nation. Our exclusive economic zone, which extends 200 
miles out from our coasts, is the largest in the world, 
spanning over 13,000 miles of coastline, and containing 3.4 
million square nautical miles of ocean.
    My own district, the Territory of Guam, has more than 
60,000 square nautical miles of ocean, and as an island 
community, the oceans are a critical aspect of everyday life.
    I first became more acutely aware of the many challenges 
that we face in sustaining our ocean environment when I 
attended the Year of the Ocean Conference in Monterey, 
California in 1998. That watershed meeting laid the groundwork 
for the legislation passed by Congress to establish the U.S. 
Ocean Commission, chaired by Admiral Watkins. That commission, 
along with the Pew Oceans Commission, worked tirelessly to 
explore the full breadth of threats our oceans face, and to 
develop a framework for moving forward in addressing these 
threats.
    Now it is incumbent upon us, as policymakers, to move 
forward in the implementation of these recommendations. 
According to the National Ocean Economics Program, our ocean 
economy generated $138 billion and 2.3 million jobs in 2004. It 
is up to us to provide the leadership needed to ensure the 
sustainability of our ocean ecosystems and all that they 
provide for us in the long term. And I look forward to working 
with my colleagues on the committee in the Ocean Caucus to 
provide that leadership.
    Since the Ranking Member, Congressman Brown, has been 
delayed--he will be here later--I would like at this time to 
recognize Mr. Wayne Gilchrest.
    [The prepared statement of Ms. Bordallo follows:]

           Statement of The Honorable Madeleine Z. Bordallo, 
       Chairwoman Subcommittee on Fisheries, Wildlife and Oceans

    This morning's hearing will focus on priorities for ocean policy 
reform in the United States and the recommendations of the Joint Ocean 
Commission Initiative. This collaborative effort merges the findings of 
two separate national commissions that made a broad range of ocean 
policy recommendations to Congress and other government entities in 
2003 and 2004. The importance of these recommendations cannot be 
overstated.
    As the very first page of the U.S. Commission on Ocean Policy's 
report illustrates, the United States is an ocean nation. Our Exclusive 
Economic Zone, which extends 200 miles out from our coasts, is the 
largest in the world, spanning over 13,000 miles of coastline and 
containing 3.4 million square nautical miles of ocean.
    My own district, the territory of Guam, has more than sixty 
thousand square nautical miles of ocean, and as an island community the 
oceans are a critical aspect of every day life.
    I first became more acutely aware of the many challenges we face in 
sustaining our ocean environment when I attended the Year of the Ocean 
Conference in Monterey, California in 1998. That watershed meeting laid 
the ground work for the legislation passed by Congress to establish the 
U.S. Ocean Commission chaired by Admiral Watkins. That Commission, 
along with the Pew Oceans Commission, worked tirelessly to explore the 
full breadth of threats our oceans face and to develop a framework for 
moving forward in addressing those threats.
    Now, it is incumbent upon us as policy makers to move forward in 
the implementation of those recommendations. According to the National 
Ocean Economics Program, our ocean economy generated 138 billion 
dollars and 2.3 million jobs in 2004. It is up to us to provide the 
leadership needed to ensure the sustainability of our ocean ecosystems 
and all that they provide us for the long term.
    I look forward to working with my colleagues on the Committee and 
in the Ocean Caucus to provide that leadership role.
                                 ______
                                 

  STATEMENT OF THE HON. WAYNE GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Thank you very much, Madame Chair. And I 
want to thank the witnesses here this morning for their 
testimony, and also for their extraordinary dedication to this 
issue, which is fundamental to present and unseen future 
generations to come, life on the planet, and the attention that 
they have paid, that all of you have paid in an extraordinary 
manner, to the oceans.
    Sam Farr has worked for a number of years now on a bill 
called Oceans 21, which is the essence of the Pew Ocean Report 
by Leon Panetta, and the Ocean Commission Report by Admiral 
Watkins. And both of you have collaborated to produce what we 
think will be the fundamental design for ocean policy for 
generations to come.
    Your report has laid out before the Nation and the world 
what the book Silent Spring did in the early 1960s. And we are 
at the very early stages of understanding the full 
ramifications of human activity on the planet, and this 
degradation of nature's design. And so your blueprint, the 
collaboration of your two organizations, will lay out the kind 
of legislation that will carry us probably through the rest of 
this century.
    And so we will work very hard on this side, and with the 
Senate side, and with the Administration, to get this kind of 
legislation passed. It deals with fundamental things like NOAA 
Organic Act; sanctuaries, which are so critical to habitat and 
to sustaining our fisheries; coral reefs that are under assault 
from things as primitive as hand grenades to fishing hooks, to 
the acidification of the oceans because of climate change. 
Ocean governance is pretty fundamental. Fisheries issues, ocean 
research, mapping. All of these things and more you have laid 
out before us. We have a strong sense of appreciation for your 
dedication, and we will work hard to make this thing become a 
reality in this particular Congress.
    And I also want to make one other comment about your effort 
to make us, the scientific community, and the public-at-large 
aware that climate change is not something that just happens in 
the atmosphere. It is just not something that melts the polar 
ice cap, the greenhouse ice cap, and the West Antarctic. It is 
something that has a fundamental effect on the ocean chemistry. 
And if we are not careful, and if we are not bold, the 
chemistry of the ocean can become as primitive as it was 
millions of years ago.
    So to all of you, I want to give a hearty thanks. And 
unfortunately, like most Members, I have another hearing and 
some other things to do, and I wanted to come down and make 
those comments on your behalf.
    Thank you, Madame Chairman.
    Ms. Bordallo. I wish to thank the gentleman from Maryland, 
Mr. Gilchrest. And now I would like to recognize the 
distinguished Chair of the Resources Committee, Mr. Rahall.

STATEMENT OF NICK RAHALL, II, A REPRESENTATIVE IN CONGRESS FROM 
                   THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Madame Chair. I do appreciate the 
opportunity, as Chair of the Natural Resources Committee, to be 
here this morning, and commend you for conducting these 
hearings on the findings of the Pew Ocean Commission and the 
U.S. Commission on Ocean Policy.
    It is certainly a delight to see our former colleague and 
former Chief of Staff to the White House, Leon Panetta, back on 
his old stomping grounds, and to see Admiral Watkins, both of 
these individuals so dedicated, as the gentleman from Maryland 
has stated, and so committed to this issue and to doing what is 
right for our ocean policy in this Congress, and their 
expertise over such a long period of time on this issue.
    I do also want to commend Mary Glackin from NOAA for being 
with us, and appreciate her dedication at NOAA, as well, and am 
looking forward to her testimony.
    The gentleman from California, Mr. Farr, once a Member of 
this committee, and the gentlelady of California, Ms. Capps, 
now a Member of this committee, have also been very 
instrumental and dedicated in their leadership on this issue. 
And I appreciate that as well.
    As you each know, when I assumed the Chair of the Natural 
Resources Committee in January, I pledged to work with you to 
review the recommendations of these two bipartisan commissions, 
and to move forward with the legislative and policy changes 
needed to better protect and manage our oceans and their vast 
resources. And I remain committed to that pledge.
    I feel compelled to note, Madame Chair, that while these 
two reports were both released more than three years ago, this 
is the first hearing that the committee with jurisdiction over 
our ocean resources, our committee, has held to fully explore 
their findings. It is unfortunate that it has taken so long, 
but I do commend you, Madame Chair, for your quick action and 
leadership in this regard.
    And again, I thank Leon and Admiral Watkins for their 
continued leadership, as well as their continued strong 
advocacy on behalf of our oceans. Too often commissions are 
formed, much effort is put into developing recommendations, 
then they sit on a shelf and collect dust and don't even get 
dusted off.
    These two leaders have refused to let that happen. They 
have worked together to form the Joint Ocean Commission 
Initiative. They have signaled their commitment to achieving 
real change in our ocean management regime, and I thank them.
    And with that, Madame Chair, I yield back the balance of my 
time.
    [The prepared statement of Mr. Rahall follows:]

            Statement of The Honorable Nick J. Rahall, II, 
                Chairman, Committee on Natural Resources

    Thank you, Madam Chairwoman, for holding this important hearing 
today on the findings of the Pew Ocean Commission and the U.S. 
Commission on Ocean Policy.
    As you know, when I assumed the Chair of the Natural Resources 
Committee in January, I pledged to work with you to review the 
recommendations of these two bipartisan commissions and to move forward 
with the legislative and policy changes needed to better protect and 
manage our oceans and their vast resources. I remain committed to that 
pledge.
    I feel compelled to note, Madam Chairwoman, that while these two 
reports were both released more than three years ago, this is the first 
hearing that the Committee with jurisdiction over our ocean resources--
our Committee--has held to fully explore their findings. It is 
unfortunate that it has taken so long, but I commend you for your quick 
action and leadership in this regard.
    I also would like to thank my former colleague, Leon Panetta, and 
Admiral James Watkins for their continued leadership on this issue as 
well as their ongoing advocacy on behalf of our oceans. Too often, 
Commissions are formed and much effort is put into developing 
recommendations that then sit on a shelf and collect dust.
    These two leaders have refused to let that happen. By working 
together to form the Joint Ocean Commission Initiative, they have 
signaled their commitment to achieving real change in our ocean 
management regime. My thanks to you both, and I look forward to working 
with you.
    With that Madam Chairwoman, I again thank you for taking the first 
real and important step toward ensuring that our oceans and our coasts 
remain healthy and productive and that the use of their resources is 
sustainable.
                                 ______
                                 
    Ms. Bordallo. Thank you, Mr. Chairman, Mr. Rahall, who is 
the Chair of the Natural Resources Committee.
    I would like to also recognize Mr. Frank Pallone, who has 
joined us this morning.

 STATEMENT OF THE HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madame Chairwoman. I will be very 
brief. But I just wanted to express my thanks to you for 
holding this long-overdue hearing.
    The Pew Commission and the U.S. Commission on Ocean Policy 
both painted a pretty bleak picture of the state of our oceans, 
but unfortunately we didn't really do much with this 
information during the past two Congresses. And your focus on 
the Commission's recommendations is badly needed, given how 
much our coasts and oceans are suffering.
    I want to thank Admiral Watkins and Mr. Panetta for being 
here today. I also should point out that two members of the 
U.S. Ocean Commission from my district, Paul Gaffney, who is 
now the President of Monmouth University, and Lillian Borrone, 
believe me, over the last few years they did not ever let me 
rest, and kept constantly pointing out that this Congress 
needed to address your recommendations. I don't think they are 
here today, but I want you to know that they literally talked 
to me every week about the Commission.
    I would just say we have one simple message. We have a lot 
of work to do. Oceans and coasts are particularly valuable to 
my district along the Jersey shore, and we can't continue to 
sit idly by knowing what is happening out there. But I know 
that under our new Chairwoman's authority here, that we will 
see action.
    So thank you.
    Ms. Bordallo. Thank you. Thank you very much. I would also 
like to welcome Congressman Patrick Kennedy, who has joined us. 
Thank you, Congressman.

 STATEMENT OF PATRICK J. KENNEDY, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF RHODE ISLAND

    Mr. Kennedy. Thank you, Madame Chair. It is a pleasure to 
be here. I know, Leon, that you are going to be up in my State 
of Rhode Island in just a couple of weeks, presenting at URI, 
and we are looking forward to having you.
    I represent the ocean state, so obviously we have been very 
excited about the work of the Ocean Commission, the fact that 
you have been trying to bring together the multitude of various 
budgets here in government and how they ought to be more 
coordinated as they impact one another. And as a committee that 
funds NOAA, you know, I have been very concerned about how we 
don't get enough support from the Agriculture Committee, for 
example, because they have a great stake in whether we are 
adequately funding the funding of NOAA because of the work that 
we are doing in the weather program.
    And I also believe that we are not getting enough support 
from NASA for satellite launches, and for the life sciences 
through NASA. We are spending way too much money on mission to 
planet Mars, and reestablishing a station on the moon, as 
opposed to the life sciences and mission to planet Earth. And 
yet, those are resources that can be refocused on our own 
planet. And of course, that is, again, impinges upon our own 
ability to understand our own planet. And on and on and on.
    We have to understand the interrelationship between all of 
our various agencies and budgets on one another, and how they 
affect our coastal zone and our world, particularly as it 
results to climate change and our national security, and the 
fact that in the next many years, we are going to see the 
impact of global warming, and the fact that most of the world's 
population lives on the coastal zone. And if we do not get 
about protecting our natural resources, we jeopardize those 
delicate ecosystems, and that could really put our earth in an 
unstable position and lead to further instability around the 
world.
    So what you are doing is more than meets the eye, and I 
appreciate the fact that you are here today to make that case 
again, as you always do so effectively. So I am glad to be 
here, and I thank you very much, Madame Chair, for giving me a 
chance to speak.
    Ms. Bordallo. Thank you, thank the gentleman from Rhode 
Island, Mr. Kennedy. And Sam, would you like to say a few 
words, too?
    Mr. Farr. I just want to thank you, Madame Chair. We have 
been long waiting for this hearing. Admiral Watkins and 
Congressman Panetta and all of us on this team of trying to 
merge the recommendations of both reports have been introduced, 
as Mr. Gilchrest said, in H.R. 21.
    But I really want to thank you and Chairman Rahall. Because 
I think with this hearing and with your dedication to try to 
move this legislation, we really will see the work long 
overdue, about five years ago, that all this stuff was 
recommended to the Congress, and I would like to see us put it 
into law. Thank you.
    Ms. Bordallo. Thank you, Congressman Farr. I would now like 
to recognize our witnesses, and give particular recognition to 
the first two, who have served their country in many important 
positions during their long and distinguished careers.
    Admiral James Watkins is the former Chair of the U.S. 
Commission on Ocean Policy, and currently serves as the Co-
Chair of the Joint Ocean Commission Initiative. And The 
Honorable Leon Panetta is the former Chair of the Pew Oceans 
Commission, and also is the current Co-Chair of the Joint Ocean 
Commission Initiative.
    I would like to welcome both of you. Thank you for your 
leadership on this important issue, and for taking the time to 
be here today. It is unfortunate that it has taken this long 
for Congress to invite you to testify about the findings of 
your commissions, but we are very pleased to have you here now.
    And I also recognize our final witness, Ms. Mary Glackin, 
the Assistant Administrator for Program Planning and 
Integration at NOAA. Welcome, Ms. Glackin.
    The Chairwoman now recognizes Admiral Watkins to testify 
for 10 minutes. And I would note for all witnesses that the 
timing lights on the table will indicate when your time has 
concluded, and we would appreciate your cooperation in 
complying with the limits that have been set. Be assured that 
your full written statement will be submitted for the hearing 
record.
    And now it is my distinct pleasure to recognize Admiral 
Watkins.

 STATEMENT OF ADMIRAL JAMES D. WATKINS, U.S. NAVY, RETIRED, CO-
            CHAIR, JOINT OCEAN COMMISSION INITIATIVE

    Admiral Watkins. Thank you very much, Madame Chairman, 
Members of this Subcommittee. Mr. Panetta and I are pleased to 
appear before you today in our capacities as Co-Chairs of the 
Joint Ocean Commission Initiative. It was a collaborative 
effort that we felt we needed to set up just two years ago to 
make sure that we did everything possible to accelerate the 
outcome of our proposals to establish a new national ocean 
policy, in accordance with the Oceans Act 2000.
    We also appreciate the opportunity to discuss the two 
commissions' recommendations, and to share our thoughts about 
priorities for legislative action.
    Your letter of invitation references the Joint Ocean 
Commission Initiative, From Sea to Shining Sea. It was 
transmitted to the Senate last June, at the request of a 
bipartisan group of 10 of its Members, and that report outlined 
our priorities for action in the 109th Congress, actions that 
were urgently needed to address the many pressing issues we are 
facing regarding our oceans.
    Most of the actions identified in that report remain 
relevant today. Thus, we request that a copy of the report be 
accepted as part of the public record for this hearing, along 
with our formal written statements.
    Ms. Bordallo. Without objection.
    Admiral Watkins. Leon and I have decided to divide our 
speaking responsibilities this morning by having me put into 
context the current situation surrounding our oceans' coasts 
and Great Lakes by briefly reviewing the work of the two 
commissions, our collaboration establishing the Joint 
Initiative and the state of our oceans.
    Leon's remarks will focus on priorities actions that we 
feel this committee and Congress must take in the near term to 
make progress addressing the multitude of challenges facing our 
oceans.
    The precedent for establishing a national ocean policy was 
set back in the mid-sixties, when Congress established the 
Stratton Commission. Their report, entitled Our Nation and the 
Sea, released in 1969, was the most comprehensive look at our 
oceans, and the needs and opportunities inherent in better 
management of the seas.
    Thirty years later, there was a growing sense that our 
nation needed to revisit the issue. The result was 
establishment of the privately funded Pew Ocean Commission in 
the year 2000, and enactment of the Oceans Act of 2000, which 
created the publicly funded U.S. Commission on Ocean Policy, 
which I chaired.
    The Pew Ocean Commission released its report in June of 
2003, while the U.S. Commission delivered its report to 
Congress and the President in September 2004. The net result 
was two remarkably similar reports with over 240 combined 
recommendations supporting an ecosystem-based approach to 
managing our marine resources.
    Let me take a minute to briefly outline some of the key 
shared recommendations of the two commissions, details of which 
are in our written statement.
    We need a new governance regime guided by principles of 
ecosystem-based management to strengthen the capacity of the 
Federal government to integrate resources of the multitude of 
agencies with ocean-related responsibilities and expertise. As 
I recall, there is some eight to nine funding agencies, and 
there is another half-dozen policy agencies that are very much 
involved.
    We need to restore American fisheries, a major focus area 
for both commissions requiring a greater emphasis on the role 
of science in the decision-making process, and much better 
cooperation among stakeholders. And thanks to the Congress, the 
reauthorization of the Magnuson-Stevens Fisheries Management 
Act was passed last year, a great step forward, and one very 
important to both commissions. In fact, it was the longest and 
most difficult chapter to deal with in the U.S. Commission on 
Ocean Policy.
    We need to preserve and protect our coastal waters. Non-
point source pollution is a major problem, and strengthening 
the link between coastal and watershed management is essential 
if we are to respond to cumulative impacts assaulting marine 
ecosystems. And that gets back to the governance issue. This is 
why a governance regime change is absolutely mandatory.
    We must significantly enhance our commitment to ocean 
science and education, building on the National Ocean Science 
Plan released by the Administration in January of this year.
    Finally, we have to overcome the stagnation of funding that 
has crippled our capacity to modernize ocean science management 
and education. An investment of $3 billion to $4 billion over 
current levels is called for by the two commissions, and 
includes a doubling of the research base from the rather paltry 
$650 million today to $1.3 billion tomorrow. It is a modest 
increase, given the consequences if we allow the current rate 
of degradation to continue.
    Now, that represents, by the way, that $650 million, all 
Federal agencies doing basic research. It used to be about 7 
percent of the research and development budget; today it is 
only 3.5 percent. So we have allowed it to degrade, thinking 
because the Russian submarines went away, that the oceans were 
no longer important. They were doing the deep ocean research, 
and today the Navy is now, instead of being 40 percent of the 
research base in the oceans, is down around 15 percent. That 
has to change. And I have talked to the Navy about that, to 
their Research and Advisory Committee, saying don't lose 
control of the seas.
    To control the seas you have to understand the seas. To 
understand the seas, the Navy has got to stay in the game and 
be a leader in the research base.
    So let me take a minute to clarify why there is an urgent 
need for Congress to act. Here is the state of our oceans 
report that both commissions have come up with.
    Enormous human, environmental, and economic impacts 
associated with hurricanes and other increasingly intense 
coastal storms plagues us. Massive dead zones in the Gulf of 
Mexico, Chesapeake Bay, and most recently off Oregon. Continued 
loss of coastal wetlands, which is the natural protection 
against the encroachment of these incredible storms that we are 
going to see gain in intensity over the years.
    Increasing frequency and size of harmful algal blooms. 
Polluted runoff contaminating coastal waters, resulting in over 
20,000 annual beach closings and swimming advisories. Mounting 
problems due to the introduction of invasive species. Loss of 
coral reefs and other underwater habitat. Over-exploitation of 
fish stock, and acidification of the global ocean, which is a 
huge issue in the global climate change.
    We have both met Mr. Markey; we hope to appear before that 
Committee on Global Climate Change, and make sure that oceans 
are mentioned in the climate change debate. They have not been 
mentioned to date by almost anybody. The media never includes 
the oceans as the first victim, and probably houses our hope 
for the future if we understand how it operates in the 
processes there.
    So the government's flaws are many. We have fragmented 
laws, overlapping jurisdictions, absence of a coherent national 
ocean policy, and this committee has the opportunity, with H.R. 
21, which is probably the only going bill in either House of 
Congress that addresses a national ocean policy.
    Lack of Federal support for emerging regional ocean 
governance. Absolutely critical part of an ecosystem-based 
approach, where we have a collaborative effort between the 
states and the Federal government. Absence of a coherent 
management regime to guide activities in Federal offshore 
waters.
    We seriously need legislation from the Congress that talks 
about aquaculture in the deep water, in the Federal waters. 
Renewable energy sources, such as windmills. Bioprospecting, 
which is gaining tremendous support from the pharmaceuticals in 
this country.
    We need a regime, and it needs to talk about the revenue 
stream that has got to come back to the states and the Federals 
to carry out the very policies that we are talking about this 
morning.
    So what are we putting in jeopardy by allowing the health 
of our oceans to decline? Much more than people realize, I 
think. With an offshore ocean jurisdiction larger than the 
total land mass of the continental United States, U.S. Federal 
waters support important commerce, trade, energy, and mineral 
resources. The economic contributions the oceans and coasts and 
their watersheds make are staggering.
    I think the Chairman this morning talking about the 
economic aspects of this are not trivial. More than a trillion 
dollars, or one-tenth of the annual GDP, come out of what we 
call the near-shore areas, which are defined in our report, 
very carefully defined, because people tend to be very loose 
about the coasts. What makes up the coast? We said there is 
near shore, there is the watershed counties, and the ocean 
itself and the rivers that feed them, as well.
    The contributions swell to over $6.1 trillion, more than 
half the GDP, when considering all coastal watershed counties, 
thereby putting tremendous burdens on the coastal water health. 
Ocean-dependent economic activity--the Chairman pointed out 
very accurately of what it contributes to the economy, almost 
$120 billion annually. And annually, the nation's ports handle 
more than $700 billion in goods. The cruise industry accounts 
for $11 billion in spending, and the retail expenditures on 
recreational boating exceed $30 billion.
    While the recent progress has been somewhat encouraging, 
following the release of the two reports, the President issued 
the U.S. Ocean Action Plan and established the Committee on 
Ocean Policy in December of 2004. And that committee spawned 
numerous subcommittees and working groups to lay the foundation 
for an ecosystem-based approach to the input from the 
Administration.
    The release of the ocean research priorities plan and 
implementation strategy of this year by the Administration 
represents a watershed moment for the ocean science community, 
and designation of the Northwest Hawaiian Islands as a national 
monument is another noteworthy achievement.
    At the state level, a number of Governors demonstrated 
strong leadership by initiating regional strategies for 
coordinating ocean and coastal science and policy, including 
the Great Lakes, the Northeast, Gulf of Mexico, West Coast, and 
integral state strategies in California, Washington, 
Massachusetts, New York, Florida, New Jersey, Alaska, and 
Hawaii.
    We have just returned from a regional ocean conference in 
Monterey that Leon and I hosted, and were encouraged by the 
enthusiasm of the representatives of so many organizations for 
regional partnership. They are looking to the states to 
continue their efforts, and hope their work will stimulate a 
similar level of commitment to change at the national level.
    Congress also made some progress last year by 
reauthorization of the Magnuson-Stevens Fisheries Conservation 
and Management Act, enactment of the Marine Debris Research, 
Prevention, and Reduction Act, and enactment of the Tsunami 
Warning and Education Act. At least a dozen additional 
important ocean bills benefitted from considerable attention by 
various committees, and this provides a reservoir of 
opportunity for this Congress to make great strides this year, 
moving toward a new national ocean policy.
    Conclusion, I would like to say that while expectation for 
significant progress toward ocean policy reform have been high, 
the collective results have been relatively slow in coming. 
Granted, it has only been two years since the release of the 
commissions' report to Congress and to the Administration, and 
we have been struggling at the national level with other 
challenging issues, of course of national importance, as well.
    Yet it is the urgency of the situation surrounding the 
state of our oceans that have driven Leon and me and our 
commissioners to establish this initiative. A concern regarding 
the health of our oceans and coasts cuts across every sector of 
our society, and, as Leon and I have clearly demonstrated, they 
drive people toward bipartisan cooperation, which is hard to 
come by these days.
    Oceans provide an opportunity for this committee to forge a 
lasting legacy by helping secure passage of legislation that 
fundamentally reforms ocean governance at the Federal level.
    Modernizing ocean science, management, and education in 
preparation for the inevitable transition that will accompany a 
change in climate is a relatively modest initiative, yet it 
languishes for the lack of a few strong champions. You are the 
champions in this committee now. You have within your grasp the 
opportunity to enact a handful of laws that will earn you the 
lasting appreciation of our children, grandchildren, and 
countless future generations.
    With that plea for progress, I will turn now to Leon to 
outline for you some of the most important steps Congress must 
take to move forward on implementing a new national ocean 
policy.
    Ms. Bordallo. Thank you very much, Admiral Watkins. And now 
the Chair recognizes Mr. Leon Panetta.

         STATEMENT OF THE HON. LEON PANETTA, CO-CHAIR, 
               JOINT OCEAN COMMISSION INITIATIVE

    Mr. Panetta. Thank you, Madame Chair, Mr. Chairman, Members 
of the Subcommittee, other Members who are attending and who 
have shown great interest in oceans issues. I am really honored 
to be here, honored because you have taken the time to have a 
hearing on these ocean issues, and honored as a former member 
of this body to be back here and having the chance to be with a 
lot of my former colleagues.
    I am pleased that Admiral Watkins and I have come together 
in this Joint Oceans Initiative to try to bring together the 
work of both commissions. As the Admiral has pointed out, we 
have two commissions that had hearings across the country, and 
both came to the same findings: that our oceans are in crisis.
    We are in danger not only of damaging what is obviously one 
of the greatest natural resources of our planet--after all, 70 
percent of our planet is blue--but we are in danger of 
impacting on life itself. And I think that is what needs to be 
brought home to the American people.
    This is about life itself. It is about our health, it is 
about our nutrition. It is about our climate, it is about our 
recreation, it is about our economy. And it is about our very 
spirit. That is what the oceans are all about.
    As a boy growing up in Monterey, as Sam knows, Monterey was 
the sardine capital of the world. They used to catch about a 
billion tons of sardine each year. In the late forties, the 
sardines were basically fished out. I can't tell you the 
economic impact that that had in that community. There were 
literally thousands of families that were impacted by that.
    And yet we have seen the same story with cod in the 
Northeast, we have seen it with shrimp in the Gulf, we are 
seeing it with tuna. As the National Geographic pointed out 
just this last week, 90 percent of the big fish in the ocean 
are gone. So those fisheries could be lost.
    It is our obligation--your obligation as elected leaders, 
our obligation as citizens, and all of us as stewards of this 
resource--to insure that that never happens again, and that we 
protect the legacy of our oceans for ourselves and for our 
children.
    How do we do that? Obviously this Subcommittee, the 
Committee, this Congress need to work together to develop a 
comprehensive approach to ocean policy in terms of reform and 
funding.
    The good news is that it is not too late. The bad news is 
that the clock is still ticking.
    Let me summarize six areas where I think it is important to 
take action. We did this in a presentation that we made for the 
Senate last year, From Sea to Shining Sea, and we do this in 
our testimony. Let me just summarize the six areas where I 
really urge you to take action.
    Number one, you have to strengthen national ocean 
governance. As the Admiral pointed out, we cannot deal with the 
problems of our oceans if we rely on the present confused, 
fragmented, and conflicting set of regulations, rules, and laws 
that deal with our oceans. We have 140 different laws if you 
combine state laws and local laws. What happens is that a 
Federal District Court Judge ultimately has to decide policy 
with regard to our oceans, and that is not a good way to manage 
our oceans.
    So we urge you to do the following. Adopt a statement of 
national ocean policy that commits this country to protecting 
our oceans. That establishes a coordinated and comprehensive 
program of research, and conservation, and management, and 
education, and monitoring and assessment.
    This country has made that commitment with regards to clean 
air; we have made it with regards to clean water; we have made 
it with regards to our land. We have not done that with regards 
to our oceans. So I strongly urge that you pass legislation 
making that national commitment to protecting our oceans.
    Establish NOAA in law. NOAA was established by an Executive 
Order. They need to have the core mission of managing our 
oceans and trying to promote ecosystem-based management of our 
oceans and our coastal areas and their resources, and to 
incorporate the use of good science in that effort.
    In addition, you need to do oversight of the 
Administration's Committee on Ocean Policy Action Plan. They 
developed a good action plan. Frankly, you need to do oversight 
to make sure that it is being implemented.
    I would make the Federal, and we recommend that you make 
the Federal Coordinating Committee something that exists in 
law, and not just by Executive Order. And in addition to that, 
the President ought to appoint an Assistant to the President in 
charge of ocean policy.
    Second, you need to promote and encourage regional ocean 
governance. We have a lot of regions that are doing good things 
in this area. We have a lot of states that understand the 
importance of operating with our oceans on a regional basis. 
But unfortunately, the Federal government doesn't provide the 
encouragement and support that is necessary in order to ensure 
that the feds, the state, local government, the stakeholders, 
fishermen, are at the table working on a common plan to protect 
our oceans. If we can set those kinds of targets and have 
everybody agree to that, that is the most effective way to deal 
with planning for our oceans.
    We need legislative action that will provide a national 
framework to support these regional approaches, and that will 
encourage everybody to be at the plan, integrate a management 
approach that looks at the entire ecosystem of an area, and 
that combines land and sea.
    Third, we need to expand and improve our ocean science 
research and education. There is no way we can deal with these 
issues without expanding the science involved there. We need to 
incorporate oceans into the President's Innovative and 
Competitiveness Initiative, we need to establish a national 
ocean education strategy, and we need to support the 
Administration's effort to develop research priorities with 
regards to our oceans.
    We need to establish an integrated ocean observing system 
so that we get the kind of information that we need in order to 
protect our oceans.
    And last, we need to expand ocean exploration. I was amazed 
that a figure that said 1500 people have climbed Mount Everest, 
300 people have gone into space, 12 have actually walked on the 
moon, but only two people have gone to the deepest part of our 
oceans. Ninety-five percent of our oceans are virtually 
unexplored. So we need to expand that effort.
    Fourthly, we need to include oceans in any legislation that 
deals with climate change. Oceans are the engine that drives 
climate change. And we have to recognize that the impact of 
global warming is affecting our oceans: acidification, it is 
changing the currents so we have rising sea levels, we have the 
bleaching of coral reefs. All of that needs to be dealt with in 
the context of global warming.
    Fifth, we need to--and it is not something that you have 
jurisdiction over, but I want to bring it to your attention--we 
need to approve the Law of the Seas Treaty. This is a treaty 
that we established in order to provide some jurisdiction in 
the world, where the world community can sit down and deal with 
common issues. We are the only industrialized nation that has 
not ratified that treaty.
    We are not sitting at the table. When there are 
jurisdictional issues that come up, and there are a lot of them 
coming up now with regards to questions regarding our 
Continental Shelf, questions regarding our jurisdiction, 
scientific research, sea lanes, we are not even at the table 
because we haven't ratified that treaty. I would urge you to 
ask your Senate colleagues to ratify that treaty.
    And last, we want you to increase obviously funding for 
core science, core ocean and coastal programs. The last two 
years we have seen funding go down in the ocean area. It is a 
tragedy, particularly at a time when we need to have that kind 
of information to protect our oceans.
    We urge you to increase funding to $750 million above the 
2007 level. You have done a letter to the Budget Committee, and 
we commend you for that, urging that those funds be approved. 
We ask that the Appropriations Committee follow through.
    We also ask that you consider establishing an ocean trust 
fund to support these ocean programs, and that you direct the 
Administration to develop an integrated ocean budget so that we 
look at all of the oceans' issues in the budget.
    Those are some of the issues I would bring to your 
attention. I want to thank you for this hearing. I want to 
thank you for your leadership.
    A hundred years ago, Madame Chair, Teddy Roosevelt 
committed this country to protecting our land so that we would 
preserve it as a legacy for the future. A hundred years later, 
we need to do the same thing for our oceans. You have that 
opportunity, for the sake or our planet and for our children, 
to accomplish that.
    Thank you.
    [The joint prepared statement of Admiral Watkins and Mr. 
Panetta follows:]

   Statement of Admiral James D. Watkins, U.S. Navy (Ret.), and The 
    Honorable Leon E. Panetta, Co-Chairmen, Joint Ocean Commission 
                               Initiative

    Madam Chairman and Members of the Fisheries, Wildlife, and Oceans 
Subcommittee, we are pleased to appear before you today in our 
capacities as the Co-Chairs of the Joint Ocean Commission Initiative, a 
collaborative effort of members of the U.S. Commission on Ocean Policy 
and the Pew Oceans Commission. The purpose of the Joint Initiative is 
to advance the pace of change for meaningful ocean policy reform, and 
we are delighted to have the opportunity to join a discussion about how 
to improve ocean policy and governance and to share some of our 
thoughts about priorities for legislative action.
    In addition to the recommendations of the U.S. Commission on Ocean 
Policy and the Pew Oceans Commission, your letter of invitation made 
specific reference to the Joint Initiative's report, From Sea to 
Shining Sea, transmitted to the Senate last June at the request of a 
bipartisan group of ten of its Members. That report outlined our 
priorities for action by the 109th Congress, actions that were needed 
to address the many pressing issues we are facing with regard to our 
oceans. Most of the actions identified in this report remain relevant 
today. Thus we request that a copy of our report be submitted as part 
of the public record for this hearing. We welcomed the opportunity to 
provide that input to the Senate, just as we welcome the opportunity to 
share some of our findings and recommendations with this House 
subcommittee this morning.

Background on the Two Commissions
    The precedent for a national commission to examine ocean policy was 
set back in the mid-1960's when Congress established the Commission on 
Marine Sciences, Engineering, and Resources, commonly referred to as 
the Stratton Commission after its chairman, Dr. Julius Stratton, the 
chairman of the board of the Ford Foundation and retired president of 
the Massachusetts Institute of Technology. The Commission's report, Our 
Nation and the Sea, was released in 1969 and, at that time, was the 
most comprehensive look at our oceans and the needs and opportunities 
inherent in better management of the seas. A number of ocean laws were 
enacted in the years following the report, but the most immediate 
action was the establishment by a presidential reorganization order in 
1970 of the National Oceanic and Atmospheric Administration (NOAA) in 
the Department of Commerce.
    In the 30 years that followed the Stratton Commission report and 
the creation of NOAA, many individual ocean and coastal statutes were 
enacted. However, there was a growing sense in and outside of Congress 
that this nation needed a more coordinated and comprehensive ocean and 
Great Lakes policy than the individual and fragmented laws and 
regulations that had evolved. In the late 1990's, stimulated by an 
obvious deterioration in the health of our oceans and strong concerns 
about our ability to govern them, a public dialogue began to emerge 
that supported the idea of a new ``Stratton II Commission.'' 
Legislation to establish a new oceans commission or interagency ocean 
council was considered in the 98th, 99th, 100th and 105th Congresses, 
but it failed to pass.
    In 2000, in part because of the failure of Congress to enact this 
legislation and the growing concern about our oceans, the Pew 
Charitable Trusts established the privately funded 18-member Pew Ocean 
Commission to focus primarily on the conservation of living marine 
resources. Shortly thereafter, the 106th Congress enacted the Oceans 
Act of 2000 (P.L. 106-256), which created the 16-member publicly-funded 
U.S. Commission on Ocean Policy. The commissioners were appointed by 
President Bush in 2001, four directly by the President and twelve from 
lists of nominees submitted by the majority and minority leaders in the 
Congress. The U.S. Commission was given a broader mandate by Congress, 
and its members addressed economic activities as well as a wide array 
of ocean science and funding needs.
    On June 4, 2003, the Pew Ocean Commission released its report, 
America's Living Oceans: Charting a Course for Sea Change. On September 
20, 2004, the U.S. Commission on Ocean Policy, under its statutory 
mandate in the Oceans Act, delivered An Ocean Blueprint for the 21st 
Century to the President and Congress in ceremonies at the White House 
and Capitol Hill. The net result was the release of two remarkably 
similar reports and over 240 recommendations specific to moving toward 
an ecosystem-based approach to managing our marine resources; 
modernizing our antiquated system of ocean governance; and encouraging 
a much stronger national commitment to enhance our marine science, 
research, and educational efforts.
    As is made clear in the reports of the Pew Oceans Commission, U.S. 
Commission on Ocean Policy, and now the Joint Ocean Commission 
Initiative, our nation must move toward ecosystem-based management, 
balancing the long-term health and sustainability of the ecosystem 
while also supporting economic prosperity. Doing so will require our 
nation's leaders to take action to reform ocean governance, enhance the 
role of science in making management decisions, increase our commitment 
to education and outreach, and adequately fund ocean and coastal 
programs. The following is a summary of the key recommendations 
reflecting the shared conviction of the two Commissions that our nation 
can change its course and achieve a new ocean blueprint for the 21st 
century.
    Governance, guided by the principles of ecosystem-based management:
    <bullet>  Adopt a comprehensive and coordinated national ocean 
policy
    <bullet>  Establish by law a National Ocean Council in the 
Executive Office of the President, chaired by an Assistant to the 
President
    <bullet>  Create a President's Council of Advisors on Ocean Policy
    <bullet>  Strengthen NOAA and improve the structure and 
coordination of all federal ocean agencies
    <bullet>  Develop a flexible process for creating regional ocean 
councils, facilitated and supported by the National Ocean Council
    <bullet>  Create a coordinated management regime for federal waters
    Restoring America's Fisheries:
    <bullet>  Reform fisheries management by enhancing the role of 
science in the decision-making process and strengthening scientific 
cooperation and enforcement.
    <bullet>  Support the establishment of guidelines to facilitate the 
use of dedicated access privileges
    <bullet>  Develop a regime that can support sustainable aquaculture 
practices
    Preserving Our Coasts and Cleaning Our Coastal Waters:
    <bullet>  Strengthen the link between coastal and watershed 
management with an emphasis on increasing incentives, technical 
assistance, and other management tools and policies that address 
nonpoint source pollution and support sustainable coastal development.
    <bullet>  Increase protection for critical coastal habitat and 
preserve marine biodiversity
    <bullet>  Enhance laws to address the growing influx of invasive 
species, including those associated with ship ballast water
    Science and Education
    <bullet>  Develop a comprehensive national ocean science strategy
    <bullet>  Implement a national water quality monitoring network, 
which would contribute significantly to the broader Integrated Ocean 
Observing System
    <bullet>  Increase attention to ocean education through coordinated 
and effective formal and informal programs
    Beyond our Borders:
    <bullet>  Manifest international leadership in global marine 
policies
    <bullet>  Accede to the U.N. Convention on the Law of the Sea
    Increase funding for a new and comprehensive ocean policy:
    <bullet>  Double the nation's investment in ocean research
    <bullet>  Increase base funding for core ocean and coastal programs 
and associated infrastructure at both the state and federal levels.
    <bullet>  Establish an Ocean Policy Trust Fund based on revenue 
from activities in federal waters, including new and emerging offshore 
uses to support state and federal implementation of the two 
Commissions' recommendations.
    A more detailed history of the two Commissions, including summaries 
of their recommendations and responses and implementation efforts by 
the Administration, can be found in the excellent and recently updated 
report by the Congressional Research Service <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Harold F. Upton, John R. Justus, and Eugene H. Buck, Resources, 
Science, and Industry Division, Congressional Research Service, ``Ocean 
Commissions: Ocean Policy Review and Outlook'', updated February 1, 
2007
---------------------------------------------------------------------------
The State of our Oceans
    In asking us to focus on the reports of the two Commissions and the 
Joint Initiative that has followed, it is clear that this subcommittee 
essentially wants to know ``What is the state of our oceans?'' 
Unfortunately, we have to report to you that the state is not good, and 
it is getting worse. There continue to be many problems besetting our 
oceans and coasts, including:
    <bullet>  Enormous human, environmental, and economic impacts 
associated with hurricanes and other increasingly intense coastal 
storms that account for over 70 percent of recent U.S. disaster losses.
    <bullet>  Massive dead zones in the Gulf of Mexico and the 
Chesapeake Bay and, most recently, off the coast of Oregon in each of 
the last five years (which had never happened before in the Pacific 
Northwest as far as we know).
    <bullet>  Continued loss of coastal wetlands despite conservation 
commitments.
    <bullet>  Increasing frequency and size of harmful algal blooms in 
many of our coastal areas, including the Northeast, Hawaii, and 
Florida.
    <bullet>  The continuation of polluted runoff contaminating coastal 
waters, resulting in over 20,000 beach closings and swimming advisories 
annually and reducing the ecological and economic productivity of 
coastal resources.
    <bullet>  Mounting economic and ecological problems due to 
introduction of invasive species.
    <bullet>  Continuing loss of coral reefs and other ecologically 
important underwater habitat.
    <bullet>  Overexploitation of fish stock, although the recent 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act will help strengthen measures aimed at addressing this 
perpetual problem.
    <bullet>  Acidification of the global oceans due to the uptake of 
carbon dioxide, resulting in a change in ocean chemistry and its 
negative impact on species with carbonate-based skeletons susceptible 
to deterioration.
    Moreover, these ocean and coastal problems are confronted by a 
dysfunctional, out-of-date, and inadequate system of governance guiding 
the activities of the ocean community. For example:
    <bullet>  Fragmented laws, confusing and overlapping jurisdictions, 
and the absence of a coherent national ocean policy that hinder our 
management efforts.
    <bullet>  A lack of federal support for emerging regional ocean 
governance efforts that hamper the ability of such initiatives to help 
solve important ocean and coastal problems.
    <bullet>  The absence of a coherent and coordinated management 
regime to guide existing and emerging activities in federal offshore 
waters, such as aquaculture, renewable energy generation, and 
bioprospecting.
    <bullet>  U.S. failure to accede to the U.N. Convention on the Law 
of the Sea, compromising the nation's leadership in international ocean 
and coastal forums and threatening our national economic and security 
interests.
    <bullet>  Dwindling U.S. investment in ocean and coastal research, 
science, and education limiting our ability to tackle such problems as 
global warming, resource depletion, harmful algal blooms, invasive 
species, and nonpoint source water pollution, to name just a few.

The Ocean and Coastal Economy
    The two reports bring into sharp focus the importance of our oceans 
and coasts to our nation's natural heritage, security, and economy. 
With an offshore ocean jurisdiction larger than the total land mass of 
the United States, U.S. waters support rich and diverse systems of 
ocean life, provide a protective buffer, and support important 
commerce, trade, energy, and mineral resources. The economic 
contributions the oceans make are staggering:
    <bullet>  More than $1 trillion, or one-tenth, of the nation's 
annual gross domestic product (GDP) is generated within nearshore 
areas, the relatively narrow strip of land immediately adjacent to the 
coast.
    <bullet>  When considering all coastal watershed counties, the 
contribution swells to over $6.1 trillion, more than half of the 
nation's GDP.
    <bullet>  In 2003, ocean-related economic activity contributed more 
than $119 billion to American prosperity and supported well over 2.2 
million jobs.
    <bullet>  More than 13 million jobs are related to trade 
transported by the network of inland waterways and ports that support 
U.S. waterborne commerce.
    <bullet>  Annually, the nation's ports handle more than $700 
billion in goods, and the cruise industry and its passengers account 
for $11 billion in spending.
    <bullet>  The commercial fishing industry's total value exceeds $28 
billion annually, with the recreational saltwater fishing industry 
valued at around $20 billion, and the annual U.S. retail trade in 
ornamental fish worth another $3 billion.
    <bullet>  Nationwide retail expenditures on recreational boating 
exceeded $30 billion in 2002.
    Of course, these figures capture only a small part of our oceans' 
worth and potential. Consider, for example, that born of the sea are 
clouds that bring life-sustaining water to our fields and aquifers and 
drifting microscopic plants that generate much of the oxygen we 
breathe. The oceans host great biological diversity with vast medical 
potential and are a frontier for exciting exploration and effective 
education. Other ocean assets, such as functioning coastal habitats, 
contribute to the health of our environment and the sustainability of 
commercial and recreational resources. Still others assist in what our 
nation's founders referred to as the ``pursuit of happiness.'' Clearly, 
a new approach to governing our oceans, coasts, and Great Lakes is 
needed to protect and enhance the multitude of benefit they provide to 
the nation.

Recent Progress
    Upon the release of the reports by the two Commissions, the 
President and Congress publicly embraced the major recommendations of 
the U.S. Commission on Ocean Policy and the Pew Oceans Commission. The 
President issued the U.S. Ocean Action Plan and established the 
Committee on Ocean Policy. Congress held hearings on select issues and 
introduced ocean-related legislation. At the state level, several 
Governors demonstrated strong leadership by initiating strategies for 
coordinating ocean and coastal science and policy in regions that 
include the Great Lakes, Northeast, Gulf of Mexico, West Coast, and 
individual states that include California, Washington, Massachusetts, 
New York, Florida, New Jersey, Alaska, and Hawaii. We have just 
returned from a regional ocean governance conference in Monterey, 
California, and were heartened, to say the least, at the diligence, 
efforts, and enthusiasm of the representative of so many organizations 
and coastal state governors in addressing the recommendations for 
regional partnerships advocated by the two Commissions and the Joint 
Initiative.
    However, while the expectations for significant progress toward 
ocean policy reform have been high, results, particularly at the 
federal level, have been slow in coming. There was some dedicated 
attention to ocean and coastal issues by the 109th Congress, and a 
number of bills made significant progress through the legislative 
process (see list below). However, with the exceptions of the 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act and the enactment of the Marine Debris Research, 
Prevention, and Reduction Act (P.L.109-449), which gave NOAA and the 
Coast Guard authority to identify and reduce debris in the marine 
environment, no other ocean bills were enacted. The ocean-related bills 
that made some substantial progress in the last Congress but did not 
reach final passage included:
    <bullet>  Ballast Water Management Act of 2005
    <bullet>  Coastal Estuarine Land Protection Act
    <bullet>  Coastal Zone Enhancement Reauthorization Act
    <bullet>  Coral Reef Conservation Amendments Act
    <bullet>  Flood Insurance Reform and Modernization Act of 2006
    <bullet>  National Ocean Exploration Program Act
    <bullet>  National Oceanic and Atmospheric Administration Act
    <bullet>  Ocean and Coastal Mapping Integration Act
    <bullet>  Ocean and Coastal Observing System Act of 2005
    <bullet>  Tsunami Preparedness Act
    As the Joint Initiative asserted during the last Congress, these 
bills, had they been enacted, would have addressed important issues and 
demonstrated that Congress was serious about restoring the vitality of 
our oceans. Their passage would also have provided some needed near 
term successes while the community continued the essential work of 
achieving the broader comprehensive reforms necessary to reverse the 
decline of our oceans. We remain hopeful that the 110th Congress can 
capitalize on the hard work that has already gone into these bills, and 
we are pleased to see that this Subcommittee has reported out the Coral 
Reef Conservation Amendments Act of 2007 and has plans to move 
aggressively on other ocean-related legislation.

Next Steps
    Looking forward, we are here to report to you that we are in a time 
of unprecedented opportunity. Today, as never before, we recognize the 
links among the land, air, oceans, and human activities. We have access 
to advanced technology and timely information on a wide variety of 
scales. We recognize the detrimental impacts wrought by human 
influences. We can and should act now to ensure that the ocean, coasts, 
and Great Lakes are healthy and productive and that our use of their 
resources is both profitable and sustainable. The next critical step 
will be for Congress to work together to advance comprehensive ocean 
policy reform and funding.
    The opportunities before the 110th Congress are enormous and 
daunting. However, the action by this Subcommittee in holding this 
hearing today and the conversations that we have had with the Chairman 
and Ranking Minority Member of the full Natural Resources Committee, 
along with discussions with members of the House Science Committee and 
the key Senate Committees, give us reason to hope that the work of our 
two commissions--and their legacy of ocean policy reform that is now 
being carried out by the Joint Initiative--will be more fully addressed 
and implemented by this Congress. And the Joint Initiative has crafted 
an agenda that we hope can help guide this effort.

From Sea to Shining Sea
    Almost one year ago, in mid-March of 2006, a bipartisan group of 
ten Senators asked for a report from the Joint Initiative on the ten 
steps Congress should take to address the most pressing challenges and 
funding priorities to establish a more effective and integrated ocean 
policy. Approximately three months later, we issued recommendations for 
immediate attention by Congress. As noted, a copy of From Sea to 
Shining Sea: Priorities for Ocean Policy Reform, is included in its 
entirely with this statement for the record.
    Outlined below are additional legislative proposals, many drawn 
from our report, that we believe provide a solid framework for action 
by Congress. Many of these actions can and should be acted upon in this 
Congress, as soon as possible. Such action will clearly signal progress 
and pave the way for further progress on some of the more challenging 
and long-term measures that will be needed to achieve meaningful ocean 
policy reform.

Governance Reform
    Congress should adopt a statement of national ocean policy, 
acknowledging in legislation the importance of oceans to the nation's 
economic and ecological health and adopting a national policy to 
protect, maintain, and restore marine ecosystems so that they remain 
healthy, resilient, and able to deliver the services people want and 
need. A statement of national ocean policy should include recognition 
that it is the policy of the United States to establish and maintain 
for the benefit of the nation a coordinated, comprehensive, and long-
range national program of ocean and atmospheric research, conservation, 
management, education, monitoring, and assessment. A new declaration of 
national ocean policy should incorporate provisions relating, but not 
limited to, the following concepts:
    <bullet>  Acknowledge the linkages among ocean, land, and 
atmospheric systems
    <bullet>  Protect, maintain, and restore the long-term health, 
productivity, and diversity of the ocean environment
    <bullet>  Ensure responsible management and sustainable use of 
fishery resources and other ocean and coastal resources held in the 
public trust, using ecosystem-based management and a balanced 
precautionary and adaptive approach
    <bullet>  Assure sustainable coastal development based on 
responsible state and community management and planning, including 
protection of life and property against natural and manmade hazards
    <bullet>  Develop improved scientific information and use of the 
best scientific information available to make decisions concerning 
natural, social, and economic processes affecting ocean and atmospheric 
environments
    <bullet>  Facilitate a collaborative approach that encourages the 
participation of diverse stakeholders and the public in ocean and 
atmospheric science and policy
    Congress should establish the National Oceanic and Atmospheric 
Administration (NOAA) in law and work with the Administration to 
identify and act upon opportunities to improve federal agency 
coordination on ocean and coastal issues. Congress should pass a strong 
organic act establishing NOAA as the lead civilian ocean agency and 
restructuring the agency to enhance its ability to fulfill its core 
mission to further our understanding of oceans and coasts and apply 
that knowledge to effectively manage our marine resources on an 
ecosystem basis. Specifically, a NOAA organic act should:
    <bullet>  Establish NOAA as the lead civilian ocean agency by 
statute
    <bullet>  Set forth core missions of: assessment, prediction, and 
operations; ecosystem-based management of ocean and coastal areas and 
resources; and science, research, and education
    <bullet>  Call for reorganization of the agency along functional 
lines to better equip it to carry out its core mission and remain 
science-based, but with its management programs better connected to 
make use of that science in decision making
    <bullet>  Establish leadership roles and accountability mechanisms 
for implementation of major elements of the agency's mission
    NOAA was established in 1970 by a presidential reorganization order 
and has operated under that authority since that time. Over the years, 
several bills have been introduced that could provide the basis for an 
act that would codify NOAA. Before his retirement from Congress, 
Senator Hollings of South Carolina introduced a number of bills. His 
most recent was S. 2647 in the 108th Congress, that would, among other 
provisions, codify NOAA. The Bush Administration has put forward simple 
organic act language, and Congressman Vernon Ehlers of Michigan 
recently reintroduced his National Oceanic and Atmospheric 
Administration Act, H.R. 250, which is identical to the bill that was 
passed in the House last year (H.R. 5450) but was not taken up by the 
Senate. The Ocean Conservation, Conservation, and National Strategy for 
the 21st Century Act (OCEANS 21), introduced by Representative Sam Farr 
of California in this Congress, is a multi-title bill that addresses a 
range of governance issues, including the codification of NOAA, 
borrowing language from Mr. Ehlers' H.R. 250. No matter which vehicle 
Congress chooses, it can and should codify and strengthen NOAA and 
thereby enhance its mission, improve its structure, and better enable 
it to carry out existing and new responsibilities in a manner that is 
consistent with ecosystem-based management.
    Although NOAA plays a very important role and should be 
strengthened to carry out its mission, there are a number of other 
federal agencies with ocean and coastal responsibilities and important 
ocean science and research programs, including the National Science 
Foundation (NSF) and the National Aeronautics and Space Administration 
(NASA). Congress should take action to enhance federal agency 
coordination and leadership by conducting oversight of the 
Administration's implementation of the U.S. Ocean Action Plan. On 
January 26 of this year, the Administration's Committee on Ocean Policy 
released its U.S. Action Plan Implementation Update covering what it 
asserted was progress in six general areas, from ocean leadership and 
coordination to coasts and watersheds and international ocean policy. 
We urge this Subcommittee and others in the House and Senate to conduct 
an oversight hearing on the Update and the Administration's 
implementation of its Ocean Action Plan to identify opportunities to 
strengthen the interagency processes for coordinating ocean and coastal 
issues. Based on the results of the oversight hearing, the Joint 
Initiative recommends that Congress pass legislation that would:
    <bullet>  Codify a permanent federal coordinating committee with 
staff support provided by an Office of Ocean Policy in the Executive 
Office of the President to oversee the federal government's 
implementation of a national ocean policy, resolve interagency 
disputes, and coordinate ocean budgets (or manage the integrated oceans 
budget)
    <bullet>  Call upon the President to appoint an Assistant to the 
President to provide leadership and support for implementation of the 
national ocean policy
    <bullet>  Establish a nonfederal Council of Advisors to provide 
advice on ocean and coastal issues
    Congress should foster ecosystem-based regional governance. 
Congress should pass legislation to create a national framework to 
support regional approaches and collaboration and enable coordinated, 
integrated ecosystem-based management that builds on existing regional 
and ecosystem-based efforts. This framework should guide the 
development and implementation of processes that involve federal, 
state, tribal, and local governments, as well as the private sector, 
nongovernmental organizations, and academic institutions, working 
together toward regional actions that advance national ocean and 
coastal interests. Regional governance mechanisms will vary to meet 
needs of different regions, but should be encouraged to possess the 
following characteristics:
    <bullet>  Regional governance entities that are manageable in size 
(approximately 20-25 representatives) with a mix of federal agency and 
state representatives
    <bullet>  Regional entities that are advised and supported by a 
citizens' advisory committee
    <bullet>  Development of regional ocean strategic plans that:
        <all>  Identify short and long term goals
        <all>  Assess the region's social, economic, and ecological 
        characteristics to guide progress toward those goals
        <all>  Determine priority issues and solutions to address them
        <all>  Identify indicators of management efforts
        <all>  Analyze gaps in authority
        <all>  Identify and prioritize research, data, and information 
        needs
        <all>  Commit to dedicated public education and outreach 
        efforts
        <all>  Implement solutions or policies to address priority 
        problems
    In addition, Congress should improve federal coordination of 
regional activities by calling upon the President to direct federal 
agencies to identify opportunities to further coordinate existing 
programs and activities in order to assist and support more effective 
implementation of regional approaches. Improving coordination among 
federal agency activities at the regional level would be an important 
complement to state, local, and tribal efforts to address ocean and 
coastal resource management issues on a regional basis. Enhanced 
coordination would enable federal agencies to better address state and 
local needs while also furthering national goals and priorities.
    Congress can further enable the transition toward an ecosystem-
based approach by expressly acknowledging that management of marine 
resources should be carried out with an ecosystem-based approach and by 
calling upon federal agencies to develop guidelines that enable 
improved coordination and analysis to assist in the transition toward 
an integrated management approach that considers the entire ecosystem. 
Such an express acknowledgment can and should be part of individual 
ocean, coastal, and related laws currently up for reauthorization. 
These include the Coastal Zone Management Act (CZMA), the National 
Marine Sanctuaries Act, the Clean Water Act, and other statutory 
regimes governing the use and management of ocean and coastal 
resources.
    Through reauthorization or other amendments to specific statutes, 
Congress can, in a sense, collectively provide that management goals 
are set to ensure that ocean and coastal ecosystems remain productive 
with respect to most if not all resources. For example, through 
reauthorization of the CZMA, Congress can require that state coastal 
programs work with federal, state, and local agencies to provide for 
periodic assessments of the state's natural, cultural, and economic 
resources, and, based on those assessments, set specific, measurable 
goals that reflect the growing understanding of ocean and coastal 
environments and the need to manage growth in regions under pressure 
from coastal development. Congress can also direct that states redefine 
the landward reach of their coastal zones to include coastal 
watersheds, thus better enabling coastal programs to look across 
political boundaries and incorporate a coastal watershed focus and the 
basic tenets of ecosystem-based management.
    Statutory acknowledgment of the need to incorporate ecosystem-based 
management into marine resource management regimes is intended be a 
first step toward ecosystem-based management by enabling improved 
coordination and analysis among agencies managing marine resources and 
providing for a transition toward an integrated management approach 
that considers the entire ecosystem.
    The United States should accede to the United Nations Convention on 
the Law of the Sea. Although this is a matter that is not pending 
before the House, the Joint Initiative wanted to highlight one of the 
most serious international ocean policy issues that remain unresolved 
for our nation. The United States Senate should provide its advice and 
consent to U.S. accession to the Convention so that we can once again 
assume a leadership position in international forums deciding such 
vital ocean matters as jurisdictional claims over the continental 
margin and its vast energy resources, deep seabed mining, scientific 
research, environmental protection, and fisheries and habitat 
conservation.
    The Joint Initiative agrees with the President that accession 
supports vital U.S. national security, economic, and international 
leadership interests and that rapid Senate approval is needed. As a 
party, the United States would be in the best position to lead future 
applications of this framework for regional and international 
cooperation in protecting and preserving the marine environment. U.S. 
accession to the Convention would send a clear message in support of 
our efforts to foster international approaches while significantly 
furthering our own national interests. As the lone industrialized 
nation not part of the Convention, we jeopardize our role as a world 
leader by failing to join.
    The Convention has been thoroughly reviewed in Senate hearings and 
public forums, and U.S. accession is supported by a broad coalition of 
ocean interests. The Navy and Coast Guard have testified that joining 
the convention will strengthen our ability to defend freedoms of 
navigation and overflight essential to military mobility and our 
homeland security efforts. All major U.S. industries, including 
offshore energy, maritime transportation and commerce, underwater cable 
communications, and shipbuilding support U.S. accession to the 
Convention because its provisions help protect vital U.S. economic 
interests and provide the certainty and stability crucial for 
investment in global maritime enterprises. Environmental organizations 
strongly support the Convention as well.

Ocean Science and Education
    Growing awareness of the important economic, environmental, and 
aesthetic benefits that our oceans, coasts, and Great Lakes provide to 
our nation has spurred a greater appreciation for the need to improve 
our understanding and conservation of the health and productivity of 
these resources. We now recognize that the processes that drive these 
ecosystems and their interactions with the atmosphere and land are 
complex and interrelated. Given this knowledge, multidisciplinary 
science and education are frontiers that offer great potential for 
significantly advancing our understanding of oceans and coastal 
processes and provide increased opportunities to address cumulative 
impacts that are compromising the economic, ecologic, and social 
benefits they provide. As discussed earlier, major changes are needed 
in the existing ocean governance regime to realize the full potential 
that a more robust ocean research and education programs can offer. The 
Joint Initiative recommends that Congress focus on the following action 
to reform the ocean science and education enterprise.
    Congress should acknowledge the two-way links between Climate 
Change and Oceans. Through their capacity to absorb and transport heat 
and carbon dioxide, oceans are a key driver of climate change 
processes. In addition, they are also undergoing significant short- and 
long-term change over both large and small areas as evidenced by the 
increasing acidification of the oceans, climatic shifts associated with 
El Nino, dramatic changes in the amount of sea ice in the Arctic Ocean, 
rising sea level rise, and concern about possible abrupt climatic and 
ecological changes, particularly associated with shifts in ocean 
circulation.
    Unfortunately, chronic underfunding of ocean-related science has 
prevented us from capitalizing on new technology and innovative ideas 
that would help address huge information gaps and significantly advance 
our understanding of ocean processes. Improved understanding of these 
processes will greatly enhance our ability to predict, mitigate, and 
adapt to the economic and ecological ramifications associated with 
climate change. This information will be essential as Congress balances 
competing demands in the development of new national policies to 
minimize and adapt to climate changes in the coming years and decades.
    Developing coherent strategies for adapting to a changing 
environment will be as important as efforts to address future carbon 
emissions. We strongly suggest that that legislation being developed in 
Congress include provisions that recognize and enhance ocean science, 
management, and education as important elements of a comprehensive 
approach to understanding and addressing climate change.
    The Innovation and Competitiveness Initiative should be expanded to 
incorporate ocean science and education. The innovation and 
competitiveness initiative being driven by the National Academies 
report Rising Above the Gathering Storm has highlighted the importance 
of maintaining strong research and education programs. The ocean 
community can clearly make significant contributions towards these 
goals. Thus, this initiative should be expanded beyond its current 
focus on the physical sciences to incorporate ocean-related sciences 
and education. Our oceans are rich in energy resources, marine 
biotechnology is a rapidly growing industry that is capitalizing on the 
vast biological and genetic diversity of marine life, and advanced 
underwater vehicles are opening up an era of ocean exploration that has 
captured the imagination of a new generation of school-aged children. 
Cutting-edge research using massive oceanic and atmospheric data sets 
and a new focus on promoting multi-disciplinary studies in support of 
ocean science are laying the groundwork for technological advances and 
a sophisticated workforce that will allow our nation to be a leader in 
the global shift toward a service sector that will demand 
environmentally sensitive technologies and policies. The oceans offer a 
new frontier of economic opportunity and are capable of generating 
interest of young scientist from all scientific disciplines. We must 
capitalize on the attractions of the oceans and use it to harness the 
potential of the next generation.
    Congress should use the Administration's Ocean Research Priorities 
Plan to guide its implementation of an expanded ocean science 
enterprise. In January, the Administration released its Ocean Research 
Priorities Plan and Implementation Strategy, as called for in the 
President's U.S. Ocean Action Plan. This strategy, developed with input 
from the ocean community and subject to a comprehensive review by a 
special National Academies review committee, identifies ocean-related 
research and education priorities government-wide and nation-wide. The 
plan, still subject to a final review by the National Academies, 
represents the first ever community-wide identification of ocean 
science priorities. It provides a clear assessment of the challenges 
facing the community as it struggles to integrate across scientific 
disciplines and across the land, sea, and air interface. It identifies 
opportunities and approaches to help us understand and respond to the 
growing ecological and economic implications associated with a changing 
environment.
    The plan also highlights the need to make progress towards 
ecosystem-based management, including the adoption of scientific 
approaches and policy strategies that more clearly address short- and 
long-term harm associated with cumulative impacts. While there has been 
general recognition and agreement that the global environment is 
changing, our lack of understanding of the underlying processes, 
particularly in the oceans, and their interrelationships is limiting 
our capacity to model this change and forecast how the system will 
change in coming years and decades. Thus, support is needed across the 
spectrum of ocean science--basic and applied research, monitoring and 
analysis, and modeling/forecasting--to understand how the system 
operates and how it will change over time, as well as to be able to 
more accurately evaluate the effectiveness of policies intended to 
modify human impact on the system. There are difficult policy choices 
to be made in the coming years, and they must be grounded in good 
science if they are to be accepted by the public and targeted at the 
problems that offer the greatest potential for success.
    Legislation should be enacted to implement the Integrated Ocean 
Observing System and Ocean Observatories Initiative. The ocean and 
coastal community has rallied behind the implementation of an 
Integrated Ocean Observing System (IOOS) and Ocean Observatories 
Initiative (OOI). Together, this combination of research and monitoring 
systems offer scientists and managers a more complete view of 
atmospheric, terrestrial, and oceanic interactions occurring at the 
global, national, and regional scales. IOOS is the ocean-focused 
domestic element of the broader Global Earth Observing System of 
Systems and provides the infrastructure and tools needed to acquire 
data and translate science into products and services needed by 
decision makers. IOOS supports the hardware, software, data management, 
synthesis, and modeling activities that integrate the data and 
information generated by the research community. IOOS also helps ensure 
that applied research efforts are directed toward issues and questions 
that are limiting the capacity of decision makers to make informed 
policy and regulatory decisions. For example, IOOS supports activities 
such as the enhanced water quality monitoring system called for in the 
President's Ocean Action Plan, ecosystem modeling that supports multi-
species management of our ocean fisheries, and forecasting and tracking 
harmful algal blooms. IOOS is also where disparate data sets are 
integrated to detect short- and long-term shifts in the health and 
productivity of key ecosystems and where socioeconomic trends are 
analyzed. This information is then synthesized and translated into 
products that are understandable to decision makers, who then use it to 
guide their decisions. The successful implementation of IOOS requires 
Congress to pass authorizing legislation that will guide the activities 
of federal agencies and the numerous regional, state, and private 
sector partners who are also deeply vested in the system.
    OOI, which can be considered a research arm of IOOS, is an NSF 
initiative that will construct networks of ocean observatories. These 
observatories will be linked to the internet via seafloor cables or 
satellites, allowing scientists to develop knowledge of topical issues 
such as earthquake and tsunami dynamics, fisheries and coastal resource 
management, and natural and human influences on the ocean and climate 
systems. The initiative will fund three major components, including a 
regional observatory, several deep-sea moored buoys, and an expanded 
network of coastal observatories. As these efforts mature, the 
research-focused observatories enabled by the OOI will be networked, 
becoming an integral part of the proposed Integrated and Sustained 
Ocean Observing System. Again, a balanced system of research, 
monitoring and assessment, and modeling and forecasting represents the 
continuum of ocean science that is at the foundation of a new national 
ocean policy.
    Congress should support an enhanced National Ocean Exploration 
Program. A robust exploration program that coordinates, enhances, and 
strengthens activities across federal agencies is a missing link in a 
national strategy to better understand the Earth's environment. 
Exploration focuses on curiosity-driven research of ocean-related 
processes, properties, and places that are poorly known or understood. 
Put into context, more than 1,500 people have climbed to the summit of 
Mount Everest, more than 300 have journeyed into space, and 12 have 
walked on the moon, but only 2 people have descended and returned in a 
single dive to the deepest part of the ocean, spending less than 30 
minutes on the ocean bottom, 95 percent of which remains unexplored.
    The opportunity is ripe to develop a multi-agency exploration 
initiative given the placement of NOAA, NSF, and NASA in the same 
Congressional appropriations subcommittee, augmented by the support and 
guidance provided by the Navy. Such an initiative should work across 
the spectrum of the biological, chemical, and geological sciences and 
be guided by a competitive process coordinated by NOAA and NSF with 
strong guidance from the research community. It should ensure that 
resulting technological and scientific advances, like other basic 
research programs, will generate returns far in excess of their costs.
    The discovery of new ecosystems and species has the potential for 
accelerating our understanding of the origin of life and evolutionary 
processes on Earth and possibly on other planets as well. An expanded 
national ocean exploration initiative will allow Congress and the 
Administration to create a legacy that will be recognized by future 
generations as a turning point in the development of a national ocean 
policy.
    Congress should establish an Ecosystem Research Initiative.  Such 
an initiative in needed to foster scientific cooperation and 
integration by rewarding interagency and multidisciplinary research 
that addresses ecosystem questions. Decision makers need information 
that will help them manage human activities and natural resources in a 
manner that provides the greatest benefit to the nation. While there is 
broad agreement among scientists and natural resource managers that the 
United States must transition toward ecosystem-based management, there 
is considerable confusion about what this process entails. Will 
specific ecosystem concerns, such as the fate or habitat needs of an 
endangered species, or a regime-wide phenomenon, such as climate 
change, take precedent over human priorities? Are we headed toward 
dramatic ecological regime shifts induced by human activities, or are 
these changes being driven by natural processes?
    These are legitimate questions that require the government to 
develop a more coherent and broad-based research program. Such a 
program must be based on multidisciplinary approaches and the 
cooperation of scientists from differing disciplines within and outside 
the government. An Ecosystem Research Initiative should integrate 
ongoing basic and applied ecosystem research across the spectrum of 
federal agencies currently engaged in such research. The consolidation 
of ecosystem-related research activities under a broad interagency 
cross-cutting initiative--perhaps modeled on the Climate Change 
Research Program--is key to delivering usable information to managers 
and policy makers. For the initiative to be successful, it must be 
granted an appropriate level of discretionary funding authority to 
direct existing and new resources toward high priority research areas 
through a competitive process.

Education
    Congress should support a National Ocean Education Strategy. 
Congress should mandate the development of a national ocean education 
and outreach strategy that coalesces and integrates the existing array 
of independently conceived and implemented education and outreach 
programs and activities. There are growing numbers of ocean-related 
education and outreach activities occurring at all levels of government 
and within the nongovernmental sector.
    The lack of a coherent strategy for aligning these activities is 
compromising their effectiveness and limiting their capacity to 
generate additional funding support. Congress should work with the 
President to establish a governing body responsible for developing a 
national ocean education and outreach strategy. The strategy should 
enhance educational achievement in the natural and social sciences, 
increase ocean awareness, include a five-year plan for formal and 
informal activities, and facilitate links among federal, state, local, 
and nongovernmental programs. NOAA and NSF should be given the lead for 
this activity, and Congress should look for opportunities to increase 
support for successful programs within these and other agencies, such 
as the NSF Centers for Ocean Science Education Excellence.

Funding
    Establish an Ocean Trust Fund in the U.S. Treasury. Both 
Commissions addressed the need for stable funding for implementing 
their recommendations, making the case that our oceans, coasts, and 
Great Lakes are major contributors to the U.S. economy, with half the 
nation's GDP generated in coastal watersheds. Maintaining the economic 
and ecological viability of our oceans and coasts requires decision 
makers at the national and state governmental levels to have access to 
unbiased, credible, and up-to-date information to make informed 
decisions. Unfortunately, chronic under-investment has left much of our 
ocean-related infrastructure in woefully poor condition. In addition, 
federal and state ocean and coastal agencies need more financial 
resources to meet the challenges that were so clearly documented in the 
reports of the two Commissions.
    Given this acknowledged under-investment, each Commission was well 
aware of the budget implications inherent in its set of 
recommendations. Implementation costs outlined in the two reports 
arrived at similar projections--it will cost approximately $3.4 billion 
in new funds annually to meet the needs of a comprehensive ocean 
policy, a modest sum given the criticality of our oceans and Great 
Lakes and their resources. A portion of those funds should be allocated 
to all coastal states to help sustain their renewable coastal 
resources. The other portion should be used to support the programs and 
activities of the various federal agencies with ocean and coastal 
responsibilities. To address these needs and to demonstrate a national 
commitment to a new national ocean policy, each Commission recommended 
that an Ocean Trust Fund, composed of dedicated resources, be 
established in the U.S. Treasury.
    The 109th Congress missed a number of opportunities to dedicate a 
portion of federal revenues derived from offshore activities to 
establish a trust fund. The Joint Initiative has noted that the 110th 
Congress is considering certain modifications to the offshore oil and 
gas royalties program that could result in additional revenues being 
made available to the federal government and provide an opportunity for 
this new Congress to dedicate a modest portion of those revenues to 
establish an Ocean Trust Fund. The Joint Initiative stands ready to 
engage the 110th Congress in an ongoing discussion about the sources 
and uses of such a fund. In the end, establishing a dedicated Ocean 
Trust Fund is one of the most important early steps Congress could take 
to demonstrate its commitment to a new national ocean policy.
    Congress should increase base funding for core ocean and coastal 
programs. The loss of funding for some key ocean and coastal programs 
in FY 2006 and FY 2007 and the lack of enhanced funding to address 
high-priority challenges identified in the Commissions' reports must be 
reversed if we are to preserve the economic benefits derived from 
ocean-dependent activities and protect the health and productivity of 
ocean and coastal ecosystems. Congress should increase funding for 
ocean and coastal activities throughout the federal government in FY 
2008 and beyond, with an initial focus on enhancing core base programs 
and support for a few broad initiatives. To this end, the Joint 
Initiative would like to convey our deep appreciation for the support 
provided for ocean-related programs in the Committee on Natural 
Resources' Views and Estimates letter submitted to the Budget Committee 
at the beginning of this month. In particular, we are heartened by the 
Committee's specific support for the funding numbers recommended by the 
Joint Initiative and for the direct reference to the Joint Initiative 
and its efforts on behalf of a new, comprehensive, and coordinated 
ocean policy. In particular, we remain hopeful that the House can 
overcome the growing difficulties it has experience in recent years 
regarding funding for the National Oceanic and Atmospheric 
Administration. Recent funding levels for the agency have been well 
below the President's request and even further below the annual enacted 
level of funding appropriated to the agency. While NOAA is one of many 
federal agencies that support ocean and coastal activities, its role as 
the nation's lead ocean agency merits greater support for the multitude 
of science, management, and education programs it carries out.
    Further, Congress should direct that the Administration develop an 
integrated ocean budget. The lack of a coherent listing and analysis of 
ocean and coastal programs distributed throughout the federal 
government hampers the ability of Congress and the Administration to 
evaluate, coordinate, and integrate ocean- and coastal-related science, 
management, and education programs within agencies across the federal 
government. To address this problem, either as separate legislation or 
as part of an appropriations bill, Congress should direct the President 
to submit an integrated ocean budget, making it easier to track support 
for and analyze the progress of departmentally isolated but highly 
interactive ocean and coastal programs, and thus facilitating greater 
coordination among federal programs. This recommendation was first made 
in a letter to the head of the Office of Management and Budget by the 
Chairman and Ranking members of the Senate Appropriations and Budget 
Committees in 2005, in which they strongly urged the establishment of 
an ocean funding baseline to monitor progress towards fulfilling 
financial objectives. To date no such effort has been undertaken to our 
knowledge.

Conclusion
    We close by commending the Committee on Natural Resources and this 
Subcommittee and its staff for your bipartisan commitment to making 
meaningful change in the way we manage our oceans and coasts. The time 
is ripe and the time is now for Congress to act boldly to transform a 
dysfunctional federal management regime into a truly effective and 
farsighted system for managing our magnificent oceans and coasts to 
benefit current and future generations.
    If there was any uncertainty about the need to take bold action, we 
would turn your attention to the U.S. Ocean Policy Reports Card that 
the JOCI issued in early in 2006 and, again, at the beginning of this 
year. Copies of both report cards are included as attachments to this 
testimony. Essentially, for 2005 and 2006, we assessed the nation's 
progress in implementing the recommendations of the two commissions in 
six categories:

[GRAPHIC] [TIFF OMITTED] T4377.001

    Although there has been some very modest improvement in most of the 
categories, the record in moving toward a vigorous implementation of a 
new comprehensive and coordinated national ocean policy as recommended 
by the commissions is, at best, uneven and far too slow and cautious 
given the state of our oceans. As we pointed out above, the most 
notable progress is being made in our coastal regions and states. 
Nevertheless, notwithstanding the importance of these local 
initiatives, they cannot be sustained without the support and 
assistance of the national government. Further, in the report card that 
we issued at the end of January 2007, we particularly emphasized the 
need to dramatically improve our understanding of the relationship 
between our oceans and climate change, an area of marine science 
neglected for far too long.
    New ecosystem-based management policies; the modernization of ocean 
governance structures, and a renewed commitment to science, education, 
and research; are all built on more robust legislation and higher 
levels of funding. We strongly believe that dedicated levels and 
sources of ocean and coastal funding are critical to meeting the 
responsible and balanced goals set by our two Commissions. The members 
of the Joint Ocean Commission Initiative, in our bipartisan effort to 
catalyze needed ocean policy reform, stand ready to assist the Congress 
in every way possible to meet this formidable challenge.
    Madam Chairman and Members of the Subcommittee, we appreciate the 
opportunity to appear before you today, look forward to working with 
you on addressing the ocean and coastal issues that we have raised in 
this hearing, and would be happy to answer any questions that you may 
have.
                                 ______
                                 
    Ms. Bordallo. I wish to thank former Congressman Panetta 
and the very distinguished witness, Admiral Watkins, for their 
very informative discussion here today. And it looks as if we 
have a very ambitious agenda ahead of us. Thank you very much.
    And now the Chair wishes to recognize Ms. Glackin. She is 
here to testify on behalf of the Administration.

   STATEMENT OF MARY M. GLACKIN, ASSISTANT ADMINISTRATOR FOR 
    PROGRAM PLANNING AND INTEGRATION, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Ms. Glackin. Good morning, Madame Chair and Members of the 
committee. Thank you for the opportunity to testify before you 
today.
    I want to express my gratitude to the Members of this 
committee. Your continued support of NOAA and our programs and 
missions is vital to this country.
    We have heard, eloquently spoken by my colleagues this 
morning, about the commission report and the urgency with which 
we have to address these issues. And in response to the 
commission report, the President established a Cabinet-level 
Committee on Ocean Policy that provides a framework to 
coordinate ocean and coastal-related activities of more than 20 
Federal agencies that administer more than 140 laws.
    The committee conducts its operational work through an 
interagency subcommittee that looks at ocean science, resource 
management, and integration; and they, in turn, have 
subordinate bodies that address management specifically, and 
then ocean science and technology.
    NOAA has a unique position within the Federal government as 
being the only agency that has a co-chair of both of these 
important subcommittees, so we are certainly central to this.
    As part of his response, the President also released the 
U.S. Ocean Action Plan, which identifies immediate short-term 
and longer-term actions that are necessary to more effectively 
manage coastal and ocean resources.
    In the two years since the plan was released, substantial 
progress has been made in completing our commitments, as 
documented in the plan. And we have an Ocean Action Plan 
implementation update that was released in January, and I would 
like to ask that this report be submitted into the record.
    Significantly, 83 percent of the actions in the Ocean 
Action Plans have been met, and the remaining 17 percent are on 
schedule to be completed by their target date. NOAA is the lead 
or co-lead on 45 of these tasks.
    I want to highlight for you this morning just a few of 
NOAA's many notable accomplishments in support of the plan. In 
June, the President designated the Northwest Hawaiian Islands 
as a national marine monument, encompassing nearly 140,000 
square miles. On March 2, First Lady Laura Bush announced the 
new Hawaiian name, Papahanaumokuakea. And I did practice that, 
I have to tell you. For the first time in history, NOAA is 
playing a leading role in managing a national monument.
    Improving the coordination and effectiveness of marine 
fisheries management is also an important part of the Ocean 
Action Plan. Thanks to the hard work and efforts of this 
committee and our friends in Congress, the Magnuson-Stevens 
Fisheries Conservation and Management Act was reauthorized, and 
is now law.
    Two primary goals of the Act, ending over-fishing and 
increasing the use of dedicated access and limited access 
privilege programs, were embodied in the Ocean Action Plan.
    In my role as Co-Chair of the Subcommittee on Integrated 
Management of Ocean Resources and a NOAA employee, one of the 
things I am most proud of is our work with our partners to 
support regional ocean governance, such as the activities with 
the Gulf of Mexico Alliance. In response to regional priorities 
articulated by the states of Alabama, Florida, Louisiana, 
Mississippi, and Texas, this initiative brought together 13 
Federal agencies under the leadership of NOAA and EPA.
    The alliance formally released the Governor's action plan 
for healthy and resilient coasts in March of 2006. The plan 
includes key actions across the alliance's priority areas that 
will result in healthier beaches and shellfish beds, 
restoration and conservation of coastal wetlands, and a 
regional environmental education program.
    Similar regional initiatives exist elsewhere and are 
emerging in other areas like the South Atlantic and other 
coastal regions of the U.S. The Ocean Action Plan also 
identifies the importance of improving our understanding of 
ocean coasts and Great Lakes by seeking greater collaboration, 
coordination, cooperation, and synergies.
    The plan called for the development of a research 
priorities and implementation strategy. This was undertaken and 
recently released in January of 2007. This plan provides 
strategic directions for future research, and it most 
importantly articulates priorities among the competing demands.
    Improved ocean management requires an ocean-literate 
public, as we have heard here this morning. And to this end, 
NOAA is committed to advancing lifelong ocean education. We are 
participating with our Federal partners on the inter-agency 
working group on ocean education to identify opportunities and 
articulate priorities for enhancing ocean education, outreach, 
and capacity building.
    Our formal and informal activities include scholarships and 
fellowship programs, education and research grants, and 
strategic partnerships with education institutions and 
industry.
    While the Administration continues to make significant 
progress in implementing the Ocean Action Plan, Congress has a 
critical role to play, as well. In addition to providing 
funding and oversight, as discussed here today, we are hopeful 
that Congress will pass several key pieces of legislation.
    The passage of the NOAA Organic Act would authorize and 
consolidate into one law NOAA's divergent roles and 
responsibilities that now reside in more than 200 separate 
statutes. The Act should accomplish the full spectrum of NOAA's 
mission, while providing the Agency flexibility in determining 
how to best structure itself to address current and future 
needs.
    The Administration will transmit a proposal for such 
legislation to Congress shortly. We appreciate your interest in 
the bill, and want to work with you to pass this legislation.
    Another important legislative priority is the passage of 
the National Offshore Aquaculture Act. This bill, unveiled by 
Secretary Gutierrez earlier this month, would provide the 
Department of Commerce the authority to regulate aquaculture in 
Federal waters. NOAA looks forward to working with this 
committee to move this legislation forward.
    Also this session, we hope to see the passage of the 
National Marine Sanctuaries Amendments Act, which will update, 
strengthen, and clarify the Sanctuaries Act to allow NOAA to 
improve its mission in this area. We also want to work with you 
on reauthorization of the Coral Reef Conservation Act, to be 
able to promote wise management, conservation, and protection 
of these vital ecosystems.
    Continued implementation of the President's action plan 
remains a priority for the Administration. The Fiscal Year 2008 
budget requests $123 million in increases for NOAA to support 
the plan. This includes $38 million to protect and restore 
marine and coastal areas, including $8 million for enforcement 
and management in the new Northwest Hawaiian Islands monument.
    Also in this request is $25 million to ensure sustainable 
use of ocean resources, including $6.5 million to implement the 
new and expanded requirements of the Magnuson-Stevens Act. This 
includes $16 million for the integrated ocean observing system, 
as mentioned earlier, and support of our new IOOS program. The 
components of this budget request will allow NOAA to further 
the responsible use and stewardship of ocean and coastal 
resources.
    Finally, in closing, I would like to note that in 2007, 
NOAA is proud to be celebrating 200 years of science, service, 
and stewardship to our nation. From the establishment of the 
survey of the coast in 1807 by Thomas Jefferson to the 
formation of the Weather Bureau and the Commission of Fish and 
Fisheries in the 1870s, much of America's scientific heritage 
is rooted in NOAA. We will continue to honor this legacy as we 
follow the roadmap that the Ocean Action Plan has provided to 
us to foster more effective management and conservation of our 
coastal and ocean resources.
    We look forward to continuing to work with you on this 
journey, and we are happy to answer any questions you may have.
    [The prepared statement of Ms. Glackin follows:]

Statement of Mary Glackin, Assistant Administrator for Program Planning 
and Integration, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Good afternoon Chairwoman Bordallo, Congressman Brown, and Members 
of the Committee. I am Mary Glackin, Assistant Administrator for the 
Office of Program Planning and Integration at the National Oceanic and 
Atmospheric Administration (NOAA), in the Department of Commerce. Thank 
you for the opportunity to testify before you today on Ocean Policy 
Priorities in the United States, and NOAA's role in implementing 
components of the U.S. Ocean Action Plan.
    On September 20, 2004, the U.S. Commission on Ocean Policy 
fulfilled its congressional mandate to submit recommendations for a 
coordinated and comprehensive national ocean policy to the President 
and Congress. The Commission's final report, An Ocean Blueprint for the 
21st Century, contains 212 recommendations addressing a broad range of 
ocean and coastal topics. The U.S. Commission on Ocean Policy outlined 
the need for enhancing ocean leadership and coordination, developing 
the institutional capacity to coordinate across jurisdictional 
boundaries, and strengthening the agency structure in phases in order 
to enhance the goal of addressing management needs through an 
ecosystem-based approach.
    In response to the Commission's findings and recommendations, the 
President issued Executive Order 13366, on December 17, 2004, 
establishing a Cabinet-level Committee on Ocean Policy, whose 
membership includes the Secretaries of Commerce, State, Defense, the 
Interior, Agriculture, Health and Human Services, Transportation, 
Energy, and Homeland Security, and the Attorney General. Other members 
of the Committee on Ocean Policy include the Administrator of the 
Environmental Protection Agency, the Director of the Office of 
Management and Budget, the Administrator of the National Aeronautics 
and Space Administration, the Director of National Intelligence, the 
Director of the Office of Science and Technology Policy, the Director 
of the National Science Foundation, and the Chairman, Joint Chiefs of 
Staff; and the Assistants to the President for National Security 
Affairs, Homeland Security, Domestic Policy, Economic Policy, and an 
employee of the Office of the Vice President. The Committee on Ocean 
Policy created a framework to coordinate the ocean and coastal related 
activities of over 20 federal agencies that administer over 140 laws, 
and facilitates coordination and support to the numerous state, tribal, 
and local programs with the overall goal of improved ocean governance. 
At the same time, the President released the U.S. Ocean Action Plan, 
which identifies immediate short-term and long-term actions necessary 
to more effectively manage coastal and ocean resources.
    In the two years since the U.S. Ocean Action Plan was released, the 
federal agencies, together with their state, local, territorial, and 
tribal partners, have made substantial progress in meeting their 
commitments to the actions in the Plan. To identify specific areas of 
progress and opportunities that have led agencies to move beyond the 
Plan, the Committee on Ocean Policy released the U.S. Ocean Action Plan 
Implementation Update in January 2007 (http://ocean.ceq.gov/oap--
update012207.pdf). Given the significant progress the Administration 
has made in completing the commitments of the U.S. Ocean Action Plan 
(83% of the actions have been met, the remaining 17% are on schedule to 
be completed by their target dates), federal agencies are moving 
forward with new activities in these areas to continue to improve our 
management and protection of ocean resources.
    Both the final report of the U.S. Commission on Ocean Policy, and 
the U.S. Ocean Action Plan, recognize that partnerships are vital to 
halting the degradation of our oceans, and to our realizing their full 
potential. Thus, an underlying theme of my testimony today is 
``partnerships are essential for success,'' as NOAA fully supports 
Executive Order 13352, Facilitation of Cooperative Conservation. There 
are many agencies with important ocean and coastal responsibilities 
with which NOAA partners, and we take great pride and place great 
importance in continuing to strengthen our role as the lead civilian 
ocean agency.
    NOAA is at the center of the federal government's understanding, 
awareness, and stewardship of our ocean resources and has been given a 
lead role in carrying through on the U.S. Ocean Action Plan. Because of 
the size and breadth of NOAA's involvement in the implementing 
activities, today I will highlight just a few results from the six 
sections of the U.S. Ocean Action Plan. These will demonstrate how NOAA 
is actively working with federal, state, tribal, and international 
partners, as well as Congress and other stakeholders, to meet our 
nation's challenges with respect to the oceans. I will begin by 
highlighting a few of the legislative priorities that would allow NOAA 
to improve its effectiveness at addressing issues raised by the U.S. 
Commission on Ocean Policy.

          NOAA'S LEGISLATIVE PRIORITIES IN THE 110TH CONGRESS

    NOAA has a number of ocean-oriented legislative priorities in the 
110th Congress. In addition to the priorities listed below, NOAA is 
also working with our interagency partners on Administration bills that 
address hydrographic services, marine mammal protection, and 
cooperative conservation.
Legislative Priority--National Offshore Aquaculture Act of 2007
    On March 12, 2007, Commerce Secretary Carlos Gutierrez unveiled the 
Administration's National Offshore Aquaculture Act of 2007. Enactment 
of this bill will provide the Department of Commerce the authority to 
regulate aquaculture in federal waters and to establish a coordinated 
process among the federal agencies and affected coastal states. We 
envision a one-stop regulatory shop for authorization that is required 
from within the Department of Commerce. NOAA will coordinate the 
regulatory process for the Commerce Department as a part of its 
environmental stewardship responsibilities, working closely with the 
U.S. Environmental Protection Agency (EPA). NOAA looks forward to 
working with this Committee to move legislation forward to allow us to 
begin a public rulemaking process to produce a comprehensive, 
environmentally sound permitting and regulatory program for aquaculture 
in federal waters.

Legislative Priority--NOAA Organic Act
    An ocean leadership priority identified in both the final report of 
the U.S. Commission on Ocean Policy and the U.S. Ocean Action Plan is 
the passage of a NOAA Organic Act. We believe it is necessary to 
consolidate into one authorization NOAA's myriad purposes and 
responsibilities, which now reside in over two hundred separate 
statues. It should encompass the full spectrum of NOAA's 
responsibilities, including programs to protect and restore the 
nation's fisheries, and its responsibilities to provide products that 
foster safe transportation on marine highways. The Administration plans 
to transmit a proposal for such legislation to Congress, and we are 
hopeful that the Members of this Committee will play an integral part 
in its passage. Most importantly, NOAA believes the agency must 
maintain its current flexibility in determining how best to structure 
itself to address current and future needs. In responding to the 
recommendations of the U.S. Commission on Ocean Policy thus far, 
flexibility has proved to be a vital tool for NOAA leadership. An 
organizational structure that serves the nation well today may not be 
the best structure to serve the nation in the future. We believe that 
specific programmatic changes should be made through authorization 
bills that are revisited every few years. We would be happy to work 
with the Committee on such bills.

Legislative Priority--National Marine Sanctuaries Amendments Act
    The National Marine Sanctuaries Act (NMSA) provides for the 
protection of nationally significant areas of the marine environment by 
designating them as national marine sanctuaries. The NMSA is unique 
among the suite of federal laws aimed at protecting or managing marine 
resources in that its primary objective is to set aside marine areas of 
special national significance for their protection and to conserve and 
manage them as ecosystems to maintain their natural biodiversity and 
historical and cultural heritage. Like National Parks and National 
Wildlife Refuges, sanctuaries are intended to endure for the benefit of 
current and future generations. One of our legislative priorities this 
Congress will be a National Marine Sanctuaries Amendments Act, which 
will update, strengthen, and clarify the NMSA to allow NOAA to be more 
effective and efficient in meeting its mandates.

Legislative Priority--Coral Reef Ecosystem Conservation Amendments Act
    The Coral Reef Conservation Act (CRCA) established a national 
program to conduct activities to conserve coral reefs, leading to the 
creation of the NOAA Coral Reef Conservation Program (CRCP). The CRCA 
authorizes NOAA to carry out a number of activities to promote the wise 
management and sustainable use of coral reef ecosystems, to develop 
sound scientific information on the condition of coral reef ecosystems, 
and to assist in the preservation of coral reefs by supporting external 
conservation programs.
    In the six years since its inception, the CRCP has worked to build 
capacity locally within U.S. coral jurisdictions and internationally in 
key areas: to map, monitor, characterize, restore, research, and assess 
the condition of coral reef ecosystems; provide management support; 
understand the threats to healthy coral reef ecosystems; and promote 
public awareness and education on the value of and threats to coral 
reef ecosystems. Another legislative priority for NOAA and our partners 
is the Coral Reef Ecosystem Conservation Amendments Act, which will 
improve the ability of NOAA's Coral Reef Conservation Program to better 
integrate and work more effectively with our partners in the U.S. Coral 
Reef Task Force, including our co-chair the Department of the Interior, 
to provide the most effective and efficient protection of coral reef 
ecosystems.

  U.S. OCEAN ACTION PLAN--ENHANCING OCEAN LEADERSHIP AND COORDINATION

Coordinated Ocean Governance Structure
    The Committee on Ocean Policy conducts its operational work through 
the Interagency Committee on Ocean Science and Resource Management 
Integration (ICOSRMI) and its subordinate bodies, the Subcommittee on 
Integrated Management of Ocean Resources (SIMOR) and the National 
Science and Technology Council's (NSTC) Joint Subcommittee on Ocean 
Science and Technology (JSOST). Within this new coordinated ocean 
governance structure (fig. 1), ICOSRMI is incorporating the mandate and 
functions of the National Oceanographic Partnership Program's National 
Ocean Research Leadership Council into its broader ocean and coastal 
policy mandate, which now includes ocean resource management. The 
purpose of a high-level group like the ICOSRMI is to provide oversight 
to the implementation of the U.S. Ocean Action Plan, and direct further 
actions to advance ocean science and resource management activities. 
The ICOSRMI is comprised of Under/Assistant Secretaries or their 
equivalents from the executive branch agencies and departments of the 
Committee on Ocean Policy, and is co-chaired by the White House's 
Council on Environmental Quality (CEQ) and Office of Science and 
Technology Policy. The White House involvement in this effort has been 
critical to providing the high-level guidance and support necessary to 
focus the group on achievable goals, and to maintain its momentum.
    NOAA has taken a leadership role in both SIMOR and the JSOST, 
serving as co-chair on each respective group and further supporting 
their activities. SIMOR seeks to identify and promote opportunities for 
collaboration and cooperation among agencies on resource management 
issues, and to build partnerships among federal, state, tribal, and 
local authorities, the private sector, international partners, and 
other interested parties.

[GRAPHIC] [TIFF OMITTED] T4377.002


    SIMOR's counterpart in the new coordinated ocean governance 
structure is the JSOST. The principal roles of JSOST are to identify 
national ocean science and technology priorities and to facilitate 
coordination of disciplinary and interdisciplinary ocean research, 
ocean technology and infrastructure development, and national ocean 
observation programs. The JSOST was created through expansion of the 
former NSTC's Joint Subcommittee on Oceans in 2005 to include the 
issues of science and technology. Because of this evolution, the JSOST 
continues to report to the NSTC Committee on Science and the Committee 
on Environment and Natural Resources, in addition to the ICOSRMI.
    ICOSRMI seeks advice from its federal advisory committee, the Ocean 
Research and Resource Advisory Panel, comprised of 18 members from 
academia, as well as the public and private sectors, with interest and 
expertise in ocean science and resource management. ICOSRMI also 
coordinates with the National Security Council's Global Environment 
Policy Coordinating Committee and its Subcommittee on Ocean Policy.

NOAA's Implementation of the U.S. Ocean Action Plan
    The tenets of the U.S. Ocean Action Plan include developing 
management strategies that ensure continued conservation of our ocean, 
coastal, and Great Lakes' resources, while at the same time ensuring 
that the American public enjoys and benefits from them. It also 
includes employing the best science and data to inform decision-making; 
working toward an ecosystem-based approach to management, and, where 
possible, employing economic incentives over mandates.
    CEQ designated NOAA as lead, or co-lead, on 45 items from the U.S. 
Ocean Action Plan. The diverse range of actions undertaken by NOAA to 
date include developing a status report on deep-sea corals in the U.S. 
Exclusive Economic Zone, working jointly with EPA to conduct community 
workshops to improve watershed protection, and improving navigation by 
updating the National Water Level Observation Network. NOAA also 
continues to emphasize the importance of local and regional leadership 
in ocean management, co-leading with EPA the federal working group 
supporting the Gulf of Mexico Alliance, participating in the Great 
Lakes Regional Collaboration, and joining other SIMOR members in 
working with interested states to move forward to new regional 
initiatives such as the Northeast Regional Ocean Council. These 
regional bodies possess the unique ability to focus discussion on areas 
of most need, and provide lasting commitments to the stewardship of 
regional resources by those most affected by them.
    In my view, progress on implementing the U.S. Ocean Action Plan has 
been significant as highlighted below and NOAA will continue to work to 
enhance its partnerships in order to meet present and future 
challenges.

  U.S. OCEAN ACTION PLAN--ADVANCING OUR UNDERSTANDING OF THE OCEANS, 
                        COASTS, AND GREAT LAKES

Ocean Research Priorities Plan
    As outlined in the U.S. Ocean Action Plan, an important role of the 
JSOST within the interagency process is to improve our understanding of 
oceans, coasts, and Great Lakes by seeking enhanced collaboration, 
coordination, cooperation, and synergies. JSOST's recent efforts 
focused on developing an Ocean Research Priorities Plan and an 
Implementation Strategy. This plan provides strategic direction for 
future research and articulates priorities among competing demands for 
scientific information. These documents were prepared in an open and 
transparent manner with advice from the ocean research community 
(government, academic, industry, and other non-government entities), 
including SIMOR and the National Academy of Sciences. A national 
workshop with several hundred participants from academia, as well as 
the public and private sectors, convened in the spring of 2006 to 
solicit input, and a draft version of the documents was available to 
the public for review and comment from September 1-October 20, 2006. 
The plan, entitled Charting the Course for Ocean Science in the United 
States for the Next Decade, was released on January 26, 2007, and is 
now available at http://ocean.ceq.gov/about/sup--jsost--
prioritiesplan.html.
    NOAA has undertaken a number of other activities in partnership 
with external partners or other agencies to enhance our scientific 
knowledge of marine ecosystems. These have included a review of 
ecosystem science, integrating U.S. ocean observations, ocean and 
coastal mapping, coordinating ocean education, and hosting a conference 
on ocean literacy.

Integrating U.S. Ocean Observing Efforts
    The U.S. Ocean Action Plan and the final report of the U.S. 
Commission on Ocean Policy endorse implementation of a sustained 
Integrated Ocean Observing System (IOOS). IOOS is the U.S. component of 
the Global Ocean Observing System, and is the key ocean component of 
the U.S. Integrated Earth Observation System (IEOS) now being 
developed. Both IOOS and IEOS will become part of GEOSS--the Global 
Earth Observation System of Systems. IOOS is envisioned as an 
interagency, end-to-end system designed to meet seven societal goals by 
integrating research, education, and the development of sustained ocean 
observing capabilities. The need to integrate data derives from NOAA's 
core missions. The challenges society faces today (coastal populations 
at risk, compromised ecosystems, climate change, increased maritime 
commerce) threaten jobs, revenue, and human health. Answers to these 
problems require access to better information. Developing IOOS is a top 
priority for NOAA. In December 2006, NOAA reconfirmed its commitment to 
IOOS by establishing an IOOS Program. The IOOS Program advances IOOS 
through improved organization, management, and focus. The new IOOS 
Program has two major functions:
    <bullet>  Project Management: including IOOS budget formulation, 
planning, and programming within NOAA's program structure; and
    <bullet>  Program Operations: includes IOOS office execution, 
outreach, and education.
    The NOAA IOOS Program will not subsume other programs within NOAA, 
but rather coordinate and leverage capabilities found in NOAA in 
building the U.S. IOOS. The initial focus of the IOOS Program is to 
build an initial operating capability for IOOS. This will be 
accomplished by integrating five core IOOS variables (temperature, 
salinity, sea level, surface currents, and ocean color). The 
integration of these variables will be used in four priority NOAA 
models: coastal inundation, hurricane intensity, harmful algal bloom 
forecasts, and integrated ecosystem assessments. These models will be 
tested, evaluated and benchmarked for success in order to show the 
value of integration.
    The IOOS Program will continue to support development of regional 
infrastructure and management to enable a fully configured and scalable 
U.S. IOOS. Ocean.US, the National Office for Integrated and Sustained 
Ocean Observations, has the lead for planning the multi-agency IOOS 
effort. NOAA is heavily involved in this planning, and has been 
designated by the Administration as the lead federal agency for 
administration and implementation of IOOS. Coordination between 
agencies continues to grow with the Interagency Working Group on Ocean 
Observations established under the JSOST and chaired by NOAA with vice 
chairs from the National Aeronautics and Space Administration (NASA), 
the Navy, and the National Science Foundation (NSF).

Ocean and Coastal Mapping Activities
    Improved information on our ocean and coastal areas is essential to 
improved management and advances in ocean and coastal management and 
science. NOAA is working with its interagency partners to advance our 
nation's capabilities in this area, taking advantage of technologies 
such as LIDAR (Light Detection and Ranging) and autonomous underwater 
vehicles. Among its efforts, NOAA is working to ensure the most 
effective use of our fleet of vessels and aircraft by integrating our 
multiple program mapping requirements, developing new techniques for 
data acquisition, working with other agencies, and making seamless the 
use of our mapping missions. We are building a Geographic Information 
System support tool to be able to better plan and integrate mapping 
efforts in order to narrow the gaps between current program mapping 
capability, and a modern fully integrated ocean mapping system. The 
goal is to meet the broadest range of program needs and eliminate 
duplicative efforts in NOAA's ocean and coastal mapping activities. In 
addition, NOAA is working with other agencies to develop an inventory 
of coastal and ocean mapping programs, their existing data, and planned 
acquisitions, along with a web-based system to search and display 
records from the inventory. The FY 2008 Budget Request includes $8 
million for NOAA--in conjunction with our interagency partners--to 
define the outer limits of the U.S. continental shelf (areas beyond 200 
miles from the U.S. coast that meet certain geological criteria). 
Defining those limits will allow the U.S. to confirm its resource 
rights, which contain an estimated $1.2 trillion worth of resources.

Increased Ocean Education Coordination
    Together, SIMOR and the JSOST have formed the joint Interagency 
Working Group on Ocean Education, to identify opportunities and 
articulate priorities for enhancing ocean education, outreach, and 
capacity building. Ocean management is more effective with an ocean 
literate public and to this end NOAA leverages many opportunities to 
advance ocean education in support of its mission goals. Our formal and 
informal activities include scholarship and fellowship programs, 
education and research grants, and strategic partnerships with 
education institutions and industry. In 2006, NOAA's Education Office 
provided scholarship and internship opportunities to over 230 
undergraduate students. NOAA's education investment is also geared 
towards hiring students trained through these scholarship and 
internship opportunities. Through December 31, 2006, NOAA has hired 32 
students trained through its Graduate Sciences Program. Also in 2006, 
33 teachers participated in NOAA's Teacher at Sea Program.
    To raise national attention to the need for ocean literacy, NOAA, 
with EPA, the Department of the Interior (DOI), NSF, NASA, and the 
National Marine Sanctuary Foundation, co-hosted CoOl--the Conference on 
Ocean Literacy--on June 7-8, 2006, in Washington, D.C., as part of the 
presidentially proclaimed National Oceans Week, June 4-10. The 
conference brought together key participants to discuss the essential 
principles of ocean literacy, and the current challenges and 
opportunities for both formal and informal education efforts in 
educating the public to make informed, responsible decisions about the 
ocean and its resources. This partnership event also identified 
priority next steps we can take to advance ocean literacy. The 
conference extended beyond Washington, D.C., through five regional 
workshops hosted by aquariums across the country including: Aquarium of 
the Pacific, Long Beach, CA; John G. Shedd Aquarium, Chicago, IL; J.L. 
Scott Aquarium, Ocean Springs, MS; National Aquarium in Baltimore, 
Baltimore, MD; and National Mississippi River Museum and Aquarium, 
Dubuque, IA. Each site viewed portions of the presentations via 
satellite and discussed regional challenges and opportunities for 
promoting ocean literacy principles.

Implementing the Harmful Algal Bloom and Hypoxia Research Control Act
    Highlighted in the U.S. Ocean Action Plan, the Harmful Algal Bloom 
and Hypoxia Amendments Act of 2004 (HABHRCA) reaffirmed and expanded 
the mandate for NOAA to address harmful algal blooms (HABs) and 
hypoxia. HABs and hypoxia are two of the most scientifically complex 
and economically significant coastal issues facing our nation today. 
NOAA, in collaboration with federal, state, and academic partners, is 
helping coastal managers lessen or prevent the detrimental effects of 
these phenomena on human health and on valuable coastal resources. 
HABHRCA supported research was critical in helping coastal communities 
in the Gulf of Maine and Florida mitigate the damage of historic blooms 
in 2006 and ongoing research promises major advancements in other 
regions such as the Pacific Northwest and Great Lakes. HABHRCA research 
activities are also providing the foundation for NOAA's efforts to 
develop an operational HAB forecast system around the U.S. coast.

 U.S. OCEAN ACTION PLAN--ENHANCING THE USE AND CONSERVATION OF OCEAN, 
                   COASTAL, AND GREAT LAKES RESOURCES

SIMOR Work Plan
    Established as part of the Committee on Ocean Policy, SIMOR 
provides a strong mechanism to coordinate federal activities and 
respond to regional concerns, and is jointly co-chaired by NOAA, EPA, 
DOI, and CEQ. It has fostered mutual interest and proactive dialog 
among agencies in addressing difficult resource management issues that 
cross jurisdictional boundaries. SIMOR has developed a Work Plan with 
21 actions in four priority areas that build on the U.S. Ocean Action 
Plan. NOAA has a leadership role in 12 of these actions and 
participates in nearly all of the others. Examples of the benefits of 
SIMOR activities include: improved understanding of an ecosystem 
approach to management through regional workshops; development of 
educational standards for resource managers; coordinated federal 
support to new and ongoing regional partnerships; formation of a 
federal/state team of resource managers to provide timely input into 
the JSOST's development of the Ocean Research Priorities Plan.

Implementing Coral Reef Local Action Strategies
    The federal agencies, freely associated states, and seven 
jurisdictions (Florida, Hawaii, Guam, American Samoa, Puerto Rico, the 
U.S. Virgin Islands, and the Commonwealth of the Northern Marianas 
Islands) that comprise the U.S. Coral Reef Task Force have developed 
and begun implementing Coral Reef Local Action Strategies to address 
key threats to coral reefs in their respective jurisdictions. The 
Strategies provide a framework for Task Force member agencies to 
identify, and collaboratively address, these threats and additional 
local needs, connect local priorities to national goals, and coordinate 
federal agency actions with local management of reef resources. This 
effort is a significant step forward in advancing the goal of 
cooperative conservation between the federal, state, territorial, and 
commonwealth governments. NOAA, DOI, EPA, and the Department of 
Agriculture have been key partners in implementing the action strategy 
effort and building local capacity for coral reef conservation and 
management. For example, agencies organized a successful Caribbean 
Coral Reef Grants and Funding Opportunities Workshop in August 2005 to 
help island jurisdictions and local partners identify and pursue 
funding opportunities for local action strategy support. Additional 
Coral Reef Grants Funding Workshops were held in June and July of 2006 
in Hawaii, Guam, and the Commonwealth of the Northern Mariana Islands. 
A final workshop is being planned for American Samoa in August or 
September 2007.

Implementing the Magnuson-Stevens Fishery Conservation and Management 
        Act
    A bill reauthorizing the Magnuson-Stevens Act (MSA) was signed by 
the President on January 12, 2007. The MSA strengthens a number of key 
fisheries management provisions. Two primary goals of the MSA--ending 
overfishing and increasing the use of dedicated access and limited 
access privilege programs--are hallmark positions of the Administration 
and were embodied in the President's U.S. Ocean Action Plan and 
elsewhere. The MSA includes several hundred specific tasks and meets a 
number of Administration commitments in the U.S. Ocean Action Plan. The 
National Marine Fisheries Service is currently finalizing a detailed 
tracking and implementation plan for the new MSA. Implementation teams 
will be developed to address specific provisions or related sets of 
requirements. Successful implementation will require extensive 
interaction with our constituents and interagency partners.

Designation of the Papahanaumokuakea Marine National Monument
    Recognizing the continuing need for resource protection, President 
Bush designated the Northwestern Hawaiian Islands as a marine national 
monument on June 15, 2006. Encompassing nearly 140,000 square miles, 
this monument is more than 100 times larger than Yosemite National 
Park, larger than 46 of our 50 states, and more than seven times larger 
than all our national marine sanctuaries combined. The designation 
builds upon the public sanctuary designation process, the State of 
Hawaii's Marine Refuge, and the National Wildlife Refuge System's 98-
year presence here to provide lasting protection to this important 
resource. The creation of the largest fully-protected marine 
conservation area in the world is an exciting achievement and 
recognizes the value of marine resources to our nation.
    On March 2, 2007, First Lady Laura Bush joined Hawaii Governor 
Linda Lingle, U.S. Department of the Interior Secretary Dirk 
Kempthorne, U.S. Department of Commerce Deputy Secretary David Sampson, 
and James Connaughton, Chair of the White House Council on 
Environmental Quality in announcing the new Hawaiian name for the 
Northwestern Hawaiian Islands Marine National Monument. The name is 
Papahanaumokuakea, which refers to Hawaiian genealogy and the formation 
of the Hawaiian archipelago.
    For the first time in its history, NOAA is a partner in managing a 
national monument. This is an exciting opportunity and one that will 
present many challenges. Thankfully, we have great partners in DOI and 
the State of Hawaii to help us co-manage this unique area.
    I think President Bush said it best: ``You know, in America, 
there's a great consensus that we have an obligation to be good 
stewards of the environment. Success of a generation is not defined by 
wealth alone. We also will be measured by the respect we give to the 
precious creatures of our natural world. We have great choices before 
us in this country. And with the designation of the Northwestern 
Hawaiian Island Marine National Monument, we are making a choice that 
will leave a precious legacy.''

Coordinating and Integrating the Existing Network of Marine Managed 
        Areas
    Two national initiatives are currently working to enhance 
coordination among existing marine protected areas (MPAs) programs in 
the U.S. in order to improve their efficiency and effectiveness in 
protecting the nation's natural and cultural marine resources. These 
two efforts are the development of the national system of MPAs, led by 
NOAA's MPA Center, and the creation of a ``Seamless Network'' among 
three federal and one federal/state partnership MPA programs. While 
each initiative has its own distinct goals, the efforts complement one 
another and we are working together to ensure coordination.
    The U.S. Ocean Action Plan calls on National Parks, National 
Wildlife Refuges, National Marine Sanctuaries, and National Estuarine 
Research Reserves to promote coordination of research, public 
education, and management activities at neighboring parks, refuges, 
sanctuaries, and estuarine reserves. Many of these sites overlap or lie 
adjacent to each other, and have a history of collaboration that 
provides a model for this expanded network. Although these sites were 
created under separate agency authorities and statutory mandates, they 
are united by their proximity and similar science and management 
priorities. These actions to coordinate and better integrate are 
referred to as the ``Seamless Network'' initiative. Two federal 
interagency agreements will help implement this effort. The first is a 
general agreement signed in August 2006 that enables site-based, 
regional, and national collaborations among the partner agencies, and 
is currently being implemented. The second is a separate cooperative 
law enforcement agreement signed in August 2005 between the National 
Wildlife Refuge System, National Park Service, National Marine 
Sanctuary Program and National Marine Fisheries Service.
    As an example of the ``Seamless Network'' initiative, a partnership 
among DOI, the State of Florida, and NOAA's Florida Keys National 
Marine Sanctuary focuses on the management of the Dry Tortugas in the 
Florida Keys, and creating a unique management plan that balances 
conservation, research and recreational use. The Dry Tortugas National 
Park has established a no-take marine reserve in the park, while 
leaving more than half the park open to recreational fishing. The 
reserve, called a Research Natural Area, is 46 nm2 set aside to protect 
a pristine area, provide a sanctuary for species that have been 
affected by harvest or habitat degradation, and foster scientific 
research. The reserve will also offer outstanding opportunities for 
non-consumptive recreation and education.

      U.S. OCEAN ACTION PLAN--MANAGING COASTS AND THEIR WATERSHEDS

Gulf of Mexico Alliance
    One example of SIMOR's role in enhancing coordination on managing 
coasts and watersheds is providing an integrated federal response to 
support the state-led Gulf of Mexico Alliance, a regional partnership 
of the states of Alabama, Florida, Louisiana, Mississippi, and Texas. 
The Alliance formally released the Governors' Action Plan for Healthy 
and Resilient Coasts at the Gulf of Mexico Summit in March 2006, which 
includes 11 key actions--detailed by 73 specific steps--across the 
Alliance's five priority issues: water quality, restoration, 
environmental education, habitat identification for management 
purposes, and reductions in nutrient loadings. In order to capture 
local community input during the development of the Governors' Action 
Plan, the Gulf Alliance hosted a series of eight Community Workshops 
across the five Gulf States from June 2005 to February 2006. SIMOR 
brought together 13 federal agencies, led by NOAA and EPA, to respond 
to regional priorities articulated by the states in the Governors' 
Action Plan. Collaborating state and federal agencies have already 
produced several tangible outcomes as called for in the Governors' 
Action Plan, and have committed to continue working together on these 
regional priorities. Some of the expected outcomes from this effort are 
healthier beaches and shellfish beds; restoration and conservation of 
Gulf coastal wetlands; and a regional environmental education campaign.
Cooperative Conservation Executive Order
    The Administration remains committed to the tenets of Cooperative 
Conservation, as outlined in the Executive Order from 2004. In 2005, at 
the White House Conference on Cooperative Conservation, NOAA announced 
a new grants program to aid communities in removing small obstructions 
to their rivers. The goal of the Open Rivers Initiative (ORI) is to not 
only improve habitat for diadromous fish populations, but also foster 
new economic development opportunities. In addition to ORI, NOAA will 
continue to find new and innovative ways to advance Cooperative 
Conservation throughout the agency.
    On June 26, 2006, the White House hosted top Administration 
officials, including Undersecretary of Commerce for Oceans and 
Atmosphere and NOAA Administrator Conrad Lautenbacher, and conservation 
leaders to discuss concepts for proposed cooperative conservation 
legislation. The meeting brought the cabinet members together with 
approximately 50 representatives of organizations that attended the 
2005 White House Conference on Cooperative Conservation in St. Louis, 
Missouri. Participants included conservationists, public land users, 
ranchers, farmers and <plus-minus>others.
        u.s. ocean action plan--supporting marine transportation
Interagency Committee on the Marine Transportation System
    Consistent with the final report of the U.S. Commission on Ocean 
Policy, the U.S. Ocean Action Plan called for strengthening the 
previous federal interagency marine transportation effort--the 
Interagency Committee on the Marine Transportation System--and directed 
the creation of a Cabinet-level interagency committee on marine 
transportation. As a result the Committee on the Marine Transportation 
System (CMTS), chaired by the Secretary of Transportation with 
membership from 14 other federal agencies, was established in April 
2005. I am proud to say that the Department of Commerce, with strong 
representation by NOAA, is a charter member of the CMTS, and actively 
supports its mission. NOAA currently chairs the Coordinating Board, 
which is the chief policy advisory board to the CMTS. The purpose of 
the CMTS is to promote a partnership of federal agencies with 
responsibility for the Marine Transportation System (MTS)--waterways, 
ports, and their intermodal connections--to ensure the development and 
implementation of national MTS policies, and to communicate to the 
President its views and recommendations for improving the MTS.
    The CMTS is executing a work plan that will provide a comprehensive 
assessment of the MTS; development of an MTS national strategy; 
improved collection and management of MTS data; and development of a 
decision making matrix for improved coordination and response to 
natural disasters affecting the nation's MTS.

   U.S. OCEAN ACTION PLAN--ADVANCING INTERNATIONAL OCEAN POLICY AND 
                                SCIENCE

Advancing the Use of Large Marine Ecosystems
    The U.S. Ocean Action Plan included a chapter on implementing 
international efforts. Several of the action items in the U.S. Ocean 
Action Plan include international components. However, as many of 
today's challenges to our oceans and coasts are transboundary and 
international in nature and scope, the U.S. Ocean Action Plan also 
includes a section that addresses the advancement of international 
ocean policy and science. One example of these efforts is a recent 
partnership that has been developed to link the United Nations 
Environment Programme Regional Seas Programme and the use of the NOAA-
originated concept of Large Marine Ecosystems (LMEs). This partnership 
facilitates the management of an ecosystem that crosses national 
boundaries. This effort has attracted funding from the Global 
Environmental Facility and various donor countries, specifically 
focusing on capacity building in the developing world. NOAA has 
contributed in-kind technical expertise to assist the planning and 
implementation of the related programs.

Protecting Vulnerable Marine Ecosystems from Destructive Fishing 
        Practices
    The United States has taken significant steps to protect vulnerable 
marine ecosystems (VMEs), including seamounts, hydrothermal vents, and 
cold-water corals, from destructive fishing practices within our 
domestic waters. For example, in July 2006, NOAA established the 
Aleutian Islands Habitat Conservation Area, more than 950,000 km2 in 
size, protecting deep corals, sponges and other sensitive features that 
are slow to recover from disturbance. The United States is a leader in 
promoting the need for similar conservation and management measures 
internationally, through various for a including the United Nations 
(UN) and the Food and Agriculture Organization (FAO). In October 2006, 
President Bush issued a memorandum to Secretary of State Rice and 
Secretary of Commerce Gutierrez, which promoted the sustainable 
management of global fisheries resources and called for an end to 
destructive fishing practices on the high seas. The U.S. delegation to 
the 2006 UN General Assembly fisheries resolution negotiations promoted 
the position as outlined in the Presidential Memo, specifically urging 
nations to prohibit their vessels from engaging in destructive fishing 
practices on the high seas until applicable conservation and management 
measures, or a Regional Fisheries management Organization (RFMO), are 
in place. The ultimate consensus-based language of the resolution 
includes management provisions for not RFMOs and States to prevent 
bottom fishing from causing harm to VMEs and calls upon the FAO for 
further management guidance. At the recent session of the FAO Committee 
on Fisheries, held March 5-9, 2007 in Rome, Italy, a major topic of 
discussion was the role of the FAO in implementing the UN General 
Assembly resolution. Among the requests made of FAO, a priority for the 
U.S. was the development of standards and criteria for use by States 
and RFMOs in identifying VMEs and the impacts of fishing on such 
ecosystems. As a result, the FAO plans to develop technical guidelines 
for the management of deep sea fisheries on the high seas by early 
2008.

                         2008 BUDGET PRIORITIES

    The President's Budget for FY 2008 includes a $143 million for 
NOAA, DOI, and NSF to support the U.S. Ocean Action Plan, and to build 
on the successes in implementing the Plan thus far. Of the $143 million 
total, $123 million in increases is requested for NOAA oceans programs. 
NOAA's portion of this initiative includes $38 million to protect and 
restore marine and coastal areas, including $8 million for enforcement 
and management activities in the Papahanaumokuakea Marine National 
Monument. Also in this request is $25 million to ensure sustainable use 
of ocean resources, including $6.5 million to implement the new and 
expanded requirements of the Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act. Lastly, this oceans initiative 
dedicates $60 million to advance ocean science and research, which 
includes $16 million for IOOS. The components of the request will allow 
NOAA to further the responsible use and stewardship of ocean and 
coastal resources as identified in the U.S. Ocean Action Plan.
    The overall FY 2008 President's Budget for NOAA supports NOAA's 
priority to advance mission-critical services and is $3.815 billion, 
which represents a $131 million or 3.4% increase over the FY 2007 
request.
    NOAA and its partner agencies appreciate your continued support for 
our programs as we execute our responsibilities under the U.S. Ocean 
Action Plan and work together to improve our products and services for 
the American people. These resources are vital to meeting the 
challenges facing our nation's oceans.
Conclusion
    In conclusion, I would like to reiterate the importance of the 
efforts of the U.S. Commission on Ocean Policy, and stress that NOAA is 
strongly committed to continued implementation of the related 
recommendations of the U.S. Ocean Action Plan. NOAA will continue to 
work with its partners in a collaborative and systematic fashion, as we 
believe collaboration is critical to make our ocean, coasts, and Great 
Lakes cleaner, healthier and more productive. We look forward to 
continuing to work with the Members of the Committee in raising the bar 
for the long-term conservation and management of our coastal and ocean 
resources.
    Thank you again for your time and I am happy to answer any 
questions that the Members of the Committee may have.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mrs. Glackin. And again, 
thank you all for your testimony.
    The Ranking Member of this Subcommittee, Mr. Brown, the 
gentleman from South Carolina, has just arrived, so I am asking 
him if he has any opening statements to make.
    Mr. Brown. Thank you, Madame Chairman. And I certainly 
would like to apologize to the presenters for my lack of being 
here, but I was called away on a very special meeting. And so I 
apologize for being late.
    But Madame Chairman, thank you very much for allowing all 
three members of the panel to make their presentation at one 
time. I think that will expedite things, particularly since we 
have a vote coming up pretty shortly, that instead of I guess 
delivering my opening statement, I would like to just submit it 
for the record.
    Ms. Bordallo. Without objection.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., Ranking Republican 
         Member, Subcommittee on Fisheries, Wildlife and Oceans

    Madam Chairwoman, I would like to compliment you for inviting 
Admiral James Walkins and former California Congressman Leon Panetta to 
give us their prospective on how the Congress should implement an ocean 
policy for this nation.
    As the representative of the 1st Congressional District in South 
Carolina, I have long recognized the vital importance of the Atlantic 
Ocean and its tremendous impact on my constituents. As a lifelong 
resident of Charleston, which we affectionately call the Holy City, I 
appreciate the fact that coastal communities provide over 27 million 
jobs nation-wide, 14 million Americans visit South Carolina beaches 
each year and $740 billion dollars is directly related to waterborne 
commerce nation-wide. Charleston is one of the nation's top container 
seaports in North America and we provide some of the finest seafood in 
the world that is enjoyed by millions of Americans.
    While this is our second ocean-related hearing this year, this is 
not the beginning of the story. In fact, during the last Congress, this 
Subcommittee conducted more than a dozen hearings on various chapters 
contained within the ``Ocean Blueprint for the 21st Century''. More 
importantly, the 109th Congress enacted a number of significant ocean 
related bills.
    At the top of that list was the comprehensive reauthorization and 
modernization of the Magnuson-Stevens Fishery Conservation and 
Management Act. This was the first time in a decade that this 
preeminent conservation law was extended.
    In addition, the President signed into law the Marine Debris, 
Research, Prevention and Reduction Act, the Tsunami Warning and 
Education Act, the implementing legislation for the U.S.-Russia Polar 
Bear Treaty, the International Monitoring and Compliance Act to end 
illegal, unreported and unregulated international fishing and nearly a 
dozen reauthorizations of important fishery statutes including the 
Atlantic Striped Bass Conservation Act.
    While this may not represent every recommendation contained within 
the Blueprint, this was a remarkable effort and it occurred in one-
third less time than the Commission used to finalize their 
recommendations.
    Let me also state for the record that the recommendations of the 
U.S. Commission on Ocean Policy were just that: recommendations. For 
some reason, these have become mandates on Congress and the President. 
While I don't want to belittle the Commission's work, I want to remind 
my colleagues that these are recommendations for us to deliberate and 
debate. We should not blindly accept everything that has been 
recommended without a thorough discussion.
    Many here will use the Stratton Commission as the example to be 
held aloft and revered. For all of the good things that came out of 
that Commission, were all of the recommendations followed?
    The Commission also noted that the structure and overlapping 
jurisdictions for Congressional Committees and the Federal agencies 
make it difficult to implement new oceans policy or to make meaningful 
changes to existing policies. The wheels of government grind slowly.
    Finally the costs of the recommendations are not trivial--close to 
$4 billion per year. While the Commission recommends using oil and gas 
revenues derived from the outer continental shelf, I believe these 
revenues are already funding other Federal programs. To move these 
funds to new uses would require an offset--an offset of up to $4 
billion per year. This alone may be the biggest hurdle to implementing 
many of the Commission's recommendations.
    In terms of today's hearing, I am disappointed that the head of the 
President's Council on Environmental Quality, James Connaughton, who is 
also the Chair of the Committee on Ocean Policy, was unable to attend 
this hearing. This hearing is a perfect platform for the Administration 
to outline how they have used the Commission's recommendations to 
develop ocean policies and forge greater coordination between Federal 
agencies at the highest levels within the Administration.
    Nevertheless, I am pleased that Ms. Mary Glackin is here today to 
testify for the National Oceanic and Atmospheric Administration. We all 
are aware of NOAA's commitment to the oceans. I look forward to hearing 
from our three witnesses today. Thank you, Madam Chairwoman.
                                 ______
                                 
    Mr. Brown. And also, Congressman Don Young would like also 
to submit an opening statement, too. So if I could just have 
unanimous consent to submit it.
    Ms. Bordallo. Without objection.
    [The prepared statement of Mr. Young follows:]

 Statement of The Honorable Don Young, Ranking Full Committee Member, 
             Subcommittee on Fisheries, Wildlife and Oceans

    Madam Chairwoman, thank you for holding today's hearing on ocean 
policy priorities in the United States. It is a timely hearing which 
will allow us to highlight how Congress has responded to the U.S. 
Commission on Ocean Policy report.
    As the representative for All of Alaska, I am a huge supporter of 
the oceans. Many, if not all, of my constituents rely on the oceans for 
some part of their needs, be it the shipment of goods, or for fishing 
for subsistence or commercial needs.
    I want to thank Admiral Watkins and Mr. Panetta for being with us 
today and commend them for all of the hard work they put into their 
respective Commissions. These two gentlemen traveled around the country 
to hear from individuals affected by our nation's ocean policies. 
Having been Chairman of two separate committees, I understand the 
difficulty in getting members to unanimously support bills or reports. 
These gentlemen were able to guide their respective Commission members 
in the development of recommendations to Congress and the nation.
    I appreciate your efforts and congratulate you on how successful 
you were in your duties. It is now up to Congress, the Administration, 
and the States to follow up on the Commission recommendations with 
careful deliberations to determine how and which recommendations should 
be implemented.
    The U.S. Commission on Ocean Policy released its report in 
September, 2004. In the two years after its release, Congress passed a 
number of recommended initiatives. The biggest achievement for ocean 
issues in the 109th Congress was the passage of the Magnuson-Stevens 
Act reauthorization.
    As we all remember, the bill was passed in the last few hours of 
session. Many were betting that it would not pass, but it did pass and 
it included at least 18 of the Commission recommendations for fisheries 
management.
    However, even after this major action, the Joint Ocean Commission 
Initiative issued a grade of B+ for fisheries management. The reasoning 
given for the B+ grade was due to the lack of implementing regulations. 
If you review the time line of when the bill was signed into law, the 
Administration would have had 3 weeks to develop these regulations.
    In an earlier stage of my life, I was a school teacher. Teachers 
have many tools available to them, one of which is the use of a report 
card. As we all know, having received report cards at some stage of our 
life, report cards hold a certain level of mystique. So I can 
understand the temptation to use such a tool with respect to keeping 
attention to ocean issues. However, to what end will the report card be 
used?
    In the case of the Magnuson-Stevens Act reauthorization, I think 
the Commission was mixing apples and oranges. The Commission report 
issues recommendations for Congress and others for the Administration 
and the states. I do not think it is appropriate to tie the action of 
one branch of the Federal government to another. In addition, while I 
can relate to the importance of report cards in the school system, I do 
not think it is appropriate to issue a report card for followup on 
recommendations. In this case, the report card is subjective and 
diminishes the actions that were completed.
    I will raise one other issue recommended in the Commission report. 
I have very strong concerns about the regional governance 
recommendation that is being promoted. I do not agree that more federal 
bureaucracy is necessary when it comes to ocean issues. In the worst 
case scenario, I have heard that the federal government should dictate 
what should be occurring at the regional level. There are a handful of 
regional initiatives moving forward to create better coordination on 
the west coast, the Great Lakes, and in the Gulf of Mexico. These 
regional efforts should continue and not be stymied by people within 
the beltway that think they know better.
    In closing, Madame Chair, I would to thank Ms. Mary Glackin, the 
representative from NOAA for taking the time to be with us today. While 
I have had issues with the ocean agency from time-to-time, it is clear 
that NOAA is dedicated to its mission of promoting and supporting ocean 
issues, as was originally envisioned by the Stratton Commission.
    However, as the ocean Commissions have noted, ocean issues go 
beyond NOAA and involve many agencies and departments in the 
Administration. This hearing was the perfect opportunity for the 
Administration to send James Connaughton, the Chairman of the Council 
on Environmental Quality, who is also the Chair of the Committee on 
Ocean Policy, to highlight how he is leading all of the effected ocean 
agencies in a coordinated fashion. I believe the Administration missed 
the boat. This hearing was the perfect forum for the Administration to 
highlight all of its ocean-related efforts, not just those within NOAA.
    Thank you, Madam Chairwoman. I look forward to hearing from our 
three witnesses today.
                                 ______
                                 
    Ms. Bordallo. Thank you very much. And now, consistent with 
Committee Rule 3[c], the Chairwoman will now recognize Members 
for any questions they may wish to ask the witnesses, 
alternating between the majority and the minority, and allowing 
five minutes each for each Member.
    Should the Members need more time, we do have a second 
round of questions. However, I think there is a vote coming up, 
and I do have one question. We will see how long we can 
proceed, and then we will recess until Members return.
    My first question is for Mr. Panetta or Admiral Watkins. In 
response to the recommendations of the U.S. Commission on Ocean 
Policy, the Administration established by Executive Order a 
Committee on Ocean Policy to coordinate the ocean-related 
activities of various Executive Branch departments and 
agencies.
    You advocate the need to codify this committee and enhance 
its status and its responsibilities. Yet it sounds like the 
Administration thinks we have all the coordination we need.
    Do you feel progress has been made in the area of inter-
governmental coordination? And what, if any, additional 
legislation or policy changes are necessary to ensure that the 
coordination you think is needed is occurring?
    Mr. Panetta. Madame Chair, I think the Administration has 
taken an important step in trying to provide some degree of 
coordination on ocean policy, as both commissions determined. 
Prior to the establishment of that committee, there literally 
was nowhere, nowhere in the Administration was there any effort 
to try to coordinate all of the different policies. And as you 
know, ocean policies are spread out among a number of 
departments and agencies.
    And so this was a very important step to do that, and I 
commend the Administration for taking that step.
    The reason that we suggest codifying it is because in my 
experience, although this was established by Executive Order, 
there is no binding responsibility on future presidents to 
continue this. And so it would seem to me that because of our 
concern about the oceans and the need to coordinate policies, 
that the Congress ought to legislate and codify this committee 
so that it is ongoing, and so that it has the proper staffing 
and support that is necessary for this committee to be able to 
do the kind of work that we think is important in bringing 
these policies together. And that is why we support codifying 
the existence of that committee.
    Ms. Bordallo. Are there any remarks, Admiral, that you 
would like to make?
    Admiral Watkins. Yes. I think one of the key elements of 
that is that my experience as Secretary of Energy was that you 
would visit the White House on important issues. An advisor to 
the President is critically important. We have kind of 
relegated the advisor to the President for science and 
technology to third string. He is no longer called the advisor 
to the President for that. But we lose something in the science 
and technology coordination through the Office of Management 
and Budget Process.
    We do the same thing here. It is OK to have this 
organizational setup, and I have told Mr. Connaughton of CEQ 
that I give him an A-minus for planning. But the execution, 
doing more than we have done in the past, hasn't happened yet. 
Even with the Administration's $134 million that Ms. Glackin 
talked about here a minute ago, that is a fine initiative, but 
the total budget is $100 million less than last year's 
appropriated. We have been in status quo for three years.
    So if there is a Committee on Ocean Policy doing something, 
it is hard to see it in terms of new initiatives, along the 
lines of our recommendations. So that is another reason why we 
think it is important to codify, and that they come forward 
with an integrated ocean budget each year. This can be in 
guidance from the Office of Management and Budget to the 
agencies that are funding agencies. They can come up with their 
individual recommendations, but somebody needs to horizontally 
integrate those. And that could be done at the White House 
level with this Committee on Ocean Policy.
    So the groundwork is laid. But I think to codify it and to 
give it strength and meaning from president to president right 
now is extremely important. And I don't think that would go 
over well with the Administration, but nevertheless, we have 
recommended that as being an absolutely positive step. And I 
think that in your H.R. 21 you try to do that.
    Ms. Bordallo. Thank you very much, Admiral. Point well 
taken.
    I would like to call on the Ranking Member now to ask a 
question. There is a vote ongoing, but we will try to keep the 
committee going if we can stagger our votes, hopefully. 
Otherwise we will take a short recess. But for now, Mr. Brown.
    Mr. Brown. Thank you, Madame Chairman. This question would 
be to the Admiral or Mr. Panetta.
    Would you consider the Joint Ocean Commission Initiative an 
advocacy group?
    Mr. Panetta. I think we are advocates for the reports that 
both of our commissions came forward with. I mean, the reason 
we developed the joint initiative effort was because both 
commissions pretty much came to the same findings and same 
conclusions, and we felt it was important to bring both 
commissions together to try to push for their recommendations 
to be acted on by the Congress.
    Mr. Brown. And could you tell me how the commission is 
funded?
    Mr. Panetta. The Meridian Institute is the institute that 
supports the joint initiative effort. And they, in turn, I 
believe receive some grants as well to help support in that 
funding.
    But the Meridian Institute is an institute that has been 
involved in bringing together opposing parties on a number of 
environmental issues, and bringing them together to try to find 
consensus. And so we thought it was a good fit to try to bring 
both of these commissions together on a bipartisan basis, to 
try to advocate.
    Mr. Brown. And so it does qualify for some Federal--were 
those Federal grants you were talking about?
    Mr. Panetta. I don't believe so. I don't believe we 
received any Federal grants, no.
    Mr. Brown. So there is no Federal funds involved at all? Or 
is any Federal government staff working for the joint 
committee?
    Mr. Panetta. No.
    Mr. Brown. OK. All right, thank you, Madame Chairman.
    Ms. Bordallo. Thank you.
    Mr. Brown. Do you want me to go vote now, and then come 
back?
    Ms. Bordallo. Yes, please. Thank you very much, Mr. Brown. 
And the Chair now recognizes Mr. Pallone.
    Mr. Pallone. Thank you, Madame Chairwoman. I wanted to ask 
both the Admiral and also Congressman Panetta about the global 
warming issue. You know, I think, Admiral, you said that the 
sea level rise and the issues of global warming as they affect 
the oceans and the coasts hasn't received enough attention, and 
I would agree.
    But I will tell you that in my home state of New Jersey, it 
has received a lot of attention. I think there is more focus on 
that aspect than on any other aspect of global warming.
    But just give me an idea. I mean, what do you think the 
most serious impacts will be? Is it just sea level rise? And I 
am not denigrating that, but I mean, give us some indication of 
what the impacts would be on the oceans, the coasts, and marine 
life.
    Admiral Watkins. Well, I think, Mr. Pallone, there are many 
things that Leon brought up earlier in his oral testimony that 
summarized some of these issues.
    Oceans and human health has not gotten much attention. One-
degree temperature rise off of Bangladesh, for example, is 
directly correlative with malaria shore. We have huge problems 
that have come out of the El Nino event, that we have learned 
about worldwide.
    If we are interested in Third World developing nations and 
our foreign policy, then we ought to be interested in their 
survival. There is no clean water for a billion people in the 
world. We have the melting in the Arctic; that is a freshening 
of the water that changes the thermohaline driving force for 
the so-called belt that gives us the climate around the world, 
bringing the coal water down in the oceans, under the Atlantic 
Ocean into the Indian Ocean, over into the Southwest Pacific 
and back to the Arctic.
    If you change that pattern, as we have 8,000 and 10,000 
years ago the geologists tell us, you can stop it. Now, it 
doesn't stop tomorrow; it is not that kind of a thing. But we 
are talking in decadal terms here. And we have to worry a lot 
about what is going on out there. This is why we want the 
integrated ocean observing system. As part of the climate 
change understanding, we have to understand the oceans. We are 
making decisions based on data that could be faulty.
    Scientists agree that we need to move in that direction. So 
we have oceans and human health. We have the bleaching of the 
reefs, which is the nurturing grounds for our fisheries. We 
have the pollution that we have been talking about. The oceans 
can no longer be considered to be the cesspool of mankind that 
are going to be able to recover themselves. Today we are 
showing that they can't recover, unless we do something about 
it.
    So all of these issues are related to climate change. And 
we don't have the understanding that we need.
    For example, if I tell you that one of the most important 
things is to have a virtual common database bringing disparate 
data, thousands of different databases together at a place 
generating good products for people like you in decision-making 
roles, this is a very important element of our recommendations.
    Is that sexy politically? No.
    Mr. Pallone. I will tell you, though, this, because I did 
want to ask another question, and I have to go vote. But I will 
tell you, the whole issue of ocean exploration and research, 
you know, I know both of you have stressed that, it really is 
important. And it gets a lot of attention again, I would say, 
in New Jersey. You know, people talk about the need to expand 
that and more funding for it.
    So I want you to be optimistic about your impact out there 
on the public. I mean, particularly young people are very 
concerned. And I even know of my own kids, you know, they talk 
to me about exploration and research issues.
    But I have to get in my question about CZMA to the two of 
you. I notice that Ms. Glackin did not mention reauthorization 
of CZMA. I hope that doesn't mean you don't want to do it, but 
I am concerned that you didn't mention it. But the two others, 
Leon and the Admiral, did mention reauthorizing the CZMA.
    What do you think we need to do legislatively to strengthen 
this law? I would like to see it reauthorized. It is very 
important to New Jersey, and I think nationwide. If you wanted 
to talk about that briefly.
    Mr. Panetta. Well, it is very important, and we do urge 
that CZMA be reauthorized.
    I think one of the ways it could be strengthened is to 
incorporate the kind of elements that we advocated in terms of 
regional approach into the CZMA. For example, ecosystem 
planning. We were able to get ecosystem planning built into 
Magnuson-Stevens. We think it ought to be part of some of the 
reauthorized bills, like the Clean Water bill and other bills, 
to emphasize the relationship between the land the sea.
    New Jersey has been very good at developing approaches that 
recognize that relationship. Because, you know, as the 
Chesapeake Bay plant makes very clear, the streams that flow 
into the ocean, the streams that flow into the Chesapeake Bay, 
if we don't deal with those it can impact on our fisheries.
    So I would recommend strongly supporting ecosystem 
planning, supporting and encouraging regional governance that 
encourages everyone working at the table, and developing a plan 
to deal with the oceans. CZMA I think could be very effective 
at promoting that kind of effort.
    Admiral Watkins. And I think another important contribution 
you could make would be to set up this regulatory regime that 
we talked about earlier for emerging new uses in Federal 
waters.
    The states have made it very clear, as we went around the 
country listening to them, that they want to be involved in the 
offshore waters. Even though they are not in control of those 
Federal waters, they are very germane to the coastal management 
that they are responsible for.
    So again, I would encourage the upgrading of CZMA, the 
reauthorization, to include the provisions that set up the 
regulatory regime for new and emerging uses of the Federal 
waters, such as in bioprospecting, and deep water aquaculture. 
And make sure--and to the energy generation, such as the wind 
farms. And to make sure that those revenue streams are 
identified the way Congress thinks they should be identified, 
and roll into this trust fund we are talking about to carry out 
these various provisions.
    Unless there is some kind of a stable requirement and law 
by the Congress to set up such a fund, it is not going to 
happen. We simply have to have such a fund. And therefore, I 
think that CZMA, which is such a powerful tool, is the very, 
very important reauthorization opportunity to carry out many of 
these provisions that we talked about, and what Leon emphasized 
here in the regional council approach and their involvement. So 
that we, at the Federal level, can get the feeling of what they 
want to do out there.
    And each region is different. Each region has its own 
priorities. New Jersey has different priorities than others. 
They need to be recognized. And so it has to be a flexible 
system; it can't be rigid.
    And the Governors have made it very clear to us, they don't 
want unfunded mandates. They want to be a partner.
    Ms. Glackin. Just to clarify----
    Mr. Pallone. I am just going to, I apologize that I have to 
go run for the vote. But I was hoping we could have a second 
round, because I wanted to follow up again. I apologize.
    Mr. Panetta. As a former Chair of the Budget Committee, I 
urge you to go vote.
    [Laughter.]
    Ms. Glackin. If I could just introduce, just for the record 
here, to make the statement that the Administration is working. 
We have a partnership activity going on now with Coastal States 
Organization that is visioning what the future Coastal Zone 
Management Act should look like. We have had a document out for 
public comment, and we have been taking in that comments and 
having a number of workshops. So we are interested in 
reauthorizing this, but not in a position to promise that 
legislation in the short term.
    Ms. Bordallo. Thank you very much. One small advantage of 
being a representative from a territory is we only vote the 
committee as a whole. And so I can keep this going.
    [Laughter.]
    Ms. Bordallo. I told the Members to get back as quickly as 
possible after their vote.
    I have a couple of questions here on funding. The Joint 
Ocean Commission is very specific in outlining the new funding 
that you believe is necessary to truly advance the national 
interest in managing our ocean and our coastal resources.
    At the same time, the President's proposed budget for NOAA 
actually cuts the agency budget from 2007 appropriated levels.
    As you both understand, and I am speaking to Mr. Watkins 
and Mr. Panetta, in these tight budgetary times, important 
tradeoffs must be made as Congress decides where funding should 
be directed. Why do you think funding for the oceans should be 
made a priority for Congress? And do you feel the budget the 
President has requested is sufficient to address the needs you 
have identified?
    Admiral Watkins. Madame Chair, obviously----
    Ms. Bordallo. I am sorry, I guess there is an amendment 
that I have to vote on.
    Mr. Panetta. Well, God bless you, you are going to have a 
role to play.
    [Laughter.]
    Ms. Bordallo. So the committee stands recessed for about 10 
minutes.
    [Recess.]
    Ms. Bordallo. We will now resume this hearing. We will 
return to my question, but at this time the Chair wishes to 
recognize Congresswoman Lois Capps from California.
    Ms. Capps. I wasn't aware I was going to be right up front. 
That is great, I am happy to have the opportunity.
    Thank you first, Madame Chairwoman, for holding this 
hearing. And it is one that many of us have anticipated for a 
very long time.
    I am sorry, would you like to go across the aisle?
    Ms. Bordallo. Congresswoman, you go ahead.
    Ms. Capps. Oh, I am happy to wait. All right, I will 
proceed.
    It is hard to know where to start on asking questions. This 
is a wonderfully big topic. And as you said, Mr. Panetta, it is 
life itself.
    I live in an area, many of us are here out of our personal 
experiences with the coastline, 200 miles-plus that I am so 
honored to represent in Congress on the central coast of 
California.
    And we know that even of my constituents, people love the 
ocean, but they don't always understand what goes on beneath 
its surface. These threats, including pollution, over-fishing, 
even the impacts of global warming. Your commissions did 
excellent work to identify these challenges, and now I think we 
have a responsibility to begin to implement and work out.
    I am pleased that both of you, all three of you I should 
say, are engaged in the public dialogue through the Joint Ocean 
Commission Initiative. There are so many issues to discuss, as 
I said. But one issue that I am going to focus on is NOAA's 
budget.
    A budget, of course--and we are dealing with budget on the 
Floor of the House today--is a blueprint of priorities. And of 
course, I was disappointed with the President's request for 
NOAA. I believe it provides inadequate funding levels, and is 
inconsistent with the recommendations of the Joint Ocean 
Commission.
    For example, the overarching commission recommendation is 
that the United States needs to implement ecosystem-based 
protections for our oceans. Arguably, the existing NOAA program 
that best exemplifies this approach is the National Marine 
Sanctuary Program. Unfortunately, for the past few years the 
program has seen its budget fall from approximately $51 million 
in 2005 to $36 million in 2006 and 2007.
    In 2008, the President requested $44 million, with $8 
million of this dedicated to the Northwestern Hawaiian Islands 
Marine National Monument. So I believe, I hope we can all agree 
that increased funding is critical for the management of the 
monument.
    However, I am concerned about the funding needs for the 13 
remaining sanctuaries, which the President's budget leaves 
level-funded. I know I just posed a question. I will start with 
you, Hon. Leon Panetta. Doesn't this seem contradictory to a 
principal Joint Ocean Commission recommendation?
    Mr. Panetta. Well, obviously, as we pointed out in our 
testimony, we are very concerned about the level of funding in 
the ocean area. I mean, the last two years have literally been 
a disaster in terms of retreating on the funding levels that 
are essential for dealing with some of the ocean issues that we 
talked about.
    And let me just for a moment put on my former hat, both as 
a Chair of the Budget Committee and also as Director of OMB, I 
know what the tradeoffs are. I know that there are some tough 
tradeoffs. And I know what, you know, the decisions that have 
to be made; Appropriations Committees has to make these 
decisions, everyone has to make the decisions.
    But you also have to decide what are the priorities that 
you have to invest in for the sake of the country. I mean, at 
the toughest time in the first Clinton budget, where we cut 
almost $500 billion in the budget--actually, $250 billion on 
the spending side--we made some very difficult cuts on a lot of 
programs.
    And yet at the same time, we were able to invest in some of 
the President's priorities. We invested in education, we 
invested in R and D, we invested in healthcare, we invested in 
student loans, we invested in some of the areas that the 
President identified. Those are the kinds of decisions that 
have to be made.
    This is a priority. This is a priority. This is about 
whether or not our oceans are going to be around for the 
future. And the damage that is being done is something that, 
you know, we just simply cannot afford.
    And let me tell you something. When it comes to our oceans, 
I think our oceans generate about $138 billion in income and 
economic activity to this country: $138 billion. Now, it seems 
to me $750 million is not a bad investment for the return you 
get from our oceans. We are talking about jobs, we are talking 
about economic activity. This is an investment that is 
worthwhile.
    Ms. Capps. Are there some specific priorities you would 
recommend to us? I know we have to make the tough decisions, as 
you did. But as we consider reauthorization of the National 
Marine Sanctuaries Act, should we--and I know I see the red 
light on, but maybe real briefly you would respond to one or 
two, or however many--what shall we put at the top of our list?
    Mr. Panetta. Admiral, what should we identify as the key 
areas?
    Admiral Watkins. We have a detailed listing of what that 
$750 million, which is a one-year augmentation that we would 
hope would continue until we reached the $3.9 billion that we 
said were necessary to augment the current expenditure, which 
is around $9 billion for all matters connected with the oceans 
from all agencies. And that includes the operational fleet: the 
NOAA fleet and other fleets for deep seabed research.
    So we know exactly what that $3.9 billion that we are 
asking to add over the next five to seven years, at $750 
million a year, will do. It is not just throwing money at 
researchers. It is specifically targeted to the kinds of things 
we think are the highest priorities that we have laid out in 
our Sea to Shining Sea report to the Senate last year. And 
those are still valid, except for Magnuson-Stevens 
reauthorization, which was passed. And that is a commendable 
thing for the Congress.
    There are some questions raised on our report card. Well, 
why didn't you give more than a B-plus? Well, it is not just 
the Congress we are voting on. We are voting on the 
Administration, the Congress, the states. Are we carrying it 
out?
    We are in the implementation strategy side of this thing 
now. We are trying to say we love the rhetoric, we love the 
planning; you get an A-minus for planning, that is terrific. 
Now let us do it. And we haven't done it yet. We haven't moved 
off top dead center. We are still at, in NOAA, a $3.9 billion. 
And even then, with the President's good initiative, $134 
million, it is still $100 million under last year's 
appropriation.
    But all we have done all the time up here is fight over the 
Senate to restore the $500 million that was cut out by 
Congress, by the Appropriations Committee here in the House 
last year. So we have to add a billion bucks on the other side 
to come out with just a status quo win.
    Everybody says gee, you ought to be thankful for that. We 
are not thankful for that. We are not getting anywhere. So we 
have to move out. And the $750 million is well identified in 
our statement as to what you are going to do with that.
    And that doesn't come from just Leon and me; it comes from 
a body of science advisors, a body of the National Academy, the 
other national academies of the world. We read what is going on 
in the European Union, the IPCC work of the U.N. This is good 
stuff. We just need to do it now.
    And so that is why we are in this. And so $750 million is 
the start. And we have told the Senate Appropriations Committee 
last year we want to approach a top line for you, NOAA, $4.4 
billion for NOAA, not $3.9 billion. That is $500 million of the 
$750 million would go to NOAA new activities, in education, in 
ocean observing system.
    And one of the worst things that has happened is we have 
cut $500 million out of NASA's earth sciences budget. What are 
we doing? That is essential to the earth's observing system. 
How are we going to make good decisions if we don't have the 
data flowing in that can then be converted by analysts into 
useful tools for decision makers like you? We have to have that 
money.
    So we can't be trading off like this. We either believe 
this is a high priority for the future of our country, or we 
don't. We think it is, and that is why we are staying in the 
game. We don't get anything out of it, except the satisfaction 
that you are listening this morning. We haven't had that 
before, and so we are----
    Ms. Capps. I know I have gone way over my time.
    Mr. Panetta. Lois, if I could, for the record, and we will 
submit this for the record, we basically lay out how the $750 
million ought to be spend: $85 million for governance and 
coastal management, $299 million for ocean science and 
research, $289 million for monitoring, observing, and mapping, 
and $42 million for ocean education and outreach. And we 
actually break that down into specific programmatic areas, if 
you will look at that.
    Ms. Capps. Excellent, and that will be part of the record, 
Madame Chairwoman.
    Ms. Bordallo. Thank you. Thank you very much. And the Chair 
would like to also tell the Members that we will halve possibly 
a second round if you have further questions.
    The Chair now recognizes the gentleman from Idaho, 
Congressman Sali.
    Mr. Sali. Thank you, Madame Chairman. Mr. Panetta, one of 
the appendices in the U.S. Oceans Commission Report lists all 
the Congressional committees which will have ocean or coastal 
jurisdiction. I understand that there are 8 of the full 
committees and 22 subcommittees.
    If we are going to implement your recommendation to create 
this new off-budget trust fund, do you have any idea how many 
committees would get jurisdiction? And specifically within 
that, what will be the role of this Subcommittee and the full 
committee?
    Mr. Panetta. Too many, if you want to know the truth. I 
mean, I think part of the problem, we talk in both of our 
reports about how you coordinate ocean policy. And it is not 
only split up obviously within the Administration and the 
departments and agencies.
    If you look at Capitol Hill, almost all of the committees 
up here in one way or another have some relationship to ocean 
issues. And there has to be a way--when I was here, and I 
believe you are a new Member to the Congress--when I was in the 
Congress, there was a committee that dealt with fisheries. And 
Merchant Marine Fisheries Committee was the name of that 
committee. And basically all ocean policy came under their 
jurisdiction, and it made a lot of sense.
    At some point it just seems to me, in order to deal with 
the various aspects of what we are recommending here, it may 
make sense for the institution of the Congress to develop a 
more coordinated committee that has----
    Mr. Sali. Isn't that really the answer to the Admiral's 
question of when are we going to do something, is that we have 
to have a process in place in this institution to be able to 
actually deal with that. There really would be some kind of a 
first step. And best wishes to both of you to bring that about, 
I guess.
    Talking about financing some of this, how much do we have 
paid in annually for offshore oil and gas activities at this 
point? Do you know how much that is?
    Mr. Panetta. Our staff indicates it is about $8 billion to 
$9 billion that flow in as a result of that.
    Mr. Sali. And do you know where that revenue ends up? In 
which pot within the Federal Treasury?
    Mr. Panetta. Part of it goes into Land and Water, and part 
of it now, I think as a result of legislation last year, goes 
to the Gulf States.
    Mr. Sali. Is there something that is coming in the future 
that would cause those revenues to increase at all?
    Admiral Watkins. Well, one of the things that we are 
promoting, and we talked about it this morning, is the fact 
that there are new and emerging things happening in Federal 
waters, such as wind farms, bioprospecting, deep water 
aquaculture, none of which have a regulatory regime. So we 
don't know what the revenue stream will be, if any. It needs to 
be balanced, and it needs to be somewhat based on the 
experience we have had with the oil and gas revenue streams.
    And that should be, we know it has to be appropriated. 
There is about a billion dollars that are now set aside out of 
this $8 billion to $9 billion that comes in from the oil and 
gas revenue stream, that go into land and water conservation 
and historic preservation.
    OK, that is fine. Leave that alone. But we are saying it 
makes sense to set up a trust fund that has to be appropriated 
by the Congress each year, that really allocates some of these 
dollars back to carry out the very things we are talking about 
that emanate from the coastal regions of the states.
    Mr. Sali. Thank you, Admiral. Mr. Panetta, does the Pew 
Commission have a position that you advocate on offshore oil 
and gas activities with respect to this, the oceans?
    Mr. Panetta. No. It was something we decided to stay away 
from because it was controversial within the commission. We 
actually focused on four areas. One was dealing with life under 
the oceans, dealing with coastal development, dealing with the 
issue of fisheries, and then also the issue of governance. 
Those were the areas we focused on.
    Mr. Sali. So if there are new leases that are put in place, 
if there is new exploration, new production within the oceans 
for oil and gas, the Pew Commission would not have any problem 
with any of that?
    Mr. Panetta. Well, what we would recommend--I mean, 
obviously those are decisions that are going to be made by the 
Administration, and obviously in part by the Congress.
    But revenues we think, and we have recommended, and others, 
I think the U.S. Commission recommended as well that revenues 
ought to be put into a trust fund in which money is then used 
for ocean areas.
    Mr. Sali. Well, we have a pretty good fight going on over 
on the House Floor right now over the budget, and you know, 
whether we are going to have enough money to----
    Mr. Panetta. I know.
    Mr. Sali.--pay for our Federal government. I know you have 
been through that.
    I guess my point is, if we divert some of this revenue into 
this trust fund, isn't that just going to increase the deficit? 
Where are we going to come up with the money to pay for the 
suggestions that you are making?
    Mr. Panetta. Well, look, I think that a trust fund 
developed where funds flow into that from those kinds of 
activities makes a lot of sense. If people are going to be able 
to use our offshore areas for whatever reason, those areas are 
owned by the Federal government. They ought to pay for it, and 
frankly that is one of the ways to pay for some of the 
mitigation that has to take place as a result of those 
activities.
    Mr. Sali. And if it results in deficit spending to finance 
the rest of the Federal----
    Mr. Panetta. That is not deficit spending. If the money 
that is coming in from those operations that is being spent for 
mitigation in those areas, that is the way you balance the 
budget. That is not the way you got into deficits.
    Mr. Sali. Well, your explanation of where the money ends 
up, I think all that money is being appropriated and used 
today. And so at some point, if you want money that we have 
today put into a trust fund, it is going to have to be made up 
somewhere else, it would seem to me. Maybe I don't understand 
all of the math that is involved in the Federal budget like you 
do.
    But I know that that fight that is going on over on the 
House Floor right now is not going to cease any time soon, and 
this is going to be an ongoing concern, it would seem to me.
    Mr. Panetta. No, listen, you are absolutely right. And the 
one thing I learned in all of my budget experience is that 
there is no simple answer, or no magic answer when dealing with 
that.
    If you care about the deficit, you are going to have to cut 
spending or raise taxes, or both.
    Mr. Sali. Thank you, Madame Chair.
    Ms. Bordallo. Thank you. I thank the gentleman from Idaho, 
Mr. Sali.
    And now the Chair recognizes Mr. Sam Farr from the State of 
California.
    Mr. Farr. Thank you, Madame Chair. Mr. Sali, none of us 
want to get into a discussion like this with Leon Panetta. Not 
only was he Chairman of the Budget Committee for a record 
number of years--nobody had a tenure as long in the Budget 
Committee--but he was also Director of OMB. So he understands 
his budget better than anybody in the entire building. Maybe in 
the entire city.
    I want to ask Mary Glackin a question about, do you support 
the codification of NOAA?
    Ms. Glackin. I very much support, and the Administration 
supports, the passage of an organic act for NOAA. We introduced 
one in the last Congress, and we will introduce one in this 
one, as well.
    Mr. Farr. OK. Well, the reason I ask that is because you 
recognize that things have to be codified; yet in your 
testimony, you point out that 83 percent of the actions have 
been met. Of course, those were the actions that the 
Administration set up. They weren't good enough, at least for 
our Senate colleagues and a lot of our former colleagues here.
    I mean, Jim Greenwood authored the bill that I have 
introduced called H.R. 21 this session. Curt Weldon was very 
active in it, obviously Senator Lugar has been very outspoken, 
Olympia Snow. Ted Stevens signed this letter asking the Joint 
Commission to prioritize. John Sununu.
    I mean, the Senate asked you two to come back with the 
report you have given us today, isn't that correct? The letter 
to the Senate? No, I am talking now to Leon and Admiral 
Watkins. The letter to the Joint Oceans Commission Initiative 
to both of you, signed here in your report. It is saying give 
us the priorities, 10 actions Congress should take, highest 
priorities for funding. And that is what you have come back 
with in this report that is the Sea to Shining Sea.
    And I would just, I really appreciate your recommendations 
on here. I would just say that all of them, except for the 
convention of the sea, the integrated oceans observing systems, 
which Mr. Allen is introducing today, Mr. Saxton introduced the 
National Ocean Exploration Program. And I would hope Mr. Sali 
is still here, because he is one of the few people we haven't 
yet gotten as a co-sponsor of H.R. 21. But all of your 
recommendations otherwise are in H.R. 21.
    And what I would like to just ask you, I think the most 
difficult part of this legislation is the--and you had it, as 
well--is the legislation dealing with regional governance. We 
have taken your recommendations in here, but I just wanted you 
to express what, how important it is to have that governance 
structure that you recommended. You could have just skipped it, 
because it does get to the political hot ball. But you pointed 
out that it is really necessary to have the interaction, 
although we have a new word. It is called interoperability.
    And I just thought you might share with us what your 
thoughts were on how important this governance provision is.
    Mr. Panetta. Well, look. The problem, as you know, is that, 
you know, and I think it is both commissions looked at these 
issues, that if you look at the issues that are impacting on 
the oceans and on the fisheries, whether it is coastal 
development, whether it is pollution, whether it is runoff, 
whether it is invasive species, whether it is all of these 
elements that are impacting on the ocean, you have to bring 
together the issues of the land and the sea together in order 
to be able to deal with those issues.
    I mean, the best example we had of that was in the 
Chesapeake Bay, where you had six or seven states that were 
involved. And the Chesapeake Bay was basically being totally 
wiped out as a result of pollution. So they put together a 
compact in which you brought together the Federal, state, and 
local governments, developed common targets, developed common 
goals, and they all were working together in order to achieve a 
restoration of some of the fisheries in the Chesapeake Bay.
    We have seen that in the Northeast, up in Maine, the states 
have come together to try to bring together again Federal, 
state, and local authorities to try to deal with ocean issues. 
We are seeing California--California, Washington, Oregon--
coming together to deal with common issues involving the oceans 
off their coastline.
    We see the Gulf States doing the same thing, coming 
together to deal with common issues in their area.
    So the best way to deal with this is when you have 
everybody at the table. And you know, they are going to have 
different views. Nobody says that there is some kind of 
boilerplate approach to dealing with these issues. You are 
going to have fishermen at the table, you are going to have 
stakeholders at the table, you are going to have people, 
conservationists, scientists. All of them need to be at the 
table in order to develop the kind of plans in which everybody 
says OK, now let us do what we have said we have to do.
    That needs to be encouraged. That needs to be promoted.
    Now, as I said, look, there are a lot of very good efforts 
that are taking place out there in the states. What we need to 
do is to have the Federal government, to have the Congress 
basically say to the Federal government you play a role in 
this, and encourage these kinds of regional efforts. Because by 
doing that, that is the best way to deal with the problems 
facing our oceans.
    Ms. Glackin. And let me just follow on that, and just make 
the point that the Administration really agrees and encourages, 
and is supporting these regional ocean governances. As I have 
just alluded to in my testimony, the Gulf of Mexico is probably 
the most mature, but we are working in the Northeast.
    I, myself, met with my Federal partners in the states of 
Washington, Oregon, and California last week on plans that we 
expect to be rolled out in the fall.
    So I think it is the idea of maintaining flexibility that 
we address the problems we have on the scales that the problems 
impact, and not dictate solutions one size fitting all.
    Mr. Farr. I think there needs to be some statutory glue to 
keep it together.
    Ms. Bordallo. I thank the gentleman from California. And 
now the Chair recognizes Congressman Allen from the State of 
Maine.
    Mr. Allen. Thank you, Madame Chair. I appreciate the 
opportunity to be with this committee, and to participate in 
the questioning. And I do want to thank all the members of the 
panel for their very good work in these areas.
    I thought I would concentrate--I will soon be reintroducing 
an integrated ocean observing bill like the one they introduced 
last year. It is being, we are working with this committee, and 
also with the Science Committee, to make sure we have as much 
input as possible before we do that.
    But the GoMOOS, the Gulf of Maine Ocean Observing System in 
the Gulf of Maine, has been an enormous success. And it is 
having commercial value, it has scientific value. And we, in 
Maine at least, think of that as the model for all the other 
efforts that should be integrated. It is one of the top 10 
Congressional priorities highlighted in the Sea to Shining Sea 
report. And it is also an important theme in the 
Administration's plans, as well.
    So given what I take to be a broad bipartisan consensus for 
an integrated ocean observing system, the question really is, 
can you talk in some detail about the benefits from such a 
system, and how those benefits relate to other recommendations 
of the committee?
    Admiral Watkins. Congressman Allen, this is probably the 
most important single program that I think, if it were to be 
implemented properly, authorized by the Congress, funded to the 
extent we have recommended in our report, it will be one of the 
most important things we can do for future decision making.
    From that observation system, which is a system of systems, 
the Administration has sponsored, proposed, went back to Europe 
to reinvigorate the global earth observing system of systems. 
OK. This means that we integrate land, atmosphere, and oceans 
together.
    The land and atmosphere side have been fairly well 
researched, and are in pretty good shape. The oceans are not. 
We are not even in the game yet. And so part of the emphasis on 
science and technology in our report was to let NOAA do the 
kind of referral out to industry, to get the Boeings and the 
Lockheed Martins and the others really interested in this, and 
to move out, because we need architectural design that makes 
some sense. We need to integrate it internationally. We need to 
have a common data center, where we can take disparate 
databases and pull them together. We need to have at those 
centers an analyst who can respond to the regional needs, as 
well as other needs.
    It is not just researchers, it is not just education. It is 
what do the counties need, what do the local officials need. 
They need a lot of understanding, too, and they are crying for 
information we can't provide them today.
    So the integrated research package, for example, that we 
are saying let us collaborate with the fishermen, let us have 
their database and the NOAA database come together in better 
harmony. We better listen to the fishermen. They are saying 
sometimes when they get out there, we don't see, the model is 
not reflecting what we are seeing out here. So we need their 
input. Those are all inputs into a system. The system has to 
have protocols. We have to deal with the issue of royalties and 
property rights, intellectual property; who owns the property.
    But those can all be ironed out. There are things that can 
be done. So it is part of the integrated ocean observing 
system. To build something that is in real time giving us 
information on acidification, what is the health of the 
phytoplankton, the zooplankton out there. What is happening in 
the strategic algal blooms around the world? What about dead 
zones? We can monitor life in the water column if we put the 
research into the RNA- or DNA-related bases that they need to 
do on sophisticated buoys such a NOAA has in the Argo floats.
    This needs to all be coordinated. And it is extremely 
important that we have a mechanism set up to allow decision 
makers to receive information they need, and they are all 
different.
    When you look at the authority that local governments have, 
counties have, state governments, it is amazing to see the 
display on one of NOAA's boards over there as to who has got 
responsibility. Who are the stakeholders in all these.
    And as Leon says, these have to be brought together in some 
way, and we need to let the regions design their systems to be 
regionally organized in a way that they feel meet their 
priorities. And we should be flexible enough to receive that.
    So all of these things are involved in the integrated ocean 
observing system. And I would say if we did that, we would 
probably cover somewhere around 75 percent to 80 percent of our 
recommendations, just in that one major program alone. It is 
the glue--if you want glue to bind us together, then put us 
together into that database. Put us together into the analysis 
of that database.
    My experience in the Navy is how we recently won the Cold 
War is because we did that. We had all sorts of information 
flowing in to analysts. They gave us good information in the 
fleet that we needed. We didn't want the raw data; we wanted to 
have analysts say this is what it means, these are the risks, 
this is, you know, if we take the high end of the uncertainty 
bar every time and say we are going to flood the world to 20 
feet, OK. But take it easy. That is not what the scientists are 
saying. They are saying here is the range of uncertainty that 
we have.
    The ocean observing system can help us monitor that. This 
is why I am such a nut on the subject of keeping NASA's 
satellite system going, their NPO satellites and others. They 
have been underfunded badly. In fact, NASA themselves did not 
get in the ocean research priority plan that the President put 
in in January. They were out of it. Can you imagine? We 
desperately need them in. They are a key part of an integrated 
ocean observing system. And to underfund earth sciences there 
is a grave mistake.
    And so I think, you know, if you can move this thing 
through the Congress, it will probably be one of the most 
important initiatives since the Stratton Commission, in my 
opinion, just that one program. Because it covers so much of 
what we are talking about. The analysis of the fisheries 
population, it is all in there. Everything is there. The 
pollution monitoring, what is happening in the Arctic and what 
does it mean to world circulation.
    All of these things are part of this observing system, 
which needs to be built, architecturally designed properly, the 
database integrated, and that will pull so many of these 
entities together. It will force them together, just as you 
have done with the Gulf of Maine Ocean Observing System, the 
California Ocean Observing System. Now the Gulf Alliance is 
putting in a Gulf Ocean Observing System. We are coming alive, 
but it is happening out there because they are really worried 
about the fact the feds aren't doing their job back here to 
make sure the coupling and the collaborative effort is 
organized to the point where this all makes sense.
    Mr. Allen. Thank you. After that ringing endorsement, I 
hesitate to ask anybody else if they----
    [Laughter.]
    Admiral Watkins. Take that and go home.
    Mr. Allen. They can take that and go home. Thank you very 
much.
    Ms. Bordallo. I thank the gentlemen. Our Ranking Member has 
returned. Do you have any questions before we conclude?
    Mr. Brown. Thank you, Madame Chairman. I do have some 
questions to submit for the record for, Mr. Saxton is it? Yes.
    Ms. Bordallo. All right, without objection.
    Mr. Brown. OK, thank you. And I also have some questions to 
submit to Madame Chairwoman. I know we are going to be voting 
pretty shortly, and so we will, I guess we will just submit the 
questions.
    Ms. Bordallo. For the record. I want to thank all of the 
Members here for their questions. Oh, I am sorry, Mr. Pallone. 
I would like to recognize Mr. Pallone. This can be the second 
round. Mr. Kennedy.
    Mr. Kennedy. Thank you. Again, I thank you all for being 
here. I notice some questions were asked about the money, and I 
know about that because I am on the Appropriations Committee, 
and we went through this when the NOAA administrator was in 
before our committee a week ago.
    And you are absolutely right. The budget is so short we 
asked the administrator where the budget was when OMB was 
marking it up. If this is such a priority, why isn't it 
reflected in the President's budget?
    And if I could, I would like to ask the question, where are 
we going to be in 20 years if we don't, if this budget 
continues along the lines that it is? Anemic and falling very 
short of where it should be. Where are we going to be? What are 
going to be the costs of us not fully funding these 
recommendations? Just if you could, how are we going to be 
paying for it? What ways are we going to be paying for the lack 
of investment?
    Mr. Panetta. Well, Congressman, as you know probably better 
than anyone, if we have, you know, if our body is affected in 
some way, and we don't have the investment in technology and 
knowledge and science and skills to deal with that problem, 
then we will never begin the healing process.
    And the same thing is true for our planet. We know that 
there is a crisis affecting our oceans. But if we don't make 
the investment in technology and science and knowledge and 
skills to deal with it, we will never heal our oceans.
    And we are seeing the consequences of it now. I mean, my 
goodness, 90 percent of the big fish in the ocean are gone. 
Ninety percent of the big fish in the ocean are gone. You know, 
look at National Geographic, this last edition, and it 
basically shows that.
    Now, when 90 percent of those fish are gone, when we lose 
those fisheries; and if we are not in the process of trying to 
restore them, if we are not doing things to figure out what is 
going on; there is a real possibility we could lose all of our 
wild fisheries. And that is a real possibility.
    And it just seems to me that is a hell of a legacy to leave 
our children. So that is why it is important to try and make 
that investment now, to try to see if we can begin the healing 
process.
    And we can. I mean, I think the good news here is it can be 
done. It is going to take a lot of work and a lot of effort, 
but it can be done. But if we walk away from it, if we don't 
make the investment, if we don't develop the skills and the 
science we need, make no mistake about it, our children will be 
asking the question where were we.
    Ms. Bordallo. I wish to thank the Congressman from Rhode 
Island.
    Congressman Pallone.
    Mr. Pallone. Thank you, Madame Chairwoman. I just wanted 
to, first of all I had to apologize to Ms. Glackin, because I 
had to vote, as Leon said, on the budget resolutions. But I 
did, my staffperson did relate to me what you said, so thank 
you for your response.
    But I wanted to follow up on the CZMA question again, and 
just get a little more detail. The big issue--well, not 
really--it really is the biggest issue, I think, facing New 
Jersey along the coast now is the overdevelopment issue. And I 
know when you talked about the regional plans, Congressman 
Panetta, you were talking about that as part of it.
    And then the other issue is this whole issue of the 
consistency determination. New Jersey always wants to, you 
know, exercise this consistency to say that they are not 
necessarily happy with Federal developments along the coast or 
out in the ocean.
    In terms of the reauthorization of CZMA, if you would just 
address that: you know, the overdevelopment issue, and how 
maybe those regional plans relate to that. And whether you have 
any suggestions with regard to that Federal-state relationship 
in terms of consistency.
    And I mean, you may not. I am just asking.
    Mr. Panetta. Well, you know, it is interesting. When you 
were asking your last question on CZMA, I recall that Bill 
Hughes--he used to sit on the Committee on, well, he chaired 
the Committee on Merchant Marine and Fisheries--was concerned 
at the time because there was medical waste that was washing up 
on the New Jersey coastline as a result of dumping off coast.
    And it brought home the fact that if we are not 
coordinating these efforts between the Federal government and 
the state government, we will never be able to deal with those 
kinds of problems. The Federal government will say it is OK to 
dump whatever you want out there, and the states will have to 
deal with the consequences of that when it washes up on shore. 
That is the very reason we need to have that relationship.
    CZMA, when it was established, I thought was a very, I 
mean, it is a very good working law that allows for the 
development of a coordinated approach. The problem is it 
doesn't have a hell of a lot of teeth. And so what you have to 
do is provide the funding and provide the support systems to 
make sure that it can be a viable approach, and that plans can 
be developed that everybody has to abide by. I mean, that is 
the key, it seems to me. That if you are going to develop 
plans, if you are going to develop an approach between the 
Federal and state governments, that you need to have, either 
through funding or through some kind of support system, a way 
to ensure that it is getting done. That is what I would 
really----
    Mr. Pallone. No, I appreciate that. Thank you. And then I 
was going to ask Admiral Watkins again, when you answered my 
question before you talked about, you know, energy-related uses 
offshore. And of course, one of the big issues now of course is 
the windmills; I think you specifically mentioned that.
    Do you have an opinion on the Mineral Management Service's 
ongoing work to develop regulations governing these alternative 
energy-related uses of offshore on the Outer Continental Shelf. 
Do you think those are sufficient, or do we need to do more? If 
you want to comment. I think you got into it a little bit.
    Admiral Watkins. Not at all sufficient, Mr. Pallone. We are 
relying on old laws with very little framework to them, and we 
are beginning to make moves in the Federal waters which are 
very significant. And the wind farms are one. And I am for wind 
generation. When I was Secretary of Energy we pushed 
alternative fuels, alternative means of generating energy a 
great deal. We spent hundreds of millions of dollars each year 
to investigate and move into hybrid cars and so forth. So I am 
all for that.
    But on the other hand, having said that, I think to 
commence these offshore activities without some kind of 
regulatory framework which the Congress has put together and 
said this makes sense based on our experience with oil and gas 
over the last 50 years, we do a great deal to lay the framework 
that would allow, then, the Coastal Zone Management Act to be 
linked somehow with a new offshore regime which captured these 
things, which addressed the revenue streams that would come in 
and go back into conservation and other practices that are very 
important that we have recommended here, and so forth.
    So I really think that you are focusing on an extremely 
important issue. And I think the reauthorization of coastal 
zone management is probably one of the key pieces of 
legislation, and we would certainly be willing to work with you 
in any way we can to bring our members, our expertise, our 
outreach to the scientific community and to the business 
community.
    We have been hooked up locally across the nation. In fact, 
we put our emphasis there because we saw so little activity at 
the Federal level; we decided we had better go work with the 
Governors a lot more. And we have done that. Did it in New 
Jersey. We have held some wonderful sessions up there at 
Monmouth University and so forth. And I know the work that 
Rutgers has done, fabulous stuff offshore, on remote vehicles, 
autonomous vehicles and the like, getting information that 
would again feed the ocean observing system kind of mechanism.
    So all of these things, every time we talk about these 
things they cry for this cross-cutting pollenization between 
the activities that are going on out there and the Federal 
government, and call for this ecosystem-based approach which we 
have all accepted, and the Administration has accepted. But you 
just can't accept that in rhetoric and not do something. That 
is a very major course change for governance in this country.
    We don't take advantage of the IT world we live in today to 
bring groups together that are so disconnected today. And we 
can do that.
    So all of that really gets right down into this regional 
councils, the Coastal Zone Management Act, and everything else, 
and the coupling at the Washington level that makes them 
sensitive that we are all partners in this together.
    Mr. Pallone. Well, thank you. Thank you, Madame Chairwoman.
    Ms. Bordallo. I thank Mr. Pallone, the gentleman from New 
Jersey. And the Chair now recognizes the Ranking Member, 
Congressman Brown.
    Mr. Brown. Thank you, Madame Chairman. Admiral, following 
through on that same line of thought, there has been much 
discussion about harvesting other resources at the floor of the 
ocean, and particularly natural gas, where there is an abundant 
supply of alcoves. And recognizing the significance of 62 
percent of our energy being imported from foreign countries, 
have you been able to use the model down in the Gulf and other 
parts of the nation, the negative impact of fisheries and other 
ecosystems out in the ocean, the impact of natural gas 
drilling?
    Admiral Watkins. We didn't, in our commission work, we were 
carrying out the edict under Ocean Act 2000, which more or less 
we had to walk carefully on the energy generation issue, as 
opposed to other issues regarding the ocean. And Ocean Act 2000 
basically kept us out of the energy business.
    Because I was Secretary of Energy, I kept trying to get in 
it, but all my commissioners said stay away. Because if you get 
into that, you are into a whole other regime. And so we didn't 
get into that.
    But we looked at what had been done over the last, let us 
say the year since the blowout at Santa Barbara or Exxon Valdez 
and all those other things, not because we were into that, but 
we wanted to know the impact of those kinds of things. Where 
was the oil coming from that is in the ocean, for example?
    The National Academy of Science has done a fantastic study 
of that----
    Mr. Brown. I was just asking a question on natural gas.
    Admiral Watkins. On natural gas? Natural gas is good.
    [Laughter.]
    Admiral Watkins. And we love it, and we were delighted to 
see the recent action off in the Gulf Coast on the new dome 
that is going to be allowed beyond the 200-mile EEZ. We think 
it makes sense. Obviously we are on the side of anything that 
is non-polluting on the front end of the greenhouse gas 
mitigation. And that is a tremendous source.
    And now that we have gone into the utility business with 
natural gas, and with the natural gas prices that are 10 times 
higher than they were when I was Secretary of Energy 15 years 
ago, they really boomed up there, that is a deterrent unless 
there is support for it. And the utilities are actually closing 
down some gas-fired plants because they are too expensive to 
operate. And that shifts over back into coal-fired plants and 
whatever is left of the nuclear game, which is about 105 
plants.
    So gas is very important, a very important element. And I 
applaud what is going on in the Gulf. They are sensitive. We 
have gone to hearings down there. They are very sensitive to 
the environmental issues. You can't take a rig out of the Gulf 
today, because they are sanctuaries for a lot of live animals 
in the ocean. So you have to get approval from the Federal 
government and everybody else if you want to even take out a 
rig, let alone put in a rig.
    And so I think that what we are seeing now is a more 
rational approach to extracting those kinds of resources. And 
the Gulf Coast should be given great credit for what they do 
for this country, giving us one-third of our oil and gas side 
of the energy equation.
    So I think we haven't taken--the trouble is, we get into 
this old mode of thinking that past is prologue. Well, what 
about Exxon Valdez, or what about this, or aren't they going to 
do--we have 25 years of research and technology that have given 
us much better approaches than this. And we know how to stop a 
blowout. We know how to do those things today. And we ought to 
get realistic about it, because we want to move toward a much 
less dependent energy sector than we have had.
    Mr. Brown. And that raises a real question to me. I mean, 
we have these mega oil tankers plying our oceans holding as 
much as 3 million barrels of oil. That is much larger than, you 
know, the Valdez.
    And so, anyway, I don't have much time left.
    Admiral Watkins. They carry ballast water which are filled 
with invasive species, which are doing great damage in all of 
our estuaries and our bays, like Chesapeake Bay. The Great 
Lakes are greatly infected by it. These are serious issues. So 
there are many related issues to that shipping that we needed 
to worry about in our ports.
    Ms. Bordallo. I thank the Ranking Member, and I will call 
on the gentleman from Rhode Island, Mr. Kennedy.
    Mr. Kennedy. Thank you. I just wanted to follow up with Mr. 
Pallone's comment to Admiral Watkins regarding the wind 
turbines. And the comment you made, as I took your comments, 
you are basically reemphasizing this whole idea of governance 
of the oceans and the coastal zone ought to be in place before 
we go down this road of siting these wind turbines all over the 
place. We ought to be putting in place our energy policy, and 
it ought to be consistent, so that it is not a hodgepodge of 
various approaches. Am I correct?
    Admiral Watkins. You are absolutely right, Mr. Kennedy.
    Mr. Kennedy. So I appreciate that. I agree that it----
    Admiral Watkins. You know, I think that one of the things 
when we talk about governance, people say well, if that is all 
you are going to do, is that going to solve the problem, the 
answer is of course not.
    If the only thing you are going to do is throw money at 
research, is that going to solve the problem? No.
    So when people say well, what is the one key thing, 
Admiral, that you want to see accomplished, we want to see all 
of these elements--there are about four or five different 
principles that need to be applied here. We have to go on 
education, science education as well as ocean education. We are 
an ocean-illiterate nation, and we have proven that. Even the 
White House has held conferences on it.
    We need to have more science and technology involvement. We 
need to have these regional councils that now can interface 
better through the Committee on Ocean Policy, and the Congress 
of the United States, so when we are drafting these things up 
we bring in the right stakeholders.
    We know how to gather those stakeholders together. We have 
done it now for five years, so we are ready to help in any way 
we can. And we want to be, we want to take our experience in 
this area over these many years of study, and help you all at 
this point in saying governance needs to be there, too. So it 
is one of the essential ingredients.
    Otherwise, I think we are going to continue the 
piecemealing, and that is not going to get us to the kind of 
results that we want for our kids and grandchildren in the next 
20 to 25 years.
    Ms. Bordallo. OK. I thank the gentleman from Rhode Island. 
And the Chair now recognizes Mr. Allen from the State of Maine.
    Mr. Allen. Thank you, Madame Chair. I have a question. I 
think the best thing to do would be just to submit this for the 
record, but let me say what it is.
    Whenever you list the things that need to be done, you 
always list having a national oceans policy first. And so the 
question would be if you can explain why that is so important, 
and talk a little bit about that.
    But we do have a vote. I am happy to have----
    Mr. Panetta. Let me keep this short. I think the problem is 
that, you know, look, there are lots of laws out there. There 
is CZMA, there is NOAA, there is other pieces.
    But what we have never done as a nation is made a 
commitment that we have a responsibility to protect our oceans. 
And I think that needs to be done in national policy. We do 
that, we say we care about our air, we care about, you know, 
our water, we care about protecting our land. We have not done 
that with our oceans. And it just seems to me that this country 
has to make a clear statement that we are committed, as a 
national trust, to protecting our oceans.
    And what that will do is it will give you the leverage then 
to begin to push these other pieces of legislation that are so 
important to ocean governance. That is why we keep emphasizing 
that.
    Mr. Allen. Thank you.
    Ms. Bordallo. I thank the gentleman. I thank all the 
Members for their questions. And Members of the Subcommittee 
may have some additional questions for the witnesses, and we 
will ask you to respond to these in writing. The hearing record 
will be open for 10 days for these responses.
    And I wish to take this opportunity to thank Ms. Glackin 
for her testimony today, and in particular Admiral Watkins and 
Hon. Panetta for their passionate interest in our oceans and 
its resources.
    If there is no further business before the Subcommittee, 
the Chairwoman again thanks the Members of the Subcommittee and 
our witnesses, the Subcommittee stands adjourned.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]

    NOTE: The following documents submitted for the record have 
been retained in the Committee's official files:
    <bullet>  Joint Ocean Commission Initiative: U.S. Ocean 
Policy Report Card 2006
    <bullet>  Joint Ocean Commission Initiative: From Sea to 
Shining Sea, Report to the United States Senate, June 2006
    <bullet>  U.S. Ocean Action Plan Implementation Update 
prepared by The Committee on Ocean Policy, January 2007
    <bullet>  Scientific Consensus Statement on Marine 
Ecosystem-Based Management, prepared by scientists and policy 
experts to <plus-minus>provide information about coasts and 
oceans to U.S. policy-makers, released on March 21, 2005

                               * * * * *



LEGISLATIVE HEARING ON H.R. 21, THE OCEANS CONSERVATION, EDUCATION, AND 
               NATIONAL STRATEGY FOR THE 21ST CENTURY ACT

                              ----------                              


                        Thursday, April 26, 2007

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Brown, Faleomavaega, 
Pallone, Kennedy, Capps, Saxton, and Gilchrest.

  STATEMENT OF THE HON. MADELEINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. The legislative hearing as the Subcommittee 
on Fisheries, Wildlife and Oceans will come to order. The 
Subcommittee is meeting today to hear testimony on H.R. 21, the 
Oceans Conservation, Education and National Strategy for the 
21st Century Act. Pursuant to Committee Rule 4(g) the Chairman 
and the Ranking Minority Member will make opening statements. 
If any other members have statement I invite you to submit them 
for the record.
    This morning's hearing will focus on H.R. 21, the Oceans 
Conservation, Education and National Strategy for the 21st 
Century Act. This forward looking legislation seeks to 
establish a comprehensive national ocean policy in the United 
States in full Federal agency coordination with respect to our 
ocean resources, encourage and support regional ocean 
governance, codify the functions of the National Oceanic and 
Atmospheric Administration in law, and establish an open trust 
fund to support improved conservation and management of our 
oceans.
    During a hearing that we held in March, this Subcommittee 
heard about priorities for ocean policy reform in the United 
States from former Congressman, Director of the Office of 
Management and Budget, and White House Chief of Staff Leon 
Panetta and former Secretary of Energy, Admiral James Watkins, 
the Chairs of the Pew Oceans Commission and the U.S. Commission 
on Ocean Policy respectively.
    Determined to ensure that the recommendations of their two 
commissions do not simply collect dust on a shelf, they have 
joined forces to establish the Joint Ocean Commission 
Initiative, and together they offered significant evidence and 
justification for action on the part of Congress to reform and 
improve the management and the conservation of our oceans.
    The United States is the custodian of over 13,000 miles of 
coastline and 3.4 million square nautical miles of ocean. Sixty 
thousand square nautical miles of ocean surround my home 
district of Guam alone, and according to the National Ocean 
Economics Program our ocean economy generated $138 billion and 
2.3 million jobs in 2004. While providing these many benefits, 
our oceans also face many threats in the form of pollution, 
over fishing, coastal development, oil and gas development, and 
climate change.
    Addressing these threats is complicated by the fact that we 
manage our oceans under a patchwork of uncoordinated laws and 
policies implemented by numerous Federal and state agencies. So 
it is time for us to formally recognize the importance of the 
ocean to this nation's economic, environmental, and social 
well-being by implementing legislation to reform the 
shortcomings of our current management system.
    It is our duty as representatives of the American people to 
ensure that the ocean and its resources will be managed in a 
way that allows for their continued use and enjoyment for all 
the generations to come. H.R. 21 is an important step forward 
in that effort, and I do look forward to hearing from its 
sponsors and our other witnesses here today. The Chairwoman now 
recognizes Mr. Brown, the Ranking Republican Member, for any 
statement that he may have.
    [The prepared statement of Ms. Bordallo follows:]

  Statement of Madeleine Z. Bordallo, a Delegate in Congress from Guam

    This morning's hearing will focus on H.R. 21, the Oceans 
Conservation, Education, and National Strategy for the 21st Century 
Act. This forward looking legislation seeks to establish a 
comprehensive national ocean policy in the U.S.; improve federal agency 
coordination with respect to our ocean resources; encourage and support 
regional ocean governance; codify the functions of the National Oceanic 
and Atmospheric Administration in law; and establish an ocean trust 
fund to support improved conservation and management of our ocean 
resources.
    During a hearing we held in March, this Subcommittee heard about 
priorities for ocean policy reform in the United States from former 
Congressman, Director of the Office of Management and Budget and White 
House Chief of Staff, Leon Panetta, and former Secretary of Energy 
Admiral James Watkins--the chairs of the Pew Oceans Commission and the 
U.S. Commission on Ocean Policy respectively. Determined to ensure that 
the recommendations of their two commissions do not simply collect dust 
on a shelf, they have joined forces to establish the Joint Ocean 
Commission Initiative. Together, they offered significant evidence and 
justification for action on the part of Congress to reform and improve 
the management and conservation of our oceans.
    The U.S. is the custodian of over 13,000 miles of coastline and 3.4 
million square nautical miles of ocean--60,000 square nautical miles of 
ocean surround my home district of Guam alone. According to the 
National Ocean Economics Program, our ocean economy generated 138 
billion dollars and 2.3 million jobs in 2004.
    While providing these many benefits, our oceans also face many 
threats in the form of pollution, over-fishing, coastal development, 
oil and gas development and climate change. Addressing these threats is 
complicated by the fact that we manage our oceans under a patch-work of 
uncoordinated laws and policies implemented by numerous Federal and 
state agencies.
    It is time for us to formally recognize the importance of the ocean 
to this nation's economic, environmental, and social well-being by 
implementing legislation to reform the shortcomings of our current 
management system. It is our duty as Representatives of the American 
people to ensure that the ocean and its resources will be managed in a 
way that allows for their continued use and enjoyment for generations 
to come. H.R. 21 is an important step forward in that effort, and I 
look forward to hearing from its sponsors and our other witnesses hear 
today.
                                 ______
                                 

   STATEMENT OF THE HON. HENRY E. BROWN, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Thank you, Madam Chairman. We are here today to 
discuss H.R. 21, the Ocean Conservation, Education National 
Strategy for the 21st Century Act which was sponsored by our 
colleague, Congressman Sam Farr, from California. While better 
coordination is certainly needed with regard to the management 
of our ocean and its vital resources, H.R. 21 mandates far too 
many regulatory requirements in one piece of legislature. One 
area of concern is the creation of the national ocean policy 
and standards. The national policy and standards would apply to 
any Federal action authorized including the issuance of Federal 
licenses and permits, carried out and funded by a Federal 
agency affecting U.S. waters.
    Even if there are existing legislature authorizing the 
Federal agency action, H.R. 21 would require the Federal agency 
to certify that action and question would be conducted in a 
manner that is consistent with the protection, maintenance and 
restoration of healthy ecosystems. In addition, the bill 
requires administration of the National Oceanic and Atmospheric 
Administration to make a determination on the action, including 
a detailed assessment of the effects the action will have on 
the marine environment and recommendations to remedy any 
identical deficiencies.
    We currently have a law governing environmental impacts of 
Federal actions on the environment, the National Environmental 
Policy Act. I find it unnecessary to create an overreaching new 
law which would duplicate existing statutes. I support better 
coordination to ensure the conservation and best management 
practice of our coastal areas, the ocean and its resources, but 
we should be able to do so without creating a newly overly 
burdensome process.
    Another area of concern with H.R. 21 deals with the 
creation of an Ocean and Great Lakes Conservation Trust Fund. 
While I find the creation of a special stamp an instant way to 
add public assured support for ocean conservation activities 
based on the outcome of previous semipostal still it will not 
generate enough revenue to support even some of the myriad of 
activities prescribed in H.R. 21.
    The author of the bill must also recognize this limitation 
since the bill would direct the Secretary of Treasury to 
deposit $1.3 billion in general revenue every year after Fiscal 
Year 2007 into the trust fund. General revenue in the Treasury 
are allocated to existing programs. As well know, the House 
reinstated the pay-as-you-go rule this Congress which will 
require a budget offset for the use of these general revenues.
    Existing programs would have to be reduced or the American 
taxpayers would be hit with a staggering new tax bills to raise 
the money to be transferred to the Ocean Trust Fund. Madam 
Chairman, I do not agree with the approach taken in H.R. 21 
which is objectively over prescriptive. Instead I would 
recommend looking at each chapter of the Ocean Commission 
Report and the specific piece of legislation it references to 
develop specific changes to each law instead of creating a new 
overreaching bill that supersedes existing authorities.
    Congress initiated a review of our ocean policies when we 
passed the Ocean Act of 2000. The U.S. Commission on Ocean 
Policy released its report in September 2004, and the Congress 
started its deliberation on the recommendations in the 109th 
Congress. I would be pleased to work with you, Madam 
Chairwoman, as we develop ocean legislation that will benefit 
your constituents in Guam and mine in South Carolina and the 
nation.
    I look forward to hearing from our witnesses today and 
deliberating further on what action Congress should take with 
regards to the Ocean Commission recommendation, and I thank 
you, Madam Chairwoman, for conducting this hearing today, and I 
really look forward to listening to the witnesses. Thank you 
very much.
    Ms. Bordallo. The Chair thanks Mr. Brown, the gentleman 
from South Carolina. And now I would like to recognize Mr. 
Saxton, an original cosponsor of this legislation for a brief 
opening statement. Mr. Saxton.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. Thank you very much, Madam Chairman. First let 
me welcome our great friends and colleagues, Mr. Farr and Mr. 
Allen, this morning as our first witnesses, and I must say as 
you just said, Madam Chairlady, I am very proud to have been 
able to join with these two gentlemen and a few others in 
cosponsoring this legislation, and thank you, Madam Chairlady, 
for holding this hearing today. I think it is a great start.
    Various versions of the Oceans 21 bill have been introduced 
in each Congress since the 108th Congress. As a Co-Chair of the 
House Oceans Caucus and as someone with a great interest in the 
health of our coastal and ocean areas, I have been pleased to 
work with the other Co-Chairs of the Caucus in drafting and 
refining the legislation that is the subject of our hearing 
today.
    We do need to make progress on the big picture, Madam 
Chairlady. Reforms highlighted by the U.S. Commission on Ocean 
Policy, establishing a national ocean policy for Federal 
coordinated framework, passing a NOAA Organic Act, and 
supporting regional governance initiatives are extremely 
important. This bill I must say--like every other bill that 
comes before this committee--may not be perfect but that is why 
the committee is here to work the imperfections and to make 
them as good as we can.
    I remain concerned about the effect of a number of 
provisions contained in the bill but let us work on it. I do 
believe that the Oceans 21 represents a very good starting 
point for discussions and will help us make progress 
implementing much needed reforms. Let me just make one other 
comment, Madam Chairlady. I am working on another related 
project, and maybe it can become part of this project.
    The gentleman to my right represents much of the beautiful 
eastern short of Maryland which borders on the Chesapeake Bay, 
and I prefer to look at the ocean, its tributaries and the 
estuarine areas as one system, and to the extent that we can 
deal with issues like those that confront my colleague from 
Maryland and the Chesapeake Bay, recognizing that the issues 
involved in these subjects are extremely important, we can make 
real progress.
    So I look forward to working with you, Madam Chairlady, the 
other cosponsors of the bill and with interested parties to 
bring this bill to the Floor. I think it is high time we did 
so, and I hope that we can do it in a coordinated, amicable 
way. Thank you, Madam Chairlady.
    [The prepared statement of Mr. Saxton follows:]

  Statement of The Honorable Jim Saxton, a Representative in Congress 
                      from the State of New Jersey

    Thank you Madam Chairman. And thank you for holding this hearing 
today. Versions of the OCEANS-21 bill have been introduced each 
Congress since the 108th. As a co-chair of the House Oceans Caucus--and 
as someone with a real interest in the health of our coastal and ocean 
areas--I have been pleased to work with the other co-chairs of the 
Caucus in crafting and refining the legislation that is the subject of 
our hearing today.
    We do need to make progress on ``big picture'' reforms highlighted 
by the U.S. Commission on Ocean Policy--establishing a national ocean 
policy and federal coordination framework, passing a NOAA Organic Act 
and supporting regional governance initiatives. I have joined with Mr. 
Farr and my colleagues in the leadership of the House Ocean Caucus as 
an original sponsor of OCEANS-21 to get the discussion moving and make 
progress.
    The bill is still not perfect. I remain concerned about the effect 
of a number of provisions contained in the bill. But I do believe 
OCEANS-21 represents a very good starting point for discussions--and 
will help us make progress implementing much-needed reforms. Thank you.
                                 ______
                                 
    Ms. Bordallo. Thank you, Mr. Saxton. I would now like to 
recognize our witnesses, and our first panel includes members 
who have asked to testify on the legislation and includes the 
lead sponsors of the bill but before I do that, I would like to 
welcome the gentlelady from California, Mrs. Capps, and also 
Mr. Wayne Gilchrest from the State of Maryland.
    And before I do that, I have one special guest in the 
audience. I would like to take just a moment to recognize 
Sedoni Bexton. Sedoni is a senior of Georgetown Visitation High 
School. She is shadowing me today as part of a program 
sponsored by the Women's Caucus, the Women's Policy 
Incorporated, Girls Incorporated and the National Capitol 
Console of the Girl Scouts of the United States of America. 
Would you please stand, Ms. Bexton?
    Ms. Capps. May I do the same? I apologize to request going 
out of order but I also have a daughter here today, and her 
name is Micki, and she is a part of the Take Your Daughters to 
Work, and I want to thank our Chairwoman for acknowledging this 
wonderful program and the sponsoring organizations, and the 
fact that we have two budding leaders in our audience should 
make our witnesses do even a better job of testifying today.
    Ms. Bordallo. It just further proves women's power. Now it 
is my great distinction to be able to introduce The Honorable 
Sam Farr, Congressman from the 17th District of California, and 
The Honorable Tom Allen, from the 1st District of the lovely 
State of Maine. The Chairwoman now recognized Congressman Farr 
to testify for five minutes.

 STATEMENT OF THE HON. SAM FARR, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Farr. I am delighted to be here with you and the 
committee and the Ranking Member, Mr. Brown, as a 
representative of a team effort. There are two of us sitting at 
this table, and there are two members of this team sitting on 
the dais who are all the cosponsors of this bill. This bill 
that you are reviewing today started here in this committee in 
year 2000 with the creation of an Oceans Commission, for the 
same reasons that Mr. Brown talked about is that there is sort 
of chaos in the sea, and what we were learning in Congress is 
that the oceans are dying, and have been dying for years 
because we dump everything that we do not want on land into the 
oceans, and that is having a consequential effect.
    When you try to solve the problems, they become very 
complex because the U.S. Government has created a multiplicity 
of agencies and jurisdictions more so than in any other area, 
and when you think about it on land and in the air, we have 
created a governance system with the air traffic control so 
that we can at least have some coordination of what is going up 
into the air, and on land we have created a national 
transportation program that integrates national, state and 
local policy and road building.
    When it comes to the seas, it is just a chaos between the 
responsibilities of the Federal government, the 
responsibilities of state government and local government, and 
many times conflicts that hurt the economic well-being of those 
users of the sea. So how do you put all this together? This 
committee, along with the Senate, created a Commission, which 
you mentioned that Admiral Watkins--not only a former head of 
Naval Operations but Secretary of Energy--was the Chair of. 
That bill was signed into law by President Clinton. The members 
of that Commission were appointed by President Bush.
    That Commission worked alongside of a private commission 
called a Pew Charitable Trust that had the original chair was 
Christie Todd Whitman, former Governor. She had to resign when 
she became head of EPA. Leon Panetta, former Chief of Staff, 
took over and chaired it, and you have had the co-chairs of 
both of those Commissions present their collective report.
    This bill is that product, and for all of us who are 
lawmakers, I have to say that I do not think in my lifetime I 
have ever seen a piece of legislation that has had more 
national scrutiny because these Commissions held hearings all 
over the United States from all aspects and put together their 
collective interests in what they thought would address the 
concerns of having a national ocean policy.
    So we are very fortunate that a lot of that work that 
usually has to be done here has been done, and we were able to 
glean and we did this by using a bipartisan process created in 
an Oceans Caucus that all the participants in that caucus and 
their staffs gleaned through these reports, pulled out what 
they thought would be appropriate legislation.
    What is not in this bill is the issues relating to 
fisheries. That is in the Magnuson Act, and our Congress 
updated the reenactment of the Magnuson Act last year. What is 
not in this bill is marine mammal protection but what is in 
this bill is an ability to create at the regional level, at the 
local level, not top down but a bottoms up that meets a 
national policy standard. That is very, very exciting because 
it brings certainty which is what we do not have now. Brings 
certainty to the governance of the sea, and this country has 
the responsibility for all the waters around it and the Great 
Lakes. The waters of the sea as you know in Guam out to 200 
miles.
    And the only way we are ever going to be able to create a 
national policy on that is to adopt legislation such as this. I 
commend you. This bill has been introduced by Jim Greenwood 
many years ago. We worked on that. Never got a hearing. Later 
by Curt Weldon. Never got a hearing because it was not the 
priority of this committee in the past.
    It is the priority of the Nation right now, and I 
congratulate you for allowing us to have this hearing, and I 
congratulate all my copartners that are in this room today for 
the hard work that they have done in bringing this legislation 
to you, and with that the other cosponsor of this bill, Tom 
Allen from Maine who represents a fishing state.
    [The prepared statement of Mr. Farr follows:]

Statement of The Honorable Sam Farr, a Representative in Congress from 
                        the State of California

    Madam Chairwoman, Ranking Member Brown, and distinguished Members 
of this Subcommittee, thank you for holding this hearing on H.R. 21, 
the ``Oceans Conservation, Education, and National Strategy for the 
21st Century Act'' (also known as ``OCEANS-21'').
    H.R. 21 is the product of years of work from a wide range of 
people. Before I address the content of the bill, I want to describe 
the process leading up to today, because I believe this will 
demonstrate the dire need and public support for action on this issue.
    In June of 1998, the White House held its first National Oceans 
Conference in my district in Monterey. President Clinton and Vice 
President Gore spoke, and three Cabinet members attended. This event 
provoked Congress to pass the Oceans Act of 2000. The Oceans Act 
created the U.S. Commission on Ocean Policy to review this nation's 
management of the oceans, coasts, and Great Lakes, which had not been 
done since the Stratton Commission in 1965.
    The Commission was tasked with making recommendations for a 
coordinated and comprehensive national ocean policy. At the same time, 
the Pew Charitable Trust founded the Pew Ocean Commission to 
independently review this nation's ocean policy. Both commissions were 
comprised of highly respected scientists, politicians, corporate 
executives, and coastal community representatives. Between these two 
commissions, they visited more than forty cities around the country and 
took comments from thousands of citizens.
    These reports were conducted simultaneously, but independently. The 
Pew Ocean Commission released their report in May of 2003 and the U.S. 
Commission on Ocean Policy in July of 2004. Both reports highlight the 
importance of the oceanic, coastal, and Great Lake resources to the 
U.S. economy, the degraded state of these resources and the ecosystems 
that support them, and the need to change the way we manage these 
resources. The reports and recommendations were so similar, the Chairs 
of both commissions agreed to form the Joint Ocean Commission 
Initiative in 2005 to advocate the adoption of a consolidated version 
of their commissions' recommendations. The report entitled ``Sea to 
Shining Sea'' was released in June 2006.
    As the commissions were finishing their reports, I worked with Mr. 
Allen and Mr. Saxton and the commissions' staff to author a bill that 
would implement their recommendations. That first version was 
introduced jointly by several co-chairs of the House Oceans Caucus 
shortly after the U.S. Commission released their report. The bill that 
is before you now is the third time we've introduced it, and I am the 
third Member of Congress to carry it.
    H.R. 21 was significantly revised before it was introduced this 
year. Most importantly, we removed the ocean science, education, and 
exploration components and focused on ocean governance. All that 
remains now is a meaningful national ocean policy and the governance 
structures necessary to implement it. Some highlights of the bill are:
Title I: Establishment of a National Oceans Policy
    <bullet>  Establishes a national oceans policy ``...to protect, 
maintain, and restore the health of marine ecosystems...'',
    <bullet>  Establishes standards for applying this policy to federal 
activities that impact the oceans and coasts, and
    <bullet>  Includes an implementation mechanism to ensure that the 
standards are met.
Title II: NOAA Organic Act
    <bullet>  Establishes NOAA as an agency within the Department of 
Commerce,
    <bullet>  Includes a section on resource management, and
    <bullet>  Adds Education to NOAA's mission.
Title III: National Ocean Leadership and Coordination
    <bullet>  Creates a system to advise the President on ocean issues 
and coordinate Federal agency activities that effect the ocean, and
    <bullet>  Codifies the Committee on Ocean Policy, which has been 
authorized by executive order.
Title IV: Regional Coordination and Ecosystem Planning
    <bullet>  Establishes a system of regional partnerships for 
coordinating federal activities that impact the ocean, and
    <bullet>  Establishes a network to share information about the 
ocean ecosystem in each region.
Title V: Ocean and Great Lakes Conservation Trust Fund
    <bullet>  Creates a pool of money to fund the activities required 
by this act, and
    <bullet>  Authorizes the money to come from General Revenue, an 
Ocean Stamp, money that hasn't been spent in previous years, and 
interest.
Title VI: Administration Funding
    <bullet>  Authorizes NOAA to receive appropriated funds, and
    <bullet>  Allows those funds to be available until they have been 
spent.
    In closing, thank you again for holding this hearing today. I look 
forward to continuing to work with the committee, nongovernmental 
partners, federal agencies and others to pass this bill this Congress.
                                 ______
                                 
    Ms. Bordallo. The Chair thanks The Honorable Mr. Farr for 
his testimony, and your entire statement will be entered into 
the record. I now recognize our colleague from Maine, Mr. Tom 
Allen.

  STATEMENT OF THE HON. THOMAS H. ALLEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Mr. Allen. Thank you, Madam Chair. I want to thank you and 
Ranking Member Brown for holding this hearing. It is a pleasure 
to be here with my friend, Sam Farr, who along with Mr. Saxton 
and Mr. Gilchrest have been working on this legislation for 
some period of time, and now we have a product, and as I think 
Mr. Saxton said, it may not be perfect but it can be made 
better by this committee.
    Madam Chair, my home state of Maine is a coastal state, and 
our way of life is profoundly connected to the ocean. Many of 
my constituents depend directly on the ocean for their 
livelihoods through ocean related industries such as commercial 
and recreational fishing, aquaculture, tourism, transportation, 
and other industries. However, all Americans from Maine to 
Oklahoma to Alaska--not forgetting Guam, Madam Chair--are 
connected to the oceans in many additional ways.
    We depend on the oceans for food, transportation and 
protection. The oceans are closely connected to weather and the 
effects of oceanographic fluctuations are felt from the 
farmlands in our interior to the coastal plains. We need to 
understand oceanographic patterns in order to understand, 
predict, and protect ourselves from weather patterns, ocean 
related natural disasters, and climate change.
    The U.S. ocean economy is valued at over $115 billion per 
year and supports over 28 million jobs. Oceans are culturally 
important to Americans in ways that simply cannot be easily 
quantified. There is a critical need to effectively coordinate 
use of the oceans by all the diverse interest groups that 
depend on them, from fishermen to oil and gas companies to 
those in the tourism industry. At the same time, it is critical 
that we keep our oceans health and protect the marine 
ecosystems upon which we all depend.
    This bill, H.R. 21, is an important first step. It will do 
several things but I want to mention four. One, it will 
establish a national ocean policy and standards for management 
of U.S. oceans and coasts. It is critical that we have a 
comprehensive management plan for this valuable resource. Two, 
it will promote ecosystem based regional ocean governance. 
Every region has specific economic and ecological needs and 
management must be responsive to those needs. This regional 
structure will be collaborative and facilitate communication 
among Federal, state and local management agencies.
    Three, it will enhance national oceans governance structure 
by strengthening important existing functions and facilitating 
communication at the national level. This includes codification 
of the National Oceanographic and Atmospheric Administration. 
Four, it will establish an Oceans and Great Lakes Conservation 
Trust Fund. This fiscally responsible step will help to fund 
local, state and Federal efforts to develop and implement this 
Act.
    I believe that this bill will be good for my home state of 
Maine, and obviously for all other states but for Maine, just 
to give an example, it will first sanction, lend credibility, 
and provide structure and consistent funding for the Gulf of 
Maine Council. Second, it will help us to accomplish state 
goals that require a regional response. And third, it will make 
the Federal government more responsive to and focused on 
regional needs.
    The bottom line is that cooperation and coordination are 
essential in order for us to protect our ocean resources and 
also for us to profit from them. Our own economic well-being 
and the health of our oceans depend on our ability to 
successfully share these resources. H.R. 21 is the first step 
toward securing for present and future generations the full 
range of benefits of healthy marine ecosystems.
    And I just want to congratulate all those who have been 
involved in this bill. We look forward to hearing the results 
of this hearing. I yield back my time. Thank you very much, 
Madam Chair.
    [The prepared statement of Mr. Allen follows:]

    Statement of The Honorable Thomas H. Allen, a Representative in 
                    Congress from the State of Maine

    My home state of Maine is a coastal state, and is deeply connected 
to the Ocean. Many of my constituents depend directly on the Oceans for 
their livelihoods through ocean-related industries such as commercial 
and recreational fishing, aquaculture, tourism, transportation, and 
other industries.
    However, all Americans, from Maine to Oklahoma to Alaska, are 
connected to the Oceans in many additional ways.
    1.  We depend on the Oceans for directly for food, transportation, 
and protection.
    2.  The Oceans are closely connected to weather, and the effects of 
oceanographic fluctuations are felt from the farmlands in our interior 
to the coastal plains.
    3.  We need to understand oceanographic patterns, in order to 
understand, predict, and protect ourselves from weather patterns, 
ocean-related natural disasters, and climate change.
    4.  The U.S. Ocean Economy is valued at over $115 billion per year, 
and supports over 28 million jobs.
    5.  Oceans are culturally important to Americans in ways that 
cannot be easily quantified.
    There is a critical need to effectively coordinate use of the 
Oceans by all the diverse interest groups that depend on them, from 
fishermen to oil and gas companies to those in the tourism industry. At 
the same time, it is critical that we keep our oceans healthy and 
protect the marine ecosystems upon which we all depend.
    This bill, H.R. 21, is an important first step. It will:
    1.  Establish a National Ocean Policy and standards for management 
of U.S. Coasts and Oceans. It is critical that we have a comprehensive 
management plan for this valuable resource.
    2.  Promote ecosystem-based, regional ocean governance. Every 
region has specific economic and ecological needs, and management must 
be responsive to those needs. This regional structure will be 
collaborative and facilitate communication among federal, state, and 
local management entities.
    3.  Enhance national oceans governance structure by strengthening 
important existing functions and facilitating communication at the 
national level. This includes codification of the National 
Oceanographic and Atmospheric Administration (NOAA).
    4.  Establish an Oceans and Great Lakes Conservation Trust Fund. 
This fiscally responsible step will help to fund local, state, and 
federal efforts to develop and implement this Act.
    I believe that this bill will be good for my home state of Maine. 
For example, it will:
    1.  Sanction, lend credibility, and provide structure and 
consistent funding for the Gulf of Maine Council
    2.  Help us to accomplish State goals that require a regional 
response
    3.  Make the federal government more responsive to and focused on 
regional needs
    The bottom line is that cooperation and coordination are essential 
in order for us to protect our ocean resources, and also for us to 
profit from them. Our own economic well-being and the health of our 
oceans depend on our ability to successfully share those resources. 
H.R. 21 is the first step toward securing, for present and future 
generations, the full range of benefits of healthy marine ecosystems.
                                 ______
                                 
    Ms. Bordallo. I would like to thank my two colleagues for 
their testimony and to give them an A plus. They stayed within 
the five-minute limit. And I would like to invite you to be 
here on the dais for the remainder of the hearing, and ask 
unanimous consent from my colleagues that they be allowed to do 
so. Hearing no objection, so ordered.
    The Chairwoman now recognizes our second panel of 
witnesses, and before that I would like to recognize the 
representative from my sister territory, American Samoa, The 
Honorable Eni Faleomavaega, who has joined us.

STATEMENT OF THE HON. ENI FALEOMAVAEGA, A DELEGATE IN CONGRESS 
              FROM THE TERRITORY OF AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Madam Chair, and I certainly 
want to thank you for your initiative, and certainly with our 
Ranking Member, the gentleman from South Carolina, for having 
this hearing this morning. I think the last 100 years that I 
have been member of this committee I do not know how much more 
I need to say about the value of oceans. As I have always 
complained over the years, our national interest involving 
oceans or marine resources, the tremendous potential as it is 
demonstrated already in terms of how much our economy depends 
so much on the oceans and the coastal states that provide for 
that need, whether it be for commercial purposes or whether it 
be for conservation.
    As you know, we both live in the largest ocean in the 
world. You are in the northern Pacific, and I am in the South 
Pacific. My little jurisdiction is about 2,400 miles directly 
south of Hawaii, and I seem to notice that there is a lot of 
question marks and some of the people there in the audience are 
saying where in the world is this guy from?
    But as I have said, Madam Chair, I have always said that if 
it was possible for the Congress and if you want to know the 
priorities of our country, look in the budget, and I have the 
utmost respect of the fact that each year we allocate about a 
billion dollars for the needs of our land grant colleges and 
institutions because in those days as it is true the value of 
agriculture, the mainstay and the heart and soul of one of our 
economic bases, and my question is: Why can we not provide the 
same kind of resources to develop and conserve what we have out 
there in the oceans?
    And I think this is a direct interest not only for all our 
coastal states but those of us who live right in the middle of 
the ocean. Now we have said that coral reef is the farm or I 
say the ocean is our farm, and so I want to thank my good 
friend from California and the gentleman from Maine for their 
sponsorship of this legislation.
    My only disappointed, Madam Chair, is that my name is not 
on it as an original cosponsor of this legislation. As I 
totally agree with my good friend, Mr. Saxton, it is a good 
start. The only concern that I may have is that if we might be 
overlapping or duplicating some other aspects of other councils 
and other organizations that still deal also with marine 
resources, conservation of our oceans, and this is something 
that I think our Subcommittee has to look at very carefully. 
Thank you, Madam Chair.
    Ms. Bordallo. Thank you. Thank you very much, Mr. 
Faleomavaega, and the Chair also welcomes another member to the 
committee, and that is Mr. Frank Pallone. And now our witnesses 
on this second panel include Mr. Jack Dunnigan, Assistant 
Administrator for Oceans Services and Coastal Zone Management 
at the National Oceanic and Atmospheric Administration, and Ms. 
Kathleen Leyden, Chair of the Regional Ocean Governance Work 
Group for the Coastal State Organization and Director of the 
Main Coastal Program.
    I would like now to recognize Mr. Dunnigan to testify for 
five minutes, and I would note for all witnesses that the red 
timing light on the table will indicate when your time has 
concluded, and we would appreciate your cooperation in 
complying with the limits that have been set as we have many 
witnesses to hear from today. So be assured that your full 
written statement will be submitted for the hearing record, and 
now Mr. Dunnigan.

 STATEMENT OF JACK DUNNIGAN, NOAA ASSISTANT ADMINISTRATOR FOR 
           OCEAN SERVICES AND COASTAL ZONE MANAGEMENT

    Mr. Dunnigan. Thank you, Madam Chair. Good morning members 
of the Subcommittee. I am Jack Dunnigan from NOAA. I am in that 
great title that the Chairlady recognized. That makes me the 
Director of the National Oceans Service, and I have a great 
opportunity to work with many wonderful people who are 
passionately concerned about the oceans and about protecting 
the heritage that they represent.
    Madam Chair, since you indicate that the statement will be 
included in the record, I think I would just like to highlight 
a couple of important ideas that we think are in the 
Administration's testimony. I think if you read the testimony 
you can tell that there are some major concerns that the 
Administration has with many provisions of this legislation.
    I think, however, you should not take that to indicate that 
we do not share much of the passion and the goals that the 
sponsors of this legislation would like to see us move toward, 
and from our standpoint we would certainly look forward to 
continuing to have the opportunity to talk to the committee and 
talk to your staff about these important issues of the oceans 
and the environmental and economic security that they imply for 
our country. So we look forward to continuing to have those 
discussions.
    Over the past three years, the Administration has been 
working to address many of the priority areas that are 
contained in H.R. 21 and that have been identified by the U.S. 
Commission on Ocean Policy, the Pew Oceans Commission, and the 
Joint Ocean Commission Initiative. Through the President's 
ocean action plan and the existing Committee on Ocean Policy, 
the Administration has taken significant steps to improve the 
effective management of our nation's ocean and coastal 
resources.
    The Administration has also supported strengthening NOAA, 
and taking better steps to coordinate all of our programs 
regionally with a broad array of our partners. H.R. 21 seeks to 
implement many of the U.S. Ocean Commission's recommendations 
by establishing a national oceans policy and national standards 
for actions that affect U.S. ocean waters and ocean resources. 
The concerns that we have with the approach as proposed in the 
bill as it currently stands are that it may actually create 
some conflicts with a vast array of legislation that Congress 
has passed and that we already administer.
    Congress did a lot of work last year to get the Magnuson-
Stevens Act reauthorized, and we are working very hard to 
implement that. We think that the best way to see the statutes 
get coordinated is for those parts of the agencies that have 
that responsibility to sit down and work these things out. We 
are not sure that the way the bill approaches it to establish a 
lot of structure around that is really the best way for us to 
go forward.
    At the same time that the President released his ocean 
action plan which identifies many actions which are needed to 
more effectively ocean and coastal resources, NOAA was 
designated the lead by the Council on Environmental Quality or 
the co-lead on 45 different items, and we have been working 
very hard under the ocean action plan to address those items. 
As of today, 36 of them have been completed, and we are still 
working on nine. So there is very much that is ongoing on the 
part of the Administration in following up on the report of the 
U.S. Commission and on implementing the President's oceans 
action plan.
    H.R. 21 would reestablish NOAA, stipulating its mission and 
functions through an Organic Act. NOAA has long believed and 
the Administration has long believed that there should be 
organic legislation for establishing NOAA. We had legislation 
that was proposed in the 109th Congress, and the Administration 
will shortly be delivering legislation to you for the 110th 
Congress that will do much the same as we proposed. So we would 
like to make sure we have the opportunity to discuss those 
issues when that bill is available from the Administration.
    This bill would do a lot for regional collaboration. You 
should know that NOAA has been spending tremendous efforts to 
help support the Gulf of Mexico Alliance, the Governors' 
Initiative in the Northeast, the Three Governors' Initiative 
along the West Coast, California, Washington and Oregon. We 
think there is a lot of energy that is in the system that has 
really percolated up from the bottom that is giving us an 
opportunity to move forward in the same direction that the bill 
would like to take us.
    Madam Chair, the last point that I will make here in my 
oral testimony has to do with an integrated ocean observing 
system which is referred to in the legislation. It has long 
been a priority of NOAA and of the Administration to integrate 
our ocean observing systems and have agencies working more 
collaboratively with each other, with stakeholders, with 
regional partners, in order to make better use of the data that 
is available and to fill gaps, and we appreciate the 
opportunity to work with you and with your staff on legislation 
that can get that done.
    [The prepared statement of Mr. Dunnigan follows:]

Statement of John H. Dunnigan, Assistant Administrator, National Ocean 
    Service, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Good afternoon Chairwoman Bordallo, Congressman Brown, and Members 
of the Committee. I am John H. Dunnigan, Assistant Administrator for 
Ocean Services and Coastal Zone Management at the National Oceanic and 
Atmospheric Administration (NOAA), in the Department of Commerce. Thank 
you for the opportunity to testify before you today on H.R. 21: the 
Oceans Conservation, Education, And National Strategy For The 21st 
Century Act.
    In 2007, NOAA is very proud to be celebrating 200 years of science, 
service and stewardship to our nation. Much of America's scientific 
heritage is rooted in NOAA and its predecessor agencies--from the 
establishment of the Survey of the Coast in 1807 by Thomas Jefferson, 
to the formation of the Weather Bureau and the Commission of Fish and 
Fisheries in the 1870s. We continue to honor this legacy as we work 
with federal, state, tribal, and international partners, as well as 
Congress and other stakeholders, to fulfill our mission to conserve, 
manage, and protect our nation's ocean, coastal, and Great Lakes' 
resources. Understanding the linkages between the oceans and atmosphere 
regarding climate, weather, and ocean, coastal, and Great Lakes' 
processes is necessary for NOAA to meet the interests of the nation
    While we acknowledge and appreciate the intent of the Committee to 
formulate a bill that provides guidance on ocean policy and governance, 
the Administration has serious concerns with H.R. 21 and therefore must 
oppose it in its current form. Over the past few years the 
Administration, including NOAA, has worked hard to address each of the 
priority areas contained within H.R. 21. We are committed to continuing 
these efforts and look forward to working with Congress to provide, 
amend, or reauthorize statutory authorities as appropriate to further 
these purposes. Many of the provisions in this bill are inconsistent 
with the President's Ocean Action Plan, are impractical, or are 
inconsistent with existing laws, some of which are quite recently 
enacted or amended.
    In particular, the Administration opposes the provisions to create 
a national ocean policy that over reaches on ocean stewardship, 
possibly to the detriment of other significant national interests. The 
Administration also objects to the creation of a Ocean, Coastal, and 
Great Lakes Trust Fund, which circumvents the annual process to 
evaluate and make trade offs among different priorities for funding on 
an annual basis. In addition, Title III of H.R. 21 would statutorily 
create a number of positions and mechanisms within the Administration 
to provide high-level guidance and coordination for ocean issues. While 
the Administration supports the goals of these provisions, we believe 
there are effective mechanisms currently in place to achieve these 
purposes. Therefore the Administration objects to Title III, because it 
would limit and interfere with the President's flexibility to pursue 
these goals, because it would statutorily establish entities in the 
Executive Office of the President, and because it would statutorily 
establish a new Council of Advisors on Oceans Policy. Finally, while we 
support the passage of a NOAA Organic Act, we have strong concerns with 
the provisions in H.R. 21 that would constrain the agency's ability to 
best organize itself to meet current mission priorities. The 
Administration supports many of the principles embodied in this bill--
such as, ecosystem-based approaches to management, the need for a 
strengthened NOAA, and regional ocean governance--however, our concerns 
with the specific provisions in H.R. 21 are serious enough that we 
would oppose its passage in its current form.
    The Administration has too many comments to discuss each one in 
detail in this statement, but we look forward to working with you, 
Chairwoman Bordallo, other Members of the Committee, and the sponsors 
of this legislation, to fashion a bill that addresses our mutual desire 
for ocean conservation and appropriate use of our oceans and coasts. I 
would like to review each of the main purposes of the bill and 
highlight key efforts the Administration has already undertaken, and 
continues to conduct, to advance our nation's ocean programs, policy, 
governance, and structure.

Establish in Law a National Policy Framework for Our Oceans
    The bill, H.R. 21, seeks to establish a national oceans policy and 
national standards for actions affecting U.S. ocean waters or ocean 
resources. On September 20, 2004, the U.S. Commission on Ocean Policy 
fulfilled its congressional mandate by submitting recommendations for a 
coordinated and comprehensive national ocean policy to the President 
and Congress. The Commission's final report, An Ocean Blueprint for the 
21st Century, contained 212 recommendations addressing a broad range of 
ocean and coastal topics. The U.S. Commission on Ocean Policy further 
outlined the need for enhancing ocean leadership and coordination, 
developing the institutional capacity to coordinate across 
jurisdictional boundaries, and strengthening the multi-agency structure 
in phases in order to enhance the goal of addressing management needs 
through an ecosystem-based approach to ocean and coastal resources.
    In response to the Commission's findings and recommendations, the 
President issued Executive Order 13366 on December 17, 2004, 
establishing a Cabinet-level Committee on Ocean Policy, whose 
membership includes the Secretaries of Commerce, State, Defense, the 
Interior, Agriculture, Health and Human Services, Transportation, 
Energy, and Homeland Security, and the Attorney General. Other members 
of the Committee on Ocean Policy include the Administrator of the 
Environmental Protection Agency, the Director of the Office of 
Management and Budget, the Administrator of the National Aeronautics 
and Space Administration, the Director of National Intelligence, the 
Director of the Office of Science and Technology Policy, the Director 
of the National Science Foundation, and the Chairman, Joint Chiefs of 
Staff; and the Assistants to the President for National Security 
Affairs, Homeland Security, Domestic Policy, Economic Policy, and an 
employee of the United States designated by the Vice President.
    Executive Order 13366 also provides the following guidance: ``It 
shall be the policy of the United States to
    A)  coordinate the activities of executive departments and agencies 
regarding ocean-related matters in an integrated and effective manner 
to advance the environmental, economic, and security interests of 
present and future generations of Americans; and
    B)  facilitate, as appropriate, coordination and consultation 
regarding ocean-related matters among Federal, State, tribal, local 
governments, the private sector, foreign governments, and international 
organizations.''
    At the same time, President Bush released the U.S. Ocean Action 
Plan, which identifies immediate short-term and medium-term actions 
necessary to more effectively manage coastal and ocean resources. The 
U.S. Ocean Action Plan includes a set of Guiding Principles (in the 
introduction) that set the stage for activities of the Committee on 
Ocean Policy. To summarize, these principles include:
    <bullet>  Balancing continued conservation with public use,
    <bullet>  Employing the best science to inform decision-making,
    <bullet>  Continuing to work towards an ecosystem-based approach to 
management that does not erode local and state authorities,
    <bullet>  Encouraging innovation and employing economic incentives 
over mandates where possible, and
    <bullet>  Establishing strong partnerships between federal, state, 
tribal, and local governments, the private sector, international 
partners, and other interests.
    The U.S. Ocean Action Plan additionally identifies six National 
Ocean Priorities:
    1)  Enhancing Ocean Leadership and Coordination,
    2)  Advancing Understanding of Oceans, Coasts, and Great Lakes,
    3)  Enhancing the Use and Conservation of Ocean, Coastal and Great 
Lakes Resources,
    4)  Managing Coasts and Their Watersheds,
    5)  Supporting Maritime Transportation, and
    6)  Advancing International Ocean Science and Policy.
    The Administration believes these are bold steps in the right 
direction toward the intent of the Commissions' recommendation, and 
these steps have had a broad impact on how NOAA operates. There are 
many agencies with important ocean and coastal responsibilities with 
which NOAA partners, and we take great pride and place great importance 
in continuing to strengthen our role as the lead civilian ocean agency. 
In the two years since the U.S. Ocean Action Plan (the Plan) was 
released, the federal agencies, together with their state, local, 
territorial, and tribal and private sector partners have made 
substantial progress in meeting their commitments to the actions in the 
Plan. Examples of the progress made in a banner year for oceans 
conservation include:
    <bullet>  The recent release of the report Charting the Course for 
Ocean Science in the United States in the Next Decade: An Ocean 
Research Priorities Plan and Implementation Strategy, discussed in more 
detail below, which presents research priorities that focus on the most 
compelling issues in key areas of interaction between society and the 
ocean;
    <bullet>  Creation of the Papahanaumokuakea Marine National 
Monument--the largest single conservation area in our Nation's history 
and the largest fully-protected marine area in the world;
    <bullet>  Reauthorization the Magnuson-Stevens Fishery Conservation 
and Management Act;
    <bullet>  Support of state-led regional management partnerships, 
including the Gulf of Mexico Alliance, the Northeast, Northeast 
regional ocean council, Great Lakes Regional Collaboration, West Coast 
Regional Effort;
    <bullet>  Finalization of a conservation plan with the State of 
Florida for the Dry Tortugas in the Florida Keys; and
    <bullet>  Enhancement of ocean literacy initiatives and interagency 
cooperation, including a national Conference on Ocean Literacy during 
National Oceans Week.
    For a complete list of elements of progress and opportunities 
beyond the Plan, the Committee on Ocean Policy released the U.S. Ocean 
Action Plan Implementation Update in January 2007 (http://
ocean.ceq.gov/oap--update012207.pdf). I am happy to report that the 
Administration has made significant progress in completing the 
commitments of the U.S. Ocean Action Plan (83% of the actions have been 
met, the remaining 17% are on schedule to be completed by their target 
dates), and that federal agencies are moving forward with new 
activities in these areas to continue to improve our management and 
protection of ocean resources.
    In addition to codifying the Committee on Ocean Policy structure 
within the Administration, H.R. 21 would also impose an ecosystem-based 
mechanism to review impending management actions. The standards 
proposed in H.R. 21 would require that no federal action, including 
federally permitted and federally funded actions, that may 
significantly affect U.S. ocean waters or ocean resources proceed until 
a determination is made that it will not significantly harm the health 
of marine ecosystems. It would also have to be determined that it is 
not likely to significantly impede restoration of the health of any 
marine ecosystem.
    Within a year of enactment, NOAA would be required to issue 
regulations that implement the new national standards, in consultation 
with the newly authorized Committee on Ocean Policy. Within 180 days 
prior to taking action that may significantly affect U.S. ocean waters 
or ocean resources, an agency would be required to certify, in 
consultation with NOAA, whether such actions comply with the national 
oceans policy and national standards and submit the certification to 
NOAA for review. NOAA would be required to determine whether it concurs 
with the agency's finding and provide a written analysis within 90 
days.
    These standards differ significantly from, and may conflict with, 
the national standards in many regulatory authorities, such as the 
recently reauthorized Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act and the Energy Policy Act. The review 
could delay urgent actions. Requiring federal agencies to certify that 
federal actions are consistent with this National Ocean Policy and then 
requiring NOAA to issue written opinions on each of these federal 
actions would overwhelm the federal system, delay urgent actions, and 
reduce NOAA's and other agencies' abilities to meet existing mandates. 
In addition, the Administration does not support vesting the sole 
authority to regulate all ocean-activities with any one agency. In 
short, these provisions may actually weaken our ability to manage 
ocean, coastal, and Great Lakes resources.
    We believe that any new mandates should be consistent with existing 
federal laws and regulations and international law, as well as consider 
competing interests including freedom of navigation, on which the 
global economy depends, homeland security and national defense. The 
Administration supports a framework for regional collaboration among 
agencies, states, and tribes that would allow for coordination of 
mandates under various legislative structures and that would provide a 
basis to assess research priorities, share information, and allow for 
coordinated management actions. NOAA has taken steps to coordinate its 
various science and management actions in 10 regions of the country and 
we believe this to be a valuable model if extended government-wide.
Strengthen NOAA: A NOAA Organic Act
    A priority identified in both the final report of the U.S. 
Commission on Ocean Policy and the Ocean Action Plan is the passage of 
a NOAA Organic Act. H.R. 21 seeks to reestablish NOAA, stipulating its 
mission and functions and requiring a plan for NOAA's reorganization 
within 18 months of enactment. We believe it is necessary to 
consolidate NOAA's many responsibilities, which now reside in over two 
hundred separate statues, into one authorization. An Organic Act should 
encompass the full spectrum of NOAA's responsibilities, for example 
including programs to protect and restore the nation's fisheries, and 
its responsibilities to provide products that foster safe 
transportation on marine highways. The Administration transmitted a 
proposal for such legislation to the 109th Congress and will be doing 
so again in the 110th. We are hopeful that the Members of this 
Committee will play an integral part in its passage.
    Most importantly, the Administration believes that NOAA must 
maintain its current flexibility in determining how best to structure 
itself to address current and future needs. In responding to the 
recommendations of the U.S. Commission on Ocean Policy thus far, 
flexibility has proved to be a vital tool for NOAA leadership. This 
will continue to be the case as state and regional initiatives continue 
to evolve, and as science and management matures to address existing 
mandates for ecosystem based management. An organizational structure 
that serves the nation well today, or in 18 months, may not be the best 
structure to serve the nation in the future. We believe that specific 
programmatic changes should be made through current authorization bills 
that are revisited every few years.

Establish a National Governance Structure
    Title III of H.R. 21 would statutorily create a number of positions 
and mechanisms within the Administration to provide high-level guidance 
and coordination for ocean issues. The Administration believes in 
enhancing coordination of the ocean-related activities of the Federal 
Government and has placed a high importance on providing advice to the 
President on ocean issues. We believe there are effective mechanisms 
currently in place to achieve these purposes. The Administration 
objects to Title III, because it would limit and interfere with the 
President's flexibility to pursue these goals, because it would 
statutorily establish entities in the Executive Office of the 
President, and because it would statutorily establish a new Council of 
Advisors on Oceans Policy.
    For example, H.R. 21 authorizes a Committee on Ocean Policy to 
succeed the Committee on Ocean Policy established under Executive Order 
13366. The existing Committee on Ocean Policy created a framework to 
coordinate the ocean and coastal related activities of over 20 federal 
agencies that administer over 140 laws. While still young, the 
coordinated ocean governance structure under the existing Committee on 
Ocean Policy has demonstrated significant progress in enhancing ocean 
leadership and coordination, developing the institutional capacity to 
coordinate across jurisdictional boundaries, and strengthening the 
agency structure in phases in order to enhance the goal of addressing 
management needs through an ecosystem-based approach.
    The existing committee conducts its operational work through the 
Interagency Committee on Ocean Science and Resource Management 
Integration (ICOSRMI) and its subordinate bodies, the Subcommittee on 
Integrated Management of Ocean Resources (SIMOR) and the National 
Science and Technology Council's (NSTC) Joint Subcommittee on Ocean 
Science and Technology (JSOST). Within this new coordinated ocean 
governance structure, ICOSRMI is incorporating the mandate and 
functions of the National Oceanographic Partnership Program's National 
Ocean Research Leadership Council into its broader ocean and coastal 
policy mandate, which now includes ocean resource management. The 
ICOSRMI is comprised of Under/Assistant Secretaries or their 
equivalents from the executive branch agencies and departments of the 
Committee on Ocean Policy, and is co-chaired by the White House's 
Council on Environmental Quality (CEQ) and Office of Science and 
Technology Policy. The White House has continued to demonstrate 
leadership and support in this effort, which has been critical to 
providing the high-level guidance and support necessary to focus the 
group on achievable goals, and to maintain its momentum. NOAA has taken 
a leadership role in both SIMOR and the JSOST, serving as co-chair on 
each respective group and further supporting their activities.
    SIMOR seeks to identify and promote opportunities for collaboration 
and cooperation among agencies on resource management issues, and to 
build partnerships among federal, state, tribal, and local authorities, 
the private sector, international partners, and other interested 
parties. SIMOR's counterpart in the new coordinated ocean governance 
structure is the JSOST. The JSOST seeks to identify national ocean 
science and technology priorities and to facilitate coordination of 
disciplinary and interdisciplinary ocean research, ocean technology and 
infrastructure development, and national ocean observation programs.
    The role of the JSOST is exemplified in the recently released 
report Charting the Course for Ocean Science in the United States in 
the Next Decade: An Ocean Research Priorities Plan and Implementation 
Strategy. Reflecting input from a diverse group of federal agencies, 
state and local governments, academic researchers, non-governmental 
organizations and private citizens who share interest and 
responsibility for ocean science and management, Charting the Course 
for Ocean Science identified 20 national ocean research priorities, 
which are oriented round the most compelling scientific challenges and 
opportunities we face, including stewardship of natural and cultural 
resources, increasing resilience to natural hazards, enabling marine 
operations, understanding the ocean's role in climate, improving 
ecosystem health, and enhancing human health.
    Most importantly, JSOST accomplished the exceedingly difficult task 
of identifying among the full range of opportunities, four critical 
research areas where the need is highest and potential benefits 
greatest. These four areas constitute the near-term opportunities which 
will be pursued vigorously over the next few years, and it is these 
areas that the President is supporting in his FY08 Budget Request to 
Congress, including:
    1.  Response of Coastal Ecosystems to Persistent Forcing and 
Extreme events. This topic focuses on improving forecasts of coastal 
response to a variety of natural events and human influenced processes.
    2.  Comparative Analysis of Marine Ecosystem Organization. This 
area focuses on understanding complex marine ecosystems in ways that 
will allow us to improve resource management.
    3.  Sensors for Marine Ecosystems. This area focuses on the 
development of new data collection tools and technologies to better 
understand various biological and chemical processes.
    4.  Meridional Overturning Variability. This area emphasizes the 
importance of improving our ability to observe, understand and predict 
changes in Atlantic ocean circulation, a key driver of climate 
variability and potentially of rapid climate change.
    The JSOST was created through expansion of the former NSTC's Joint 
Subcommittee on Oceans in 2005 to include the issues of science and 
technology. Because of this evolution, the JSOST continues to report to 
the NSTC Committee on Science and the Committee on Environment and 
Natural Resources, in addition to the ICOSRMI. This dual reporting 
mechanism ensures that actions undertaken by JSOST are both influenced 
by and influence broader agency actions involving environmental and 
natural resource policy; thus strengthening ties with programs designed 
to address land use, fresh water quality and quantity, and air quality.
    ICOSRMI seeks advice from its federal advisory committee, the Ocean 
Research and Resource Advisory Panel, comprised of 18 members from 
academia, as well as the public and private sectors, with interest and 
expertise in ocean science and resource management. ICOSRMI also 
coordinates with the National Security Council's Global Environment 
Policy Coordinating Committee and its Subcommittee on Ocean Policy.
Establish a Regional Governance Structure
    H.R. 21 instructs NOAA and appropriate states to establish nine 
Regional Ocean Partnerships comprised of federal, state, tribal, 
international, Regional Fisheries Management Council, and local 
government representatives; and it ensures that each Partnership 
contains an equal number of non-federal voting representatives on each 
Partnership. There are several concerns with the partnerships as 
proposed in the bill. For example, the strategic plans could create 
significant overlap with existing management plans. It is unclear how 
these existing activities would be taken into consideration and how the 
transition will be made to the proposed strategic plans.
    The Administration recognizes that regional bodies possess the 
unique ability to focus discussion on areas of most need, and provide 
lasting commitments to the stewardship of regional resources by those 
most affected by them. Through existing authorities, the Administration 
is currently supporting the formation of regional collaborative 
partnerships to advance region-specific science and management needs, 
including the West Coast Governors' Partnership for Healthy Oceans, 
Northeast Regional Ocean Council, Gulf of Mexico Alliance, and Great 
Lakes Regional Collaboration. Using the coordinated ocean governance 
structure of the existing Committee on Ocean Policy, SIMOR has led the 
development of regional teams to serve as the federal mechanism to 
engage the state and regional initiatives. In addition, SIMOR and JSOST 
have jointly gained from federal-state task teams that provide linkages 
on specific issues, such as identifying regional science priorities for 
the Charting the Course for Ocean Science in the United States for the 
Next Decade: An Ocean Research Priorities Plan and Implementation 
Strategy.
    As an example of the success currently possible under Executive 
Order 13366 and existing authorities, the Gulf of Mexico Alliance is a 
state/federal collaboration made up of the Governors of the five Gulf 
States and supported by the Gulf of Mexico Federal Work Group (a sub-
group of the Subcommittee on Integrated Management of Ocean Resources), 
consisting of 13 agencies/departments. The Alliance, working in 
partnership with the Federal Work Group, developed the Governors' 
Action Plan for Healthy and Resilient Coasts. This Plan, released in 
March 2006, identifies five regionally significant issues. These 
priorities represent an initial focus for action through the Alliance: 
water quality for healthy beaches and shellfish beds, wetland and 
coastal conservation and restoration, environmental education, 
identification and characterization of Gulf habitats, and reductions in 
nutrient inputs to coastal ecosystems. Work is underway to implement 
the Action Plan. The Federal Work Group will continue to support the 
Gulf States in several specific areas including: increasing federal 
participation where appropriate; addressing interagency coordination 
and identifying opportunities to streamline intra- and inter-agency 
functions; promoting opportunities for bilateral coordination with, and 
participation by, Mexico and its Gulf Coast states; and promoting 
regional collaboration including identifying needs for observations and 
management tools that could be forwarded to the JSOST.
    In addition to supporting the formation of regional collaborative 
partnerships, NOAA is expanding on previous regional capabilities in 
order to provide a framework that will draw together NOAA capabilities 
to better respond to customer needs in the field. Regional Teams were 
recently established under this initiative to provide a NOAA-wide 
mechanism for addressing geographically-specific, multi-line office, 
multi-disciplinary environmental problems that the agency has been 
asked to address (Integrated Ecosystem Assessments, Integrated Water 
Resource Services, and Hazard Resilient Coastal Communities). In 
addition, each regional team will assess NOAA activities in the context 
of existing regionally-distinct priorities. In this regard, NOAA should 
be well prepared to address priorities identified at the regional 
level.
    The Administration's position, articulated in the U.S. Ocean Action 
Plan, supports regional collaboration and supports continued movement 
towards ecosystem-based management approaches. Of particular importance 
is the respect for initiatives that are state-led and focus on state/
regional priorities, in the spirit of cooperative conservation, and 
allow for flexibility in approaches to development of the initiatives 
and in the allocation of funding. The Administration supports the 
concept that regional ocean partnerships should be a forum for 
coordination. We believe that several of the principles outlined in the 
National Governors Association policy statement on ocean and coastal 
policy are closer to our position than that of H.R. 21. Specific 
examples include:
    <bullet>  Regional ocean partnerships should be voluntary, 
flexible, and state-driven,
    <bullet>  Regional ocean partnerships should be a forum for 
coordination, not a new large bureaucracy, and
    <bullet>  There should be an open and transparent process for 
stakeholder and citizen participation.
Promote Ecosystem-Based Management
    H.R. 21 would require the use of ecosystem-based approaches to 
management, which has been an operating model for NOAA under its 
various mandates for a number of years. The use of ecosystem-based 
management is a principal that the Administration supports. Most 
recently, the Administration has taken significant steps to protect 
vulnerable marine ecosystems, including coral reefs, seamounts, 
hydrothermal vents, and cold-water corals, from fishing and other 
impacts within our domestic waters within existing and expanded 
authorities. In June 2006, President Bush designated the 
Papahanaumokuakea Marine National Monument (in the Northwestern 
Hawaiian Islands), which is a fully protected marine area co-managed by 
NOAA, the U.S. Fish and Wildlife Service, and the State of Hawaii. 
Encompassing nearly 140,000 square miles, this monument is more than 
100 times larger than Yosemite National Park, larger than 46 of our 50 
states, and more than seven times larger than all our national marine 
sanctuaries combined.
    The reauthorization of the Magnuson-Stevens Act provided new 
authorities for NOAA to implement ecosystem approaches to management 
through the identification and protection, as appropriate, of unique 
deep coral habitats, the ability to provide incentives to reduce 
seabird interactions under federal fishery management plans, and the 
authority to provide technical advice and assistance, including grants, 
to fisheries management councils for the development and design of 
regional ecosystem pilot projects. These initiatives are important 
expansions of existing authorities necessary to realize the goal of 
ecosystem-based management. Coordination of these efforts with NOAA and 
interagency authorities is an important additional step.
    The United States is also a leader in promoting the need for 
similar conservation and management measures internationally, including 
through the United Nations (UN) and its Food and Agriculture 
Organization (FAO). In October 2006, President Bush issued a memorandum 
to Secretary of State Rice and Secretary of Commerce Gutierrez, which 
promoted the sustainable management of global fisheries resources and 
called for an end to destructive fishing practices on the high seas. 
The U.S. delegation to the 2006 UN General Assembly fisheries 
resolution negotiations promoted the position as outlined in the 
Presidential Memorandum, specifically urging nations to prohibit their 
vessels from engaging in destructive fishing practices on the high seas 
until applicable conservation and management measures, authorized by a 
competent Regional Fisheries Management Organization (RFMO), are in 
place. The ultimate consensus-based language of the resolution includes 
management provisions for RFMOs and nations to prevent bottom fishing 
from causing harm to vulnerable marine ecosystems (VMEs) and calls upon 
the FAO to develop further management guidance. At the recent session 
of the FAO Committee on Fisheries, held March 5-9, 2007 in Rome, Italy, 
a major topic of discussion was the role of the FAO in implementing the 
UN General Assembly resolution. Among the requests made of FAO, a 
priority for the U.S. was the development of standards and criteria for 
use by nations and RFMOs in identifying VMEs and the impacts of fishing 
on such ecosystems. As a result, the FAO plans to develop technical 
guidelines for the management of deep-sea fisheries on the high seas by 
early 2008.
    Because H.R. 21 would require an ecosystem-based approach to the 
management of fisheries, marine mammals, protected species, coral 
reefs, and protection and management of ocean and coastal areas, it 
could affect many regulatory programs currently administered by federal 
agencies and would create an additional regional layer of ecosystem 
administration. The steps to enable cross-legislative and cross-agency 
collaboration, consistent with ecosystem-based approaches to 
management, are not detailed in the bill. We believe that a non-
mandatory, nonstatutory regional consultative mechanism can accomplish 
much of the intent of the bill, without delaying necessary management 
actions required under existing law, and is the preferable approach. 
Consideration should be given to reconciling any new consultation 
process with the requirements for interagency consultation pursuant 
with existing mandates.
    The additional layer of regulatory review proposed by this bill 
could significantly distract us from our goal. We suggest that any bill 
designed to promote ecosystem-based management follow a more step-wise 
approach--one based on expanding the mission, enhancing capabilities to 
provide technical advice and collaboration, and encouraging 
discretionary development of pilot projects.
    The U.S. Ocean Action Plan and the final report of the U.S. 
Commission on Ocean Policy endorse implementation of a sustained 
Integrated Ocean Observing System (IOOS). IOOS is the U.S. component of 
the Global Ocean Observing System, and is the key ocean component of 
the U.S. Integrated Earth Observation System (IEOS) now being 
developed. Both IOOS and IEOS will become part of GEOSS--the Global 
Earth Observation System of Systems. IOOS is envisioned as an 
interagency, end-to-end system designed to meet seven societal goals by 
integrating research, education, and the development of sustained ocean 
observing capabilities. The need to integrate data derives from NOAA's 
core missions. The challenges society faces today (coastal populations 
at risk, compromised ecosystems, climate change, increased maritime 
commerce) threaten jobs, revenue, and human health. Answers to these 
problems require access to better information.
    Developing IOOS is a top priority for NOAA. In December 2006, NOAA 
reconfirmed its commitment to IOOS by establishing a NOAA IOOS Program. 
Responsibilities of the new NOAA IOOS Program include serving as the 
central focal point for the administration of NOAA's IOOS activities, 
interface to regional partners, establishing an initial operating 
capability for data integration, requirements definition, conducting 
system acquisition and closely coordinating and collaborating with 
federal partners through the National Office for Integrated and 
Sustained Ocean Observations (Ocean.US). The NOAA IOOS Program and 
Ocean.US will be co-located to improve communication, coordination, and 
information exchange.
    Capacity that can contribute to a U.S. IOOS currently exists within 
NOAA. This capacity includes observing platforms, communications lines, 
computers and people that manipulate and distribute data, and people 
that develop data products. The IOOS Program will focus on identifying 
this internal capacity and coordinating this capability through an 
Initial Operating Capability for data integration to serve U.S. IOOS 
goals. The initial focus will be integration of five core IOOS 
variables (temperature, salinity, sea level, surface currents, and 
ocean color). These integrated data will be accessible in useful 
formats for ingest into four priority NOAA data products: coastal 
inundation, hurricane intensity, harmful algal bloom forecasts, and 
integrated ecosystem assessments. These data products will be tested 
and evaluated to measure improvements to baseline conditions resulting 
from access and ingest of integrated data. Once improvements are 
demonstrated, product enhancements will be benchmarked for operational 
use.
    The NOAA IOOS Program will continue to support development of 
infrastructure and management to enable a fully configured and scalable 
U.S. IOOS. NOAA recognizes it is nationally important to have 
infrastructure in place to characterize, understand, predict and 
monitor changes in coastal-ocean environments and ecosystems. This 
infrastructure is necessary to help states and regions more efficiently 
and effectively manage resources and meet federal environmental and 
natural resources compliance requirements. This infrastructure is also 
critical to understanding and mitigating the effects of severe weather, 
global-to-regional climate variability, and natural hazards. NOAA 
intends to continue supporting the development and integration of the 
regional coastal components of IOOS. This includes supporting effective 
regional management structures required to achieve development and 
integration of operational regional coastal ocean observing systems. 
NOAA's goal is to demonstrate value in this integration, and extend 
this integrated data capability across the country by enabling our 
regional partners to contribute their data, and also access the full 
suite of existing integrated data through distributed and coordinated 
data integration and communication networks.
    The National Office for Integrated and Sustained Ocean Observations 
(Ocean.US) has the lead for planning the multi-agency IOOS effort. NOAA 
is heavily involved in this planning, and has been designated by the 
Administration as the lead federal agency for administration and 
implementation of IOOS. Coordination among all contributing agencies 
continues to grow through participation in the Interagency Working 
Group on Ocean Observations established under the JSOST and chaired by 
NOAA with vice chairs from the National Aeronautics and Space 
Administration (NASA), the Navy, and the National Science Foundation 
(NSF).

Ocean Stewardship Through Education
    The Administration supports efforts to enhance responsible ocean 
stewardship through ocean education and outreach, information 
collection, and citizen involvement. Ocean education is an important 
component of the President's U.S. Ocean Action Plan and together, SIMOR 
and the JSOST have formed the joint Interagency Working Group on Ocean 
Education, to identify opportunities and articulate priorities for 
enhancing ocean education, outreach, and capacity building. Ocean 
management is more effective with an ocean literate public, and to this 
end, NOAA leverages many opportunities to advance ocean education in 
support of its mission goals. Our formal and informal activities 
include scholarship and fellowship programs, education and research 
grants, and strategic partnerships with education institutions and 
industry. In 2006, NOAA's Education Office provided scholarship and 
internship opportunities to over 230 undergraduate students. NOAA's 
education investment is also geared towards hiring students trained 
through these scholarship and internship opportunities. Through 
December 31, 2006, NOAA has hired 32 students trained through its 
Graduate Sciences Program. Also in 2006, 33 teachers participated in 
NOAA's Teacher at Sea Program.
    To raise national attention to the need for ocean literacy, NOAA, 
EPA, the Department of the Interior, NSF, NASA, and the National Marine 
Sanctuary Foundation, co-hosted CoOl--the Conference on Ocean 
Literacy--on June 7-8, 2006, in Washington, D.C., as part of the 
presidentially proclaimed National Oceans Week. The conference brought 
together key participants to discuss the essential principles of ocean 
literacy, and the current challenges and opportunities for both formal 
and informal education efforts in educating the public to make 
informed, responsible decisions about the ocean and its resources. The 
conference extended beyond Washington, D.C., through five regional 
workshops hosted by aquariums across the country including: Aquarium of 
the Pacific, Long Beach, CA; John G. Shedd Aquarium, Chicago, IL; J.L. 
Scott Aquarium, Ocean Springs, MS; National Aquarium in Baltimore, 
Baltimore, MD; and National Mississippi River Museum and Aquarium, 
Dubuque, IA. The conference resulted in a Conference on Ocean Literacy 
Report, which makes recommendations for future efforts in formal 
education, informal education, and for creating diversity in the ocean 
workforce.

Funding
    Finally, H.R. 21 would provide significant new funding, 
particularly to coastal states through the Ocean, Coastal, and Great 
Lakes Trust Fund. We recognize the important role states, tribes, and 
local governments play in managing these important resources. Through 
ICOSRMI, the Administration is finding ways to partner more effectively 
with our state, tribal, and local partners so that the significant 
federal and non-federal resources that are already devoted to ocean and 
coastal issues are used more efficiently and produce better outcomes. 
Any additional resources for ocean and coastal issues should be 
considered within the full context of the different priorities for 
federal spending. As such, we strongly oppose the establishment of an 
Ocean, Coastal, and Great Lakes Trust Fund that would circumvent the 
Administration's and Congress's ability to evaluate and modify federal 
funding priorities on an annual basis.

Conclusion
    In conclusion, I would like to reiterate the importance of the 
efforts of the U.S. Commission on Ocean Policy, and stress that the 
Administration is strongly committed to continued implementation of the 
recommendations of the U.S. Ocean Action Plan and sound ocean 
stewardship. The federal agencies involved in ocean and coastal 
conservation management activities will continue to work with its 
partners in a collaborative and systematic fashion, as we believe 
collaboration is critical to make our ocean, coasts, and Great Lakes 
cleaner, healthier and more productive. We look forward to continuing 
to work with the Members of the Committee in raising the bar for the 
long-term conservation and management of our coastal and ocean 
resources.
    Thank you again for your time and I am happy to answer any 
questions that the Members of the Committee may have.
                                 ______
                                 
    Ms. Bordallo. Thank you, Mr. Dunnigan, and now the Chair 
would like to recognize Ms. Leyden.

      STATEMENT OF KATHLEEN LEYDEN, CHAIR, COASTAL STATES 
ORGANIZATION REGIONAL OCEAN GOVERNANCE WORK GROUP AND DIRECTOR, 
                     MAINE COASTAL PROGRAM

    Ms. Leyden. Madam Chair, Ranking Member Brown and 
distinguished members of the Subcommittee, my name is Kathleen 
Leyden, and I am here today representing the Coastal States 
Organization. CSO, as Coastal States Organization is known, 
represents the 35 states and territories in Washington D.C. 
relative to issues of ocean policy and legislation that affects 
the coast. With my written testimony in the record and this 
being the first time that I am doing this, I am going to pray 
that I meet the five-minute mark and therefore just focus on a 
few things.
    I would like to begin by thanking Representative Farr and 
Representatives Allen, Gilchrest and Saxton for their 
leadership in putting forward such a comprehensive approach as 
is reflected in Oceans 21. My colleague from CSO, our current 
chair Brian Baird from California, could not be here today but 
he wanted to make sure that I recognized the early efforts of 
Mr. Farr in California when as a State Assemblyman he was 
responsible for developing the California Ocean Resources 
Management Act which launched comprehensive ocean management in 
that state. So thank you for your ongoing commitment to the 
oceans, and we are thrilled that a national dialogue has begun 
on Oceans 21.
    So what is the problem? I am not here today to reiterate 
the things that you have already heard in recent weeks about 
the crisis in the health of our oceans and coasts but what I 
would like to say, as Representative Allen said, is that ocean 
and coastal resources are the lifeblood of coastal states, and 
degradation of them affects local people in very real ways. At 
the state level we are facing increasingly complex coastal 
challenges, and we cannot deal with them on our own, and we 
need a new way of working together to accomplish results.
    If I had to choose three phrases to describe our current 
ocean management regime I would choose fragmented, reactive, 
and largely lacking an opportunity for real cooperative 
management between Federal, state and local entities in 
effectively managing resources. So what is the solution? If the 
states were to design a solution ourselves, I know that we 
agree that the components as reflected in Oceans 21 are the key 
things. That is a structure for regional ocean governance, a 
statement of national ocean policy, improved coordination of 
Federal action, a coordinated management regime for Federal 
waters, and a much needed ocean and coastal trust fund.
    These types of things really lay the groundwork for us to 
begin to actually do ecosystem based management which we talk 
about a lot but need to really advance our efforts in. Our 
concerns about Oceans 21 track two general themes that we think 
are solvable through additional conversations, and those are 
the need for flexibility and the need to build on work that is 
already being done.
    CSO remains committed to working with the bill's sponsors 
and other interested parties over the coming months to resolve 
the differences. First, the regional ocean governance piece of 
the bill. The coastal states have been working together through 
the work group that I chair to develop a proposal for regional 
ocean governance legislation, and this work is grounded in a 
policy statement that the National Governors' Association put 
forward in 2007 which is attached to my written testimony.
    In short, we agree that a national framework is needed to 
develop and implement integrated ecosystem plans. In fact, 20 
states are already involved in these efforts. Some of them were 
mentioned by Jack Dunnigan. We need to recognize and build off 
the success of these voluntary state-led efforts and avoid 
being overly prescriptive and creating new bureaucracies.
    We think that regional plans should be action oriented and 
directed toward achieving shared goals and priorities, but that 
the requirements for them need to be realistic and phased and 
perhaps greater requirements could be phased in over time. We 
agree that we need more information to improve the management 
of our coasts and oceans, and we agree that a mechanism is 
needed to develop, fund, and implement regional plans. If 
funding is accompanied by other incentives, states will do this 
work without additional requirements to do so.
    Second, the statement of national ocean policy while we 
think that one is needed we have some concerns about the way 
this provision is currently drafted and look forward to working 
together to resolve it. In terms of the funding, as you can 
tell from our comments we need new funding to be able to do 
this, and I think there are several pieces of Oceans 21 that 
need to work hand-in-hand. It is all coordinated.
    With two seconds remaining, I will thank you for your 
leadership on these issues and for inviting me to testify. 
Again, we look forward to resolving any outstanding differences 
or concerns on this bill, and I would be happy to answer any 
questions you have.
    [The prepared statement of Ms. Leyden follows:]

Statement of Kathleen Leyden, State of Maine's Delegate to the Coastal 
States Organization and Chair to the Coastal States Organization Ocean 
Governance Work Group and Director of the Coastal Program, Maine State 
                            Planning Office

    Chairwoman Bordallo, Ranking Member Brown, and distinguished 
members of the subcommittee, my name is Kathleen Leyden and I am here 
today on behalf of the Coastal States Organization, usually referred to 
as CSO. Since 1970, CSO has represented the interests of the Governors 
of the 35 coastal states and territories in Washington, DC on 
legislative and policy issues relating to the sound management of 
coastal, Great Lakes, and ocean resources. Thank you for the 
opportunity to testify to the issues of improved ocean governance and 
please include my written testimony in the record.
    I would like to begin by thanking Representative Farr and 
Representatives Allen, Gilchrest and Saxton for taking up the charge of 
improved ocean and coastal governance and for their leadership putting 
forward the comprehensive approach reflected in Oceans 21. Ocean 
governance reform is critically needed and I commend you all for your 
hard work. CSO's Chair, Brian Baird from California, could not be here 
today, but he wanted to acknowledge the long-standing commitment of 
Congressman Farr on this issue. As a state Assemblyman, Mr. Farr 
authored the California Ocean Resources Management Act, which launched 
comprehensive management in California. Thank you for your ongoing 
commitment to the oceans.
    As you are well aware, there is a crisis in health of our nations' 
coastal and ocean waters and the sustainability of the species they 
support. Experts around the country agree that aggressive actions, 
including reforms in governance, can help solve the complex coastal and 
ocean challenges before us.
    Our current management of our nation's coast and oceans, is 
characterized as (1) fragmented--dominated by sector-by-sector 
management authorities, (2) reactive in its response to ocean 
development, and (3) largely lacking in opportunity for federal-state 
cooperative resource management. A national framework for improved 
governance, as envisioned by Oceans 21, will allow both federal and 
state partners to be better positioned to respond to the numerous 
emerging uses of our public trust resources.
    The coastal states have been actively discussing opportunities for 
improved ocean and coastal management, and these discussions continue. 
In addition, the nations' Governors are on record as supporting reforms 
in ocean and coastal governance, including a strengthened and 
reauthorized Coastal Zone Management Act, renewed attention to coastal 
non point pollution, implementation of an ocean science strategy, 
development of a robust ocean observing system, and targeted support 
for ocean literacy.
    In my time this morning, I'll highlight areas where coastal states 
have reached consensus on Oceans 21's approach, and touch on areas 
where states have recommendations that they believe will make the 
legislation stronger. Some themes you will hear throughout my testimony 
are the need for flexibility, the desire to build on work that has 
already been done, and acknowledgment that ocean management should 
include all of the relevant government agencies and stakeholders.
    The coastal states believe that Oceans 21 has the components needed 
to reform ocean governance and improve the health of our oceans and 
coasts, namely a structure for regional ocean governance, a statement 
of national ocean policy, improved coordination of federal action, a 
NOAA Organic Act, a coordinated management regime for our federal 
waters, and a much-needed ocean and coastal trust fund. Also, overall, 
the bill would help reorient government to formalize the practice of 
ecosystem-based management. The specific issues I will address today 
include regional ocean governance, a trust fund, a statement of 
national ocean policy, and improved coordination of federal action.
I. Regional Ocean Governance
    Over the last number of months, the coastal states have been 
working to develop a proposal for regional ocean governance 
legislation; this work is grounded on a series of principles agreed to 
by the National Governors Association in their February 2007 policy 
statement on Ocean and Coastal Zone Management (NR-10) which I've 
attached to my testimony and request to be put into the public record.
    The states agree with much of Title IV of Oceans 21, the regional 
governance section of the bill. We agree that:
    <bullet>  A national framework is needed to advance and support 
regional efforts by the state and federal governments to develop and 
implement integrated ecosystem-based plans;
    <bullet>  Regionally-based plans should be action-oriented and 
directed toward achieving shared goals and priorities;
    <bullet>  There should be significant opportunities for public 
input and involvement;
    <bullet>  More information is needed to improve management of our 
oceans and coasts, and
    <bullet>  A mechanism is needed to develop, fund and implement 
regional plans.
    There are areas, however, where we would like to work together to 
craft changes that we think will improve the legislation--these include 
seven broad categories of comments as follows:
A. Acknowledge and Support Existing Efforts
    As acknowledged by the recent Policy Report Card issued by the 
Joint Ocean Commission Initiative, states are leading the way in 
regional ocean governance. According to a recent accounting, twenty 
states have launched state initiatives or participated in regional 
alliances to protect the significant economic and natural resources of 
coasts, oceans and Great Lakes. Across the nation, states have been 
fostering collaborative relationships to tackle transboundary issues, 
such as the long-standing Gulf of Maine Council, Chesapeake Bay and 
Long Island Sound efforts, as well as the recent efforts of the 
Northeast Regional Ocean Council, the Gulf of Mexico Alliance, Great 
Lakes Regional Collaboration Strategy, and the West Coast Governors' 
Agreement on Ocean Health.
    <bullet>  Oceans 21 can add value to these existing efforts by 
building off of their successes, creating a national framework that 
supports them and by creating long-term, consistent funding for them. 
It should be noted that some of these efforts, although they are 
subregional in scope, contribute to broader management goals for large 
marine ecosystems.
B. Establish Stronger State Involvement
    Both the states and the federal government share sovereignty for 
our ocean and coastal resources, and we are responsible for the wise 
management of this public trust. The states believe that management 
will best be accomplished through a partnership between the states and 
federal agencies using processes that provide for stakeholder input and 
involvement.
    <bullet>  Ocean's 21 should articulate a strong and meaningful 
partnership with states, acknowledging states as owners of submerged 
lands and managers of the public trust.
C. Support Voluntary Partnerships
    We believe regional ocean partnerships should be voluntary, 
flexible and state-driven. We do not believe you can ``mandate'' 
collaborative partnerships, and we do not believe a uniform, one-size-
fits-all approach to regional governance is the best way to proceed. We 
think that it is best to enable robust partnerships around common goals 
and then let them flourish, each in its own way.
    <bullet>  Ocean's 21 should include a voluntary, rather than 
mandatory approach to establishment of regional partnerships and should 
clarify that these partnerships will not supplant existing legal 
authorities.
D. Avoid Creation of New Bureaucracy When Establishing Regional 
        Partnerships
    We believe regional ocean partnerships should perform primarily a 
coordination function and not create a new large bureaucracy. Each 
member of the partnership should be enabled to pursue the common goals 
of the region under existing legal authorities.
    <bullet>  Ocean's 21 should increase the flexibility for the 
membership and the formation of partnerships. While some structure is 
key, existing regional efforts have demonstrated that new bureaucracy 
may drain resources. Regional Ocean Partnerships should facilitate, not 
unnecessarily burden, federal, state and other players.
F. Avoid Overly Prescribing the Requirements for Regional Strategic 
        Plans
    The purpose of the regional ocean planning processes should be to: 
reach agreement on regional priorities; create strategic plans to solve 
priority problems; develop implementation plans that identify specific 
steps to be taken to address those priorities; and assign 
responsibility for action.
    <bullet>  Ocean's 21 should utilize a less prescriptive approach to 
establishment of regional strategic plans, allowing for the early 
identification of key priority issues, actionable items and a movement 
towards implementation. As partnerships mature, expectations might be 
increased.
    <bullet>  While ensuring that federal funds are well spent, the 
federal approval process for regional plans should be minimized. A 
partnership approach to the plans' development, involving both 
governmental and stakeholders throughout, calls for a streamlined 
approval process.
G. Provide Funding and Incentives to Reach Goals
    While federal agencies have been extremely responsive to new 
partnerships with regional efforts, these approaches have proceeded 
with minimal federal resources, relying with a few exceptions, on in-
kind support from federal agency staff with no new dedicated funds. In 
addition to basic support, including targeted in-kind assistance from 
federal staff and long-term and consistent new funding for regional 
efforts, other incentives for the state participation in regional ocean 
councils should be created. Examples of these incentives might include:
    <bullet>  Streamlined federal processes;
    <bullet>  Federal assistance for the development of integrated 
ecosystem assessments;
    <bullet>  Application of federal research and monitoring 
capabilities to regional needs;
    <bullet>  Federal-state co-management of resources;
    <bullet>  Advance identification (and resolution) of state/federal 
conflicts; and
    <bullet>  A new joint approach to siting of energy and other 
emerging uses.
H. Employ Reasonable Accountability Measures
    The States support the inclusion of accountability measures and 
benchmarks for success in Oceans 21. These accountability measures 
could include benchmarks for implementation of individual projects as 
well as overall success of regional partnerships.
    <bullet>  Oceans 21 should recognize the different stages of 
partnership building, with accountability measurable for each stage and 
realistic timeframes for each.
II. Ocean and Great Lakes Trust Fund
    Oceans 21 proposes to create a trust fund to provide resources for 
ocean and coastal protection. The coastal states strongly support a 
trust fund to improve the management of ocean, coastal and Great Lakes 
resources. The U.S. Commission recognized that we are at a crisis stage 
for our oceans and fixing these problems will require more resources. 
We do have a suggestion for improvement of this section of the bill. 
Many of the threats facing our oceans start on the land, such as 
nonpoint pollution. We believe the trust fund should recognize this 
fact. The coastal states, therefore, would recommend changing the title 
to explicitly include ``coastal'' in the title and to include coastal 
management activities as an appropriate use of the funds.
III. Statement of National Ocean Policy
    The coastal states believe it is important for Congress to enact a 
statement of national ocean policy. We do have questions, however, 
about the intent and impact of the language currently in the bill. For 
example, requiring that the NOAA Administrator approve all covered 
federal actions of the agencies (as defined in the bill) has the 
potential to create a serious bottleneck for government action. The 
coastal states look forward to working with the sponsors so we can 
better understand the intent of this section of the bill and offer some 
potential alternatives.
IV. Improve coordination of the federal government
    The coastal states also agree that legislative provisions would be 
helpful to improve coordination of the federal agencies. As the U.S. 
Ocean Commission recognized in its final report, the management of our 
ocean resources is badly fragmented. Currently, the uses of our ocean 
are all regulated separately, fisheries in one agency, energy in 
another, sediment management in another, shipping and maritime 
activities in yet another. No government agency or body is charged with 
looking across the stovepipes of programs to see how all of the 
different uses of our oceans fit together. If we want to improve the 
health of our oceans this needs to change, and Oceans 21 takes this 
challenge on.
    We do have some suggestions for possible improvement for your 
consideration. Since the U.S. Commission report was released, the 
federal government has taken steps to improve federal interagency 
coordination, such as the creation of Subcommittee on Integrated 
Management of Ocean Resources (SIMOR) and the Interagency Committee on 
Ocean Science and Resource Management Integration (ICOSRMI). We 
recommend that federal legislation incorporate and build on this 
existing structure. As included in Oceans 21, we support the inclusion 
of a state presence on these interagency bodies.
V. Complement existing legal structures
    As you continue to work on improving the management of our oceans, 
I would like to acknowledge that there are many pieces to the puzzle 
that currently forms our coastal and ocean management framework. As we 
reform governance, we need to ensure that these existing laws are well 
integrated and complementary to any new structure that is established. 
The primary example I have in mind is the Coastal Zone Management Act. 
For over 30 years, this Act has been the primary state/federal 
partnership for managing our country's coastal resources. Ecosystem-
based approaches to governance should acknowledge the interrelationship 
between coastal watersheds and the ocean, which means new ocean 
governance mechanisms like Oceans 21 need to fit ``hand in glove'' with 
existing structures like the CZMA.
Closing
    In closing, thank you again for your leadership on these issues and 
for inviting me to testify today. The coastal states look forward with 
enthusiasm to continued work with committee staff, nongovernmental 
partners, federal agencies and others to improve this bill to ensure 
healthy oceans in the future. I'd be happy to answer any questions you 
may have.
                                 ______
                                 
    [NOTE: Attachments to Ms. Leyden's statement have been retained in 
the Committee's official files.]

   Response to questions submitted for the record by Kathleen Leyden

QUESTIONS FROM THE HON. MADELEINE BORDALLO, CHAIRWOMAN
Improving regional governance
    Your testimony states that Title IV of the bill can be improved by 
articulating a strong and meaningful partnership with the states in 
ocean governance. At the same time, you argue that regional 
partnerships should be voluntary and cannot supplant any existing legal 
authorities.
    1.  Has it been the experience of the states thus far that the 
federal government has treated them as equal partners in the management 
of our ocean resources?
    RESPONSE: Whether a federal agency treats the states as a partner 
often depends on the agency, the circumstances, and the decisionmaking 
and consultation processes established in law. The coastal states 
believe that because they are sovereign governments, the federal 
agencies should nearly always see the states as partners. The coastal 
states believe that effective management of our ocean resources will 
only be accomplished through a partnership with the federal agencies.
    2.  Do you really expect to be treated as partners without some 
sort of requirement that this be the case?
    RESPONSE: The coastal states believe that Congress should express 
its intent that the federal government should work with the states as 
equal partners in managing ocean resources. Without such a statement 
from Congress, the state/federal partnership will continue to be 
variable. Some federal agencies incorrectly place states in the 
``stakeholder'' category. The states are not ``stakeholders''; the 
states are sovereign governments and should be treated as full partners 
in decision making.
Incentives to improve governance
    You mention several incentives--other than just money--to encourage 
state participation in regional governance. One, is a joint approach to 
the siting of energy projects and other emerging uses of the ocean.
    3.  Can you elaborate on how this might work? Would the states want 
the responsibility for planning the siting of such projects in federal 
waters off their coasts? How do you envision this would fit with the 
federal responsibilities?
    RESPONSE: In state jurisdictions, the states and federal government 
should share the responsibility for energy siting, and states should 
always maintain decision-making authority over the siting of facilities 
and their associated infrastructure within their jurisdictions. In 
federal waters, the primary responsibility should rest with the federal 
government but the federal government should be required to partner 
with the states on identification of areas the states believe are most 
appropriate for siting of energy facilities and infrastructure. Working 
hand in hand with states earlier in the energy siting process will 
improve decisionmaking.
    4.  The Administration seems to be of the opinion that we have all 
the coordination and partnerships that we need. Do you agree?
    RESPONSE: While we have many robust partnerships and opportunities 
for coordination, these need greater federal support, additional 
resources, and continuity over time, especially at the regional level. 
The U.S. Commission on Ocean Policy clearly and comprehensively 
described the crisis facing our marine resources. The nation cannot 
expect to fix the problems facing our oceans without additional laws 
and resources.
QUESTIONS FROM THE HON. HENRY BROWN, MINORITY RANKING MEMBER
    1.  Much of your testimony relates back to the issue of funding. 
While many in Congress support additional funds for ocean programs, 
Federal funds are spread across many programs. Have the states come up 
with recommendations on where the money should come from for the Trust 
Fund?
    RESPONSE: While the coastal states do support a trust fund, we have 
not developed specific proposals for the sources of funding for such a 
trust fund.
    2.  What are the existing funding requirements of the states? Do 
these funding needs justify $1 billion as authorized in H.R. 21?
    RESPONSE: Participation in existing regional entities has been 
maintained using existing funds and shifting responsibilities between 
existing staff. Cutbacks in coastal program funding and the lack of 
specific funding for regional activities has limited the extent to 
which states can develop and implement robust regional plans. H.R. 21 
funding for Regional Ocean Partnerships should be at a level 
commensurate with the requirements of the act. For example, ecoregional 
assessments and development of ecosystem indicators and large scale 
implementation projects (i.e. landscape scale restoration) are 
anticipated to be high cost items.
    3.  How are the coastal states funding state ocean programs?
    RESPONSE: Each state is different in how it funds its ocean 
programs. Some states fund some activities with state dollars; some 
fund activities with a mix of federal and state dollars.
    4.  Can you elaborate on accountability measures for the different 
stages of partnership building that you refer to in you testimony? What 
specifically would you like included in the bill and what specific 
benchmark successes would you require?
    RESPONSE: Building in meaningful accountability provisions will be 
one of the more challenging aspects of developing ocean governance 
structures. Each region is uniquely different and their plans will 
include a variety of priority actions. Thus the accountability measures 
will be based largely on the specifics of each regional plan.
    Ocean governance needs to be accomplished through a partnership 
between the state and federal governments but large inter-agency 
efforts can need to clearly assign responsibility for outcomes to 
ensure success. The coastal states believe that regional plans should 
be developed with actionable items that identify which regional 
partnership member is responsible for that project or section so that 
agency or agencies can be held accountable for results
    The experience of states that are already working in regional 
partnerships is that there are stages of development and maturity of 
these efforts and reasonable accountability measures should be 
cognizant of that. Appropriate measures that reflect stages of progress 
might include a) convening initial state and federal representatives b) 
formalizing the ROCs through Governors' agreements, c) completing a 
public participation effort, d) scoping and agreeing on priorities, e) 
creating a regional plan, f) receiving approval of the plan, 
g)implementing an ongoing monitoring program, and h) documenting 
progress on selected environmental indicators.
    5.  You mention in your written testimony that current management 
of our nation's coasts and oceans is lacking in opportunity for 
federal-state-cooperative resource management. Are there specific laws 
that you can cite that have hindered this type of cooperation? Any that 
have supported or promoted cooperation?
    RESPONSE: The U.S. Ocean Commission identified many examples of 
overlapping and confusing jurisdictions and legal authorities. The real 
crux of the problem is not that any one or two laws impede management 
but that no agency or regional body is responsible for coordinating all 
of the government activity in the ocean.
    One of the major impediments to efficient management is the 
restrictions put on how federal agencies are impeded from transferring 
money between them. For example, recently the USDA had conservation 
money it wanted to transfer to the USCOE to implement a habitat 
restoration project. However, transferring the money from USDA to USCOE 
has proven to be impossible. So we are left with the circumstance of 
one agency having the funding, the other agency having the expertise 
and willingness to perform the work but the two cannot be put together. 
For inter-agency ocean governance to be effective and efficient, new 
mechanisms for funding need to be explored.
    The interstate fisheries commissions (established in the 1940's) 
are an example of excellent federal state cooperative resource 
management. While the mandates of the Pacific, Atlantic and Gulf state 
commissions vary, they all involve cooperation across jurisdictions and 
all levels of government on a large scale. Each provides a forum for 
development of interstate catch statistics and fisheries management 
plans.
    6.  You suggest adding land-based or ``coastal'' measures to the 
list of activities that could receive funding from the Trust Fund. 
Isn't that part of the existing funding problem for oceans, funds 
getting redirected for other activities, even if they would have a 
beneficial effect on the ocean? How are the states currently funding 
coastal land-based management activities?
    RESPONSE: As the U.S. Commission on Ocean Policy recognized, many 
of the problems in the oceans are caused by land-based activities, such 
as nonpoint source pollution and coastal development. We cannot divorce 
the land from the ocean and the funding should recognize that fact so 
we can address the priority problems facing our oceans, wherever their 
source.
    7.  What proactive management measures are the states taking with 
regard to land-based activities to prevent adverse affects on coastal 
waters?
    RESPONSE: While each state program for preventing land-based 
sources of pollution may differ, some common efforts include: land 
conservation and development restrictions in sensitive areas such as 
stream corridors, and watersheds of shellfish growing areas; grant 
programs for coastal municipalities to develop and implement creative 
rules for new community designs; using education and outreach with a 
variety of potential polluters to inform them about practices they can 
use; working with the marine trades industry to reduce or eliminate 
discharges to coastal waters through incentive programs such as the 
Clean Marina certification; (2) working with towns on new solutions to 
stormwater management such as innovative financing methods; and working 
with volunteers on enhanced water quality monitoring and watershed 
surveys.
    8.  While the bill's main goal is to provide for better management 
of the ocean and its resources, many of the definitions in the bill, 
including the ecosystem-based management definition, reach far inland 
due to the impacts inland activities could have on the ocean. In your 
assessment what areas would not fall under the jurisdiction of this 
legislation?
    RESPONSE: The legislation should primarily help state, federal, 
local and tribal governments to better address priority problems that 
affect our oceans, wherever they occur. The states do not believe, 
however, that this bill should be used to expand the regulatory reach 
of the federal government, but enable the federal and state government 
to address problems with their current legal authorities. The inland 
extent should be determined by individual states within a Regional 
Ocean Partnership.
    9.  The bill charges NOAA with reporting on the status of ocean 
ecosystems and resources two years after enactment of the bill and 
every three years thereafter. The Regional Ocean Partnerships are also 
required to develop regional ocean strategic plans which will include 
an assessment of its ocean region. What changes can we make to the bill 
to ensure there is limited duplication between the two reports? Can you 
also make recommendation on how to limit duplication in other areas of 
the bill?
    RESPONSE: The states believe that the bill probably requires that 
NOAA prepare too many reports too frequently. We would defer to NOAA on 
the appropriate scope and frequency of the reporting.
    10.  At the oversight hearing on renewable energy opportunities and 
issues on the Outer Continental Shelf, Ted Diers, the Coastal State 
Organization representative said ``I am not sure I am in favor of any 
new bureaucracies.'' Do you agree with this statement? Is this a CSO 
position?
    RESPONSE: While the coastal states do not support unnecessary and 
duplicative new bureaucracies, we do believe ocean governance reform is 
needed. There need to be formal mechanisms for improved integration of 
government activities in the ocean. The coastal states believe that 
Congress should pass legislation to enable and support Regional Ocean 
Partnerships (ROPs) made up of representatives of the coastal states 
and the relevant federal agencies. These ROPs should not be another 
layer of government but a forum for coordination of joint and 
collaborative actions to address shared priorities. The work of the 
ROPs should be accomplished through the states' and federal agencies' 
existing legal authorities, and ROPs should determine the level of 
``process'' to serve their needs. Since coastal states do not believe 
the ROPs should have any independent regulatory authority, we would not 
consider them to be ``new bureaucracies.''
    11.  Some have argued that the new level of approval required in 
H.R. 21 could overturn local and state zoning decisions on specific 
projects and require a new set of standards that need to be met for any 
project or activity--even inland projects or activities--that might 
affect the ocean environment. Do you agree with that concern? Do you 
agree that new Federal requirements that might be seen to overturn or 
pre-empt local and State authorities should be approached very 
carefully?
    RESPONSE: While the coastal states do not have a legal position on 
the impact of the national standards provisions of H.R. 21, we are very 
concerned that the potential impact of these provisions may be 
exceedingly broad. The coastal states do not support any new standards 
that would preempt state or local authorities.
    12.  Does CSO support efforts to enact a new Federal offshore 
aquaculture authority statute? Do you think enactment of H.R. 21 might 
require an additional level of approval even if a new aquaculture 
authority were enacted?
    RESPONSE: The coastal states do agree that a regulatory framework 
is needed for aquaculture, but it must be integrated in a larger 
management framework to allow for planning of competing uses. 
Currently, state response to aquaculture proposals is on a case-by-case 
basis and certain projects would be addressed through CZMA Federal 
Consistency Review, which presents a reactionary framework. Instead, we 
believe that ocean governance reform should include regional 
partnerships or mechanisms to comprehensively and proactively look at 
the competing uses in the ocean so the various activities can be 
managed in a coordinated way. We do not, however, support the concept 
of the regional partnership being another layer of approval authority.
QUESTIONS FROM THE HON. JIM SAXTON
    1.  I have been excited to see regional ocean collaborations 
popping up around the country. Do you believe that these collaborations 
can be improved with support and guidance from Congress?
    RESPONSE: Yes, absolutely. The states have been leading the way on 
regional ocean governance initiatives with little new resources. To 
make these initiatives as effective as they can be, Congressional 
action and support is needed.
    2.  OCEANS-21 contains National Standards to guide implementation 
of ``covered actions'' and a timeframe for interagency comment. What 
sort of effect would this have when combined with current National 
Standards and timelines contained in other laws such as the National 
Environmental Policy Act and the Magnuson-Stevens Fishery Conservation 
and Management Act?
    RESPONSE: The coastal states do have concerns about the national 
standards provisions in the current draft of the bill. We suspect that 
requiring all ``covered actions'' of federal agencies to go through 
NOAA for approval will lead to a major bottleneck and impede processing 
of federal permits.
    3.  Our oceans cover an area that is 23% larger than the land area 
of the U.S. and, according to the U.S. Commission on Ocean Policy, 
contribute roughly $117 billion to the U.S. economy, mostly from 
tourism and recreation revenues. Given the expanse and importance of 
our oceans to people of the United States, do you believe that it is 
appropriate for Congress to issue guidance on how our oceans as a whole 
should be managed--as we have done with all of our other major systems?
    RESPONSE: Yes, absolutely. The oceans are a public trust and we as 
a nation are not currently fulfilling our trust responsibilities. 
Congress needs to act to improve management of these invaluable 
resources.
    4.  The NOAA organic act title of H.R. 21 makes NOAA the lead 
federal agency for oversight of all U.S. coastal, ocean, and Great 
Lakes waters and resources. Currently, though, NOAA shares this 
responsibility with agencies like USGS (for example, USGS manages 
fisheries in the Great Lakes). While the U.S. Commission on Ocean 
Policy did recommended consolidating oversight of ocean resources into 
one federal organization, they recommended a slower, step-wise approach 
that first provides an organic act for NOAA with its current 
responsibilities and then over the course of a few years considers 
transferring the responsibilities of other agencies to NOAA. Do you 
agree with the Commissions step-wise approach to consolidating ocean 
oversight, or do you believe this significant change in federal 
oversight should be made immediately as proposed by H.R. 21?
    RESPONSE: The coastal states do support an Organic Act for NOAA, 
but we do not have a position on whether programs from other agencies 
should be transferred into NOAA, either all at once or stepwise.
    5.  Many experts have stated that NOAA is too ``stovepiped'', 
leading to inefficiencies and duplications across its five current line 
offices. The NOAA organic act title of H.R. 21 proposes to consolidate 
these offices into three primary functions--assessment, prediction and 
operations; management; and research and education. I believe it is 
important for research and education to be closely tied to and support 
the other two functions of the agency, but under H.R. 21 things could 
remain stovepiped having research as a separate function. In another 
NOAA organic act proposal, H.R. 250 from Mr. Ehlers, there is a 
leadership position that oversees all science at the agency to ensure 
the best science is incorporated into all agency activities. Would you 
recommend a similar position in H.R.21? If not, would you recommend 
other changes in H.R. 21 to ensure that the research function of NOAA 
continues to serve the needs of the operations and management functions 
of the agency?
    RESPONSE: The coastal states agree that it is important to ensure 
that the research NOAA performs is addressing resource managers' 
science and informational needs. In other words, NOAA research should 
provide scientific services to the other NOAA functions. While we 
entirely agree with your sentiment, the coastal states do not have a 
position on what the best organizational structure is to accomplish 
this goal.
                                 ______
                                 
    Ms. Bordallo. Thank you. Thank you very much, Mrs. Leyden. 
And the Chairwoman will now recognize members for any questions 
they may wish to ask the witnesses, alternating between the 
majority and the minority, and allowing five minutes for each 
member. And should members need more time, we can go into a 
second round of questions. My first question is for Mr. Jack 
Dunnigan. In your testimony you go into great detail describing 
the Committee on Ocean Policy, established by the President 
under Executive Order and how it represents one of the bold 
steps the Administration is taking to implement the 
recommendations of the U.S. Commission on Ocean Policy.
    In that regard, I have two questions. First, if this 
Committee is having such great success then why are you opposed 
to codifying it in law? As you know, Mr. Dunnigan, Executive 
Orders come and go, and if we want to ensure the Committee 
continues it needs to be codified, is that not right?
    Mr. Dunnigan. Thank you. I think that is an issue that we 
need to talk about. I think there is perhaps an advantage to 
moving forward and providing a stronger legislative basis for 
what the President has done in the current structure. I think a 
lot of the concerns that we have with that portion of the bill 
are not just the questions of the codification of the Committee 
on Ocean Policy but all of the other structural elements that 
the bill would bring in to be a part of the overall scheme for 
managing that we think could be duplicative and end up taking a 
lot of our time away from actually doing the job of saving the 
oceans.
    Ms. Bordallo. Well I would certainly you know understand 
your situation and the committee would like to have 
recommendations as to how we can smooth this out. My next 
question is at our hearing in March Admiral Watkins said that 
despite the establishment of this Committee, it was difficult 
to identify what the Administration was doing in terms of new 
initiatives that were consistent with their recommendations. So 
can you identify specifically what NOAA and other Federal 
agencies are doing that truly implement the recommendations of 
the Commission? In other words, how are things different than 
they were before the release of the report of the U.S. 
Commission?
    Mr. Dunnigan. Yes. Thank you, Madam Chair. I think that 
there are a couple of things that can be pointed to, and what I 
would like to be able to do is to give back to the committee a 
very detailed response of the items that the various agencies, 
the Administration have underway where we have been seeing a 
lot of collaboration between the agencies. Let me talk about 
just a couple of what those might be.
    First of all, we are seeing in my experience--the long time 
that I have been in government--an unprecedented amount of 
collaboration where agencies are sitting down and actually 
talking about how they can do their jobs better together. This 
is being done through the various structures under the 
Commission on Ocean Policy, the Subcommittee on Integrated 
Management of Ocean Resources, the Joint Subcommittee on Ocean, 
Science and Technology are the two main operational arms.
    We have produced ocean research priorities document that 
lays out over a long-term what all of the agencies together are 
seeing as the critical research priorities for our government 
to be able to move forward productively in the future. We 
worked very hard as an Administration with the Congress to see 
the enactment of the Magnuson-Stevens Fishery Conservation and 
Management Act reauthorization last year, and that was a very 
important part of the priorities that we brought forward.
    Last June 15 the President declared the largest marine 
protected area on the planet, the Northwest Hawaiian Islands 
National Marine Monument, and we are working aggressively now 
with partners and other agencies to implement that so that we 
can safeguard the heritage and the value of those resources for 
the people of our country.
    We are doing a better job of coordinating on marine 
transportation policy through the Committee on Marine 
Transportation Systems where once again we are seeing a suite 
of agencies sit down and work together in ways that we have not 
in the past. So those are just a few examples, Madam Chair, of 
where things are working better right now.
    Ms. Bordallo. Thank you very much, Mr. Dunnigan, and now 
the Chair recognizes the Ranking Member, the gentleman from 
South Carolina.
    Mr. Brown. Thank you, Madam Chairman. Mr. Dunnigan, the 
Administration had 90 days to respond to the U.S. Ocean 
Commission Report and its recommendations. The Administration 
viewed these as recommendations, not mandates, is that correct?
    Mr. Dunnigan. Yes sir.
    Mr. Brown. How did the various departments discuss the 
recommendations and determine which would be included in the 
President's action plan?
    Mr. Dunnigan. There was a very broad collaboration that was 
led by the Council on Environmental Quality that included an 
array of civilian and noncivilian agencies focusing on the 
important items that we all saw, and there was a realistic 
ranking we thought of things that could actually be 
accomplished because the Administration did not want to just 
see this report end up being something that sat on a shelf. So 
we came forward with a specific set of actions that we thought 
we be achievable within a reasonably recognizable timeframe, 
and the President took those recommendations and implemented 
the oceans action plan.
    Mr. Brown. Thank you very much. Ms. Leyden, in his written 
testimony Mr. Dunnigan mentioned existing regional 
collaboration efforts, the Northeast Regional Ocean Council, 
the West Coast Governor's Partnership, the Gulf of Mexico 
Alliance and the Great Lakes Regional Collaboration. You have 
been involved in the Northeast Regional Council. Was it 
developed voluntarily, and has it worked well, and would the 
states support a continuation of these type of cooperative 
efforts?
    Ms. Leyden. Yes, the Northeast Regional Ocean Council was 
developed voluntarily through the efforts of Rhode Island 
Governor Carcieri who really corralled the region's Governors 
and made it an agenda item that was considered at the New 
England Governors' Conference. We are just getting off the 
ground. We have identified four key priority areas. I have to 
say that the Federal agencies, primarily through NOAA, were 
extremely responsive in coming to our initial meetings and 
helping us work through what the Federal agencies thought the 
priorities were and how those corresponded to what the state 
view was.
    We are having our first oceans Congress on May 24 bringing 
together people around the issues of coastal hazards, maritime 
security, ecosystem health, and energy. Yes, I----
    Mr. Brown. Where will that be? Where is that located? Where 
will that be located?
    Ms. Leyden. It is going to be located in Durham, New 
Hampshire at UNH.
    Mr. Brown. OK. Thanks. One other question. I have concerns 
with the creation of the ocean trust fund and its budget 
implications. Your comments regarding the need to retain 
flexibility to fund programs and priorities was important. 
However, the President has not asked for full funding for many 
ocean programs leaving ocean programs as a low priority. 
Without dedicated funding, how will the agency and the 
Administration work toward getting more funding for ocean 
programs?
    Mr. Dunnigan. Would you like me to respond, sir? This is an 
issue that comes up continually to Congress in a wide variety 
of circumstances. Ocean funding is what we have in front of us 
today. We are concerned that we establish a system that takes 
flexibility away from the President and the Congress to be able 
to address priorities as you have to face them every year and 
as they change, and when you get into a system where you have 
dedicated funding that is not run through the budget process, 
to that extent the President and the Congress are losing their 
flexibility to be able to deal with problems as they arise, and 
that is typically why many Administrations over the years have 
tended not to like the kinds of proposals that are included in 
the bill.
    I would point out though that the President's budget for 
Fiscal Year 2008 includes significant new funding for the 
oceans that has not been in the President's budget before, and 
we think that this came about as a result of all of the 
activity of the U.S. Commission and following up on the ocean 
action plan, and we would strongly hope that Congress would be 
able to provide that funding that is in the President's budget.
    Mr. Brown. Thank you, Madam Chair, and I will yield back 
the balance of my time.
    Ms. Bordallo. Thank you very much, Ranking Member Mr. 
Brown, and now the Chair recognizes Mr. Faleomavaega from 
American Samoa.
    Mr. Faleomavaega. Thank you, Madam Chair, and I want to 
thank Mr. Dunnigan and Ms. Leyden for their fine testimonies 
this morning. I had indicated earlier in my opening statement 
about the concern of duplication, overlappings. Now you know we 
only have 280 Federal agencies here in Washington, D.C. with 
some 220,000 people working under these 280 agencies already in 
existence.
    Now I realized that you had indicated, Mr. Dunnigan, you 
have to give the President or the Administration some sense of 
flexibility but sometimes also flexibility could also be to the 
point where we get nothing done, and this is the reason and the 
purpose why we pass legislation to make sure that we are on 
target. That we know exactly what the policy is, and I am sure 
you will agree with me oceans can sometimes be abstract in 
form.
    When you talk about three miles out in the ocean, we have a 
different set of laws for that problem. If you talk about 12 
miles out in the ocean, it is another set of laws, and then 
when you talk about 200 miles, that is what you call an 
economic exclusive zone, an entirely different body of law also 
has to be figured into this whole process. So if I wanted to 
ask you what do you mean by ocean? I know the Pacific Ocean 
because I live in the middle of it, and I can appreciate all of 
our coastal states around the United States.
    So I have a real deep appreciation of what an ocean is 
because I live right in the middle of one. So can you tell me 
if I am being abstract about when you define what is the ocean 
that you are talking about?
    Mr. Dunnigan. Thank you, sir. No, I do not think you are 
being abstract at all. I think you are hitting on a critically 
important point that we are beginning to understand a lot more 
about than we have in the past, and that is how interconnected 
everything is. It is not just a question of blue water or green 
water or brown water. It is a question of systems that engage 
each other and that people have to interact with and live among 
in a wide variety of values that different people have with 
respect to those oceans.
    We are active, for example, in a Gulf of Mexico hypoxia 
task force, which is an interagency task force that works with 
states, and recognizing that the hypoxic zone in the Gulf of 
Mexico is fed by things that come down the Mississippi River 
from a very wide part of our country. So I think the point you 
are making is that things are interconnected and ecosystems 
approaches toward considering them are essential if we are 
going to be effective.
    Mr. Faleomavaega. And you had indicated earlier, and I do 
want to give credit to the President for his initiative in 
establishing by Executive Order the Commission on Oceans 
Policy. May I ask how long have we been dealing with this on 
the Commission? I mean on the question of as you had indicated 
there will be an Administration proposal by way of legislation. 
When do we expect to have that proposed bill?
    Mr. Dunnigan. There will be an Administration proposal on 
the Organic Act for NOAA I think was what I said, and I think 
that you will see that within a couple of weeks, and I think 
that it will not be all that different from the one that the 
Administration brought forward in the 109th Congress.
    Mr. Faleomavaega. Ms. Leyden, I want to thank you for being 
the outstanding leader of our coastal states and territories, 
and I hope we will continue this organization to kind of keep 
an eye on what we are doing here too in Washington. I wanted to 
ask you in terms of dealing with coastal states you talk about 
the health of the oceans and the coastlines.
    When we are talking about coastal states, how many people 
are we talking about in terms of how does this impact or affect 
people who live along the coastal states? I mean what are we 
talking about? Twenty million? A hundred and fifty million 
Americans affected by the kind of policies that come from 
Washington that affects not only the ocean but our coastlines.
    Ms. Leyden. My staff member tell me that it is actually 53 
percent of the United States' population is within the coastal 
zone.
    Mr. Faleomavaega. Fifty-three. That is a little over 150 
million being half, right, since we are about 300 million 
people living in this country?
    Ms. Leyden. Right.
    Mr. Faleomavaega. OK. So it is a substantial number of 
people whose lives are impacted for those who live in the 
coastlines and again in terms of those that relates to our 
oceans policy. If I were to define what an oceans policy is, 
you are talking about marine resources. You are talking about 
fisheries. You are talking about the regulatory agencies that 
regulate and the other agencies like NOAA that promotes 
commercial fishing, if you will, recreational aspects that I 
know my good friend from New Jersey is very sensitive about and 
rightly so.
    And so we have a whole mix of issues and things that we put 
it all together it becomes chop suey, and I am just wondering 
if it is going to be delicious or if it is going to end up sour 
in terms of how we are trying to solve this problem.
    Ms. Leyden. Is that a question, sir?
    Mr. Faleomavaega. Yes, it is. If I could maybe state it 
better. Ten more seconds or is it past? I am sorry. My time is 
up. I have to obey my Chair or she is going to kill me. I will 
wait for the second round. Thank you.
    Ms. Bordallo. Let us just say we run a tight ship. The 
Chair now recognizes Mr. Gilchrest from the State of Maryland.
    Mr. Gilchrest. Thank you, Madam Chairwoman. I ask unanimous 
consent that my full statement be submitted into the record, 
and I would also like to invite the entire committee--certainly 
with the people that are testifying today I keep forgetting to 
ask you this--we did it several years ago to come over to 
Maryland to go canoeing on the Sassafrass River which is a 
tidal basin to the Chesapeake Bay and show you a number of 
things that we are trying to do over there on the local level 
to meet this integrated system that we are talking about this 
afternoon. So some time late spring, early summer the whole 
committee is invited to the Turner's Creek.
    [The prepared statement of Mr. Gilchrest follows:]

  Statement of The Honorable Wayne T. Gilchrest, a Representative in 
                  Congress from the State of Maryland

    Thank you, Chairwoman Bordallo and Ranking Member Brown, for the 
opportunity to share with the Committee my views on oceans policy and 
H.R. 21, the Oceans Conservation, Education, and National Strategy for 
the 21st Century Act (OCEANS-21).
    It was my pleasure to work with both of you during my tenure as 
chairman of the Subcommittee, and I am very pleased to participate as a 
Subcommittee member in an increased interest in broader ocean policy 
issues by the Natural Resources Committee. It has also been my pleasure 
to work with my colleagues, the co-chairs of the House Oceans Caucus, 
on this legislation. I believe it has been greatly improved. 
Establishing and implementing a comprehensive oceans policy is complex, 
and its gravity and importance--equal to the vast importance of our 
oceans and coasts to our economy and quality of life--deserves careful 
consideration.
    As the Subcommittee knows, I have long advocated for greater review 
and implementation of the two ocean commissions' recommendations to 
Congress, including an effort to establish a select committee on 
oceans. I joined my distinguished colleagues in supporting OCEANS-21, 
because it is my hope that it can generate the policy discussion 
necessary to accomplish this goal. I see that process toward beginning 
here, with OCEANS-21. This hearing will provide valuable information 
toward refining OCEANS-21 through our distinguished witnesses. I also 
want to recognize the work of my House Oceans Caucus colleagues, Rep. 
Sam Farr, Rep. Tom Allen, and Rep. Jim Saxton on OCEANS-21.
    The U.S. Commission on Ocean Policy report and the Pew Oceans 
Commission Report represent the most comprehensive review of the 
challenges facing the health of our oceans, summary of existing federal 
ocean authorities and programs, and recommendations to restore our 
oceans. The most striking comments woven throughout the documents are 
those pointing to the need to raise the visibility of oceans and to 
more efficiently and effectively coordinate federal ocean policy and 
programs to fully utilize and protect them. As the reports points out, 
gaps in ocean policy and protections are rooted in either overlapped or 
disconnected jurisdiction of governmental institutions at all levels, 
including Congress.
    As both the U.S. Commission on Ocean Policy and the Pew Oceans 
Commission have reported, our oceans and coasts are in trouble. Among 
other threats, harmful algal blooms, invasive species, and pollutants 
threaten the health of our coastal waters and essential fish and 
wildlife habitat are being significantly degraded or lost. Now, we are 
also acutely aware of the effects of climate change exacerbating the 
already serious state of the oceans. Rising sea levels and severe 
coastal storms are eroding our coasts, changing ocean temperatures and 
the absorption of CO2 is likely to alter the basic chemistry, food web, 
and distribution of ocean resources. Changes in ocean temperatures are 
affecting ocean currents that are important to the regulation of our 
climate.
    While our oceans contribute $117 billion annually to the U.S. 
economy and support more than two million jobs--2.5 times the total 
economic output and 1.5 times the employment of the farm sector--ocean 
policy issues are spread out among over 30 standing committees in 
Congress and multiple federal agencies. The diversity of committee 
jurisdiction in Congress over ocean issues illustrates the complexity 
of this single topic; however, greater coordination and visibility for 
ocean policy in Congress will improve both the benefits we receive from 
the oceans and our stewardship of them.
    Currently, ocean resource issues are primarily the jurisdiction of 
the House Committee on Natural Resources and its Subcommittee on 
Fisheries, Wildlife and Oceans. It is my hope that the Committee will 
lead the way toward comprehensive, national ocean policy across all 
relevant committees that addresses the multi-dimensional and cross-
jurisdictional nature of our oceans and coasts.
    During our March 2007 hearing, we heard testimony from leadership 
of the Joint Ocean Commission Initiative's (JOCI) two leaders, Admiral 
James Watkins (Ret.) of the U.S. Commission on Ocean Policy and The 
Honorable Leon Panetta of the Pew Oceans Commission, on the state of 
our oceans and policy priorities. They reiterated the priority ocean 
policy recommendations from JOCI to Congress, which were taken from the 
original reports from both commissions. OCEANS-21 directly reflects 
several of the top ten of these recommendations, including adopting a 
statement of national ocean policy, establishing NOAA in statute, 
fostering ecosystem-based regional governance, and establishing an 
Ocean Trust Fund. I believe OCEANS-21 is a significant starting point 
toward restoring and strengthening the health of our coasts and oceans. 
I strongly support development of legislation that addresses these 
recommendations and look forward to working towards the continued 
improvement of the policies proposed in OCEANS-21.
    Again, I thank Chairwoman Bordallo and Ranking Member Brown for 
recognizing the importance of our oceans and taking action to more 
sustainably manage this irreplaceable resource.
                                 ______
                                 
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Gilchrest. For a picnic and a canoe ride.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Gilchrest. I will.
    Mr. Faleomavaega. I would like to invite all my colleagues 
to come and visit my territory.
    Mr. Gilchrest. We will be there, Eni.
    Mr. Faleomavaega. With the only exception you pay your own 
fare coming down there. Thank you.
    Ms. Bordallo. And I will round that out with a visit to 
Guam. No objection.
    Mr. Gilchrest. Visit to Guam. Three places, Turner's Creek, 
American Samoa and Guam. OK. First of all, I want to compliment 
the Administration on its effort with Magnuson and basically 
helping us create this language that ended over fishing and a 
number of other things were built on top of that. So we can 
conclude that that was a first big step in the right direction 
with our oceans, and I want to compliment all the NGO's that 
are in the room for the years of service to this issue. It has 
been pretty extraordinary.
    And I want to start by giving a quote that I just read 
recently in the last couple of days. This was a quote 
associated with Vietnam and Iraq, but I think it also can apply 
here, and that is, ``History is a vast early warning system'', 
and we do not have to go back too far in history to know the 
abundance that our oceans supply with a fragment of the 
population that we have today, and then we see the huge 
explosion of the human species across the planet now relying on 
a minuscule of the resources that were there available to them 
as little as 100 years ago.
    And so when we look at that and there is numerous examples 
that we can give, whether it is the Gulf of Mexico, whether it 
is the Chesapeake Bay, whether it is the Gulf of Maine or the 
Gulf of Alaska or almost anywhere you go. And I recently read 
an article. I think it was Palo, an island in the South 
Pacific, and a number of other islands are going to follow this 
discretion. The ancient tradition in these atolls or islands 
was that you follow the natural cycles of the fish, and you had 
certain areas that were isolated that you did not fish because 
you knew that is where they spawned.
    And then when the larger fishing boats came in and 
traditions changed, they saw a drastic reduction in the fish 
population that they depended upon, and so the elders have 
reinstituted that understanding of the integrated processes 
that they can observe every single day. So, Jack, you mentioned 
the huge marine protected area in the Hawaiian Islands region, 
and that is excellent, and we have protected areas in a number 
of places around the planet.
    Not only the United States but we cannot sustain life on 
the planet by hoping those isolated marine protected areas are 
going to do that. They are not going to do that. The entire 
planet is a protected area for the species that are ongoing 
that are growing. A recent scientist said, ``It is a virtual 
impossibility for the rest of the world to have the lifestyle, 
the standard of living in the United States with available 
resources.'' A virtual impossibility.
    So to find some ability to understand the integrated affect 
of the air, the sea, and the water, and its impact by us who up 
until recently had no understanding of nature's engineering 
design, but now we do. And so what I would like to continue, 
which is what both of you are suggesting, that we have Oceans 
21, a bill, that reflects the two public and private 
commissions about the need to look at the big picture, the 
ocean, the atmosphere, the land, how human activity degrades 
and is not compatible with nature's design.
    The big picture. Not fragmentations in various committees 
or various agencies but the big picture, and then for all of us 
to work together to create that structure that is reflective of 
the big picture. People assume--my constituents, constituents 
around the country--assume that the government is competent. 
Now we know that we would like the government to be competent 
but we know all of the other various issues that enter the 
interplay of when we do our work from various interest groups, 
whether they want the whole world to be a marine protected area 
or whether they want the whole world to be a facility where we 
can extract resources for the immediate present and not the 
overall future.
    So, Jack, you mentioned 46 action items of which most of 
them are done. I am done? OK. Anyway, let us sit together and 
work up a bill, a piece of legislation, statutes that are 
worthy of all of us here. Thank you.
    Ms. Bordallo. Mr. Gilchrest, your witness can answer the 
question on the next round. The Chair now recognizes Mr. Frank 
Pallone, State of New Jersey.
    Mr. Pallone. Thank you, Madam Chairwoman. I wanted to start 
out by saying that you know I commend Mr. Farr and Mr. Allen 
for following up on the recommendations of the Pew Commission 
and the U.S. Commission on Ocean Policy in putting together 
this Oceans 21 legislation which I do think is a good bill, and 
this idea of setting a national ocean policy to protect our 
marine ecosystems and resources is critical, and we also need 
to pass the NOAA Organic Act, which I understand is also 
incorporated in this.
    I think we need to find ways to increase coordination 
amongst the myriad agencies that address ocean and coastal 
issues because too often those agencies are making decisions in 
a vacuum without considering the complexity of ocean systems. 
My questions though relate to fisheries management because I 
mentioned to Congressman Farr before that in my district--and I 
suppose nationally--but I will only speak for my district, a 
lot of the recreational fishermen are concerned and saying that 
this is going to have a major impact and create a huge 
bureaucracy, and make it more difficult to make fisheries 
management decisions.
    And I do not know if that is true. I mean it may very well 
be that there is very little impact on fisheries here but let 
me just give you an example, and I will ask Mr. Dunnigan from 
NOAA these questions. In Section 101 of the bill, it sets a 
national ocean policy and requires the Federal agencies approve 
certain actions only if they will not significantly impact the 
health or restoration of marine ecosystems.
    Now what I am getting from the fishermen are statements 
like this: That this provision would basically mire fisheries 
management officials in new requirements and mandates that 
would make it difficult for the industry, hurt the commercial 
sector, make it less competitive, you know create a whole level 
of new bureaucracy, and they used an example for example of you 
know would you be able to approve a quota for fishing you know 
with a species that is not currently at maximum sustainable 
yield?
    I will give you an example right here. They say the 
National Marine Fisheries Service and the Mid-Atlantic Council 
could not set a minimum size on fluke or allow a limited 
harvest on spiny dorkfish you know because of that. Do you see 
it impacting that in any way? I mean you know Congressman Farr 
tells me that is not the case. So I do not want to get into it. 
I am not trying to relate it to him. I am just asking your 
opinion.
    Mr. Dunnigan. Thank you, sir. I am trying not to do 
fisheries these days but every once in awhile----
    Mr. Pallone. Well maybe we could all----
    Mr. Dunnigan.--I run back into it. I think that the point 
you are making, Congressman, is one of the ones that causes us 
to have some concerns about the language of the legislation. 
The Congress and the Administration worked so hard last year to 
get the Magnuson-Stevens Act reauthorized, and we are working 
very hard to get it implemented, working with the regional 
fishery councils, that it would be difficult, we think, to have 
to work in a whole other set of standards that come in on top 
of it, and it creates this next level of worry, this perhaps 
next level of litigation possibilities that we are afraid are 
going to get in the way of effectively moving forward with the 
implementation of the Magnuson-Stevens Act, and that is one 
example.
    There are lots of other pieces of legislation where this 
similar kind of issue could play out. So the concern that we 
have had in reviewing the bill is that it could lead to those 
kinds of problems, and we would not want to see that happen.
    Mr. Pallone. Now what about Section 402 that sets up the 
regional ocean partnerships to help facilitate communications 
and collaborations? I mean would they have any decisionmaking 
authority over fisheries management? Would they be able to step 
in and prevent a permitting decision in your opinion?
    Mr. Dunnigan. I am not sure how it would play out, sir. I 
think our belief----
    Mr. Pallone. You have the Committee on Ocean Policy too.
    Mr. Dunnigan. Right.
    Mr. Pallone. These are all different you know.
    Mr. Dunnigan. You know our view is that fisheries ought to 
be managed through the council process, and we want to be able 
to support that. It is a difficult job, as you know, and they 
require the resources and the attention that they could get. So 
I think you know while the idea of having a national ocean 
policy is one thing that we should talk about----
    Mr. Pallone. Let me just ask this because I know the time 
is gone. You would probably suggest that we do some changes to 
avoid the possibility that these fishery management decisions 
would be impacted?
    Mr. Dunnigan. I think we would want to have the chance to 
talk to you about that. Yes, sir.
    Mr. Pallone. All right. That is all I am asking at this 
point. Thank you.
    Ms. Bordallo. Chair thanks the gentleman. And now I would 
like to recognize Mr. Saxton from New Jersey.
    Mr. Saxton. Thank you, Madam Chairlady. I have some 
questions which I would like to submit to this panel in writing 
for their answers, but I would like to pursue the subject and 
perhaps invite Mr. Farr to express his views on this as well 
during my time, but it seems to me that there ought to be a 
way. I mean that is what this committee is for to finalize 
language or to improve language.
    And we all worked together last year on Magnuson trying to 
develop an Act, a law that would work to help conserve fish and 
at the same time make sure the door stays open for harvest of 
seafood, both recreational and commercial, and the last thing 
that I will tell you what after Mr. Gilchrest and I and others 
went through--and my knuckles are still healing up from that 
fight--and I want to make sure Magnuson continues to go forward 
and work.
    And so let us work together to see if we cannot solve some 
of these problems. If in fact the people who are bringing up 
these problems have a real problem, then we ought to fix it. We 
should not do something to emasculate what we did just last 
year. Let me yield to Mr. Farr.
    Mr. Farr. Thank you very much for yielding, Mr. Saxton. Let 
me point out that the next panel has a fisherman on it, Zeke 
Grader, and I worked with Zeke for 25 years. One of the things 
that we have seen is that fishery councils only have the 
authority to deal with fisheries. So what happens is if you 
have an threat, they cut the quota because they do not have any 
other ability to deal with other factors that may be related to 
but not in the fishery itself. That is why they are here to 
testify that we need a much broader policy and a coordination.
    In addition to that, the legislation--and you had a lot to 
do with this--you put in the bill that nothing in this Act 
shall be construed to supersede or diminish the authority of 
responsibility under any other provision of law of any Federal 
agency or state or political subdivision thereof to establish 
or implement more stringent requirements to concern the ocean 
resources. So that still leaves it up to local management and 
existing laws to do that.
    What is key to this bill is this national policy. Think 
about it. I mean we are the only government that has 
jurisdiction over all this ocean mass. There is no state 
responsibility out to 200 miles, and if we are going to try to 
reduce this sort of conflict issue, which is what everybody is 
into, you have to have a governance structure.
    Mr. Saxton. Madam Chairlady, believe me this is a subject 
that we need to deal with, and I look forward to working with 
Mr. Farr and Mr. Dunnigan and Mr. Pallone and others to try to 
do something that will assure us that we will have a workable 
process when we are finished. Thank you and I yield.
    Mr. Pallone. I was going to ask him to yield.
    Mr. Saxton. Sure.
    Mr. Pallone. But he just gave back his time.
    Mr. Saxton. I will yield my time left.
    Mr. Pallone. I just wanted to indicate that I totally agree 
with what Mr. Saxton said, and I did talk to Congressman Farr 
briefly, and you know I know that it is not the intention here 
to you know change the fisheries management system but I also 
think it is necessary for us to sit down and to address it 
because we literally are you know getting you know all kinds of 
attacks directly on the legislation.
    So we need to address it but I understand that that is--you 
know after talking to Congressman Farr--that there is no 
intention here to you know change the way the councils act or 
the way the fisheries management agencies proceed at this 
point. So I think that is significant but I still think we need 
to talk about it a little more. Thank you.
    Ms. Bordallo. Thank you very much.
    Mr. Gilchrest. Will the gentleman yield? He has 15 seconds. 
I think part of what Sam is talking about with ocean governance 
is what has been mentioned a couple of times about what is 
local responsibility and what is local opportunity. Ocean 
governance has a way of pulling in people to have some sense of 
obligation and responsibility and an opportunity to recognize 
the ocean issues from an ecosystem perspective. Everything 
impacts the ocean.
    If you look at oysters, it is not only that they were over 
harvested in the Chesapeake Bay so there is 99 percent of them 
gone compared to what it was 100 years ago, but it is also all 
the human activity and all the soil runoff and all the other 
degradation activities that have caused the oysters to drop 
down. So I think what we are doing in this bill is to deal with 
it in a holistic approach. Thank you.
    Ms. Bordallo. Thank you. Thank you very much. The Chair 
wishes to ask Mr. Saxton, did you have some questions you 
wanted to submit for the record? Yes, with no objection. And 
now the Chair recognizes Ms. Capps from the State of 
California.
    Ms. Capps. Thank you, Madam Chair, and I have not had a 
chance to formally thank you for holding this hearing and 
particularly appreciated the first panel, one of whom is 
sitting next to me, and I am a cosponsor of the Oceans 21 
legislation. My district is contiguous with Mr. Farr's on the 
Pacific coast, and have enormous respect for the four coauthors 
of that legislation, and I am proud to be part of the Caucus 
from which it has come to, and so pleased that this 
Subcommittee is dealing with these issues, and thank you to all 
of our witnesses today in the three panels that we are having 
on this topic.
    Ms. Leyden, I would like to start with you, and actually my 
questions to you are part of the context of the conversation we 
have been having already but I want to frame it in just a 
little different way. I am hesitant to release it into a 
conversation because I want to ask a question of our witness. 
But you mentioned in your testimony several incentives other 
than just money to encourage state participation and regional 
governance. That is what we are talking about right now.
    One is the joint approach to the sighting of energy 
projects and other emerging uses of the ocean. I have a 
particular interest in your flushing this discussion out a bit 
on how this might work. We had a discussion on this topic 
earlier this week at a hearing on renewables on the OCS, and I 
immediately think of CZMA and how important it was, is and I 
hope will still be because it has let California have a say in 
whether or not new drilling would be allowed off our coast. We 
have had experience with this, and if so, under what 
conditions.
    You know just recently our coastal commission used this 
very law to reject a proposed LNG terminal in my area that 
would have polluted our air and water. I have two questions for 
you, and then I do want to go to our other witness too. Would 
the states want the responsibility for planning the sighting of 
such projects in Federal waters off their coasts, and how would 
it fit with Federal responsibilities?
    Ms. Leyden. I think that there has certainly got to be a 
better way to site energy facilities that we all acknowledge 
that we need and to not end up in the situation that we are in 
now of going through extremely lengthy permitting processes and 
having facilities' permits denied. So I think that this 
comprehensive approach to sighting would be an extreme 
incentive of the regional ocean partnership type of framework, 
and I think states would look forward to that. It could be a 
streamlined approach where issues of concern could be 
identified early on and perhaps resolved.
    Ms. Capps. We had such strong impression locally during 
this recent application and the vote of the coastal commission 
that the role of the Coastal Zone Management Act was so key in 
allowing local communities which after all are the most 
directly affected by any Federal policy or decision to affect 
even within Federal waters both the states' jurisdiction and 
the local communities, and I think the streamlining is affected 
in a positive way by having all of those players, stakeholders 
if you will, at the table.
    Now it seems like from the Administration, I will let you 
answer that briefly and go to Mr. Dunnigan, but we have all the 
coordination and partnership that we need. Do you agree?
    Ms. Leyden. That we have the partnership and coordination 
that we need? I think that it is more creating a formalized 
framework around it and a system to get additional resources 
into the partnerships. I think the question was mentioned, I 
think it was raised by Mr. Brown about the voluntary nature and 
would these efforts continue, I think they are subject to the 
whim and the energy of the states right now.
    Ms. Capps. Right.
    Ms. Leyden. And the beauty of formalizing them is to get 
additional resources toward them and so we are all meeting a 
common mark of achievement.
    Ms. Capps. Right. And that harks back to the importance of 
the Federal role in making sure that this is done. I see the 
yellow light. Mr. Dunnigan, I want to ask for your written 
reply because I just want to highlight a very important part of 
the education budget through NOAA because we have this B-WET 
program in my district which is proven to be such a valuable 
piece, and I want to see how you respond to the President's 
budget signaling education as a priority and what ways can we 
guarantee that that is going to stay a priority through your 
administration. If there is a second for him to respond now and 
he can send me more in writing.
    Mr. Dunnigan. Thank you, Congresswoman, and of course in 
the National Marine Sanctuary that is in your district, the 
education and outreach has been a major priority for us. The 
Merido Program to get education and outreach to non-English 
speaking people.
    Ms. Capps. Right.
    Mr. Dunnigan. And it has been a major priority for Admiral 
Lautenbacher as the Undersecretary of NOAA to focus on 
education.
    Ms. Capps. Right. The budget has to reflect that too 
otherwise it does not work.
    Mr. Dunnigan. Understand, and we will be glad to follow up 
with a more complete response.
    Ms. Capps. Thank you very much. I yield.
    Ms. Bordallo. The Chair thanks the gentlelady from 
California. The Chair now recognizes Mr. Farr from California.
    Mr. Farr. Thank you very much, Madam Chair. It is just a 
privilege to be back on this committee, one I used to serve on 
many years ago. I have to respond to Mr. Dunnigan's comments. 
Mr. Dunnigan, I think you are very disingenuous to come and say 
the President has really upped the ocean's budget and we all 
ought to be thankful to the President when in reality he has 
cut the amount that Congress appropriated and enacted last year 
and has done that every year.
    In the hearing in Mr. Mollohan's subcommittee, I am on the 
Appropriations Committee, not on that subcommittee, but in that 
subcommittee I got to sit in on it, and after hearing from 
Admiral Lautenbacher about what NOAA is up to in looking at 
their budget which is not only oceans, it is also the 
Atmosphere Administration, the majority of the money goes into 
the A side, the atmosphere. The minority of the money goes into 
the oceans. And they have never been able to come in and lobby. 
They just do not lobby for it.
    And one member of the committee said, we ought to just take 
the O out of NOAA. They do not care about the oceans anymore. 
And my point is that I think to come here and say you know just 
give us our statutory authority in the Organic Act, which is in 
this bill, but ignore everything else in there is really 
disingenuous because the very commissions that went out and 
looked at the activities of the Federal government, including 
that of NOAA and the joint chairs Admiral Watkins and 
Congressman Panetta reported to this committee and Congress 
just a few months ago about they put out a report card, U.S. 
ocean policy report card.
    National ocean governance, C minus. Regional and state 
oceans governance, an A minus. Regional and state. That is not 
NOAA. International leadership. NOAA ought to be part of that. 
D minus. Research science and education, D plus. Fisheries 
management reform, primarily because of the work of Mr. 
Gilchrest and Saxton who led that effort last year, a B plus 
because of the passage of the Magnuson Act. And here is the 
last one which is so key to it that we would not need this bill 
if indeed we had enough money to carry out the responsibilities 
and develop this interaction. We never have because NOAA has 
not done it. New funding for ocean policy and programs, which 
this bill is about and which Mr. Brown talked about, an F. An 
F.
    That report card explains why we are here today and why we 
need to have a national ocean policy to bring all these things 
in a coordinated fashion, and you know I guess what I am so 
upset about is we worked so hard on this bill. There is not an 
advocate in the Appropriations Committee that works harder to 
get money for the O in NOAA, and today you come and bite the 
hand that feeds you.
    Ms. Bordallo. Thank you. Thank the gentleman from 
California. He took away my subject matter. I was going to read 
the report card but I just want to ask, Mr. Dunnigan, you 
mentioned earlier in your testimony that the funding was up to 
par. Is not the 2008 budget request actually lower than the 
2007 appropriated level?
    Mr. Dunnigan. Madam Chair, the overall levels of funding 
that the country can make available for all kinds of programs 
are decisions that you get to make, and Mr. Farr as a member of 
the Appropriations Committee I know understands these things 
completely, and it is limited funding. I think what is 
important to recognize is that for what the Administration has 
proposed in the past, there has been tremendous movement, and 
this bill, this appropriation request for 2008 in some very 
important areas for oceans and for ocean research, and it is 
not just NOAA. There are other agencies that are participating 
in this as well.
    So is it the perfect answer at the end? That is a question 
that you all are going to get an opportunity to work out 
through your appropriation processes over the next couple of 
months.
    Ms. Bordallo. Mr. Dunnigan, just an answer to my question 
though. Is not the budget request for 2008 lower than the 2007 
appropriation?
    Mr. Dunnigan. For the specific areas that we are in?
    Ms. Bordallo. NOAA.
    Mr. Dunnigan. For NOAA? That is true.
    Ms. Bordallo. Thank you. Thank you very much. The Chair now 
recognizes the Ranking Member, Mr. Brown.
    Mr. Brown. Thank you, Madam Chair, and let me continue 
those same questions. So the bill appears to require a new 
level of approval and the requirement of any new ocean 
activities meet a new set of standards. How will this affect 
offshore aquaculture, and would individual permits be likely to 
face litigation if those opposed to aquaculture wanted to block 
new permits?
    Mr. Dunnigan. I do not think we have a clear answer to that 
question yet, sir. The Administration's Aquaculture bill which 
the Secretary has signaled is a high priority for the 
department and for the Administration is going through its 
final steps of interagency clearance right now, and we will 
have that you know to bring up to Congress in the very new 
future, and I think we will have a better opportunity at that 
point to look specifically at the questions relating to 
aquaculture.
    Mr. Brown. And I might ask Mr. Farr this question and you 
might know it too. What would be the fiscal impact on the 
receipts of the new permits or license? How much would that 
generate in this bill?
    Mr. Farr. We do not have any authorization in here. What we 
create is a Federal stamp.
    Mr. Brown. Right. How much would that generate?
    Mr. Farr. We do not know.
    Mr. Brown. OK.
    Mr. Farr. But that money would go back into the program. It 
would recycle back into.
    Mr. Brown. Do you know how H.R. 21 might affect 
aquaculture?
    Mr. Farr. Well I think the fisheries expert is sitting 
right to your right.
    Mr. Brown. I am sorry. I missed him.
    Mr. Farr. I mean we have a lot of fisheries too but 
certainly not like the Chesapeake has in aquaculture but what 
you have I mean this is the difficulty. We have created a lot 
of stovepipe agencies throughout the years to deal with you 
know one thing, and what we find is when you try to solve a 
problem it is comprehensive. It requires a lot more, and the 
laws some of them are conflict, and frankly where you get the 
advantages for filing lawsuits is when the law is not clear and 
you have not been able to work out these things.
    We have found in the coastal zone management, at least in 
California because we have one stop in that requirement, one 
stop for Federal agencies, for private sector, for local. I 
mean usually governments that are exempt from these all come 
and are required to be at the same table and come up with the 
same outcomes to meet the standards. That is kind of a model 
but it is not what we are doing here. We are not as strict as 
that.
    It is going to be difficult to answer your question but I 
cannot think that it would not be better, be more helpful to 
have because then you can say this is where aquaculture ought 
to occur and give it a green light.
    Mr. Brown. OK. Thank you very much. Madam Chair, before I 
yield back the balance of my time, I would like to ask for 
unanimous consent to submit Mr. Young's statement for the 
record.
    Ms. Bordallo. No objection.
    [The prepared statement of Mr. Young follows:]

Statement of The Honorable Don Young, a Representative in Congress from 
                          the State of Alaska

    Madame Chairwoman, I appreciate the opportunity to comment on H.R. 
21, the Oceans Conservation, Education, and National Strategy for the 
21st Century Act.
    Without a doubt, every Member of this Committee and probably every 
Member of Congress wants healthy, productive oceans. My state relies on 
its natural resources and its ocean resources more than any other 
state. The waters off Alaska provide this nation with about half of all 
the seafood produced in the United States and we have managed our 
natural resources in a sustainable manner. However, we also believe 
that man is an integral part of the natural processes and that we can 
use our natural resources. We do not see a need to lock away those 
resources, but rather, we believe in appropriate management.
    I do not doubt that the authors of this legislation have noble 
intentions, but as always, the devil is in the details.
    Madame Chairwoman, this legislation will require--let me repeat 
require--a new level of Federal bureaucracy and a totally new set of 
standards that have to be met for every project or activity that 
affects or is likely to affect the ocean or coastal area. Image going 
through every hoop that is currently in place including the National 
Environmental Policy Act (NEPA), Endangered Species Act, the Marine 
Mammal Protection Act, the Clean Water Act, the Magnuson-Stevens Act 
and a host of other laws only to find out that you now had to get the 
Administrator of NOAA to make a determination that your activity met a 
whole new set of standards--standards which are totally different than 
those currently in any other law. Not only that, but the determination 
by the Administrator could be challenged by anyone who didn't like your 
activity and tie you up in Federal court.
    At a time when this Subcommittee is examining potential new sources 
of renewable energy in the ocean environment and may be looking at 
moving legislation to authorize offshore aquaculture, it is interesting 
that some Members would like to force these new technologies and new 
programs to a new set of standards in addition to all of the existing 
standards. They would like us to create a new regulatory structure for 
these new technologies and then subject them to an additional level of 
scrutiny. Is it any wonder that the OTEC law has been on the books for 
more than 20 years and NOAA says that they have not received a single 
license request?
    If Members think that the Endangered Species Act has caused 
gridlock, just wait until this new, additional level of review and 
approval is required.
    At a time when many Members are concerned about funding issues for 
NOAA and are concerned that NOAA seems incapable of meeting its current 
obligations under existing law, it is ironic that they are asking the 
Administrator to now review every single project or activity that is 
likely to affect the ocean--even those projects on land.
    Yes, that is right. On land activities that are likely to affect 
the coast or ocean would now be reviewed by the Administrator of NOAA. 
Local and state zoning decisions could be reviewed, challenged or pre-
empted by this legislation. In addition to prohibiting at-sea 
activities, military activities which are conducted on land, but which 
could affect the coast would now be subject to review and could be 
rejected if they don't meet these new standards. Agricultural 
activities in Missouri would now have to get approval and meet these 
new standards if someone makes a determination that farm runoff affects 
the health of the Gulf of Mexico. It is possible that any farm that 
receives any Federal farm subsidies would have to get a permit before 
they use fertilizer on their private lands.
    Yes, I am looking at this from the worst case scenario. I am one of 
the only Members on this Committee who remembers the debate on the 
original Endangered Species Act. The unintended consequences of that 
legislation have totally changed what was a well-intentioned bill into 
a bureaucratic and litigation nightmare.
    Let me repeat that we all want healthy, productive oceans but not 
at the expense of all human related activities.
                                 ______
                                 
    Mr. Brown. OK. Thank you very much.
    Ms. Bordallo. I did----
    Mr. Dunnigan. Madam Chair, can I clarify something? I made 
a mistake. I understand that the aquaculture legislation has 
been sent to the Hill and was introduced yesterday by Chairman 
Rahall.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Brown. I 
just want to announce to the panel here and to the witnesses 
that are coming up on the second panel we have three votes. I 
think we have committee of the whole. We have one vote, is that 
correct? So I will recess for about----
    Mr. Faleomavaega. Our symbolic vote.
    Ms. Bordallo. Yes, our symbolic vote. For about 15 minutes 
and excuse and thank the witnesses, the first panel, and we 
will then begin after the 15-minute recess with the second 
panel, and I wish to thank you all.
    Mr. Faleomavaega. Madam Chair, can I just ask one or two 
questions to Mr. Dunnigan if it is all right with you?
    Ms. Bordallo. OK. But everybody else is excused. Mr. 
Kennedy too. I am sorry. Yes. I would like to recognize Mr. 
Kennedy from Rhode Island. Mr. Kennedy, would you like to ask 
questions?
    Mr. Kennedy. Yes. If I could ask, Ms. Leyden, if you would 
in terms of a regional need for accountability measures we are 
seeing in my state the adoption of kind of the national 
standards in the Magnuson in terms of the ocean governance for 
fish species and lobstering, privatization basically of those 
fishing permits you know, and it is leading so that you have to 
sell your rights to your licenses to fish so that the only 
people who are fishing are people who can purchase the 
licenses. So we are now having our commons, which are our 
oceans, it is our commons, it is the people and it is the 
oceans. It is public. The only people who get rights to that 
are the people who have the highest bid.
    What can we do? I mean I know we have to protect our 
oceans, and I know this bill is going to be doing a lot to try 
to develop policy in that area but maybe you could give us some 
guidance as to what your opinions are on this difficult issue. 
I know it has been debated a million times.
    Ms. Leyden. Well, I think the beauty of Oceans 21 it is not 
focused on any one sector like fishing and does not attempt to 
change fisheries regulation. We have talked about that quite a 
bit. It is the intersection of fishing and oil development and 
et cetera, et cetera, and the intent is not to negatively 
affect commerce. It is to do additional proactive planning that 
personally I believe is a way to perhaps achieve more equitable 
distribution or balance of development and conservation and 
perhaps you know make it easier for offshore aquaculture if we 
can direct it to the right locations.
    Mr. Kennedy. But like I am trying to figure out--we are 
trying to figure out--do you shorten the season? Do you change 
the gear? I mean when you say benchmarks and accountability 
measures, I mean we are trying to get our hands around some 
specifics.
    Ms. Leyden. In this particular legislation my testimony was 
referring to benchmarks and accountability measures for the 
regional ocean strategic plans that the bill talks about what 
needs to in a regional ocean plan, developing actionable items 
that may or may not include fisheries and making steps toward 
achieving each of the strategies identified by the regions.
    Mr. Kennedy. I appreciate you know that you are talking in 
broad strokes on oceans protection but you know it is 
particular. When you are talking about the oceans, you are 
talking about the natural resources in the oceans. I am 
bringing this up because it is a hot topic now in my state, the 
ocean state, and we have just had our own state Governor limit 
the three-mile state waters to adopt the Federal standards.
    So it is the perfect reason as to why we need to pass this 
bill is because it has absolutely alienated all the local 
fishermen because if they were not already alienated by the 
Federal law which they feel has you know further limited their 
historic right to the commons, now they feel doubly put down by 
the state effort to imitate the Federal rules, and so the point 
I am making is that this is the reason why we need this Oceans 
21 law is that we need to get to put down these benchmarks that 
you are talking about and these level playing fields and not 
have an arbitrary where the State of Rhode Island has one set 
of rules and another state has another set of rules.
    But that is what I was trying to get you to talk about a 
little bit in context of this fishing issue because that is 
clearly where the rubber meets the road so to speak with 
contention with the fishing issue is where the most contentious 
issues are I am sure you have seen managing natural resources. 
Maybe you could talk about how it applies. You see these 
policies applying at the local level.
    Ms. Leyden. I think an example would be where a regional 
ocean council gets formed and decides that they want to improve 
water quality, reduce nutrients by X percent by a certain 
target date because nutrients are having a particularly bad 
effect in that region on marine habitats and species. So the 
accountability measure would be did each of the jurisdictions 
adopt the necessary rules and regulations to achieve that goal?
    Mr. Kennedy. I see. So they all have to adhere to the same 
standards? I got you. Thank you.
    Ms. Bordallo. I thank the gentleman from Rhode Island. We 
do have to vote so the Chair wishes to recess this committee 
for 15 minutes, and thank the witnesses of the second panel and 
bring up the third panel right after the 15-minute recess.
    [Recess.]
    Ms. Bordallo. The Subcommittee on Fisheries, Wildlife and 
Oceans will now commence, and I want to thank the panel, the 
third panel witnesses who are here with us today. Thank you for 
being patient and the rest of the members should be coming in 
soon. Since I represent the territory of Guam, I can only vote 
on the committee of the whole. So that is why I am back first.
    I want to thank and welcome Dr. Andy Rosenberg, the 
Professor of Natural Resources, Institute for the Study of 
Earth, Oceans and Space at the University of New Hampshire, Ms. 
Sarah Chasis, Senior Attorney, Natural Resources Defense 
Council, and Mr. Zeke Grader, Executive Director of the Pacific 
Coast Federation of Fishermen's Association. He is with us, 
right? Yes. All right. And Mr. David Benton, Executive Director 
of the Marine Conservation Alliance.
    I want to thank you all for being here today, and I would 
now like to recognize Mr. Grader to testify for five minutes 
and once again I remind the witnesses that the timing lights on 
the table will indicate when your time has concluded, and we 
would appreciate very much your cooperation in complying with 
the limits that have been set. The rest of your full statement 
will be entered into the record. Mr. Grader.

     STATEMENT OF ZEKE GRADER, PACIFIC COAST FEDERATION OF 
                    FISHERMEN'S ASSOCIATIONS

    Mr. Grader. Thank you, Madam Chairman, and I wish to thank 
the Subcommittee for inviting us to be here to speak today in 
regards to H.R. 21 and also to thank Congressman Farr and 
Congressman Allen for introducing this bill. Among the other 
fishing groups that we represent on the west coast are 
commercial salmon fishermen, most of them in California as well 
as members in Oregon and Washington, and this really gets to 
the root of our interest in this issue of overall ocean 
governance, and it dates back really 30 years now.
    We had worked for the passage in 1976 of the Fishery 
Conservation and Management Act but as we began implementing it 
one of the things we quickly saw--and this was in particular 
with regards to Pacific Coast salmon--is that well it was 
fairly extensive and we have continued to improve upon it over 
the past 30 years, the Magnuson Act, is the fact that all it 
does is regulate fishing, and that for a number of our fish 
stocks the problems confronting those were not fishing related 
but related say for example to the loss of water in streams, 
loss of coastal wetlands.
    As we are most recently seeing within the Gulf of Mexico, 
the brown shrimp fishery is being affected by the dead zone. So 
it became pretty obvious to us and we began clamoring in 1977 
to try and see what could be done to expand upon it so that the 
councils and the National Marine Fisheries Service could have 
more say over not just the fishing impacts but the non fishing 
impacts as well.
    We were met with a great deal of frustration during the 
Magnuson Act reauthorization of 1985, 1986 for example. We 
actually came in with a package of language that we suggested 
that be looked at to try and expand upon the authority of the 
councils but that was thwarted. I think about all that we got 
in at that time was finally a recognition of habitat and I 
think they wrote the word in during that reauthorization but 
that is about as far as it went.
    It has become fairly obvious to us that something had to be 
done to be able to get at the other factors affecting our fish 
stocks other than just fishing. Now obviously that is important 
but for many fish stocks it is not the only factor affecting 
the health or conservation of those stocks, and for that reason 
we have become very interested and worked with the Pew Oceans 
Commission, in particular my former President who had served on 
it as one of the commercial fishermen members on there in 
developing an overall oceans program that we felt could then 
help us do a better job of conserving and managing our fish 
stocks.
    In regards to H.R. 21, I think there are probably four 
particular parts to that that I note we are particularly 
interested in and very supportive of. First of all is the 
development and creation of a national ocean policy. I do not 
need to go into this. I think former Congressman Leon Panetta 
who now chairs the Pew Commission has done I think a great job 
in explaining the need for a comprehensive national ocean 
policy.
    The second issue has to do with regional governance. Here 
again we think it is going to be very important that we 
establish regional--some have called them ecosystem councils. 
There has been a great deal of fear that somehow this is going 
to create a new bureaucracy for fisheries. That is something 
that we are not interested in. We have enough bureaucracy 
already but rather the way we view this is these would not 
diminish the authority of the regional councils but actually 
enhance them, enhance them that they could then take the issues 
that do not relate directly to fishing activities, bring them 
before these councils and maybe get something done.
    The great example was where we saw the salmon closures the 
last two years off the Pacific Coast. Those closures had 
nothing to do with fishing. They had everything to do with 
water use policy but we had no way of getting at those so I 
think that is important. Two other important parts of this of 
course are I think the creation of an ocean ecosystem resource 
information system and also the trust fund. We have to have 
more money if we are going to protect our oceans.
    We have attached to our testimony a copy of a proposal we 
have for fishery trust fund but we need to develop an ocean 
trust fund as well. Thank you.
    [The prepared statement of Mr. Grader follows:]

      Statement of W.F. ``Zeke'' Grader, Jr., Executive Director, 
          Pacific Coast Federation of Fishermen's Associations

    Madam Chairwoman, members of the Subcommittee, my name is Zeke 
Grader and I am the Executive Director for the Pacific Coast Federation 
of Fishermen's Associations (PCFFA), a position I have held for the 
past 30 years. PCFFA represents working men and women in the West Coast 
commercial fishing fleet, engaged in a number of different fisheries 
and utilizing many different gear types. Individuals belonging to our 
member organizations are primarily owner/operators or crew of small to 
mid-sized fishing vessels--the ``family fishermen.''
    I was pleased to be asked by the Subcommittee to testify this 
morning on H.R. 21. Let me just say at the outset that the biggest 
problem I have with the bill is its name, which, will all due respect 
to members, is kind of clunky. Name aside, however, the bill has a 
number of features that are innovative and should be adopted in our 
national effort to protect our oceans and ensure sustainable fisheries.
    As an organization, PCFFA has taken considerable interest in the 
development of national ocean policy. Our former president, Pietro 
Parravano, was one of two commercial fishermen members on the Pew 
Oceans Commission and he has remained active with the Joint Oceans 
Commission Initiative (JOCI). Mr. Parravano still serves as the 
President of our non-profit research and education arm, the Institute 
for Fisheries Resources.
    Our interest in the development of an overall ocean policy goes 
back to the early days of the Fishery Conservation & Management Act, 
now called the Magnuson-Stevens Act, and our frustration with not being 
able to address non-fishing factors, such as land and water use 
practices and pollution impacts as they affected the conservation and 
management of fish stocks. While it was true at that time most of the 
impacts on fish stocks came from fishing, a few species such as salmon 
were being ravaged by factors well beyond the control of either the 
regional fishery management council, the National Marine Fisheries 
Service, or even the state fishery agencies. Indeed, the only way at 
all we've been able to effectively get at non-fishing impacts on fish 
stocks has been through the Endangered Species Act. The problem is, it 
only kicks in well after any directed fishery has been stopped and 
stocks are in deep trouble, even threatened with extinction. We've had 
no similar statute at hand for protecting healthy fish stocks from non-
fishing factors.
    Thus, any measure that can help to protect fish habitat and fish 
stocks from non-fishing activities--those activities the fishery 
councils and agencies have no authority over--is welcomed. A national 
ocean policy to coordinate the activities of the various federal 
departments and agencies whose activities affect our oceans will help 
the regional councils and NMFS be effective in carrying out their 
conservation and management mandates.
    There are five specific areas I'd like to touch on here today in 
regards to H.R. 21.
Establishment of a National Oceans Policy
    Reviewing Title I of H.R. 21 in its current draft, the language I 
believe captures the recommendations of both the Pew Oceans Commission 
and the U.S. Commission on Ocean Policy. Moreover, I believe it will be 
helpful to our national efforts to better manage our fish stocks--
restoring and protecting them--and ensuring their sustainable use.
    We do have concern regarding the application of the precautionary 
approach and what that could mean in situations where we are data poor 
with the potential for severe restrictions or closures in such 
instances. However, we also recognize the need for caution when little 
is known to prevent potential fishery collapses through inadvertent 
over-harvest. The precautionary approach needs to go hand-in-hand with 
a well-funded program for research and regular and comprehensive data 
collection. This is why we believe the creation of a fishery trust 
fund, as well as one for ocean research and management generally, is 
urgent
    There is one bit of caution we would add here, however. In our 
experiences in working with departments such as Interior, there are 
those agencies with an alpha dog complex that tend to dominate, e.g., 
the Minerals Management Service, the Bureau of Reclamation that too 
often override sister agencies charged with the conservation of 
resources, i.e., the U.S. Fish & Wildlife Service. Thus, simply 
creating an ocean policy and calling for agencies to coordinate their 
activities affecting oceans and marine life will not by itself work 
unless there is constant diligence--by the Congress and non-
governmental organizations, both conservation and fishing--to ensure 
development does not override conservation and the protection of 
natural resources, including the fish stocks fishing men and women rely 
on for their livelihoods.
Fisheries Can No Longer Be a Poor Stepchild in a Science Agency
    A change we would suggest to H.R. 21 in its Title II would be in 
adding sections prior to the existing Section 204 Resource Management, 
setting forth the role of a fishery agency, perhaps a Bureau of 
Fisheries & Aquaculture--recalling the history of the old Bureau of 
Fisheries with an acknowledgment of the need for regulation over 
aquaculture in coastal and ocean waters. The charge here is broader 
than just resource protection--to also include the preservation of the 
nation's fishery heritage (commercial, recreational, tribal), its 
fishing communities, and abundant and healthful, not merely 
sustainable, fish populations. We also need to provide direction to 
aquaculture development to ensure it is conducted in an ecologically 
sound manner and does not threaten, but compliments our wild capture 
fisheries.
    Additionally we need a fishery agency that has its own 
identification and that is viewed internationally on its own and not a 
mere subset of NOAA. We don't need a ``NOAA Fisheries'', no more than 
we'd tolerate a DOD Navy. That's why we think it may be time, with the 
reorganization called for in H.R. 21, to finally establish a U.S. 
Bureau of Fisheries & Aquaculture.
    Congress may also wish to do the same for the national system of 
marine sanctuaries, estuarine reserves, monuments and protected areas, 
creating a stand-alone with its own clear identification. Among other 
things, stand alone identification (as opposed to the demeaning NOAA 
Sanctuaries of whatever on what day they chose to call themselves) lets 
the public know clearly who is in charge. With the growing importance 
of our sanctuaries, reserves and protected areas, a stand-alone entity 
with its own identification is probably warranted.
National Ocean Leadership and Regional Coordination
    PCFFA is pleased that fisheries have been included in Section 304, 
the Council of Advisors on Ocean Policy, along with the tribes. The 
establishment of a system of regional coordination in Title IV of H.R. 
21 is also welcomed. I felt the regional ecosystem panels, that were 
recommended by the ocean commissions, had considerable merit and was 
somewhat taken aback by the negative reaction and vehemence from the 
regional fishery management councils. Regional ecosystem panels, I 
believe, will actually enhance the authority of the regional fishery 
councils, not diminish it. For the first time, they would have say over 
non-fishing activities that may impair the implementation and 
effectiveness of fishery management plans.
Resource Information System
    PCFFA is very supportive of the language in Section 405 to create 
Ocean Ecosystem Resource Information Systems. We have become solid 
converts to this method of gathering, organizing and presenting data, 
including research, graphs, photographs, etc., based on the Klamath 
Resource Information System (KRIS) that was developed for watershed 
management in Northern California watersheds, as well as some in 
British Columbia and Maine.
    It strikes us that if ecosystem based management is to go beyond 
hype and press releases it must have a solid foundation and that is a 
knowledge base. A resource information system serves as a repository 
for all types of data for a specified place (place-based) and organizes 
and integrates it in such a way as to be useful. Moreover, it can 
provide the ``so-what'' of the data, making it meaningful to both 
policy makers and the public, by posing hypothesis in a peer-reviewed 
fashion regarding the meaning of various data. Further, a resource 
information system, such as proposed in H.R. 21, provides an inventory 
of research to better identify data gaps and prioritize research needs.
Trust Fund
    Finally, we wish to commend the authors for including a trust fund 
to support our nation's ocean activities. For at least a decade our 
organization has recognized the inadequacy of funding sources for 
fisheries and oceans and has been pushing for both a fishery trust fund 
(an article and draft legislative language is attached to this 
testimony) and a larger ocean trust fund. I am concerned about the 
funding source for the trust fund put forward in H.R. 21, but at the 
very least the bill is raising the issue and it would be a start. 
Indeed, the trust fund language established in the recently 
reauthorized Magnuson-Stevens Fishery Conservation & Management Act is 
from a small source, but it is an important beginning. We believe it 
can be built on with the funding source we have suggested together with 
a detailed method for the distribution of the monies to ensure the 
funds are appropriately applied and well-spent. The same we think could 
be true with what is being proposed in H.R. 21--that it is a beginning 
to be expanded upon.
Conclusion.
    Thank you again Madam Chairwoman and Subcommittee members for this 
opportunity to provide this perspective from a commercial fishing 
organization. We look forward to working with the authors and this 
Subcommittee in the development and passage of legislation that will 
further our efforts to better protect our oceans as well as the living 
marine resources that depend on them--the fish and fishermen. I will be 
happy to answer any question members may have.

                                  ***

    Attachments:
    1.  Fishermen's News, August 2003
    2.  Fishery Research, Development & Conservation Fund
                                 ______
                                 
    [NOTE: Attachments to Mr. Grader's statement have been retained in 
the Committee's official files.]

     Response to questions submitted for the record by Zeke Grader

QUESTIONS FROM THE HON. MADELEINE BORDALLO, CHAIRWOMAN
Regional Ecosystem Panels
    There is has been some concern expressed by the fishery management 
councils that Regional ecosystem panels might somehow impede or usurp 
their authority.
    1.  Do you share this view?
    No. If anything, regional ecosystem panels should afford fishery 
management councils a ready means of addressing non-fishing impacts 
(e.g., pollution, coastal wetland loss, offshore energy development) 
that impair their ability to effectively conserve and manage the 
nation's fisheries. If the fishery councils exert leadership, looking 
beyond mere fishing regulation and allocation, the Regional Ecosystem 
Panels will provide a mechanism for addressing the myriad of factors 
affecting fish stocks that are currently outside of the authority given 
the fishery councils and National Marine Fisheries Service under the 
Magnuson-Stevens Fishery Conservation & Management Act. If I were a 
fishery council member I would see the Regional Ecosystem Panels as an 
opportunity, not a threat.
    2.  What effect do you believe Regional Ecosystem Panels would have 
on the fishery management councils' ability to manage fisheries?
    I think this question is answered in part in Number 1 above. 
Overall, I believe, the Regional Ecosystem Panels will allow the 
fishery councils to force other agencies whose activities may have, or 
are having, adverse affects on fish resources or fishing to address 
those impacts. Under the MSA as recently reauthorized--particularly the 
prohibitions on overfishing, requirements for stock rebuilding, the 
mandates for science-based management, and the directive to move to 
ecosystem-based management--it is hard to envision how the fishery 
councils would lose any authority.
    Indeed, the greatest threat, I believe, to fishery council and NMFS 
authority, will be from a failure to adhere to the MSA and being sued 
as a result. The lawsuits--that will occur if there is a failure by the 
councils and NMFS to follow the law--will happen whether or not 
Regional Ecosystem Councils are established. In that sense, the ability 
of the fishery councils and NMFS to protect their existing authority is 
in their own hands.
    The one concern I have is that the fishery councils be provided the 
additional staffing required to fully participate on the Regional 
Ecosystem Panels. The representatives of the fishery councils should be 
selected by the councils themselves--not NMFS, NOAA or Commerce--and 
funding should be sufficient for these positions to assure the fishery 
councils have strong, effective advocates for fish and fisheries on the 
Regional Ecosystem Panels.
QUESTIONS FROM THE HON. HENRY BROWN, MINORITY RANKING MEMBER
    1.  In your written testimony you discuss the need for a stand 
alone agency for fisheries, specifically a U.S. Bureau of Fisheries and 
Aquaculture. In addition, you mention a stand alone agency for 
Sanctuaries. How will creating additional separate agencies help create 
better coordination?
    First and foremost, I think its important that there be clear lines 
of authority, so we know who is responsible--where ``the buck stops.'' 
In recent years that has been muddled by NOAA which has taken to 
referring to all of its line agencies as ``NOAA Fisheries,'' ``NOAA 
Weather Service,'' ``NOAA Sanctuaries,'' etc. and it's difficult to 
know just who is in charge. Also, frankly, it's an insult to our 
nation's fisheries--America's oldest industry--and our nation's fishing 
men and women to have the agency responsible to them so denigrated to 
have the term U.S. or National removed and replaced with the NOAA 
moniker. Our nation's fishery agency, as well as its weather service 
and, perhaps the growing sanctuary and reserve system, need to have 
their own identity nationally and internationally as the responsible 
authority, respectively, for fisheries, weather services, as well as 
marine and estuarine protected areas.
    Whether we decide to keep our national fishery agency within NOAA, 
or give it a separate status within Commerce or even move it to 
Agriculture or Interior, it needs to have its own clear identification. 
The recommendation to remove the Nixon-era name, NMFS, with something 
like a U.S. Bureau of Fisheries & Aquaculture is to recognize both the 
historic roots of our nation's fishery agency and a part of its future 
with the growth of cultured fish products. The name issue may not be 
important from a policy standpoint, but it is a matter of pride. We'd 
never think of calling the U.S. Navy, the ``DOD Navy,'' or the U.S. 
Coast Guard the ``Homeland Security Coast Guard.'' Why should the 
resource and the industry that helped make this nation be treated with 
any less respect? I would hope this is considered in any NOAA Organic 
Act legislation.
    As far as coordination is concerned, I don't think this is a 
problem. Congress just needs to direct federal agencies to coordinate 
specific ocean functions (e.g., research), and provide the funding 
necessary to carry out those coordination mandates. As a nation, when 
we sought to improve our intelligence capabilities, Congress did not 
meld the CIA with the FBI, but Congress gave the intelligence gathering 
agencies clear direction to coordinate intelligence functions. If we 
can do that for national intelligence, surely we can provide similar 
direction for agencies whose actions affect our oceans without melding 
them into one huge bureaucracy.
    2.  There are concerns that the regional ocean partnerships will 
overshadow any existing entity. Yet you believe the regional 
partnerships could enhance the regional fishery management councils. 
Can you elaborate on why you think they will be enhanced and not 
diminished?
    Yes. I've responded in part to this question with my answers to the 
questions posed by Chairwoman Bordallo above, stating how I believe the 
conservation and management of fisheries function of the fishery 
councils and NMFS would be enhanced. Another example would be the 
national marine sanctuaries being able to raise issues of water quality 
affecting sanctuary resources at a Regional Ecosystem Panel level, in 
instances where the sanctuaries have no permitting authority over a 
discharge or inflow from a river. Regional Ecosystem Panels would allow 
the sanctuaries to raise these issues that neither they, nor other NOAA 
line agencies, have authority over with agencies having that authority, 
such as the EPA.
    3.  The U.S. Commission on Ocean Policy report contained a 
definition of the precautionary approach which included language urging 
decision makers to follow a balanced precautionary approach, applying 
judicious and responsible management practices based on the best 
available science and on proactive, rather than reactive policies. H.R. 
21 does not contain reference to using science. How do you think this 
changes the definition of ``precautionary approach.''
    It has been my belief, based on my years of experience, that our 
decisions should be science based. However, in recent years, the lack 
of scientific ``certainty'' has been used as an excuse to ignore 
problems, to do nothing, even where there was scientific evidence, or 
just common sense, telling us that there was a problem needing to be 
addressed. Thus, I understand the reason for the definition provided in 
H.R. 21. I might suggest a slight rewrite as follows (the new language 
is in bold)
        PRECAUTIONARY APPROACH--The term ``precautionary approach'' 
        means the approach used to ensure the health and sustainability 
        of marine ecosystems for the benefit of current and future 
        generations, and is based on the best scientific information 
        available, when such information is available; however, a lack 
        of full scientific certainty shall not be used as a 
        justification for postponing action to prevent environmental 
        degradation.
    The definition above then makes clear that the precautionary 
approach is to be based on science, but will not be held up to a 
standard of ``full scientific certainty'' which is probably an 
impossibility. It also allows for action where there may be no 
scientific information and we have to rely on experience and common 
sense.
    4.  What specific measures would you recommend Congress enact to 
allow the Federal agencies to be more proactive in managing ocean 
activities (shipping, fishing, etc) or development (aquaculture or 
alternative energy platforms) in coastal waters?
    First, I think we need clear a directive that it is the policy of 
the nation to protect its oceans and their functions, water quality, 
habitats and living marine resources. To that end, federal agencies are 
directed to coordinate their activities, including research, in 
furtherance of that policy.
    Second, federal agencies should be directed, consistent with the 
protection policy above, to foster:
    a)  preservation of the history and culture of the oceans, 
including protection of traditional uses and ocean-resource dependent 
communities;
    b)  protection, restoration and development of sustainable and 
healthful food production;
    c)  opportunities for marine recreational uses
    d)  expansion of marine research and education programs;
    e)  maintenance and enhancement of safe ocean transportation;
    f)  development of renewable energy sources;
    g)  development of affordable and accessible pharmaceuticals and 
medicines from ocean resources; and
    h)  development of safe fresh water drinking supplies from ocean 
waters (desalination)
    5.  If you could pick portions of H.R. 21 to move forward, what 
would you choose?
    I identified five portions, in the testimony I presented on the 
26th, of H.R. 21 that I'd recommend Congress move ahead on with some 
modification. Those are:
    a)  Establishment of a National Ocean Policy. I think the responses 
to question 4 above provide the rationale behind this;
    b)  NOAA Organic Act With Language Providing, Among Other Things, 
Clear Identity and Statement of Responsibility for the Nation's Fishery 
Agency. I've explained the rationale behind this in response to 
question 1 by Mr. Brown. In my testimony, I suggested amending H.R. 21 
to include specific language for the nation's fishery agency;
    c)  National Ocean Leadership and Regional Coordination. My 
rationale for this is reflected in the responses to Chairwoman 
Bordallo's questions and questions 1 and 2 posed by Mr. Brown;
    d)  Ocean Ecosystem Resource Information System. The establishment 
of such a system, most likely on a regional basis, is critical for 
coordination of research, providing an inventory and organization of 
existing research and data, placing the information in a transparent 
and accessible format, developing scientific hypothesis on the meaning 
of the information and, finally, identifying ``data gaps'' and 
establishing research priorities. It is particularly important, I 
believe, such a system be developed as an essential step on the path to 
ecosystem-based management. Such a system would the natural repository 
for data collected from offshore instruments, and satellites;
    e)  Ocean Trust Fund. Finally, all the talk about ocean action 
plans is just blather if there is no money to carry it out. I have 
believed for over a decade now that both a national fisheries trust 
fund as well as an ocean trust fund were needed to provide an ample and 
stable funding source for carrying out the programs required for the 
protection and wise utilization of our fish and oceans. In my 
testimony, I attached a draft that has been developed (prior to the MSA 
reauthorization) that could amend the newly established trust fund in 
the Magnuson-Stevens Act to provide the funding needed for our nation's 
fishery and aquaculture programs. H.R. 21, is important, therefore, 
establishing a trust fund that could then be built upon (as the MSA 
reauthorization did for a fishery trust fund).
    The truth of the matter is, with the competing national needs 
Congress has to deal with in the appropriations process, fisheries and 
oceans will continue to get short shrift unless an off-budget account 
is created with its own funding source. This concept has worked 
successfully for the Sportfishing Restoration Fund, and I think the 
same thing is needed here for our fisheries and oceans.
    I share the concerns of many that the annual appropriation called 
for in H.R. 21 could diminish funding for current ocean programs. I 
would recommend, instead, Congress consider royalties on existing OCS 
uses, similar to what was recommended by the U.S. Commission on Ocean 
Policy. However, I worry about the competition for OCS revenues and 
would recommend instead, or in addition to, Congress consider a per 
barrel fee on all oil sold in the U.S. California, for example, used 
that concept--in this instance a $.05 per barrel fee on all oil shipped 
into the state--to provide an ample and stable funding source for its 
Office of Oil Spill Response. Given the impact on the ocean from oil 
(both spills and urban run-off), the acidification that is occurring 
due to ocean sequestration of carbon from greenhouse gasses in the 
atmosphere, and the record profits enjoyed by the oil industry, such a 
fee, I believe is warranted. It may make more sense than the excess 
profits tax being proposed for the oil industry.
    6.  Prior to enacting an overarching bill such as H.R. 21 and its 
ecosystem-based management approaches, Congress should review existing 
legislation, such as the Marine Mammal Protection Act and the 
Endangered Species Act, and either repeal or amend these laws to adhere 
to the ecosystem-based management approach. What are your views on this 
statement?
    I don't agree with it. Basically it's a stalling tactic. I've had a 
great deal of experience with the ESA--we used it to prevent the 
extinction of a number of salmon runs--and I don't see any substantive 
conflicts between it and the ecosystem-based management approach. The 
identification of critical habitat under the ESA, in a way, is a form 
of ecosystem-based management. The better course is go ahead with some 
version of H.R. 21, and direct an independent third party (e.g., 
National Research Council) to report back to Congress in five years 
after enactment on the progress and any conflicts that have actually 
arisen with existing statutes (e.g., ESA, MMPA, NEPA, MSA, etc.) with 
recommendations for changes.
    7.  Does the Marine Mammal Protection Act and its focus on 
protecting marine mammals above other species fit into the ecosystem-
based approach to management?
    The Marine Mammal Protection Act is 35 years old, enacted at a time 
when there were few protections for marine mammals and a real fear some 
populations, such as porpoise, which were being taken in the then newly 
established (since about the mid-1960's) tuna purse seine fishery. The 
MMPA has given us fits at times, particularly with regard to California 
sea lions and, to a lesser extent, harbor seals. One of the reasons my 
organization drafted and sponsored state legislation to protect white 
sharks (California was the first government in the world to do so) was 
to at least protect this apex predator to help control sea lions 
populations in lieu of the loss of the on-shore predators (e.g., 
mountain lions, bears) as well as hunting by native Americans.
    However, that said, there is, as we've found, tremendous public 
support for marine ``charismatic mega-fauna.'' We'd like to see some 
changes made to the MMPA, but those should be discussed in a stand-
alone setting and not be used as a roadblock on the path to ecosystem-
based management. Indeed, as we begin to better understand marine 
ecosystems and their functioning, it may be possible to bring some 
rationality to the issue of marine mammal protection.
    8.  The U.S. Commission on Ocean Policy recommended voluntary 
regional partnerships, yet H.R. 21 requires them. Is this appropriate? 
Does making the regional partnerships mandatory, and potentially a one-
size fits all approach, limit the flexibility of the state and regions 
to develop partnerships that respond to specific regional needs?
    My experience with ``voluntary'' means nothing ever happens. There 
is nothing voluntary about fishing regulations and frankly we're fed up 
with a lot of other interests, many whose activities impair the 
resources our members depend upon for their livelihoods, constantly 
clamoring for volunteerism. In most instances this is simply code for 
doing nothing. No, when my Pacific Fishery Management Council comes to 
a Regional Ecosystem Panel with a fishery problem they have, I don't 
want the Corps of Engineers, the Bureau of Reclamation, the EPA, the 
MMS or any of the others who conduct or authorize projects that can be 
detrimental to fish populations, to opt out because it's voluntary.
    As far as one-size fits all, I suppose one could make the same 
argument for just about every federal statute. My reading of H.R. 21 is 
that it provides general goals and some specific requirements, but 
there is nothing there to prevent some regional adaptation within the 
context of the goals and some of the specific requirements.
    9.  H.R. 21 ignores existing laws, such as the Coastal Zone 
Management Act (CZMA) and the National Environmental Policy Act (NEPA), 
which guide how activities will affect the ocean and conserve ocean 
resources. It would seem to be more productive for this Committee to 
review these and other existing statutes to determine how to best 
modify them to create better coordination of conservation and 
management efforts instead of enacting a new law that would supersede 
all existing laws. Can you comment on this?
    I don't read H.R. 21 as ignoring CZMA, NEPA or other statutes. I 
think it's simply too early to know where conflicts might arise with 
other statutes, as I mentioned above. Trying to speculate or what those 
conflicts may be or trying to change existing statutes before finding 
out if, in fact, there are any problems is premature. As I recommended 
above, I think Congress should direct an independent third party to 
conduct a review and report back within five-years, with 
recommendations, on where there are actual conflicts between the 
ecosystem-based management called for in H.R. 21 and existing 
environmental statutes.
    10.  The bill charges NOAA with reporting on the status of ocean 
ecosystems and resources two years after enactment of the bill and 
every three years thereafter. The Regional Ocean Partnerships are also 
required to develop regional ocean strategic plans which will include 
an assessment of its ocean region. What changes can we make to the bill 
to ensure there is limited duplication between the two reports? Can you 
also make recommendation on how to limit duplication in other areas of 
the bill?
    I don't see a problem here. I think it's best that there be 
separate reports from NOAA and the Regional Ocean Partnerships to give 
Congress a true feel of what progress is actually being made, as 
opposed to receiving a single self-serving, self-congratulatory report 
from the agency. Moreover, as I suggested above, I think an independent 
third party, such as the National Research Council, should be asked to 
give an assessment at the end of five-years with recommendations.
QUESTIONS FROM THE HON. JIM SAXTON
    1.  OCEANS-21 contains National Standards to guide implementation 
of ``covered actions'' and a timeframe for interagency comment. What 
sort of effect would this have when combined with current National 
Standards and timelines contained in other laws such as the National 
Environmental Policy Act and the Magnuson-Stevens Fishery Conservation 
and Management Act?
    I didn't see an immediate problem here. I would be curious to see 
what problems staff may have identified with the timelines in NEPA and 
the Magnuson-Stevens Act and what is called for in Oceans 21. If, in 
fact, there are such conflicts, it should be easy enough to deal with 
them through amendments in mark-up.
    2.  Our oceans cover an area that is 23% larger than the land area 
of the U.S. and, according to the U.S. Commission on Ocean Policy, 
contribute roughly $117 billion to the U.S. economy, mostly from 
tourism and recreation revenues. Given the expanse and importance of 
our oceans to people of the United States, do you believe that it is 
appropriate for Congress to issue guidance on how our oceans as a whole 
should be managed--as we have done with all of our other major systems?
    Absolutely. See the response above made to Mr. Brown's question 4.
    3.  The NOAA organic act title of H.R. 21 makes NOAA the lead 
federal agency for oversight of all U.S. coastal, ocean, and Great 
Lakes waters and resources. Currently, though, NOAA shares this 
responsibility with agencies like USGS (for example, USGS manages 
fisheries in the Great Lakes). While the U.S. Commission on Ocean 
Policy did recommended consolidating oversight of ocean resources into 
one federal organization, they recommended a slower, step-wise approach 
that first provides an organic act for NOAA with its current 
responsibilities and then over the course of a few years considers 
transferring the responsibilities of other agencies to NOAA. Do you 
agree with the Commissions step-wise approach to consolidating ocean 
oversight, or do you believe this significant change in federal 
oversight should be made immediately as proposed by H.R. 21?
    First of all, the management of fisheries for the Great Lakes, 
excepting that which is state regulated, should be transferred to the 
National Marine Fisheries Service, or whatever we ultimately decide to 
call our nation's fishery agency (see the response to Mr. Brown's 
question 1 above), from USGS to NMFS, recognizing NMFS is currently 
housed in NOAA. Aside from the transfer of fishery authority on the 
Great Lakes, however, my concern is that I don't think consolidation 
necessarily gets us where we want to go as much as mandated 
coordination.
    4.  Many experts have stated that NOAA is too ``stovepiped'', 
leading to inefficiencies and duplications across its five current line 
offices. The NOAA organic act title of H.R. 21 proposes to consolidate 
these offices into three primary functions--assessment, prediction and 
operations; management; and research and education. I believe it is 
important for research and education to be closely tied to and support 
the other two functions of the agency, but under H.R. 21 things could 
remain stovepiped having research as a separate function. In another 
NOAA organic act proposal, H.R. 250 from Mr. Ehlers, there is a 
leadership position that oversees all science at the agency to ensure 
the best science is incorporated into all agency activities. Would you 
recommend a similar position in H.R.21? If not, would you recommend 
other changes in H.R. 21 to ensure that the research function of NOAA 
continues to serve the needs of the operations and management functions 
of the agency?
    From my experience with NOAA, including serving on MAFAC, is not so 
much that functions are ``stovepiped'' as opposed to a lack of 
leadership at the top--through a number of administrations over the 
past 35 years--willing to demand cooperation and coordination among the 
various NOAA entities--and that doesn't mean putting NOAA's moniker all 
over the various services. As for Mr. Ehlers bill, the problem is not 
with NOAA using the best science, the problem, as you well know, is 
having NMFS and NOAA scientists being overridden for political reasons 
within and outside of the agency. That has certainly been the case with 
salmon. I think the issue you raise regarding research is a valid one 
that can be solved by ensuring there is language in H.R. 21 requiring 
that research is there to support the functions of NOAA, including the 
national fishery agency, the weather service, and the sanctuaries and 
reserves program. Moreover, I believe the establishment of an Ocean 
Ecosystem Resource Information System will help to ensure research is 
there to support the functions of the agency--as well as improve 
cooperation and coordination among the agencies housed in NOAA.
    Thank you for this opportunity to respond to your questions.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Grader, and you can 
submit your entire statement for the record. The Chair now 
recognizes Ms. Chasis. You are recognized to testify for five 
minutes.

          STATEMENT OF SARAH CHASIS, SENIOR ATTORNEY, 
               NATURAL RESOURCES DEFENSE COUNCIL

    Ms. Chasis. Thank you, Madam Chairwoman. We very much 
appreciate this opportunity to testify today on Oceans 21. The 
overall message delivered by both the Pew Oceans Commission and 
the U.S. Commission on Ocean Policy is clear. Our oceans are in 
trouble. We rely too heavily on our oceans for food, jobs, 
recreation, climate regulation, and our overall quality of life 
to ignore their decline. We lack some of the fundamental 
mechanisms and structures to address these declines, and urgent 
action is needed now to rectify these gaps. Oceans 21 is a 
direct response to that message and to that call for action.
    It provides a stronger, more coherent governance system for 
our oceans, both at the national and regional levels. We thank 
Congressman Farr for introducing it, the 29 cosponsors for 
supporting it, and the Subcommittee for holding this hearing.
    We have a better understanding now than ever before of the 
threats facing our oceans. Moreover, the seriousness of the 
threats is increasingly being communicated to the general 
public by the popular media, and I would like to cite to the 
fact that there was an important series in the Los Angeles 
Times which just won a Pulitzer Prize, and it had to do with 
altered seas and the April issue of National Geographic, the 
cover story was saving the seas bounties, and there have been a 
series of programs on the Discovery Channel and PBS about what 
is happening to our oceans. So I think you know the public is 
really coming to understand this.
    Scientific study after scientific study is showing that our 
oceans are in trouble and that because ocean life is 
interconnected impacts on one species can set off a chain of 
impacts and further shift the dynamics and composition of ocean 
ecosystems. Dr. Myers and others drove home this idea in a 
recent Science Magazine article. Over exploitation of large 
sharks driven by demand for shark fins and meat as well as 
bycatch and other directed fisheries resulted in the functional 
elimination of great sharks along the United States east coast 
between 1970 and 2005.
    This in turn resulted in an explosion of great shark prey, 
such as rays, skates and small sharks. These population 
increases, particularly of a particular kind of ray called the 
cow nose ray, resulted in a jump of predation of bay scallops, 
and that increase was sufficient to essentially terminate a 
century long scallop fishery. It is not at all surprising that 
removing major players in ocean life would have impacts 
cascading down and across what is actually an interconnected 
web of ocean life. In fact, this basic pattern has been well 
documented in the scientific literature.
    Both the U.S. Commission on Ocean Policy and the Pew Oceans 
Commission found that a key reason our oceans are in trouble is 
the vastly inadequate governance regime. The U.S. Commission 
stated, and I quote, ``The nation is not now sufficiently 
organized, legally or administratively, to make decisions, set 
priorities, resolve conflicts, and articulate clear and 
consistent policies that respond to the wealth of problems and 
opportunities ocean users face.'' The Pew Oceans Commission 
sounded a similar theme. ``We have continued to approach our 
oceans with a frontier mentality. The result is a hodgepodge of 
ocean laws and programs that do not provide unified, clearly 
stated goals and measurable objectives. Authority over marine 
resources is fragmented geographically and institutionally. 
Principles of ecosystem health and integrity, sustainability 
and precaution have been lost in the fray.''
    Both commissions called for major reform. The U.S. 
Commission called for a new national ocean policy framework. 
The Pew Commission called for a national ocean policy act. 
Oceans 21 directly responds to the recommendations. It 
establishes a national ocean policy. It provides a mechanism to 
implement that policy. It promotes effective coordination 
within the Federal government and between states and the 
Federal government. It establishes an ocean trust fund.
    Mr. Dunnigan raised the issue about whether there really 
was a need for legislation. We need legislation to provide an 
overarching policy direction to the numerous agencies that 
authorize the many different activities affecting the ocean and 
to ensure that action on behalf of the oceans will be taken not 
just by one administration by every administration. The 
President's Executive Order that established the Committee on 
Ocean Policy is not a substitute for this.
    Federal interagency coordination without a specified 
directive for that coordination is not enough, and the recent 
testimony of the Joint Ocean Commission Initiative recognized 
this very specifically. An issue also came up in the earlier 
discussion about the relationship of Oceans 21 to other laws. 
This legislation does not minimize the importance of 
legislation addressing individual sectors or issues. The bill 
before you today, Oceans 21, does not seek to replace other 
legislation but rather provide a means by which individual laws 
and activities can be woven together into a more cohesive and 
effective whole that preserves the integrity of the systems.
    In conclusion, the ocean area under U.S. jurisdiction is 23 
percent greater than the entire land mass of the United States. 
It is time to respond to the call of the two national 
commissions and give this part of our national heritage the 
attention it deserves. Thank you.
    [The prepared statement of Ms. Chasis follows:]

Statement of Sarah Chasis, Senior Attorney and Director of the Natural 
              Resources Defense Council's Ocean Initiative

Introduction
    Madame Chairwoman, Ranking Member Brown and distinguished Members 
of this Subcommittee, thank you for this invitation to testify on H.R. 
21, the ``Oceans Conservation, Education, and National Strategy for the 
21st Century Act'' (also known as ``OCEANS-21''). My testimony is 
presented on behalf of the Natural Resources Defense Council (NRDC), a 
national environmental organization with over a million members and 
online activists, dedicated to the protection of the earth--its people, 
plants and animals and the natural systems on which all life depends.
    The overall message delivered by both the Pew Oceans Commission in 
May 2003 and the U.S. Commission on Ocean Policy in July 2004 is clear: 
1) our oceans are in trouble; 2) we rely too heavily on our oceans for 
food, jobs, recreation and our quality of life to ignore their decline; 
3) we lack some of the fundamental mechanisms and structures to address 
these declines; and 4) urgent action is needed now to rectify these 
gaps. This continues to be the message of the Joint Ocean Commission 
Initiative--the combined effort of these two Commissions--delivered 
most recently by The Honorable Leon Panetta and Admiral James Watkins 
to this Subcommittee on March 29th.
    OCEANS-21 is a direct response to that message and to that call for 
action. It reflects the key recommendations of the two Commissions 
regarding the need for a stronger, more coherent governance system for 
our oceans ``both at the national and regional levels. We thank 
Representative Farr for introducing OCEANS-21, the 29 co-sponsors for 
supporting this important legislation and the Subcommittee for holding 
this hearing.
What we know about the state of our oceans
    We have a better understanding now than ever before of the threats 
facing our oceans. Moreover, the seriousness of the threats is 
increasingly being communicated to the general public by the popular 
media. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ See, for example, Ken Weiss' July 2006, Pulitzer Prize winning 
series in the LA Times, Altered Oceans, the April 2007 issue of 
National Geographic, Special Report: Saving the Sea's Bounty, the two 
oceans episodes of the Discovery Chanel's Planet Earth series (``Deep 
Oceans'' and ``Shallow Seas'') and PBS' Journey to Planet Earth: ``The 
State of the Ocean's Animals.''
---------------------------------------------------------------------------
    Scientific study after scientific study is showing that our oceans 
are in trouble and that, because ocean life is interconnected, impacts 
on one species can set off a chain of impacts and further shift the 
dynamics and composition of ocean ecosystems.
    In 1998, we learned from Dr. Daniel Pauly and other scientists that 
the persistent targeting of top ocean predators, like tuna and cod, has 
resulted in a fundamental shift in the make-up of ocean life and 
therefore the types of organisms able to support ocean systems and 
available to fishermen. <SUP>2</SUP> This ``fishing down of the food 
web'' has meant fewer types and numbers of large ocean fish and 
relatively more smaller ocean fish.
---------------------------------------------------------------------------
    \2\ Pauly, Daniel, Villy Christensen, Johanne Dalsgaard, Rainer 
Froese and Francisco Torres, Jr. 1998. Fishing down marine food webs. 
Science 279(5352): 860-863.
---------------------------------------------------------------------------
    In 2003, Dr. Ram Myers and Dr. Boris Worm quantified the type of 
loss behind Dr. Pauly's theory. Drs. Myers and Worm reported that 90% 
of the large ocean fish--the tunas, blue marlins, swordfish, and 
others--are gone from the world's oceans due to industrial fishing 
practices. <SUP>3</SUP> Drs. Myers and Worm highlighted that this was 
not just about the staggering loss of large fish, but the loss of top 
predators which play a key role in the health of the overall ecosystem. 
This is a point often forgotten--our oceans are not just water, but a 
vibrant home for a vast amount of life, estimated by one source to 
total 80% of life on Earth. <SUP>4</SUP> That life--the total amount, 
the balance across species, and the services that they provide to each 
other and to us--depends on species interactions and habitat 
conditions. The presence or absence of key players--and the shifting 
relationships between and among these players--affects the ability of 
our oceans to weather change and absorb impacts.
---------------------------------------------------------------------------
    \3\ Myers, Ram and Boris Worm. 2003. Rapid worldwide depletion of 
predatory fish communities. Nature 423: 280-283.
    \4\ http://marinebio.org/MarineBio/Facts/
---------------------------------------------------------------------------
    Dr. Myers and others drove home this idea of the interconnectedness 
of ocean life in a recent 2007 Science article. <SUP>5</SUP> 
Overexploitation of large sharks--driven by demand for shark fins and 
meat as well as bycatch in other directed fisheries--resulted in the 
functional elimination of great sharks along the U.S. east coast 
between 1970 and 2005. This in turn resulted in an explosion of great 
shark prey, such as rays, skates, and small sharks. These population 
increases--particularly of the cownose ray--resulted in a jump in 
predation of bay scallops ``sufficient to terminate a century-long 
scallop fishery.'' <SUP>6</SUP> According to this paper, this cause and 
effect pairing--fewer sharks, more rays ``may also result in crashes of 
other prey types besides bay scallops, and to the degradation of sea 
grass habitats, crucial habitat for marine life, as ever hungrier rays 
aggressively pursue additional food.
---------------------------------------------------------------------------
    \5\ Myers, Ransom A., Julia K. Baum, Travis D. Shepherd, Sean P. 
Powers, and Charles H. Peterson. 2007. Cascading effects of the loss of 
apex predatory sharks from a coastal ocean. Science 315(5820): 1846-
1850.
    \6\ Ibid. pg. 1846.
---------------------------------------------------------------------------
    It is not at all surprising that removing major players in ocean 
life would have impacts cascading down and across what are actually 
interconnected webs of ocean life. In fact, this basic pattern has been 
well documented in the scientific literature. <SUP>7</SUP> Although 
exact consequences may be difficult to quantify and express precisely, 
the basic result is predictable and in and of itself concerning. Dr. 
Worm summarized it this way in a 2006 Nature article: loss of the 
amount and variety of ocean life ``is increasingly impairing the 
ocean's capacity to provide food, maintain water quality, and recover 
from perturbations'' ``change or stress. <SUP>8</SUP>
---------------------------------------------------------------------------
    \7\ Duffy, J.E. 2002. Biodiversity and ecosystem function: the 
consumer connection. Oikos 99:201-21, Crooks, K. R. and M. E. Soule. 
1999. Mesopredator release and avifaunal extinctions in a fragmented 
system. Nature 400:563-566, Paine, R.T. 1980. Food Webs: Linkage, 
Interaction Strength and Community Infrastructure. Journal of Animal 
Ecology 49(3): 666-685, Pace, M.L., J.J. Cole, S.R. Carpenter, and J.F. 
Kitchell. 1999. Trophic cascades revealed in diverse ecosystems. Trends 
in Ecology and Evolution 14: 483-488, and Estes, J.A., M.T. Tinker, 
T.M. Williams, and D.F. Doak. 1998. Killer Whale Predation on Sea 
Otters Linking Oceanic and Nearshore Ecosystems. Science 282(5388): 
473-473.
    \8\ Worm, B. E.B. Barbier, N. Beaumont, J.E. Duffy, C. Folke, B.S. 
Halpern. J.B.C. Jackson. H.K. Lotze, F. Micheli, S.R. Palumbi, E. Sala, 
K.A. Selkoe, J.J. Stachowicz, and R. Watson. 2006. Impact of 
biodiversity loss on ocean ecosystem services. Science 314(5800): 787-
790.
---------------------------------------------------------------------------
    Another major impact on ocean health is from increasing levels of 
carbon dioxide in the atmosphere. Carbon dioxide from the combustion of 
fossil fuels is altering the basic chemistry of the oceans. 
Specifically, our oceans are becoming more acidic. Since pre-industrial 
times, the pH of our oceans has declined by 26%. <SUP>9</SUP> If CO2 
emissions continue on a ``business as usual'' course, researchers 
predict that average surface water pH will decline by an additional 2-
2.5 times. <SUP>10</SUP> This will have a significant impact on ocean 
life, particularly carbonate-based life, such as coral reefs, that may 
not be able to withstand more acidic conditions. In addition, rising 
CO2 levels are expected to bring a variety of other changes to marine 
ecosystems including warmer waters, sea level rise, and altered 
salinity levels and current patterns. <SUP>11</SUP> These changes 
will--of course--spur even further change and affect already altered 
ocean ecosystem composition and dynamics.
---------------------------------------------------------------------------
    \9\ Caldeira, K. and M.E. Wickett. 2003. Anthropogenic carbon and 
ocean pH. Nature 425(6956): 365-365.
    \10\ Caldeira, K. and M.E. Wickett. 2005. Ocean model predictions 
of chemistry change from carbon dioxide emissions to the atmosphere and 
ocean. Journal of Geophysical Research-Oceans 110:C9, Orr. J.C., V.J. 
Fabry., O. Aumont. L. Bopp. S.C. Doney. R.A. Feely. A. Gnanadesikan. N. 
Gruber. A. Ishida. F. Joos. R.M. Key. K. Lindsay. E. Maier-Reimer. R. 
Matear. P. Monfray. A. Mouchet. R.G. Najjar. G.K. Plattner. K.B. 
Rodgers. C.L. Sabine. J.L. Sarmiento. Schlitze. 2005. Anthropogenic 
ocean acidification over the twenty-first century and its impact on 
calcifying organisms. Nature 437(7059): 681-686.
    \11\ IPCC. 1995. Impacts, Adaptations, and Mitigation of Climate 
Change: Scientific-Technical Analysis. Cambridge University Press, 
IPCC. 2001. Third Assessment Report: Climate Change 2001. IPCC, Geneva, 
Switzerland.
---------------------------------------------------------------------------
    Another major impact on ocean health is water pollution, 
principally from land-based sources. One form of particular concern is 
nutrient pollution. In Part 1 of the 2006 LA Times Series, Altered 
Oceans, Ken Weiss explains how activities on land are producing 
nutrients that runoff off the land and precipitate out of the air, 
fertilizing excessive growth of harmful algae and bacteria. The impacts 
of nutrient pollution are magnified by overfishing and wetland 
destruction, which have diminished the presence of competing sea life 
and the natural buffers that once minimized runoff. While algal blooms 
cause a number of problems directly--including human health impacts, 
fish and marine life kills, and severe light deprivation for submerged 
vegetation and corals--they also cause problems indirectly. After they 
die, algal blooms sink to the bottom of the ocean, where they are 
decomposed by bacteria that pull oxygen out of the water. This results 
in hypoxic conditions--areas unable to support many forms of marine 
life--that have resulted in dead zones around the country. There is a 
dead zone that swells to the size of Massachusetts (roughly 8000 square 
miles) in the Gulf of Mexico and 39 smaller dead zones around the 
country. <SUP>12</SUP> Ken Weiss summarizes the point in one sentence: 
``Fish, corals and marine mammals are dying while algae, bacteria and 
jellyfish are growing unchecked.'' <SUP>13</SUP> This is what the 
Scripps Institution of Oceanography scientist, Jeremy Jackson, refers 
to as ``the rise of slime'' and while perpetuated by declining 
populations of marine life, also causes declining populations of marine 
life.
---------------------------------------------------------------------------
    \12\ Weiss, Ken. July 30 2006. Part One, Altered Oceans, A Primeval 
Tide of Toxins. LA Times, Pew Oceans Commission. 2003. America's Living 
Oceans: Charting a Course for Sea Change. pgs. 22, 54, and 62.
    \13\ Weiss, Ken. July 30 2006. Part One, Altered Oceans, A Primeval 
Tide of Toxins. LA Times.
---------------------------------------------------------------------------
    The effects of nutrient pollution are also compounded by chemical 
pollution. For instance, the U.S. Commission on Ocean Policy reported 
on a recent study of 70% of the nation's estuarine area (excluding 
Alaska) that 99% of the sediments contained 5 or more toxins at 
detectable levels and that 30% of the sites tested had contamination 
levels high enough to harm fish and other marine life. <SUP>14</SUP> In 
addition, the U.S. Commission on Ocean Policy highlighted that 28 
million gallons of oil pour into American oceans each year as the 
result of human activities. <SUP>15</SUP>
---------------------------------------------------------------------------
    \14\ U.S. Commission on Ocean Policy. 2004. An Ocean Blueprint for 
the 21st Century. Final Report. Washington, DC. pg 39.
    \15\ U.S. Commission on Ocean Policy. 2004. An Ocean Blueprint for 
the 21st Century. Final Report. Washington, DC. pg 39.
---------------------------------------------------------------------------
    We are also simultaneously losing marine habitat. For instance, 
according to the Pew Oceans Commission, the United States, excluding 
Alaska, lost more than half of its original wetlands between the 1780s 
and the 1980s, predominantly as the result of agriculture and 
commercial and residential development. Wetlands provide crucial 
habitat to marine life and serve as natural buffers against runoff, 
erosion, and storm damage. <SUP>16</SUP> Wetland loss may be 
exacerbated by rising sea levels, which could drown wetland areas and 
shift the tide line to developed/paved areas that cannot host new 
wetlands.
---------------------------------------------------------------------------
    \16\ Pew Oceans Commission. 2003. America's Living Oceans: Charting 
a Course for Sea Change. pg 56.
---------------------------------------------------------------------------
The economic value of our oceans
    When oceans fail and marine resources disappear, local and national 
economies falter. According to the U.S. Commission on Ocean Policy, in 
2000 the ocean economy contributed more than $117 billion to American 
prosperity and supported well over two millions jobs. Roughly three-
quarters of the jobs and half the economic value were produced by 
ocean-related tourism and recreation. Our aim should be to sustain and 
restore the marine ecosystems upon which so much of this value depends. 
For instance, we know that harmful algal blooms cost our country 
millions of dollars each year as the result of fisheries closures, loss 
of tourism and recreation dollars, and increased health care and 
monitoring expenses. <SUP>17</SUP> These types of losses are largely 
avoidable.
---------------------------------------------------------------------------
    \17\ U.S. Commission on Ocean Policy. 2004. An Ocean Blueprint for 
the 21st Century. Final Report. Washington, DC. pg 39.
---------------------------------------------------------------------------
Relevant recommendations of the two national Commissions
    Both the U.S. Commission on Ocean Policy and the Pew Oceans 
Commission found that a key reason that our oceans are in trouble is a 
vastly inadequate governance regime. The U.S. Commission found that our 
nation's management approaches have not been updated to reflect new 
scientific findings that demonstrate the complexity and 
interconnectedness of natural systems, with responsibilities remaining 
dispersed among a confusing array of agencies and no overarching 
direction. As the Commission stated:
        [T]he nation is not now sufficiently organized legally or 
        administratively to make decisions, set priorities, resolve 
        conflicts, and articulate clear and consistent policies that 
        respond to the wealth of problems and opportunities ocean users 
        face. <SUP>18</SUP>
---------------------------------------------------------------------------
    \18\ U.S. Commission on Ocean Policy. 2004. An Ocean Blueprint for 
the 21st Century. Final Report. Washington, DC. pg 55.
---------------------------------------------------------------------------
    The Pew Oceans Commission sounded a similar theme:
        [W]e have continued to approach our oceans with a frontier 
        mentality. The result is a hodgepodge of ocean laws and 
        programs that do not provide unified, clearly stated goals and 
        measurable objectives. Authority over marine resources is 
        fragmented geographically and institutionally. Principles of 
        ecosystem health and integrity, sustainability, and precaution 
        have been lost in the fray. <SUP>19</SUP>
---------------------------------------------------------------------------
    \19\ Pew Oceans Commission. 2003. America's Living Oceans: Charting 
a Course for Sea Change. pg viii.
---------------------------------------------------------------------------
    Both Commissions called for major reform. The U.S. Commission 
called for a new ``National Ocean Policy Framework'' to improve 
decision-making, promote effective coordination, and move toward an 
ecosystem-based management approach. <SUP>20</SUP> The proposed 
Framework has four major elements.
---------------------------------------------------------------------------
    \20\ U.S. Commission on Ocean Policy. 2004. An Ocean Blueprint for 
the 21st Century. Final Report. Washington, DC. Pgs. 5-11.
---------------------------------------------------------------------------
    First, at the federal level, there would be a National Ocean 
Council (NOC) within the Executive Office of the President, chaired by 
an Assistant to the President and composed of cabinet secretaries of 
departments or administrators of independent agencies with relevant 
ocean and coastal related responsibilities. The NOC would provide high-
level attention to ocean, coastal, and Great Lakes issues, develop and 
guide the implementation of appropriate national policies, and 
coordinate the many federal departments and agencies with ocean and 
coastal responsibilities. A President's Council of Advisors on Ocean 
Policy would be established to ensure nonfederal input into the NOC and 
the President on ocean and coastal policy matters. A small Office of 
Ocean Policy would provide staff support to the Council, the Assistant 
to the President, and the Council of Advisors.
    Second, at the regional level, states would be encouraged to form 
regional ocean councils to respond to issues that cross jurisdictional 
boundaries and to address large-scale connections and conflicts among 
watershed, coastal, and offshore uses. To complement this effort, 
Federal agencies would be directed to improve their regional 
coordination.
    Third, in light of the increasing number of economic uses being 
proposed for Federal waters, a comprehensive offshore management regime 
would be established. As part of this regime, a lead federal agency for 
each offshore activity would be designated.
    Fourth, the existing charter for the National Oceanic and 
Atmospheric Administration (NOAA) would be codified in legislation. 
There would be a follow-up process to determine if additional ocean 
related responsibilities should be consolidated into NOAA or whether 
some other form of reorganization should occur.
    At the heart of the Pew Oceans Commission report was its 
recommendation that we extend an ethic of stewardship toward the oceans 
and manage it on an ecosystem basis. To that end, the Commission 
recommended that Congress enact a National Ocean Policy Act that would 
do the following:
    <bullet>  Establish a national policy to protect, maintain and 
restore the health of marine ecosystems and require that marine 
resources be used in an ecologically sustainable manner.
    <bullet>  Provide that federal agencies conduct their activities in 
a manner consistent with that national policy and with national 
standards that implement that policy.
    <bullet>  Create an independent national ocean agency that would be 
tasked with helping implement the National Ocean Policy Act.
    <bullet>  Create a National Ocean Council within the Executive 
Office of the President to coordinate interagency action on ocean 
issues and, among other things, ensure that all agencies comply with 
the National Ocean Policy Act.
    <bullet>  Form regional ocean ecosystem councils of appropriate 
state, federal and, where appropriate, tribal representatives that 
would develop regional ocean governance plans. These plans would 
establish clear and measurable management and restoration goals that, 
once approved, would guide states and federal decisions affecting the 
oceans.
The need for a legislative solution
    While we have crucial pieces of legislation targeted to individual 
components of the ocean ecosystem, we lack the legislative mandate or 
mechanisms to ensure that these components are well-coordinated and 
that the health and functioning of the overall system is maintained. 
Ocean life rests on other ocean life and habitat conditions. If you 
remove too many pieces or the wrong pieces, the system collapses. The 
problem is that right now we are looking at each sector individually. 
We lack the mechanisms and the responsible entities necessary to judge 
how these separate activities will affect each other and the system as 
a whole. We know enough about how our oceans function and the threats 
that they face to know that this is not the right approach.
    Laws geared to individual sectors or problems, while clearly and 
undeniably important, are not a substitute for a mandate targeted to 
maintaining the function, health, and productivity of the system as a 
whole. We need a National Ocean Policy Act for our country in order to 
provide an overarching policy direction to the numerous federal 
agencies that authorize the many different activities affecting the 
oceans and to ensure that action on behalf of the oceans will be taken 
not just by one administration, but every administration. The 
President's December 2004 executive order that established the 
Committee on Ocean Policy and the actions of the Federal and state 
governments to date are not a substitute for this. Federal interagency 
coordination without a specified direction for that coordination is not 
enough. As the Commissions recommended, we need a legislatively 
established policy and a mechanism to implement that policy, consistent 
with current law, leaders at all levels of government to implement that 
policy, and the funding to do it.
    This legislation does not minimize the importance of legislation 
addressing individual sectors. For example, we applaud Congress' 
reauthorization last year of the Magnuson-Stevens Fishery Conservation 
and Management Act and believe that important reforms were made to the 
fishery management process in that legislation. Again, the bill before 
you today, OCEANS-21, does not seek to replace that or other 
legislation, but rather to provide a means by which individual laws and 
activities can be woven together into a more cohesive and effective 
whole that preserves the integrity of the ecosystems upon which these 
activities depend.
    In the past years, we have seen an explosion of activity at the 
regional and state level geared toward grounding management in an 
ecosystem perspective. It is time for action at the Federal level.
OCEANS-21: An ecosystem level solution for an ecosystem level problem
    OCEANS-21 responds to the recommendations of the two national ocean 
Commissions in a number of important ways: 1) by establishing a 
national ocean policy to protect, maintain, and restore the health of 
marine ecosystems, 2) by providing a mechanism to implement that 
policy, 3) by promoting effective coordination within the federal 
government and between states and the federal government; and 4) by 
establishing an oceans trust fund.
Title I: Establishment of a National Oceans Policy
    Title I establishes a national policy to protect, maintain, and 
restore the health of marine ecosystems and a mechanism to implement 
that policy. Title I requires that, to the fullest extent possible, 
U.S. laws, regulations and policies be interpreted and administered in 
accordance with this policy. A federal action that may significantly 
affect ocean waters or resources may proceed only if the action agency 
certifies that the action, individually and in combination with other 
federal actions, is not likely to significantly harm the health of the 
marine ecosystem or significantly impede its restoration. See Section 
101(b) (2) (b). This does not mean that any action that impacts the 
ocean is prohibited. Rather, it means that actions are reviewed with an 
eye to ensuring the health of the overall system. Certification 
decisions, in the case of incomplete information, must be made using 
the precautionary approach and must be implemented, to the extent 
practicable, so as to minimize adverse social and economic impacts, 
while remaining consistent with the other requirements of the Act. The 
NOAA Administrator is to provide expert advice to the action agency but 
it is the action agency that makes the final decision. This title is 
key to ensuring government accountability for the overall health of our 
oceans.
Title II: National Oceanic and Atmospheric Administration Organic Act
    NOAA was established by executive order in 1970 and has never had a 
legislatively defined mission or structure. OCEANS-21, Title II 
rectifies this gap by providing an organic act for NOAA. Title II takes 
some important steps. Specifically it:
    <bullet>  Establishes NOAA as the lead, civilian Federal agency 
with responsibility for providing oversight for all U.S. coastal, 
ocean, and Great Lakes waters and resources
    <bullet>  Establishes a legislative mission for NOAA, including to 
protect, maintain, and restore the health of coastal, ocean, and Great 
Lakes ecosystems
    <bullet>  Ties all of NOAA's functions to the policy and standards 
outlined in Title I
    <bullet>  Instructs the NOAA Administrator to submit annual budget 
requests to the Director of the Office of Management and Budget, giving 
NOAA a stronger voice to advocate for ocean funding needs within the 
Federal government
    <bullet>  Acknowledges the Administrator as the Department of 
Commerce official for all ocean and atmosphere issues in dealings with 
other elements of the Department of Commerce and with other Federal 
agencies, State, tribal, and local governments, and the public
    <bullet>  Establishes no more than 3 Deputy Assistant Secretary 
positions and stipulates that the functions of these Secretaries must 
be consistent with at least one of three focal areas: assessment, 
prediction, and operations, management, especially ecosystem-based, and 
research and education <SUP>21</SUP>
---------------------------------------------------------------------------
    \21\ These focal areas were outlined in USCOP Recommendation 7-1, 
U.S. Commission on Ocean Policy. 2004. An Ocean Blueprint for the 21st 
Century. Final Report. Washington, DC. pg 111.
---------------------------------------------------------------------------
    <bullet>  Establishes no more than 5 Assistant Administrator 
positions and stipulates that the functions of those position must be 
consistent with the three focal areas listed above and must be 
structured to minimize overlap <SUP>22</SUP>
---------------------------------------------------------------------------
    \22\ Right now, NOAA has 6 Assistant Administrators and 4 Program 
Goal Leads, established because of noted overlap and misplacement of 
activities in the line offices managed by the Assistant Administrators
---------------------------------------------------------------------------
    <bullet>  Instructs the Administrator to develop and implement a 
reorganization plan for NOAA in accordance with the national ocean 
policy and standards and to maximize efficiency and effectiveness 
around the three focal areas listed above
    <bullet>  Shifts responsibility for examining NOAA's budget within 
OMB from General Government Programs to Natural Resources Programs 
<SUP>23</SUP>
---------------------------------------------------------------------------
    \23\ This was suggested by USCOP Recommendation 7-2, U.S. 
Commission on Ocean Policy. 2004. An Ocean Blueprint for the 21st 
Century. Final Report. Washington, DC. pg 112.
---------------------------------------------------------------------------
    The legislation would: 1) establish NOAA as the clear voice for our 
oceans within the Federal government and provides them with the 
necessary stature and autonomy--including in terms of advocating for 
their own budget priorities--to fill this role, 2) instructs NOAA to 
carry out its functions in a manner that will promote the protection, 
maintenance, and restoration of ocean health, and 3) directs NOAA to 
restructure in a meaningful way, preferably at the line office level, 
around the focal areas of assessment, prediction, and operations, 
ecosystem-based management, and research and education. Allowing NOAA 
to function as is without an organic act leaves it too open to shifting 
political whims, impedes NOAA from taking a true leadership role within 
the Federal government, and diminishes NOAA's overall effectiveness as 
a steward for ocean ecosystems because of the lack of a clear, stable 
mission and authority.
Title III: National Ocean Leadership and Coordination
    Title III outlines positions and functions crucial to ensuring that 
the purposes and provisions of this Act guide Federal activities and 
funding decisions, across Federal agencies and the Executive Office. 
Specifically, Title III:
    <bullet>  Establishes a National Oceans Advisor in the Executive 
Office, appointed by the President with the advice and consent of the 
Senate, and stipulates a variety of functions for that position 
including coordinating Federal agency actions related to marine 
ecosystem health
    <bullet>  Codifies the Committee on Ocean Policy established by 
executive order on December 17, 2004. Beyond giving the Committee 
permanence, title III makes a number of important changes, particularly 
1) giving the committee a clear purpose and set of responsibilities, 
targeted toward promoting the protection, maintenance, and restoration 
of the health of marine ecosystems consistent with the policy and 
standards in section 101, 2) adding six governors to the Committee to 
represent State and local interests, and 3) shifting responsibility for 
Committee coordination from the Chair of CEQ, the assistant to the 
President for National Security Affairs, the Assistant to the President 
for Homeland Security, and ``with respect to the interagency task force 
established by Executive Order 13340 of May 18, 2004'' the 
Administrator of EPA to the Chair of CEQ and the National Oceans 
Advisor.
    <bullet>  Establishes a Council of Advisors on Oceans Policy, 
including qualified representatives from governmental and non-
governmental entities (appointed by the President, in consultation with 
the National Ocean Advisor), to advise the President, the National 
Oceans Advisor, and the Committee on Ocean Policy on policies to 
promote the protection, maintenance, and restoration of the health of 
marine ecosystems on a regional and national basis.
Title IV: Regional Coordination and Ecosystem Planning
    Title IV provides that the Administrator of NOAA, in consultation 
with the Committee on Ocean Policy and appropriate states, establish 
Regional Ocean Partnerships organized according to identified U.S. 
large marine ecosystems. Each partnership would be made up of an equal 
number of Federal and state representatives and would be tasked with 
developing strategic plans that analyze the health of ocean ecosystems 
in that region and identify key actions and policy changes needed to 
promote the protection, maintenance, and restoration of marine 
ecosystem health. The NOAA Administrator, in consultation with the 
Committee on Ocean Policy, would review and approve these plans on the 
basis of consistency with policy and standards of the Act. Once 
approved, entities with a representative on a regional ocean 
partnership would implement activities in a manner consistent with the 
approved regional ocean strategic plan. This title promotes a federal/
state partnership for ocean management that is place-based and leads to 
the creation of specific targets, goals and implementation strategies 
for a particular ecosystem.
Title V: Ocean and Great Lakes Conservation Trust Fund
    Title V provides the funding necessary for the development and 
implementation of Regional Ocean Strategic Plans (Title VI covers 
appropriations more generally, authorizing appropriations to NOAA ``as 
necessary for the functions and activities carried out by the 
Administration in accordance with this Act''). Specifically, Title V:
    <bullet>  Establishes a fund in the Treasury, known as the ``Ocean 
and Great Lakes Conservation Trust Fund''.
    <bullet>  Requires the Secretary of the Treasury to deposit $1.3 
billion into the fund each year from general revenues, profits 
generated from the sale of a Healthy Oceans Stamp, amounts not 
disbursed from the Fund in previous years, and interest earned on the 
account (general revenues are intended to make up the difference 
between $1.3 billion and revenues from the other three sources).
    <bullet>  The Secretary is authorized to transfer amounts deposited 
into the Fund to the Administrator to make payments to coastal states 
for the development and implementation of Regional Ocean Strategic 
Plans and to the Administrator to allocate, in concurrence with the 
Committee on Ocean Policy, for activities of the Federal government to 
develop and implement Regional Ocean Strategic Plans. States can only 
receive funds if they participate in the development and implementation 
of Regional Ocean Strategic Plans, if the proposed activities are 
consistent with the national standards outlined in section 101, and if 
the Administrator approves a state's spending plan, in consultation 
with the Committee on Ocean Policy.
    <bullet>  Amounts made available by the Fund are intended to 
supplement, not replace, annual appropriations at the Federal level as 
well as State and local investments.
    <bullet>  Instructs coastal states to hold 50% of their allocable 
share in a state ocean grants fund to issue, on a competitive basis, in 
the form of grants to coastal political subdivisions for the 
development and implementation of an approved Regional Ocean Strategic 
Plans, consistent with the national standards outlined in section 101.
Conclusion
    The ocean area under U.S. jurisdiction is 23% greater than the 
entire land mass of the United States. <SUP>24</SUP> The ocean economy 
generates revenues twice as great as the farm sector and employs more 
people. <SUP>25</SUP> It is time to respond to the call of the two 
national Commissions and give this part of our natural heritage the 
attention it deserves. Enactment of legislation such as OCEANS-21 would 
do just that.
---------------------------------------------------------------------------
    \24\ Pew Oceans Commission. 2003. America's Living Oceans: Charting 
a Course for Sea Change. pg 2.
    \25\ U.S. Commission on Ocean Policy. 2004. An Ocean Blueprint for 
the 21st Century. Final Report. Washington, DC. pg 31.
---------------------------------------------------------------------------
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Ms. Chasis. We would 
like now to recognize Dr. Rosenberg, and you are recognized to 
testify before the committee for five minutes.

 STATEMENT OF ANDREW A. ROSENBERG, Ph.D., PROFESSOR OF NATURAL 
             RESOURCES, UNIVERSITY OF NEW HAMPSHIRE

    Mr. Rosenberg. Thank you, Madam Chair and to members of the 
committee I thank you for the opportunity to testify before you 
today concerning the future of U.S. ocean policy. I am Andrew 
Rosenberg from the University of New Hampshire. I am a member 
of the U.S. Commission on Ocean Policy and the Joint Oceans 
Commission Initiative. I would like to compliment the committee 
and the sponsoring members of H.R. 21, and today I would like 
to address five major areas in my testimony that are relevant 
to your deliberations on this bill.
    Those five areas are ecosystem based management as a 
guiding principle for ocean policy, the creation of a 
consistent policy for new uses of the ocean, strengthening the 
Coastal Zone Management Act, the importance of integrated ocean 
observing systems, and an ocean policy framework that help 
address the ocean effects of climate change.
    Part of the mission of the lead ocean agency must be 
ecosystem based management of the U.S. coastal and ocean areas. 
The essence of an ecosystem based approach focuses on five 
basic principles: Focusing on the ability of an ecosystem to 
continuously provide a full range of services to support human 
well being; recognizing that management actions must be framed 
with respect to natural boundaries; recognizing the various 
sectors of human activities on the oceans interact and their 
management must be integrated; and recognizing that the impacts 
of human activities are cumulative on ocean ecosystems both in 
time and in space; and that tradeoffs and services among 
sectors must be explicitly addressed in policymaking.
    The nation's ocean policy should recognize these principles 
and seek to integrate management within regional ecosystems 
with a result of healthier ecosystems and more coherent 
management systems that work better for the public and for 
business. NOAA will best take on the challenge of ecosystem 
based management with a new structure that integrates across 
the currently fragmented functions of the agency.
    A NOAA Organic Act should begin that work of reducing 
program fragmentation but I know that this is not just a NOAA 
problem. It is fragmentation across the government so we need 
to give NOAA the tools to work with other agencies in order to 
reduce that fragmented management system.
    A whole new set of challenges are rapidly emerging for 
coastal ocean of the U.S. because of the development of 
offshore energy facilities, aquaculture, desalination plants, 
among others. These new uses require an allocation of dedicated 
ocean space in many cases and conflicts are rapidly emerging. 
To take two examples near my home, the citing of an offshore 
LNG port near Gloucester, Massachusetts and the proposal to 
build an offshore wind farm in Nantucket Sound.
    While of course there are NEPA requirements for such 
activities but what are the standards for deciding where a wind 
farm should be located to the benefit of the Nation or an LNG 
port? How should the conflicts with fishermen, recreational 
users, coastal landowners and residents and the public be 
resolved? What are the policy elements that businesses should 
be mindful of as they plan investments, and how do we end up 
with a predictable system for both business and the public so 
they know what they can do and how to do it?
    Right now we do not have that framework and H.R. 21 begins 
to establish it but it is an urgent need because these new uses 
are moving very rapidly. The Coastal Zone Management Act is 
need of revision to meet the challenges of ecosystem based 
management. State coastal management plans are the appropriate 
means to improve land use planning in the coastal zone but a 
consistent set of strong guidelines are needed. Planning must 
be integrated with the management of many activities occurring 
in the coastal and ocean areas, and the example given by Mr. 
Grader is an excellent one of why that is so important.
    Coastal management does not need uniformity but it does 
need coherence around the country. Again predictability is 
important and the ability to adapt to changing conditions. This 
means a stronger criteria as the basis for management plans 
including a watershed focus, not just a narrow coastal zone. 
With respect to the integrated ocean observing system, we need 
more coastal and ocean science urgently but we need to bring 
together the fragmented data sets that currently exist.
    There must be a system of real time ocean observations of 
the environment but it must include the biology and ocean based 
activities to be a tool for policymaking. We must relate ocean 
conditions to living resources directly and to the human 
activities on the ocean, and to me it seems a bit absurd that 
we create a high technology system for ocean observing but we 
still monitor fisheries and other ocean activities by passing 
around little slips of paper.
    Congress needs to fund a comprehensive and sustained ocean 
observing system that will support ecosystem based management, 
and then finally anthropogenic climate change is occurring, and 
it is affecting the oceans, and a new policy direction for the 
ocean, new agency mandates, coordination and structure and new 
tools for ocean research management and education must be 
implemented quickly, and they must be able to include the 
concerns about climate change issues. We cannot set an ocean 
policy today, a new ocean policy today, that does not think 
about climate change as a major factor affecting the oceans.
    Madam Chair and members of the Subcommittee, I thank you 
for the opportunity to testify today, and I would be pleased to 
respond to any questions.
    [The prepared statement of Mr. Rosenberg follows:]

  Statement of Andrew A. Rosenberg, Ph.D., Member, U.S. Commission on 
Ocean Policy and the Joint Oceans Commission Initiative, and Professor, 
                      University of New Hampshire

    Madam Chair and members of the Committee: Thank you for the 
opportunity to testify before you today concerning the future of NOAA 
and U.S. ocean policy. I am Andrew Rosenberg, Professor of Natural 
Resources in the Institute for the Study of Earth, Oceans and Space at 
the University of New Hampshire and a member of the U.S. Commission on 
Ocean Policy. I was formerly the Deputy Assistant Administrator for 
Fisheries at NOAA, a Regional Administrator for NOAA Fisheries, and a 
scientist working at NOAA's Northeast Fisheries Science Center.
    The Ocean's Act of 2000 formed the U.S. Commission on Ocean Policy 
and directed us to ``make recommendations for coordinated and 
comprehensive national ocean policy...'' The Act set out eight specific 
objectives for this policy paraphrased here:
    1.  protection of life and property;
    2.  responsible stewardship of ocean and coastal resources;
    3.  protection of the marine environment;
    4.  enhancement of marine-related commerce, resolution of conflicts 
among diverse users of the marine environment and engagement of the 
private sector in developing approaches to the responsible use of 
marine resources;
    5.  expansion of knowledge of the marine environment and the 
advancement of education in fields related to the ocean and coasts;
    6.  development and improvement in technological capability for 
ocean related activities;
    7.  cooperation among all government agencies to ensure coherent 
regulations, appropriate use of funding, efficient operation of federal 
agencies, and enhancement of partnerships with state and local 
governments; and
    8.  leadership by the United States in ocean and coastal 
activities.
    I believe the Commission's recommendations truly meet the spirit 
and intent of the Oceans Act. Further, I believe that we must 
immediately begin to make changes in U.S. ocean policy to reverse an 
alarming, widespread degradation in the health of the oceans and 
coasts, vital living marine resources, and coastal communities. I 
believe that our ocean environment is at risk and a change of course is 
needed to reduce that risk. We must reinvigorate and fully fund our 
leadership in ocean science and our understanding of the life-support 
system of the earth.
    I would like to compliment the Committee and sponsoring members of 
H.R. 21. The bill acknowledges the problems facing our oceans, coasts, 
and Great Lakes, and sets strong new direction for the Nation's ocean 
policy by incorporating many of the governance recommendations made by 
the Commission and the Joint Ocean Commission Initiative. As this 
Committee and Congress continues its consideration of this legislation, 
I would like to address five major areas in my testimony today that are 
relevant to these deliberations:
    <bullet>  ecosystem-based management as a guiding principle for 
ocean policy in the context of H.R. 21,
    <bullet>  the creation of a strong and consistent policy for 
addressing new, emerging activities on the ocean, particularly those 
that need an exclusive use of ocean space,
    <bullet>  strengthening the Coastal Zone Management Act during 
reauthorization,
    <bullet>  the importance of an integrated ocean observing system 
that is can truly impact ocean policy, and
    <bullet>  setting an ocean policy framework that can address the 
ocean effects of climate change.
    Ecosystem-based Management: H.R. 21 will put in place an organic 
act for NOAA, establish it as the lead ocean agency and enable the 
restructuring of NOAA to better accomplish its mission. Part of that 
mission, and the Nation's ocean policy, should be the ecosystem-based 
management of marine resources. The Nation must have a lead ocean 
agency, as well as the White House level advisor and council included 
in the bill. NOAA is clearly the most appropriate lead agency. But to 
accomplish the mission of ecosystem-based management, the agency needs 
to be restructured. I had the privilege of working for NOAA for ten 
years. The NOAA personnel are talented and dedicated but they don't 
have all the tools they need to do the job. Nor do they have an 
overarching framework to effectively implement the conflicting mandates 
that the various statutes and demands of the day bring. Fisheries, 
protected species, habitat, coastal zones, sanctuaries, estuarine 
research reserves, restoration programs and so on are all addressing 
parts of an interconnected ecosystem, but are based in separate 
programs in two different line offices. There needs to be true program 
connectivity with shared planning, a sense of shared mandates, and a 
coordinated strategy for funding high-priority science, management, and 
education activities.
    Ecosystem-based management is not just the latest buzzword or a 
small change in direction for policy-making, it is a fundamental shift 
in how we view and manage our interactions with natural resources. 
Ecosystem-based management sets a different process for policy-making, 
starting from a different perspective on goal-setting through to the 
basis for resolving conflicts. NOAA will best take on this challenge 
with a new structure that integrates across the currently fragmented 
functions of the agency. In my view, NOAA has remained a collection of 
agencies rather than a lead ocean agency. In some ways, within NOAA 
there is a mirror of the problem that the Commission found across the 
federal ``ocean'' agencies, that is, program fragmentation and 
conflicting authorities. A NOAA organic act should begin the work of 
reducing program fragmentation by focusing NOAA on its core 
competencies and mandates; assessment, prediction and operations, 
ecosystem-based management of ocean and coastal areas and resources, 
and science, research and education.
    The essence of an ecosystem-based approach to management rests on 
five basic principles:
    1)  Focus on the ability of the ecosystem to continuously provide 
the services that support human well-being including recognition that 
humans are inherently part of the ecosystem. Ecosystem services go 
beyond simple extractive uses such as fisheries harvest and mining to 
services that play major roles in supporting life, regulating change 
and providing a vital cultural resources for society;
    2)  Recognize that natural boundaries are more relevant to the 
conservation of ecosystem services than artificial boundaries between 
legal jurisdictions;
    3)  Various sectors of human activity with a particular marine 
ecosystem can affect one another and require some level of management 
integration;
    4)  Impacts of human activities on an ecosystem are often 
cumulative across time and space resulting in ecosystem change that 
must be addressed by policy action;
    5)  Policy decisions will not have the same effect on all services 
and tradeoffs in services among sectors must be made. If management is 
not integrated across the sectors of human activities, these tradeoffs 
are often implicit or completely ignored with potentially problematic 
results.
    The Nation's ocean policy should recognize these principles and 
seek to integrate management within regional ecosystems. The results, 
if we are successful, should be healthier ecosystems and healthier 
coastal communities and businesses. If management and science can be 
integrated, it can also become more coherent and more understandable. 
We can no longer afford to create complex rules for each sector of 
human activity as if it operates in isolation.
    Coordinated Ocean Management: The need to change to an ecosystem-
based focus is a very high priority in my view. But this doesn't just 
apply to the existing sectors of activities on the ocean. A whole new 
set of challenges are rapidly emerging for the coastal ocean of the 
U.S., because of the development of offshore energy facilities, 
aquaculture, and water desalination plants, among others. Notably, many 
of these new uses require the allocation of dedicated ocean space and 
conflicts are emerging rapidly. A consistent management structure is 
urgently needed for these new uses of the ocean that considers 
ecosystem impacts, interactions with other activities, and appropriate 
siting for such facilities. Take two recent examples near my home, the 
siting of offshore LNG ports off of Gloucester, Massachusetts and the 
proposal to build an offshore wind farm in Nantucket Sound. Of course 
there are NEPA requirements for such activities, but what are the 
standards for deciding where a wind farm should be located to the 
benefit of the Nation? Or an LNG port? How should conflicts with 
fishermen, recreational users, coastal landowners and residents, and 
the public be resolved? What are policy elements that businesses should 
be mindful of as they plan investments in the coastal ocean? We are 
behind the curve as these new uses of the ocean emerge, and more 
coherent and coordinated policy priorities and implementation 
strategies must be instituted if ocean ecosystems are to be maintained 
and protected.
    Coastal Zone Management: The Coastal Zone Management Act was 
groundbreaking when it was enacted in 1972, but it is in need of 
revision to meet the challenges of ecosystem-based management. It can 
serve as an important part of the effort to integrate management across 
sectors of human activity and as a primary vehicle for managing land-
sea interactions. State coastal management plans are the appropriate 
means to improve land-use planning in the coastal zone, but a 
consistent set of strong guidelines are needed. Planning must be 
integrated with management of the wide array of other activities in 
coastal and ocean areas including fisheries, energy infrastructure, 
telecommunications, recreation, transportation and others. Coastal 
management doesn't need uniformity, but it does need coherence around 
the country and it needs to adapt to changing conditions. Coastal zone 
management should be a critical part of an ecosystem-based approach to 
policy. This means stronger criteria as a basis for the plans, and it 
means significant increases in resources to make coastal zone 
management what it needs to be, a major component of the Nation's 
environmental policy structure. An essential component should be 
periodic assessments of the state's natural, cultural, and economic 
resources. Based on these assessments, management plans should then set 
specific, measurable goals that reflect the growing understanding of 
ocean and coastal environments and the need to manage growth in regions 
under pressure from coastal development. It is also essential to 
redefine the landward reach of state coastal zones to include coastal 
watersheds, thus better enabling coastal programs to look across 
political boundaries and incorporate a coastal watershed focus and the 
basic tenets of ecosystem-based management.
    Integrated Ocean Observing System: Make no mistake, we currently 
have sufficient scientific information to move forward with an 
ecosystem-based approach to management. Of course, we need more and 
better coastal and ocean science and I strongly believe this is a 
critically underfunded area of the Nation's scientific enterprise. But, 
that doesn't mean we can't do a better job of management with what we 
have, nor that an ecosystem-based approach is too complex. An urgent 
need, however, is to bring disparate and fragmented datasets together 
in a comprehensive system. This system must incorporate real-time ocean 
observations of the environment including the biology of the oceans. It 
must also include real-time observations of ocean-based activities. An 
ocean observing system is critically needed, but it can't just be 
observing the physics and chemistry. To be a tool for policy it must 
relate observations to living resources and to human activity. We have 
the tools for monitoring fishing, shipping and other activities, but 
the data collection system must be modernized. To me it seems absurd to 
create a high-technology system for ocean observations including 
satellites, radar, buoys with sophisticated instruments, and ship borne 
observations, and still collect information on fisheries on little 
slips of paper under confidentiality rules that make little sense.
    The ocean and coastal community has rallied behind the 
implementation of an Integrated Ocean Observing System (IOOS) and Ocean 
Observatories Initiative (OOI). Together, this combination of research 
and monitoring systems offer scientists and managers a more complete 
view of atmospheric, terrestrial, and oceanic interactions occurring at 
the global, national, and regional scales. IOOS supports the hardware, 
software, data management, synthesis, and modeling activities that 
integrate the data and information generated by the research community. 
It should have the capacity to integrate a broader range of data than 
just from the monitoring systems themselves. Technologically it is 
possible to integrate comprehensive ocean data. I often think of this 
as a dynamic version of Google Earth for the oceans. One should be able 
to focus on any location in the U.S. coastal and ocean regions and find 
out all we know about that location: the environment, habitat, recent 
changes, and the human activities that occur within that area. Congress 
should authorize and fund such a comprehensive and sustained national 
system that will support and enhance our ability to understand and 
manage ocean and coastal resources in a number of ways, including: 
protecting lives and livelihoods from natural hazards; supporting 
national defense and homeland security efforts; safeguarding public 
health; developing new energy resources; adapting to climate change; 
and conserving biodiversity.
    Oceans and Climate Change: Finally, anthropogenic climate change is 
occurring and it is affecting the oceans. The ocean effects are more 
than sea level rise, and some are here now, not fifty years in the 
future. More severe storms, changing regional climate and rainfall 
patterns, temperature changes, shifting species distribution patterns, 
and ocean acidification are all happening right now. The Nation must 
make efforts to understand the impacts, mitigate the increase in 
greenhouse gases, adapt to changing conditions, as well as research and 
monitor the changes. I understand Congress is considering climate 
change related legislation. The relationship between oceans and climate 
is direct and significant, and I strongly urge the Committee to take a 
leadership role developing language to incorporate into the legislation 
that significantly enhances support for ocean and coastal programs 
throughout the federal government. I believe this relates directly to 
H.R. 21. The new policy direction for the oceans, new agency mandates, 
coordination and structure, and new tools for ocean research, 
management, and education must be implemented quickly to ensure that 
Congress and other policy makers are provided with the information 
necessary to make informed and balanced decision to deal with the 
formidable challenges of the ocean effects of climate change.
    Madame Chair and members of the Subcommittee, thank you for the 
opportunity to testify today. I would be pleased to respond to 
questions and am also available to discuss these and other matters with 
Members at their discretion.
                                 ______
                                 

  Response to questions submitted for the record by Dr. Andy Rosenberg

QUESTIONS FROM THE HON. MADELEINE BORDALLO, CHAIRWOMAN
Coordinated ocean management
    You argue for ecosystem based management that addresses existing 
and new activities in the oceans--particularly the development of new 
offshore energy sources.
    1.  Do you believe the existing framework and governance structure 
adequately address the impacts of such activities and balance them with 
existing uses? What needs to change in our governance structure to 
truly achieve a coordinated and coherent approach toward ocean 
ecosystem management and protection?
    I do not believe the current system is sufficient to deal with 
emerging uses of the ocean. There are four issues that should be 
addressed directly in governing new uses of the ocean: a) what are the 
criteria for determining whether a new activity is appropriate in a 
particularly location with respect to it's impacts on the ecosystem 
including other activities, b) how will exclusive allocation of space 
be decided upon and what will be the obligations of holders of that 
space including fees, monitoring, compensation, etc.; c) under what 
framework and standards will the impacts of new uses be analyzed 
including cumulative impacts on the environment (note: of course NEPA 
applies but gives no guidance on which options should be preferred); d) 
what will be the ongoing monitoring and evaluation required for new 
uses. MMS is currently developing some guidelines for alternative 
energy but not clearly related to these points above and not for other 
uses such as aquaculture, desalination, etc.
H.R. 21 and the JOCI recommendations
    Dr. Rosenberg, you served on the U.S. Commission on Ocean Policy 
and now work with the Joint Ocean Commission Initiative, which reported 
to the Senate its priorities for Congress.
    2.  In your opinion, does H.R. 21 address the most pressing 
recommendations put forth by that Initiative?
    Yes, with the exception of funding and revision of CZM, which are 
critical priorities. While the bill addresses funding in part, it does 
not go far enough in identifying a mechanism.
National Ocean Policy
    You have written extensively and focused heavily on fisheries 
management and conservation.
    3.  Do you believe that establishing a goal of protecting, 
maintaining, and restoring ocean health--the habitats, community 
dynamics, and environments that support our fisheries--will complement 
the goals of fisheries management?
    Yes I do believe the bill is complimentary to fisheries management 
goals, not in competition with them. It is vital to recognize that 
other activities effect fisheries productivity beside fishing itself. 
Keeping fisheries in isolation is not a successful strategy in my view.
QUESTIONS FROM THE HON. HENRY BROWN, MINORITY RANKING MEMBER
    1.  You mention in your written testimony the importance of 
integrated ocean observation systems and the need to relate the 
observations to living resources and to human activity. H.R. 21 would 
require the creation of regional ocean ecosystem resource information 
systems. How would you compare the integrated ocean observation system 
to the regional resource information systems? Would you consider the 
regional information systems a subset of an integrated ocean 
observation system or is it the other way around? Are these two 
separate systems? Is there a need for both?
    I believe there is a need for both an integrated ocean observing 
system as a national (and international) effort and a regional 
information system. I view the ocean observing system as a subset of 
the regional information. Ocean observing is to take real time 
measurements. There are lots of other data that need to be integrated 
in order to provide a comprehensive picture of the ocean. It makes 
sense to create regional information systems because the ecosystems are 
regional and state and local data needs to be included. But some 
efforts, like the ocean observing system need to be created and 
management as a national program.
    2.  In your written testimony you discuss the need for coordinated 
ocean management to address the emerging conflicts with regard to users 
of ocean areas in U.S. waters. You reference the National Environmental 
Policy Act (NEPA) requirements for activities, such as liquid natural 
gas ports or offshore wind farms, and the lack of standards on where to 
place these facilities. While many support the idea of alternative 
fuel, many do not want the facilities in their backyard. How would you 
recommend we address these conflicting views and create standards? Does 
H.R. 21 address them?
    NEPA requires analysis of impacts but doesn't give guidance on the 
basis for decisions. There is a need to create a set of standards, as 
in the fisheries law, for citing new facilities. H.R. 21 could provide 
a vehicle for doing this but it doesn't contain such standards at 
present. I think the standards need to address minimizing the 
disruption of other activities such as shipping and fishing, minimizing 
environmental impacts, ensuring the public receives fair return for the 
allocation of public space to private enterprise, monitoring 
requirements and compatible uses. But the setting of standards is an 
important public policy matter that needs full discussion.
    3.  You referenced in your written statement the issue of 
fragmentation and conflicting authorities in NOAA and in the 
Administration. How does H.R. 21 correct these problems?
    H.R. 21 calls for reorganizing NOAA around it's core functions. It 
also calls for a new coordination structure with other federal agencies 
and the creation of an ocean policy advisor in the White House. These 
changes should reduce fragmentation by bringing NOAA programs together 
and tasking a high level appointee specifically with coordination on 
ocean issues.
    4.  You mention the need to revise the Coastal Zone Management Act 
(CZMA)and cite it as way to integrate management across sectors of 
human activity and as the primary vehicle for managing land-sea 
interactions. If Congress were to enact H.R. 21 would we need the 
Coastal Zone Management Act?
    We need stronger coastal zone management, whether it should be in a 
separate act or not is more of a legal issue. Strengthening coastal 
zone management including making it more comprehensive, ecosystem-
based, extending further into the watersheds, with strong guidance on 
how to connect together management of the activities in the coastal 
areas, and full funding coastal management activities are critically 
important. H.R. 21 can provide a vehicle for some or all of these 
needs, while other parts may be best left to revision of the CZMA.
    5.  What specific measures would you recommend Congress enact to 
allow the Federal agencies to be more proactive in managing ocean 
activities (shipping, fishing, etc) or development (aquaculture or 
alternative energy platforms) in coastal waters?
    As indicted in my testimony, I feel that an organic act for NOAA 
which calls for reorganization is essential. I also feel better 
coordination must be set up between agencies. Further, a management 
structure for new uses of the ocean is needed, particularly those that 
lease ocean space to an exclusive use. For that, we need standards and 
guidelines that will ensure conflicts are addressed and the public 
receives fair compensation as well as public interests are served.
    6.  If you could pick portions of H.R. 21 to move forward, which 
provisions would choose?
    The Organic Act, establishment of a structure for new uses of the 
ocean with exclusive allocation of space, and establishment of an ocean 
observing system that will meet policy needs in future.
    7.  Prior to enacting an overarching bill such as H.R. 21 and its 
ecosystem-based management approaches, Congress should review existing 
legislation, such as the Marine Mammal Protection Act and the 
Endangered Species Act, and either repeal or amend these laws to adhere 
to the ecosystem-based management approach. What are your views on this 
statement?
    I do not agree with the statement. I think the goal of setting an 
ecosystem based management policy is to knit together the management of 
the ocean under these laws and others in a coherent way. I think after 
the principles and structure are established Congress should, in an 
ongoing way, consider if any of these and other laws should be amended 
to enable better integration of ocean policy.
    8.  Does the Marine Mammal Protection Act and its focus on 
protecting marine mammals above other species fit into the ecosystem-
based approach to management?
    It can if that is the goal that Congress wants to maintain for the 
Nation. What it means in an ecosystem based management context is that 
we should integrate the management of marine mammals with other uses in 
a way that provides very strong protection for marine mammals. Just 
because they are strongly protected doesn't mean that the management 
measures ignore other uses. It just means that the goal of protecting 
marine mammals receives high weight in evaluating tradeoffs.
    9.  The U.S. Commission on Ocean Policy recommended voluntary 
regional partnerships, yet H.R. 21 requires them. Is this appropriate? 
Does making the regional partnerships mandatory limit the flexibility 
of the state and regions to develop partnerships that respond to 
specific needs?
    The Commission recommended pilot programs as an initial step and 
some progress has been made in that regard. Regional partnerships can 
be flexible whether they are mandatory or voluntary (e.g. the fishery 
management councils are all different in character). It depends on what 
they are asked to do, more than the issue of voluntary or mandatory. I 
think most if not all regions have begun to develop these partnerships 
anyway.
    10.  H.R. 21 ignores existing laws, such as the Coastal Zone 
Management Act (CZMA) and the National Environmental Policy Act (NEPA), 
which guide how activities will affect the ocean and conserve ocean 
resources. It would seem to be more productive for this Committee to 
review these and other existing statutes to determine how to best 
modify them to create better coordination of conservation and 
management efforts instead of enacting a new law that would supersede 
all existing laws. Can you comment on this?
    I don't agree the bill ignores these, but builds upon them. I think 
the CZMA does need revision to improve and strengthen its management 
provisions and adhere to ebm principles. I think NEPA does not need to 
be modified but that the guidelines for implementing NEPA probably do. 
I do not see Oceans 21 as superseding all existing laws. I think it is 
intended to integrate existing laws so that the policy is less 
fragmented and works better.
    11.  The bill charges NOAA with reporting on the status of ocean 
ecosystems and resources two years after enactment of the bill and 
every three years thereafter. The Regional Ocean Partnerships are also 
required to develop regional ocean strategic plans which will include 
an assessment of its ocean region. What changes can we make to the bill 
to ensure there is limited duplication between the two reports? Can you 
also make recommendation on how to limit duplication in other areas of 
the bill?
    I think NOAA should be developing a report that is based on 
Regional reporting and provides a national overview. To do this, 
integrated assessments of the regional ecosystems are needed and must 
be funded adequately. This will also bring together a lot of the data 
and information across sectors as called for in the bill, which is not 
happening now. It also has the great potential to reduce duplication in 
analyzing impacts on ecosystems in the course of NEPA analyses and 
other but providing and integrated ecosystem assessment as the basis 
for NEPA EIS statements for all proposed actions (instead of each 
sector doing them independently).
    Additional streamlining can be accomplished if an integrated data 
set is created as called for in the bill, if CZMA plans can be 
developed and strengthened as the basis for regional ocean plans, and 
if the work across programs and agencies is integrated to reduce 
fragmentation and duplication. All of these are called for in the 
Commission report and are reflected in the bill.
    12.  You made statements at the hearing to the effect that it is 
important to determine cumulative effects of actions on the ocean 
environment. There are a number of disparate activities occurring on 
the ocean. How do you envision the effects of cumulative impacts be 
determined and by which agency?
    Cumulative effects should be analyzed in the course of an 
integrated ecosystem assessment as indicated above. NOAA as the lead 
agency for the oceans should lead the integrated assessment but other 
agencies should be required to participate and contribute. The analysis 
of cumulative impacts is challenging and will develop over time. It is 
possible to evaluate cumulative impacts for some parts of the ecosystem 
now, such as cumulative impacts on fisheries productivity and on 
habitat from multiple sectors. It may also be possible for severe storm 
protection. For example, there was such an analysis done for the Gulf 
coast prior to Hurricane Katrina, as referred to in the Commission 
report, but it was not acted upon. For other ecosystem services and 
functions it may be more difficult but substantial scientific work is 
being done in many areas to evaluate cumulative impacts. Without a 
clearer programmatic effort to do so, this work will not be brought to 
bear on policy decisions with potentially disastrous results as seen in 
the Gulf.
    13.  With the national standard language and the definition of 
precautionary approach in H.R. 21, these provisions would limit or 
prohibit actions if it could not be proven that the cumulative actions 
have no significant impact on the ocean. This is a very protectionist 
approach. Congress needs to find a balance between conservation actions 
and allowing necessary actions to occur. How do you suggest we move 
forward and beyond these very protectionist provisions?
    The interpretation of a precautionary principle given in the 
question is an extreme view that has been largely rejected within the 
scientific community and is not used in policy discussions 
internationally. A precautionary approach as more appropriately 
defined, calls for being more cautious in the face of uncertainty, 
rather than prohibiting actions unless there is no impact. A 
precautionary approach calls for avoiding irreversible changes and 
developing measures that can be implemented quickly if negative impacts 
are observed to avoid delays. There is a substantial literature on the 
precautionary approach applied to pollution, fisheries and other 
sectors that can be relied upon here and does not take an extreme 
protectionist view.
QUESTIONS FROM THE HON. JIM SAXTON
    1.  OCEANS-21 contains National Standards to guide implementation 
of ``covered actions'' and a timeframe for interagency comment. What 
sort of effect would this have when combined with current National 
Standards and timelines contained in other laws such as the National 
Environmental Policy Act and the Magnuson-Stevens Fishery Conservation 
and Management Act?
    I view the standards as integrated the other laws under a 
consistent policy rather than over-riding existing standards. For 
example, the fisheries standards clearly call for preventing 
overfishing and ensuring equity among user groups among other things. 
These still pertain under an ecosystem based approach but now are 
integrated with the actions of other sectors. The benefits are that it 
will be possible to address impacts on fishery resources other than 
fishery impacts and to make the rules across sectors fit together more 
coherently.
    2.  Our oceans cover an area that is 23% larger than the land area 
of the U.S. and, according to the U.S. Commission on Ocean Policy, 
contribute roughly $117 billion to the U.S. economy, mostly from 
tourism and recreation revenues. Given the expanse and importance of 
our oceans to people of the United States, do you believe that it is 
appropriate for Congress to issue guidance on how our oceans as a whole 
should be managed--as we have done with all of our other major systems?
    I believe it is critical that Congress do so. The oceans are a 
hugely important public resource and fragmented management has put that 
resource at risk.
    3.  The NOAA organic act title of H.R. 21 makes NOAA the lead 
federal agency for oversight of all U.S. coastal, ocean, and Great 
Lakes waters and resources. Currently, though, NOAA shares this 
responsibility with agencies like USGS (for example, USGS manages 
fisheries in the Great Lakes). While the U.S. Commission on Ocean 
Policy did recommended consolidating oversight of ocean resources into 
one federal organization, they recommended a slower, step-wise approach 
that first provides an organic act for NOAA with its current 
responsibilities and then over the course of a few years considers 
transferring the responsibilities of other agencies to NOAA. Do you 
agree with the Commissions step-wise approach to consolidating ocean 
oversight, or do you believe this significant change in federal 
oversight should be made immediately as proposed by H.R. 21?
    I am a Commissioner and support the recommendations of the 
Commission report. I think that in any case, it will take some time to 
work through program consolidation across agencies. It cannot be done 
with the stroke of the pen.
    4.  Many experts have stated that NOAA is too ``stovepiped'', 
leading to inefficiencies and duplications across its five current line 
offices. The NOAA organic act title of H.R. 21 proposes to consolidate 
these offices into three primary functions--assessment, prediction and 
operations; management; and research and education. I believe it is 
important for research and education to be closely tied to and support 
the other two functions of the agency, but under H.R. 21 things could 
remain stovepiped having research as a separate function. In another 
NOAA organic act proposal, H.R. 250 from Mr. Ehlers, there is a 
leadership position that oversees all science at the agency to ensure 
the best science is incorporated into all agency activities. Would you 
recommend a similar position in H.R.21? If not, would you recommend 
other changes in H.R. 21 to ensure that the research function of NOAA 
continues to serve the needs of the operations and management functions 
of the agency?
    I agree that NOAA is too stovepiped and restructuring is warranted. 
I also agree that oversight of science and research across the agency 
is needed as recommended in the NOAA External Research Review Panel 
report (I was also a member of that panel). I think H.R. 250 reflects 
this need. It is essential that the research functions not be separated 
from operations and management but it is also essential that the 
different areas of operations and management be more integrated. A lead 
scientist position with real authority could help make the NOAA science 
program an integrated whole, not a collection of programs.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Rosenberg. And now 
the Chair recognized Mr. Benton to testify for five minutes.

         STATEMENT OF DAVE BENTON, EXECUTIVE DIRECTOR, 
                  MARINE CONSERVATION ALLIANCE

    Mr. Benton. Thank you, Madam Chair. I too want to 
congratulate the committee for holding this hearing and 
providing this opportunity to provide you our views about H.R. 
21. You have my written statement. For the record, I am David 
Benton with the Marine Conservation Alliance. I just want to 
respond to some of the things that I have heard here today in 
the hearing.
    I think my written statement speaks for itself, although I 
have one mea culpa, Madam Chair. In the last edit while I was 
on the airplane it was supposed to be addressed to Madam Chair 
not to Mr. Chairman, and we will make a change to that and 
submit it accordingly.
    Ms. Bordallo. You are excused.
    Mr. Benton. Thank you. But do I get an extra two minutes? 
Anyway, Madam Chair, the Marine Conservation Alliance 
represents about 80 percent of the seafood production in 
Alaska. Alaska represents about half the seafood production in 
the country. Our members come from all walks of life in the 
seafood industry, harvesters, processors, coastal communities 
and our interests are in finding practical solutions to real 
world conservation problems and do that in a timely and cost 
effective manner.
    And we share a lot of the kinds of concerns you have heard 
here today about bringing management systems together, making 
them more cohesive, making them more effective and making them 
more efficient, and we are very supportive of moving toward 
ecosystem based fisheries management or management of other 
marine resources and doing so in a way that is based on good 
science and a transparent public policy.
    The problem that I see with H.R. 21 is that because of the 
way the bill is presently constructed--that does not mean we 
cannot fix it--but because of the way the bill is presently 
constructed it does not achieve those goals and in fact our 
concern is that it could get in the way of making the kinds of 
progress that we need to get accomplished in this country, and 
I will give you an example. The national standard that is in 
this bill is fine enough for certain kinds of activities in the 
marine environment but it is basically a monofocused national 
standard around ecosystem management.
    There are other things that go on in the marine and coastal 
environment that also should be part of a national policy. 
Transportation policy. Energy policy. A national defense 
policy. This policy does not get to that. It gets to one aspect 
of marine events and uses.
    The standards for implementing the national policy are very 
rigid and very prescriptive. They do not provide the kinds of 
flexibility that you need to have in a real world management 
sense. All Federal actions that are covered under this bill 
would be required to demonstrate that they are not likely to 
harm a marine ecosystem, any marine ecosystem, and that is 
going to be a very difficult challenge to make, and managers 
are going to have a very difficult time meeting that standard 
and doing it in a timely fashion.
    Our concern is the interaction between the national 
standards and the definitions in this bill are going to cause a 
system of gridlock and not do what I think the proponents of 
the bill are trying to get done which is to streamline things 
and make them more effective and to bring a different level of 
conservation ethic into how we make decisions. We think it is 
going to get in the way.
    The other kind of concerns that we have here is the 
creation of a fairly large and elaborate and expensive 
bureaucracy. We have a lot of bureaucracy now. The U.S. 
Commission on Ocean Policy pointed this out very well, and they 
laid out some steps that could be taken but those steps were 
largely built upon improving existing programs and making the 
best use we can of what we have instead of a new bureaucracy 
that lays over the top.
    The third thing I want to touch on really quickly is 
funding. The bill sets up the trust fund. We think having an 
oceans trust fund might be a very good idea. The difficulty is 
that the only new source of money is the national stamp. Nobody 
seems to know how much money that would generate. We do not 
think that is going to generate a billion three hundred million 
dollars a year. So the money is going to have to come out of 
the general treasury.
    With the fiscal realities that this country is facing--and 
you face this all the time here in this town--unless you can 
identify a new source of money that means that those general 
treasury funds that are going to go into that trust fund are 
going to come and be scored against some program, and we are 
concerned it is going to scored against oceans, science and 
management programs that already exist. Without a new source of 
money, the trust fund is simply moving money around and 
shuffling the decks on the Titanic, and we cannot afford to do 
that, and with that, Madam Chair, I am going to beat the clock, 
and thank you very much.
    [The prepared statement of Mr. Benton follows:]

            Statement of David Benton, Executive Director, 
                      Marine Conservation Alliance

    Thank you Madam Chair. For the record, my name is David Benton, and 
I am the Executive Director of the Marine Conservation Alliance (MCA). 
MCA is based in Juneau Alaska, and represents harvesters, processors, 
coastal communities, Community Development Quota organizations, and 
support services businesses involved in the groundfish and shellfish 
fisheries of Alaska. MCA was formed to promote the sustainable use of 
North Pacific marine resources by present and future generations 
through the application of sound science, prudent management, and a 
transparent open public process. MCA supports research and public 
education regarding the fishery resources of the North Pacific, and 
seeks practical solutions to resource conservation issues to protect 
the marine environment and ensure sustainable fisheries. Our members 
collectively represent roughly 80% of the production of North Pacific 
fisheries.
    I want to thank you and the committee for this opportunity to 
testify before you today regarding H.R. 21, the Oceans Conservation, 
Education, and National Strategy for the 21st Century Act.
    Although the bill has much broader implications for oceans 
conservation and management, I want to speak to H.R. 21 mostly from a 
fisheries perspective. While MCA supports efforts to move towards an 
ecosystem based approach to fisheries management, we are concerned that 
several provisions in H.R. 21 will actually impede efforts to improve 
conservation of our nation's marine resources.
    To put our concerns into perspective, let's first examine Alaska's 
record for fisheries management.
    Alaska produces roughly half of the nation's commercial fisheries 
landings by volume. Fisheries account for about 35,000 jobs in Alaska, 
and are valued at over $1.3 billion dollars in ex-vessel value. In 
2005, the ex-vessel value of groundfish alone was $740M with $138.4M 
from the Gulf of Alaska and $601.8M from the Bering Sea and Aleutian 
Islands. The gross value of the 2004 groundfish catch, after primary 
processing, was approximately $2.0B (F.O.B. Alaska). In addition to 
groundfish, halibut and shellfish generated $170.1M and $159.2M ex-
vessel values respectively.
    Most importantly, the majority of Alaska's coastal communities are 
built around a fisheries based economy, and without a stable fishery 
resource base many of these communities would not exist. It is because 
of this dependence upon the sea and its renewable resources that 
Alaskans work hard to ensure that conservation comes first, and that 
fishery resources are managed for their long term sustainability.
    The record speaks for itself. There are no overfished stocks of 
groundfish in Alaska. Fisheries are managed under hard caps and close 
when harvest limits are reached. Federal observers, Coast Guard, NOAA 
Enforcement, and Vessel Monitoring Systems (VMS) monitor the fisheries 
to ensure compliance with closures. Over 380,000 square nautical miles 
are closed to bottom trawling to protect marine habitat. Ecosystem 
considerations are taken into account in fishery management plans. For 
example, fishing on forage fish species is prohibited, and measures are 
taken to protect endangered species, marine mammals, and seabirds. For 
depressed crab stocks, aggressive rebuilding plans have been in place 
for many years. Most scientists believe that these stocks are depressed 
because of oceanographic changes that happened in the late 1970's, and 
that these stocks will not rebound until oceanographic conditions 
become more favorable for these species.
    We have also worked hard to address oceans conservation on the 
international level. Because of the combined efforts of the seafood 
industry, the States of Alaska and Washington, and the federal 
government, several new treaties were put in place that established one 
of the world's most effective multi-lateral surveillance and 
enforcement regimes, a comprehensive multi-national science program, 
and institutional arrangements that have the management tools to 
protect the region's marine resources from illegal and unregulated high 
seas fishing. As a result, high seas salmon interception has all but 
been eliminated, incidental mortalities of marine mammals and seabirds 
dramatically reduced, and vulnerable fish stocks in large areas of the 
North Pacific outside the U.S. Exclusive Economic Zone are no longer 
subject to unregulated fishing pressure.
    Because of this record, Alaska has been cited by the U.S. 
Commission on Ocean Policy and other groups as a potential model for 
the rest of the nation. Recent articles in National Geographic identify 
Alaska as one of three areas in the world where management is being 
done right.
    But, we also know that nothing is perfect, and in the ever changing 
world of oceans conservation and fisheries management you cannot rest 
on your laurels. We are constantly working to improve our understanding 
of the marine environment, and the factors affecting it. For example, 
in Alaska the North Pacific Fishery Management Council (NPFMC) is 
developing a Fisheries Ecosystem Plan for the Aleutian Islands. This is 
the first such plan for Alaska waters. In addition, the North Pacific 
Research Board, in cooperation with the National Science Foundation is 
funding a multi-disciplinary multi-year ecosystem research program for 
the Bering Sea. A second, similar program is planned for the Gulf of 
Alaska. On a broader scale, the NPFMC spark plugged an effort to bring 
together all the relevant state and federal agencies to discuss and 
address activities such as shipping safety, marine pollution, offshore 
oil development, land use in the coastal zone, fisheries, and other 
factors that are or might have an effect on Alaska's marine 
environment.
    In a similar vein, Alaska's seafood industry has instituted several 
major cooperative research programs to partner with federal, state, and 
university scientists in numerous scientific projects to reduce 
bycatch, improve fishery monitoring and accountability, and mitigate 
the effects of fishing on seafloor habitat. We are also operating one 
of the nation's largest marine debris clean-up programs in partnership 
with NOAA and local communities and citizens groups.
    All of these efforts are improving our management and conservation 
of fisheries and related marine resources. Most importantly, while 
quite similar to some of the concepts in H.R. 21, these efforts are 
being carried out under existing authorities within the context of well 
understood legal mandates and public participation processes. The 
results are practical and timely measures to improve resource 
conservation.
    This record also provides the context from which we look at the 
provisions of H.R. 21. And it is because of our practical experiences 
in the North Pacific that we believe that some of the major provisions 
of H.R. 21 will actually impede efforts to improve conservation of our 
coastal and oceans resources.
    Our concerns center on three basic aspects of the bill:
    <bullet>  Establishing a broad national policy with poorly 
conceived national standards;
    <bullet>  Far reaching mandates for ecosystem based management with 
little or no recognition of the realities of the status of the science 
involved, the conflicts that will arise between the new policies and 
current and ongoing conservation and management programs, the impacts 
of the policies on existing ocean related uses, the increased potential 
for unnecessary litigation, and the gridlock that will ensue;
    <bullet>  The expense of the new bureaucracy called for by the 
bill, and the attendant weakening of ongoing conservation efforts due 
to scarcity of funding and personnel resources.
    Title I of H.R. 21 purports to establish a national oceans policy. 
However, instead of enhancing the effectiveness and efficiency of our 
nation's oceans management regimes through a comprehensive approach to 
oceans policy, H.R. 21 further complicates an already daunting array of 
laws, regulations and policies that currently govern ocean uses. It 
does so by focusing on only one aspect of the nation's ocean interests, 
and by adding yet another layer of broad, far reaching, but poorly 
defined policies and standards. The bill establishes U.S. policy to 
``protect, maintain, and restore the health of marine ecosystems'' and 
then a national standard that, ``to the fullest extent possible, the 
policies, regulations, and Public Laws of the United States'' shall be 
interpreted to meet this policy.
    Actions covered by the bill are defined as ``any activity affecting 
United States ocean or coastal waters or resources that are authorized 
(including a federal license or permit), carried out, or funded by a 
federal agency''. The bill then mandates that such actions ``may 
proceed only if the covered action is not likely to harm the health of 
any marine ecosystem and is not likely to impede the restoration of the 
health of any marine ecosystem''.
    Taken together, this broad policy subverts all national interests 
in ocean affairs to one single policy, and circumscribes all other 
federal laws with a broad and poorly defined mandate. Any federal 
agency conducting any activity that might affect ocean or coastal 
waters is to judge any and all covered actions against this inflexible 
standard, a standard that is virtually impossible to verify, and 
certify compliance prior to allowing the action to proceed. If there 
ever was a formula for gridlock, this is it.
    Title II of H.R. 21 is an organic act for NOAA. Section 204 
requires NOAA to ``take an ecosystem-based management approach'' to all 
of the agency's resource management obligations. While on the face of 
it, this sounds like a positive step in resource conservation; in 
reality it ignores some very fundamental and basic issues.
    First and foremost is the question of whether or not the science is 
there to do the job right. The bill addresses this question by stating 
that lack of science requires managers to invoke the ``precautionary 
principle'' and take action. In other words, lack of information is no 
excuse, regardless of the consequences. The annals of resource 
management are replete with examples of well intentioned actions 
resulting in disastrous unintended consequences. Blind adherence, or in 
this case a legal requirement, to act on poor information is not, in 
our opinion, good resource management.
    Instead, relying on the expertise of managers and their science 
advisors to take prudent steps seems more in order. But, by setting up 
rigid legal requirements, coupled with judicial review and litigation, 
this bill is heading in the other direction.
    Secondly, the mandate for an ecosystem-based approach to management 
is exacerbating the problems managers already face. Namely, how to 
balance different resources and uses. For example, when endangered 
salmon come into conflict with protected marine mammals that feed on 
them, how do the managers meet the requirement for ecosystem based 
management? Or, when confronted with decimation of protected sea otter 
populations by protected Orcas, how do managers respond? Should they 
``take sides'' in the ecosystem by reducing Orca mortality on sea 
otters? Should they engage in ``control measures'' to protect 
endangered salmon from predation? What if the only viable alternative 
is lethal control of the predator? Under the provisions of H.R. 21, 
would managers be vulnerable to litigation if they did not take such 
actions?
    Admittedly these are extreme cases, yet each is actually playing 
out in the world today. They serve to underscore a more fundamental 
question. What do we mean by ``ecologically sustainable''; and how do 
managers respond in a real world sense to a mandate for ``maintaining 
biological diversity and ecosystem functioning and structure from one 
human generation to the next''. Given the statutory mandate of H.R. 21, 
does this mean that fishery managers base their management programs on 
the potential consequences of coastal development that might happen 
sometime in the future? Does that mean that repairs to harbors or 
shoreline protections should be halted because it cannot be shown that 
they are ``not likely to significantly harm the health of any marine 
ecosystem''?
    From the perspective of a region that is interested in making real, 
``on the water'' progress in oceans governance and conservation, each 
of the definitions of ``marine ecosystem health'', ``healthy marine 
ecosystem'', ``precautionary approach'', and most importantly the 
definition of ``ecosystem-based management'' all suffer from the same 
basic flaw. They sound good, and are full of ambiguities that will make 
the practical and real world work of managers virtually impossible.
    These problems are even more daunting when considering the scope of 
the area and functions covered under the provisions of H.R. 21. The 
definitions of oceans waters include all federal waters, and the 
definition of coastal waters includes those waters covered by Sec. 304 
of the Coastal Zone Management Act, which includes bays and estuaries. 
By extension, this may also include activities taking place anywhere in 
the coastal zone, which in many states reaches far inland. This means 
that road repairs, sewers, harbor improvements, shoreline restoration, 
fisheries both commercial and recreational, housing, shipping and 
transportation, and all the myriad of activities that take place on or 
near the ocean will fall under the new mandate, and managers will have 
to juggle all of these considerations when making decisions.
    As a final point, in addition to the provisions of Title II that 
establish NOAA, Titles III and IV establish an elaborate, and 
potentially very expensive, oceans planning process. Some of these 
provisions mirror recommendations of the U.S. Commission on Oceans 
Policy, some of which have already been adopted by the President. Some 
of these new provisions simply create a new and somewhat redundant 
bureaucracy. This will be an expensive endeavor, with the potential for 
drawing funds away from ongoing conservation or science programs to 
fund the new bureaucracy.
    To address this concern, H.R. 21 would establish the Oceans and 
Great Lakes Conservation Trust Fund. Aside from the sale of a ``Healthy 
Oceans Stamp'' and some interest gathered on the Fund over time, 
deposits to the fund will apparently come from the general Treasury. 
Current fiscal realities will dictate that these funds will be counted 
against other oceans programs. The result is classic, once again the 
ocean community will be faced with broad and contradictory policies, 
and new mandates, with insufficient funding.
    So what is the way forward? How do we make progress in a practical 
and timely fashion?
    We propose the following:
    1.  Implement the Magnuson Stevens Act (MSA). Reauthorization of 
the MSA has already done much of what is needed. Now Congress needs to 
fund the research and conservation programs it just passed. The revised 
MSA was a significant achievement that included provisions to move the 
nation towards ecosystem based fisheries management, prevent 
overfishing, strengthen the role of science in fisheries management, 
and improve monitoring and enforcement. The renewed MSA passed with 
broad bi-partisan support, and was hailed by conservationists, 
recreational and commercial fishermen, scientists, and fishery 
managers; all of whom praised the bill as a much welcomed improvement 
for conserving our nation's marine resources. With regard to ecosystem 
based management, the MSA takes a step wise approach by providing the 
tools to move in that direction, and by strengthening existing 
scientific programs to get the data to support such efforts. This is a 
formula for success.
    2.  Provide a source of stable and long term funding for oceans 
research and observation. The MSA began this process, and H.R. 21 may 
have some elements to add through the creation of the Oceans and Great 
Lakes Conservation Trust Fund. However, none of these efforts will 
succeed unless new sources of dedicated funds are identified that do 
not detract from funding for existing programs.
    3.  Be selective in setting new policies and cautious when 
establishing new mandates. Fix only what is broken. Strengthen federal/
state partnerships and promote regionally based solutions. Several 
reports and studies emphasize building on existing programs in an 
evolutionary manner. Make it the first priority to provide the resource 
management agencies the personnel and basic funding they need to do 
their job, and do it well.
                                 ______
                                 
    Ms. Bordallo. Thank you. Thank you very much, Mr. Benton. I 
am going to go ahead and recognize the members. Of course I am 
the only one here right at the moment but I do have questions 
for each of the witnesses and hopefully my colleagues will be 
returning soon. And I know, Mr. Grader, you have a plane to 
catch later on. How much time can you be with us?
    Mr. Grader. I have probably got about another seven 
minutes.
    Ms. Bordallo. Well good. Just time for my question. This 
has to do with the trust fund. The Administration testified 
that they oppose the establishment of a trust fund because it 
somehow limits their ability to identify and fund priorities. 
Has it been your experience that the programs needed to better 
manage our fisheries and oceans have received the funding they 
need by relying on the prioritization process of the 
Administration?
    Mr. Grader. No, they have not, Madam Chairman, and that has 
been one of our concerns. We started beginning clamoring for a 
trust fund well over 10 years ago, and basically designed a 
model for both an ocean and a fishery trust fund but part of 
the problem we have gotten into trouble in fisheries in this 
country was not just greed or avarice but was ignorance because 
we simply did not have the adequate funds to do the research 
that was required, and we still do not.
    And so I think from that standpoint and in looking larger 
at our oceans we need to have a steady source of funds. One 
thing we looked at as a model--albeit a small one--was the 
Sport and Fishing Restoration Fund which has been a very 
popular program funded by a tax on all sporting goods, sport 
fishing goods sold as well as on the marine gasoline. That has 
raised a lot of money. The monies are then administered by the 
Fish and Wildlife Service and go back out to the states for the 
programs. That has been an extremely popular program, and I 
think you know development of a trust fund for our oceans is 
good.
    We share Mr. Benton's concerns that the money identified in 
here is not adequate but on the other hand we see this as 
positive much as we did with Magnuson. At least we started. We 
got a trust fund concept started. Then I think in both the case 
of fisheries and in our oceans we do need to identify other 
sources. For fisheries we have done that. We have not done that 
yet for oceans.
    Ms. Bordallo. All right. I would like to ask every member 
of the panel because I think Mr. Benton zeroed in on the trust 
fund you all agree we need more money. Where do you think we 
should get it from? I would like to ask Ms. Chasis.
    Ms. Chasis. Well I think we agree with Zeke that the idea 
of creating the fund and making sure that you know one thing 
that is important is not only making sure money is set aside in 
the fund but that it is mandated to be spent because we have 
seen with other programs like the Land and Water Conservation 
Fund that money goes into it but then we do not see it coming 
out. We think that there are potentially other sources of 
funding that could go into this. The kind of proposal that 
Zeke's group has put forward in terms of a seafood tax 
potentially.
    One area that we have been concerned about including that 
has sometimes been the subject of discussion is offshore oil 
and gas revenues, and we would want to you know look at that 
kind of proposal very, very carefully. We certainly do not want 
to have funding sources which actually encourage activities 
which could be more damaging to the ocean when the goal here is 
really to try to protect the ocean. Thank you.
    Ms. Bordallo. I would like to ask next Dr. Rosenberg the 
same question.
    Mr. Rosenberg. Thank you, Madam Chair. The commission 
recommended some specific sources of funding for an ocean trust 
fund, and I do think it is very important that it be an ocean 
trust fund for a range of uses. There are fisheries issues but 
there are many others. Certainly the use of offshore oil and 
gas revenues is difficult, and we recognize that of course it 
is always a little bit of a zero sum game of trying to move 
money from one place to another.
    I think it is important to recognize that ocean related 
activities, ocean science and education have been underfunded 
for quite awhile, and so the decision with regard to oil and 
gas funding I think is certainly a matter of priorities between 
competing uses. But one part of the commission recommendation 
that has not perhaps been fully appreciated is that we 
recommended that the new uses of the ocean that I mentioned in 
my testimony including aquaculture, including you know offshore 
energy facilities, LNG ports and so on, are potentially since 
they require a dedicated ocean space, public trust space, that 
they are potentially an important source of funding, and there 
has been no decision or as far as I am aware no extensive 
discussion of that particular potential source of revenue.
    It also argues for having a consistent and comprehensive 
system for managing those new uses as they come up, and so I 
think that that is an important source of revenue that should 
be considered in development of this trust fund along with some 
of the other competing uses. Thank you.
    Ms. Bordallo. Thank you. Thank you, Dr. Rosenberg. I have 
listened to the three of you, of course we are going to hear 
from Mr. Benton, but this is why we are having this hearing to 
get ideas and some of them are very interesting, and certainly 
the committee will take note. Mr. Benton.
    Mr. Benton. Thank you, Madam Chair. I concur with Dr. 
Rosenberg and with Ms. Chasis in their comments about where to 
find monies. I know that offshore oil and gas revenues are a 
difficult at least philosophical issue, and they have some 
practical issues as well.
    One thing that occurred to me sitting here was that a few 
years back there was a bipartisan bill. I think it was authored 
in fact by Congressman Young from my state to create a 
conservation trust fund. I cannot remember exactly the name of 
it but I think we could certainly pull that back up and see 
where the revenue sources for that were going to come from and 
see if that might provide an avenue to pursue. That bill had a 
fair amount of support from at least some of the conservation 
community as I recall, and was I think a bipartisan bill but we 
could certainly do that, and I would be happy to work with you 
and any staff to find that if you want.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Benton. I 
have a question here for Dr. Rosenberg. I think you were in the 
room and you heard Mr. Dunnigan testify in opposition to the 
bill. His point was that the President's Executive Order and 
the U.S. Ocean Action Plan are more than sufficient, and we do 
not need any legislation to achieve the recommendations of the 
U.S. Commission on Ocean Policy. Based on your experience as a 
former administrator within NOAA and a member of the U.S. 
Commission, would you agree that the President's efforts 
satisfy the Commission's recommendations and that no 
legislative measures are needed?
    Mr. Rosenberg. Thank you for the question, and no, I would 
not. I think the report card that the Joint Ocean Commission 
Initiative makes that fairly clear that the commissioners on 
both commissions really do not believe that the current efforts 
are nearly sufficient. Specifically with regard to the Ocean 
Action Plan, not only with funding and some of the 
international issues, but in thinking about the ecosystem based 
management approach, NOAA is certainly working very hard in 
trying to do good things. I have no question of that, and I 
worked for the agency for 10 years and a strong supporter.
    But they need to take a new direction, and that is very 
difficult to do when you are in the same structure you have 
been in for awhile with the same mandates that you have had for 
awhile just by telling people to work more nicely together.
    Ms. Bordallo. Well when your funding is declining.
    Mr. Rosenberg. And your funding is declining. One of the 
difficulties with a lot of the discussion of ecosystem based 
management and in fact this bill is that people are assuming it 
is just an add-on. We are going to do all the things we are 
doing now but then we are going to do some additional things 
and where will the money come from? And that was the sense of 
Mr. Dunnigan's comments.
    I think the argument within the commission or from the 
commission is that we are saying we need to do things 
differently. We need to connect up those programs differently 
not just add the layers as I think Mr. Benton referred to, and 
that is a difficult task for an agency that has been in 
existence for 37 years to make changes in directions. Are they 
doing some things? Is it sufficient? No, it is not.
    Ms. Bordallo. Thank you. Ms. Chasis, would you like to 
comment on that?
    Ms. Chasis. Yes. I think that you know there is the 
committee on ocean policy that is created by the President's 
Executive Order but there is no clear direction of policy to 
that entity, and I think Congress really is the one that needs 
to provide that direction in order for us to see the real 
coordination and direction in terms of ecosystem based 
management that we need and that the two commissions requested, 
and also you know we need something that is permanent.
    That has got longevity, and something that is just created 
by one President through Executive Order just does not have the 
same stature or importance as a piece of legislation that 
Congress has enacted. So I do not think the responses of the 
Administration are at all satisfactory to the concerns that our 
community has and that the two commissions have.
    Ms. Bordallo. Thank you. You mentioned something on one 
point that I keep bringing up. I served in the Executive Branch 
in my community government as a lieutenant Governor and 
executive orders are executive orders. They come and they go, 
and they may not be what the next Administration wishes to 
carry out very simply. But you know when you work through 
Congress you know that it is something permanent, and I think 
that is important. Mr. Benton, do you have any comments on 
that?
    Mr. Benton. Well, Madam Chair, I think that the 
Administration made a good first stab at trying to pick up on 
the recommendations from the U.S. Ocean Commission. I have no 
problem if the Congress wants to establish in statute you know 
a policy in the Executive Branch and the President's office and 
that committee. I do not think that is going to make a huge 
difference whether it is established by statute or not 
because--and I agree with your statement about you know 
executive orders come and go.
    But there is so much attention and interest in the oceans 
that I believe for the foreseeable future, the next several 
Presidents down the way, this is going to be a major topic for 
the country. They are going to follow in those footsteps. If I 
may, the real issue comes down to some other pieces of what the 
President started, what the commission recommended, and where 
we really I believe need to be focused.
    The integrated ocean observing system is a very important 
piece. We will not be able to do ecosystem management well if 
we do not have a much more improved data set to operate from, 
and those kinds of recommendations are the ones that we need to 
be picking up on. They are not dealt with well in this bill, 
and this bill could get in the way of that unless we solve that 
funding issue, and the President started down that road but he 
has not finished that job at all.
    Ms. Bordallo. Dr. Rosenberg, you had your hand up.
    Mr. Rosenberg. Yes, if I could just add one more thing, 
Madam Chair, and that is that with regard to the National Ocean 
Council, the commission recommended certainly that there should 
be a council and there should be an advisor to the President on 
ocean policy but a critical issue is how will NOAA actually get 
the other agencies to engage.
    I mean this is not just a NOAA problem even though much of 
the discussion has been focused on NOAA, and in a National 
Ocean Council unless you have a clear policy direction that is 
national and they have a task to do with regard to a set of 
standards or a specific policy statement, it will be very 
difficult for a relatively small agency like NOAA to go to the 
Navy or NSF or EPA or Department of Transportation and get them 
to pay attention to those same issues unless there is something 
pushing them to do so, and that is why I think it is very 
important to have a clear overarching mandate from Congress 
that says to do that.
    Yes, the President could direct his Secretaries to do so 
but without a clear imperative of what they are supposed to do, 
I just do not think they are all going to come to the table and 
work together.
    Ms. Bordallo. Thank you. Thank you very much, Dr. 
Rosenberg. Well you know we can speak forever on this but we 
are here to get input from all of you to make this a better 
piece of legislation. But I would not want to be working under 
an Executive Order. That is for sure because no matter how 
important this particular subject is and it will continue to be 
of great importance in the future, it is just good to have that 
permanent feeling of knowing that no one can make any changes 
and we have a piece of legislation behind us, and we are 
permanent. That to me is very important.
    And I am very happy that the father of this bill is here 
back with us, Congressman Farr, and I have tried to stretch it 
out as long as I could until everybody got back. So I would 
like to recognize Representative Farr.
    Mr. Farr. Thank you very much, and I really appreciate you 
continuing. I know our witnesses some had to catch planes and 
most of the Members of Congress when I ran out after this last 
vote are already in the airport. I mean they just ran for their 
cars. So this town is emptying right now, and I think it is 
important that you were able to get all the panels to 
participate because we oftentimes cut off the panels, and I 
appreciate your leadership on this.
    I really have no questions. I am just very excited that we 
had you know very good observations today if not in some in 
committing that this is a great bill in the right direction but 
the whole recognition that status quo does not solve the 
problems. So that is the first line of trying to solve a 
problem is you have an agreement that something is broken that 
needs fixing, and I think from there we can make great 
progress.
    Ms. Bordallo. Thank you very much, the gentleman from 
California, Mr. Farr. I have another question for Ms. Chasis. 
Both the Administration and the Coastal States Organization 
oppose the requirement under Title 1 that Federal agency 
actions be administered in accordance with the National Ocean 
Policy arguing that it will create a bottleneck that will block 
activities from occurring. Do you agree, and if not, why not? 
Who will this process work?
    Ms. Chasis. No, we do not agree. First of all, you have a 
policy. You need a standard that is an action forcing standard 
to get agencies to actually implement the policy in particular 
context, and I think the language of the standard is carefully 
constructed so that it is really focused on activities which 
could impact the ecosystem. It is a pretty high standard. It 
talks about significant impacts. It talks about likely impacts. 
It talks about ecosystem level impacts. So it is really trying 
to get at those things which go to the health of the system.
    The other point is it is not trying to replace the mandates 
of other law. That issue I think came up earlier. What it is 
saying is integrate this policy with the other mandates to the 
maximum extent you can. You know if there is an inherent 
conflict between the mandates of another law and this, the 
other law holds but to the extent there is discretion, this is 
in a sense like the way it works under the Coastal Zone 
Management Act.
    You are requiring agencies to be consistent with this 
policy to the maximum extent possible. So we think it is an 
important action forcing mechanism. It is not designed to block 
things in the oceans. It is trying to say look at the things 
that are really going to have major impact and make sure that 
the overall functioning of the system is maintained which is 
needed to support fisheries, to support all these other uses 
that are so vital. Thank you.
    Ms. Bordallo. Thank you. Thank you, Ms. Chasis. Do the 
other panelists wish to comment on that? Dr. Rosenberg and then 
Mr. Benton.
    Mr. Rosenberg. I think it is very important to have a 
national ocean policy and standards, whether the language of 
the standards you know is exactly right or not is a matter that 
certainly a Joint Ocean Commission Initiative will be happy to 
work with the committee on. The reason that I think it is so 
important is because I do think you need to have Federal 
agencies engage on this issue, and oddly enough I think that 
the least problematic area is fisheries because fisheries 
already has to do this within their existing statute, and so 
all the concern is that this is going to change fisheries 
management, and I do not think it will. If in fact you adhere 
to the Magnuson Act you would have to do this anyway.
    And so there really is not anything new. No new requirement 
for fisheries in my view. What is a new requirement is that if 
you are taking some other action that may impact on that ocean 
ecosystem that fisheries depend upon, whether it be a 
transportation action or new use in the ocean that you have to 
explicitly consider those ecosystem function issues and the 
ability of the ecosystem to maintain itself.
    So I think it gives exactly what Zeke Grader referred to as 
the ability of, for example, fishermen who depend upon the 
ocean to have an entree into many of the other issues that are 
problematic for them but they really do not have an entree into 
now, and if I go back to the LNG port in New England or the 
wind farms in New England, how was the fisheries management 
council or the state fisheries agency able to impact upon those 
sighting discussions with regard to LNG ports even though it 
became an exclusive that you know many fishermen in the town I 
live in said was going to have a major economic impact on them 
because of the exact location they chose? They had no way to 
get into that process other than public comment, and they 
should have more of a voice than that.
    Ms. Bordallo. Thank you. Thank you very much, Dr. 
Rosenberg. Mr. Benton.
    Mr. Benton. Well, Madam Chair, I see the present language I 
have to agree with the Administration with regard to the way 
the present language is constructed. Now I can see a way and I 
think Dr. Rosenberg and Ms. Chasis both identified that there 
are probably ways to improve the language a bit to avoid what 
may be an unintended consequence but the way the language is 
presently constructed, all actions by any Federal agency that 
may affect an ocean ecosystem have to go through this filter, 
and the filter, the standard is that the agency has to certify 
that it is not likely to harm any marine ecosystem, and that is 
a very difficult thing to do in a real world sense.
    And so in my written testimony I think I have pointed this 
out fairly pointedly, and I can see some real problems. I spent 
14 years with the State of Alaska as a fishery manager in the 
Alaska Department of Fish and Game. I did the international 
negotiations. I did all the council stuff, and then I served as 
a private individual on a fishery management council, and I can 
tell you just from that practical experience this kind of 
language, depending on how it is implemented and depending on 
how it is put in regulation, this could be a real problem.
    There is a way to fix that I believe but the way it is 
presently constituted I could see some real difficulties, and I 
know people are trying to get other kinds of activities. You 
know some of the development in coastal zones or effects you 
know up river that is affecting salmon, and I am very 
sympathetic to that. I have seen it the other way.
    I was the U.S. negotiator along with some counterparts from 
Washington state on the salmon treaty with Canada. One of the 
big problems in that treaty was threatened and endangered 
salmon in the Columbia River in the pacific northwest, and the 
affects that habitat degradation were having on those salmon, 
and it was a legitimate concern. They were listed, and that is 
a big problem.
    What happened was that the Canadians and some folks from 
the southern United States tried to use that as a negotiating 
tactic in an international treaty, and they were using very 
inappropriately those kinds of considerations which were in 
many ways domestic considerations to leverage other parties in 
those negotiations to do things that were not biologically 
necessary.
    And I could see this standard sort of having that same kind 
of unintended, I believe unintended consequence, and so I would 
be very cautious.
    Ms. Bordallo. Thank you, Mr. Benton. The Chair now 
recognizes the gentleman from California, Mr. Farr.
    Mr. Farr. Thank you very much, Madam Chair. I would just 
like to ask Mr. Benton because first of all that idea of 
measuring the impacts has been the essence of both of the 
reports. If you asked what was the bottom line, it is well what 
are the activities? The activities in the ocean, what do they 
do to the ocean's ecosystem? And everybody says, yes, we need 
to do that but how do we do it? And I guess my frustration is 
we have had this language around. This has been the essence of 
this bill for now about four years.
    And you know we have not gotten a lot of comments on it. I 
mean just other than sort of the generic concerns. If you have 
some specifics, because I guess the question is, who would you 
exempt? Because that begins the exemption. Should you exempt 
the Navy? Should you exempt fishermen? I mean the question is 
how do you measure impacts that would degradate the health of 
the ocean without having these plans at least trigger what 
kinds of decisions are going to be having an impact?
    You know we do not have any process for that, and that is 
what is lacking and why we need to have some of this strategy 
and this approach, and I would be glad to work with you on 
language because we certainly want the Alaskan support. It is 
ironic that Don Young was the one that actually got this bill 
through the House. There was a conflict here. I mean people say 
we do not need to study it. It was that attitude. You know we 
do not need another commission.
    He saw the necessity to kind of get these problems resolved 
by creating a commission that could hold hearings all over the 
country, and frankly you know they appointed a lot of oil and 
gas folks to be on that commission, and we were delightfully 
surprised to see how strong they came out about needing this 
governance structure and essentially measuring actions in the 
ocean including their own against negative impacts. And so we 
cannot abandon this idea. This is the foundation of the bill 
but we certainly can work with ways to mitigate unintended 
consequences.
    Mr. Benton. Madam Chair?
    Ms. Bordallo. Please, Mr. Benton.
    Mr. Benton. Congressman Farr, I certainly agree with you 
that the message that came out of the U.S. Commission on Ocean 
Policy was that we need to take a good hard look at how we are 
doing things and make it better, and the notion that they came 
up with about for example the regional ocean councils had some 
appeal up our way. They were more or less a voluntary kind of 
thing, and you could move yourself along in sort of a 
deliberative, thoughtful way to get to that broader ecosystem 
management goal, and we do not have a problem with that.
    And in fact in our part of the world right now my group and 
our fishery management council is doing a fishery ecosystem 
plan for the Aleutians. It is the first one for our part of the 
world. They have spark plugged with the State of Alaska what 
basically it was the recommendation of the U.S. Commission for 
a regional oceans council. It has got the Coast Guard. It has 
got all the state agencies, all the Federal agencies. It has 
got some users on there. Not too many user groups right now 
because the agencies are still trying to figure out how they 
are going to do that dance.
    The governance structure, that kind of governance structure 
is not the biggest problem that I see. What I see is in some of 
the specific language in the way the standards might interact, 
and in that regard I would be happy to work with you and the 
committee and see if there is a way that we might be able to 
try and shape that in a way that alleviates some of those 
concerns. I just see them as being a very high bar and the 
standard being vague enough and difficult enough with the 
judicial review provision here. My good colleague down here, 
Sarah Chasis, is going to have a full employment career for the 
rest of the days, and she is going to be able to get the 
scholarship for her kids well paid off.
    Ms. Chasis. I just want to respond to that and point out 
that----
    Ms. Bordallo. The Chair recognized.
    Ms. Chasis.--one of the first cases I ever brought was on 
behalf of Mr. Benton. He should not be one to complain.
    Mr. Farr. I think we are using the word standard here very 
loosely. The ideal here is kind of a goal not a standard. The 
standards have to be worked out, and the only thing I would 
have to say to you is that I have been involved in these where 
you can do the model well in your own backyard and you really 
solve the problem and I applaud Alaska. It is getting a lot of 
accolades.
    You are really doing a wonderful job of meeting with the 
environmental concerns and the fishery concerns and others but 
also what you have to be concerned about is that you build that 
and then where is the equal playing field against your 
competitors who are in other parts of the country because you 
are selling to the same market, and you need some standards 
there where your competitors have to live by those same 
standards, and that is the equal playing field, and that is the 
certainty that economics and investment like to have.
    So I do not think you can just leave this up that it is all 
going to work out if everybody voluntarily agrees to do 
something because what happens with volunteer organizations 
they are usually led by an incredible personality or team of 
people, and when they go it weakens. It falls apart. There is 
no resources to continue it. The energy and spirit of the 
people that got it started are not there, and so you know just 
like we are trying to do in so many other things is we know 
that standards work when they are good standards and they are 
sensible, and frankly you have to build in ability to make some 
kinds flexible to meet with times but I think we do that, and 
we know how to do that.
    And I would be glad to try to work things out with you but 
let us not tell everybody that the standards are written in the 
bill because they are not. The goals are written in this bill.
    Ms. Bordallo. Dr. Rosenberg, you wanted to respond.
    Mr. Rosenberg. Thank you. Just a few quick points. First, 
fishery ecosystem plans are not the same thing as ecosystem 
based management because the whole essence is cross sectoral. 
So I think there are some good things going on in fisheries and 
that is great but you have to give people the ability to 
actually have an impact on other sectors.
    Second, the commission did recommend the development of 
pilot programs on a voluntary basis for regional ocean 
councils, and that has occurred in many areas, and it has gone 
quite well. One of the issues there is so what will happen in 
the Federal waters adjacent to those state waters because in 
many cases we have had state action as indicated in the report 
card with quite a good grade for the regional and state actions 
but we need to make sure that for the Federal water activities 
we can actually utilize some of the important things that are 
coming through from the state level.
    And third, I would be very cautious about any exemptions 
for any sectors. A couple of years ago I testified on a bill in 
the State of Massachusetts, and the Governor, at the time 
Governor Romney's bill, was an ocean policy act. A 
comprehensive ocean policy planning act but it exempted 
fisheries, coastal construction, sand and gravel mining, and I 
think port development, and at the end it was a little hard to 
know what was going to be included in the comprehensive oceans 
act because everybody said well, yes, you should do it to 
everyone else but not to me. So everyone else should coordinate 
and respond to us but not to me, and once you start down that 
road I think you lose the essence of the bill.
    Ms. Bordallo. Thank you. Thank you very much, Dr. 
Rosenberg. I just want to go back quickly before we conclude 
here, Mr. Benton. I think you made a comment something in the 
area of the commission on ocean policy thinks we have to look 
at the way we are doing things now. Something on that order, 
and I just want to say change is hard but sometimes needed, and 
I think this is the way we have to conclude this hearing.
    Many of you have come up with some excellent ideas, and the 
author of H.R. 21, Mr. Farr, is here. He has listened, and I am 
sure he will read all the testimonies that have come in but it 
is something--and you all agreed--this is the future. We have 
to look at it. We have to consolidate it. We have to make it 
work more smoothly, and so I just want to thank all of you for 
your testimonies today, and to remember that your full 
statements will be entered into the record, and I want to thank 
the members, although many of them, as Mr. Farr said, are on 
their way back home now.
    The hearing record will be open for 10 days if you wish to 
enter anything into the record. So I just want to remind you of 
that. And also I ask unanimous consent that a statement from 
Philippe Cousteau and an article on ocean governance be 
included in the record. Hearing no objection, so ordered. If 
there is no further business before this Subcommittee, the 
Chairwoman again thanks the members of the Subcommittee and our 
witnesses. The Subcommittee stands adjourned.
    [Whereupon, at 1:00 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

 Statement submitted for the record by Philippe Cousteau, Co-Founder, 
  President and Chief Executive Officer, and Board Member, EarthEcho 
                             International

    Chairwoman Bordallo, Ranking Member Brown, and distinguished 
members of the subcommittee, my name is Philippe Cousteau and I want to 
thank you for agreeing to include this statement for the record.
    Please allow me to start by quoting my grandfather.
        ``We can find happiness in protecting the world around us not 
        only because we cherish it for its awesome beauty, power, and 
        mystery, but because we cherish our fellow humans, those who 
        live today and those who will live tomorrow, living beings who 
        like ourselves, will increasingly depend on the environment for 
        happiness and even for life itself.''
            Jacques-Yves Cousteau
    The environment--especially the ocean--is not a luxury item but 
vital to all life. The environment is not just about birds, trees, and 
fish. It involves all living systems, including humans. Fresh air and 
clean water are the roots of a just and equitable society, of safe 
communities, and healthy families. These basic needs are not rhetoric 
but the fundamental foundations of both the natural world and society. 
A comprehensive, robust and enforceable ocean policy is critical to the 
long-term social, economic and environmental security of this country.
Ocean Health is in Jeopardy:
    From polluted runoff to habitat loss to climate change, our coastal 
and ocean ecosystems are facing a barrage of threats that are already 
leading to fishery declines, dead zones, beach closures and the 
degradation and loss of eco-systems critical to the long-term viability 
of this nation. The Pew Oceans Commission and the congressionally 
mandated and presidentially appointed U.S. Commission on Ocean Policy 
independently assessed the condition of our oceans and concluded that 
these threats, if not addressed now, will forever degrade our 
seascapes, their wildlife, and the economic activities they support 
thereby unraveling the very fabric of this nation. Both commissions 
agree that the existing approach to management of our oceans is not 
working and a significant change is needed to reverse the declining 
trend. Together, as the Joint Ocean Commission, they advocate for a 
consolidated group of recommendations prioritized in the report From 
Sea to Shining Sea.
We need a national ocean policy:
    We lack a clear vision or policy that makes ocean health a national 
priority. Our nation has shown leadership in enacting landmark 
environmental policies to protect the health of our water, air, and 
public lands. For example, the National Wildlife Refuge System 
Improvement Act conserves the resources of over 93 million acres of 
public lands today. But we do not have a similar policy to guide 
protection of our oceans. Instead, more than 20 federal agencies and 
permanent commissions oversee implementation of over 140 federal 
oceans-related laws that govern transportation, nonliving and living 
resources, coastal development, agricultural nutrient runoff, national 
defense, tourism and recreation, and pollution. As a result, decisions 
affecting our oceans are made on a threat-by-threat or activity-by-
activity basis under mandates that are often incongruous and lacking 
any conservation focus.
    To address these competing ocean mandates and jurisdictions, we 
must enact a unifying national policy based on protecting and restoring 
marine ecosystem health. A strong, unambiguous, and enforceable policy 
will empower our local, regional, and national efforts with a new tool 
for marine conservation. A new unified policy requiring that all 
federal actions be consistent with protecting and restoring marine 
ecosystem health could lead to better coordination among federal 
agencies with responsibility for ocean policies and provide clarity in 
decision-making. This step would also provide the leverage necessary to 
implement the remaining Joint Ocean Commission recommendations. This is 
why it is the first priority listed.
H.R. 21 does this:
    H.R. 21 establishes a meaningful national oceans policy to guide 
the management of U.S. oceans, coasts and Great Lakes and the necessary 
governance structure to implement that policy. This structure includes: 
codifying the National Oceanic and Atmospheric Administration and 
strengthening the agency's mission and functions as the nation's lead 
civilian oceans agency, improving federal ocean governance by 
establishing a national committee on ocean policy to facilitate 
interagency coordination, advancing ecosystem-based regional oceans 
governance through collaboration among federal and state management 
agencies, establishing an Oceans and Great Lakes Conservation Trust 
Fund to provide necessary federal funding to implement the key 
provisions of the Act.
    My father and grandfather taught people around the world to 
understand, to love and to protect the water systems of the planet for 
the well-being of future generations. My organization, Earthecho 
continues that tradition by empowering individuals to take action to 
sustain and enhance our water planet. We believe that EVERYTHING we do 
makes a difference and ALL of our choices have consequences. The Clean 
Air Act and the Clean Water Act are examples of how this nation, when 
inspired can act with steadfast resolve and create the kind of 
pioneering legislation that has made the United States such a great 
country. A national policy to protect the ocean is another and I 
wholeheartedly support it. We stand at a critical junction and the 
opportunity to take a bold new step towards a future we can all be 
proud of is here today. This opportunity does not come often, seize it 
now or we will all suffer. We can no longer afford to delay for I fear 
that both voting constituents as well as, perhaps more importantly, 
history itself will judge those who do very harshly. The people of the 
United States have recently sent a strong message to Congress that they 
want change. They are tired of polluted communities, apathy towards our 
future, and a diminishing natural world. Show them that the future of 
this country is truly the core interest of this Congress and make a 
positive difference for the future by supporting H.R. 21.
    [NOTE: The article ``Solving the Crisis in Ocean Governance'' has 
been retained in the Committee's official files.]
                                 ______
                                 

          Statement of Charles C. Vinick, President and CEO, 
                  Alliance to Protect Nantucket Sound

    Dear Chairwoman Bordallo and members of the Subcommittee, on behalf 
of the Alliance to Protect Nantucket Sound (Alliance) I would like to 
submit the following testimony for the record. The Alliance is a 
nonprofit environmental organization dedicated to the long-term 
preservation of Nantucket Sound. An area of water hugged to the North 
by Cape Cod and to the South and East by Martha's Vineyard and 
Nantucket Island, Nantucket Sound is a rich and diverse biological 
community. It serves as habitat for numerous species of fish, marine 
mammals, seabirds, sea turtles, and other species of marine wildlife. 
<SUP>1</SUP> These natural resources have bestowed the Sound with 
tremendous economic value, as well. Nantucket Sound has become, through 
fisheries, tourism, recreation, navigation lanes, ports and harbors, 
and the towns and villages that have built their communities around the 
sea, a prime example of how a healthy and diverse marine ecosystem can 
act as the engine that fuels the entire regional economy. <SUP>2</SUP> 
Our goal is to protect Nantucket Sound in perpetuity through 
conservation, environmental action, and opposition to inappropriate 
industrial or commercial development that would threaten or negatively 
alter the coastal ecosystem.
---------------------------------------------------------------------------
    \1\ Review of the State and Federal Marine Protection of the 
Biological Resources of Nantucket Sound (Center for Coastal Studies 
ed., 2003) available at <http://www.coastalstudies.org/coastalsolution/
horseshoe.htm>.
    \2\ Blowing in the Wind: Offshore Wind and the Cape Cod Economy 
(Beacon Hill Institute ed., 2003) available at <http://
www.beaconhill.org/BHIStudies/BHIWindFarmStudy102803.pdf>.
---------------------------------------------------------------------------
Background
    The Alliance is carrying out one of the most aggressive and broad-
based marine ecosystem preservation efforts in the nation. The 
organization engages in education and outreach programs; on-the-water-
pollution patrolling efforts, litigation, and policy advocacy. More 
specifically over the past few years the Alliance has fought 
continually for a ecosystem based programmatic approach to the review 
Cape Wind, an industrial sized alternative wind project, proposed for 
Nantucket Sound. The review process to date reflects all that is wrong 
with the current mechanism for addressing marine project development; 
The Minerals Management Service is attempting to review the project 
without national guidelines or adequate baseline information. As 
discussed in greater detail below, the project and the conflict is 
indicative of the need for national ocean policy based on ecosystem 
management and science. The Alliance has actively engaged in the 
broader fight for the protection of ocean resources, as well. We 
participated in Governor Mitt Romney's ocean management task force; we 
have testified before both Congress and executive agencies regarding 
the implementation of the Energy Policy Act of 2005 in the offshore 
environment. The Alliance was involved with, and commented to, the 
National Marine Fisheries Service regarding the recovery of Right 
Whales. And, the Alliance recently coordinated and filed an Amicus 
Brief with the U.S. Supreme Court on behalf of thirteen ocean advocates 
outlining the harmful impact greenhouse gases have had, and will 
continue to have, on our ocean resources. These are just a few of our 
activities directly regarding ocean management and the protection of 
Nantucket Sound.
    While advocating over the last six years the Alliance has developed 
experience and expertise regarding ocean resources and governance. 
Since our organization was created in 2001, we have consistently called 
for the implementation of a comprehensive nationwide ocean management 
program and regulations. It is the Alliance's position that a 
comprehensive national program is critical to the strategic management 
of our oceans and the protection of our most environmentally sensitive 
ocean waters, including areas like Nantucket Sound. And, as such, the 
Alliance fully supports H.R. 21.
The Significance and Current State of Our Oceans
    In 2003, it was estimated that 153 million Americans, or 53% of the 
United States population, lived in U.S. coastal counties. Kristen M. 
Crossett et al., Population Trends Along the Coastal United States: 
1980-2008, 1 (Nat'l Oceanic and Atmospheric Administration, September 
2004). The estimated socioeconomic value of global ocean and coastal 
ecosystems is $21 trillion per year through food production, 
recreation, nutrient recycling, climate regulation, and the oceans' 
influence over the chemical composition of the atmosphere. R. Costanza 
et al., The Value of the World's Ecosystem Services and Natural 
Capital, 387 Nature 253 (1997). In the United States, coastal watershed 
counties contribute over $4.5 trillion per year, half of the nation's 
gross domestic product, involving about 60 million jobs--many of which 
are tied to industries directly dependent on healthy coastal and ocean 
ecosystems and living resources, such as recreation, tourism, and 
fisheries. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ U.S. Commission on Ocean Policy, An Ocean Blueprint for the 
21st Century Final Report, 32-33 (2004).
---------------------------------------------------------------------------
    And yet, unfettered development and a failure to coordinate ocean 
management have severely threatened this natural and economic lifeline. 
As the U.S. Commission on Ocean Policy stated, ``through inattention, 
lack of information, and irresponsibility, we have depleted fisheries, 
despoiled recreational areas, degraded water quality, drained wetlands, 
endangered our own health, and deprived many of our citizens of jobs.'' 
<SUP>4</SUP> Dr. Elliott Norse, a marine and forest conservation 
biologist and president and founder of the Marine Conservation Biology 
Institute in Redmond, Washington describes the problem in more detail 
pointing to accelerated loss of marine biodiversity; significant 
reduction in the abundance of species at higher trophic levels (large 
predators); serial depletion of fisheries; extensive elimination of 
benthic structure-forming species such as corals; proliferation and 
spread of non-native species; and dramatic change in biogeochemical 
functioning. <SUP>5</SUP>
---------------------------------------------------------------------------
    \4\ Id. at 38.
    \5\ Elliott A. Norse, A Zoning Approach to Managing Marine 
Ecosystems, in Workshop on Improving Regional Ocean Governance in the 
United States 53-57, at 53 (B. Cicin-Sain, C. Ehler and K. Goldstein 
eds., 2003) (internal citations omitted).
---------------------------------------------------------------------------
    Global warming, unwise and improperly regulated development and 
pollution are among just a few of the things weakening the health of 
our ocean ecosystems. These, like most threats to ocean health, are 
large problems not just in the degree of harm they cause but also in 
the area of water they impact. Unfortunately to date, we have not 
responded with a large solution. Instead of fighting the attack on the 
health of our waters on a large scale, we have adopted piecemeal 
approach. Our current legislative arsenal is a compilation of 
uncoordinated and unstructured laws. Fish, birds, coral, marine 
mammals, oil and gas, minerals, renewable energy resources, wetlands, 
and other components of the marine environment are subject to discrete, 
and largely unrelated, legal authorities. There is no cohesive strategy 
for ocean management. Instead, our ocean protection laws have 
developers and conservationists working with different agencies each 
with conflicting jurisdiction over different aspects of ocean 
resources; it has government agencies conducting uncoordinated studies 
and making decisions with incomplete information. In reality, our 
current ocean management structure is no structure at all; it is in 
disarray, much like the resource it is supposed to manage. According to 
the U.S. Commission on Ocean Policy, however, all is not lost, ``There 
is every reason to believe that wise action taken today, based on the 
best available science, can restore what has been lost and create even 
greater benefits but to achieve this, our nationals leaders must take 
immediate steps to formulate a coherent, comprehensive, and effective 
national ocean policy.'' <SUP>6</SUP> H.R. 21 represents the wise 
action that the Commission spoke of.
---------------------------------------------------------------------------
    \6\ U.S. Commission on Ocean Policy, An Ocean Blueprint for the 
21st Century Final Report, 44 (2004).
---------------------------------------------------------------------------
The Contributions of H.R. 21
    H.R. 21 offers an integrated strategic and eco-system based 
approach to ocean management; it also contains practical tools for 
implementation Specifically <SUP>7</SUP>:
---------------------------------------------------------------------------
    \7\ See Testimony of Congressman Sam Farr (D-CA) before the House 
Natural Resources Subcommittee on Fisheries, Wildlife and Oceans on 
H.R. 21 (Apr. 2007).
---------------------------------------------------------------------------
    <bullet>  Title I Establishes a national oceans policy ``...to 
protect, maintain, and restore the health of marine ecosystems...''.
    <bullet>  Title II Establishes NOAA as an agency within the 
Department of Commerce and tasks with NOAA leadership and oversight 
responsibilities for the implementation of the national ocean policy.
    <bullet>  Title III Codifies the Committee on Ocean Policy and 
creates a system of federal coordination and Presidential advisement.
    <bullet>  Title IV Establishes a system of regional partnerships 
for coordinating federal activities that impact the ocean. It also 
establishes a network to share information about the ocean ecosystem in 
each region;
    <bullet>  Title V Recognizes and provides for the need to fund 
coordination, research and management of ocean policy. It establishes a 
trust fund to the support legislated activities.
    This combination allows H.R. 21 to address the large shortfalls 
plaguing our current ocean management regime.
Reliance on Science, the Precautionary Principle and Eco-based 
        management
    H.R. 21 will provide a sustainable response both to the problems of 
depleted resources and the desire for future development. Title V of 
H.R. 21 addresses the need for more complete and coordinated research 
of ocean resources. It also includes a requirement that the best 
available technology be employed to explore and map coastal ocean 
waters. <SUP>8</SUP> This is an important step toward addressing 
significant data gaps in regards to ocean resources. In addition, H.R. 
21 recognizes that it will take time to develop and coordinate the 
information we need for optimal management of our oceans and that 
initially this information will be better developed in some areas than 
others. Instead of forcing agencies to make decisions based on 
incomplete and inadequate information, the legislation requires that 
agencies rely on the precautionary principle. In the absence of needed 
information, agencies must defer to what is best for the ecosystem to 
the best of their knowledge. <SUP>9</SUP> This requirement, along with 
the eco-system based approach to ocean management in general, will 
allow for development but only as depleted resources recover and gaps 
in the government's understanding of ocean resources and impacts of 
technology are filled. Not only does this mean healthier oceans; it 
also means a healthier and more sustainable marine economy. According 
to Scientific Consensus Statement on Marine Ecosystem-Based Management 
1 (2005), ``A delay in implementing management based on an ecosystem 
approach will result in continued conflicts over resources, degradation 
of ocean ecosystems, disruption of fisheries, loss of recreational 
opportunities, health risks to humans and wildlife and loss of 
biodiversity.'' The Alliance agrees. There is an urgent need for eco-
system based management both for the health of our oceans and the 
health of our marine economies. By requiring agencies to protect first 
and develop only when there is enough information and agencies can 
ensure the health of the ecosystem, H.R. 21 is supporting economic 
development in the long run.
---------------------------------------------------------------------------
    \8\ H.R. 21 Sec. 201 (c) (7) included in the list of new NOAA 
functions is: ``using the best available technology to explore and map 
the coastal, ocean, and Great Lakes waters of the United States, and 
work collaboratively with other countries to use the best available 
technology to explore and map their coastal and ocean waters and other 
significant water bodies, in order to better understand ocean 
dynamics.''
    \9\ Id. at Sec. 101 (b) (2) (C) state: ``In the case of incomplete 
or inconclusive information as to the effects of a covered action on 
United States ocean waters or ocean resources, decisions shall be made 
using the precautionary approach to ensure protection, maintenance, and 
restoration of healthy marine ecosystems.''
---------------------------------------------------------------------------
Leadership, Guidance and Oversight as an Impetus for Ocean Protection
    H.R. 21 establishes the National Oceans Advisor and the Committee 
on Ocean Policy to facilitate and review government activities for 
compliance with the national ocean policy. <SUP>10</SUP> It also 
requires that NOAA report to Congress regarding whether ``programs and 
activities of the administration fully implement national ocean policy. 
<SUP>11</SUP> These two sections are important because they have the 
effect of injecting new life into existing laws. For too long there has 
been insufficient support for, and oversight of, government activity 
and its impact on oceans as a whole. In some cases laws which could 
have been used to the benefit of coastal ecosystems went un-implemented 
without consequence. A case in point is Executive Order (EO) 13158. 
Signed in 2000, <SUP>12</SUP> EO 13158 was intended to help expand and 
strengthen protections for marine areas. But, more than seven years 
there is still not a formal list of Marine Protected Areas (MPAs). 
<SUP>13</SUP> The result is that areas, like Nantucket Sound 
<SUP>14</SUP>, that clearly meet the criteria for protection as 
outlined in EO 13158 have gone without federal protection for years.
---------------------------------------------------------------------------
    \10\ Id. at Sec. 302 (b) (2) states: ``the Committee Shall, review 
and appraise the various programs and activities of the Federal 
Government for consistency with the policy and standards set forth [by 
the national ocean policy]''
    \11\ Id. at Sec. 209 (a) (1) (D) states, ``Not later than 2 years 
after the date of enactment of this Act, the Administrator shall 
develop a baseline report on the status and condition of the ocean 
ecosystems and resources under United States jurisdiction...The plan 
shall include--...an analysis of whether the programs and activities 
(including regulatory activities) of the Administration fully 
implemented the national oceans policy under section 3 during the 
period covered by the report...''
    \12\ The order was originally signed by President Bill Clinton. 
However, the Bush Administration affirmed its commitment to the federal 
policies in the Clinton Order. On June 4, 2001, Secretary of Commerce 
Donald L. Evans announced that the Bush Administration had ``decided to 
retain Executive Order 13,158 on marine protected areas.'' Statement by 
Secretary of Commerce Donald L. Evans Regarding Executive Order 13,158, 
Marine Protected Areas, June 4, 2001.
    \13\ An inventory of Marine Management Areas (MMAs) has been 
developed but the inventory only provides a pool from which Marine 
Protected Areas (MPAs) will eventually be designated. Currently the 
administration is still working on the draft framework for developing 
the national system of MPAs. On February 28, 2007, the public comment 
period ended and the government is now reviewing comments. No specific 
date has been provided for when official MPA designation (and 
protection) would begin.
    \14\ The EO made it clear that state sanctuaries and similar areas 
are expressly included under its protective provisions, by defining the 
term ``marine protected area'' to include ``any area of the marine 
environment that has been reserved by Federal, State, territorial, 
tribal, or local laws or regulations to provide lasting protection for 
part or all of the natural and cultural resources therein.'' EO 13158 
Sec. 2(a) (emphasis added). In 1971, the Commonwealth of Massachusetts 
established the Cape and Islands Ocean Sanctuary (``CIOS''). M.C.L. c. 
132A, Sec. 12(c). Protecting the coastal areas of Cape Cod, Martha's 
Vineyard, and Nantucket, the CIOS also included several ``bodies of 
water,'' including Nantucket Sound itself. Id. In designating the 
Sound, Massachusetts's lawmakers specified that designated areas 
``shall be protected from any exploitation, development, or activity 
that would significantly alter or otherwise endanger the ecology or the 
appearance of the ocean, the seabed, or subsoil thereof....'' Id at 
Sec. 14. Despite the fact that the federal government currently has 
jurisdiction over the center portion of the Sound, formal designation 
by the state prior to the establishment of federal jurisdiction 
qualifies Nantucket Sound as a marine protected area under the language 
of EO 13158.
---------------------------------------------------------------------------
    H.R. 21 will require NOAA to review of federal government actions 
including the implementation of EO 13158 and will require NOAA to 
submit a report to Congress on the progress, or lack there of, by the 
administration to ensure the protection of ocean ecosystems. 
<SUP>15</SUP> Both of these requirements will put pressure on the 
executive branch to exercise existing authority which it has failed to 
fully employ in the past, like the designation of MPAs. As such 
pressure mounts for the government to take action under existing law, 
Nantucket Sound and numerous other sensitive ecosystem areas will be 
better protected from destructive development.
---------------------------------------------------------------------------
    \15\ H.R. 21 Sec. 209 (a) (1) (D) states that the administrator of 
NOAA must submit reports including: a review of the programs and 
covered actions (including regulatory activities) of the Federal 
Government, State and local governments, and nongovernmental entities 
or individuals with particular reference to their effect on coastal, 
ocean, and Great Lakes waters and on the conservation, development, and 
utilization of coastal, ocean, and Great Lakes resources''
---------------------------------------------------------------------------
Funding
    In order to be proactive and tactical about our use of the ocean, 
baseline information about how wildlife and people currently use the 
ocean must be readily available to decision makers. To make a strategic 
decision about Cape Wind, for example, we need to understand how 
migrating birds using ocean pathways throughout the year will be 
impacted by the projects location; we need to understand and consider 
the navigational safety and national security uses of the surrounding 
area; we need to fully understand the technologies being proposed; 
their impacts on wildlife; local economies and traditional livelihoods. 
Indeed, before any individual projects can be reviewed and approved, a 
coordinated national resource assessment must be conducted to provide 
this type of information. This is a huge undertaking. It will require 
research and technology advances; regional and interdisciplinary 
studies and the collection integration and cooperative use of data 
covering all of the U.S. coastal waters. This initiative will not be 
cheap and if Congress hopes to realize the benefits of a robust 
national ocean policy, it must find the funding to support it.
    H.R. 21 directly addresses the funding need. Sec. 302 (4) of H.R. 
21 provides for the Committee on Ocean Policy to review and to certify 
agency ocean budgets regarding their sufficiency to achieve the policy 
and standards of the national ocean policy. This will ensure that any 
disconnect between what agencies are asked to do and the funding 
available to complete the task is addressed on a regular bases. In 
addition, the legislation establishes a dedicated trust fund and 
creates a funding source to at least partially address the ongoing need 
to support this initiative. <SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ H.R. 21 Title V.
---------------------------------------------------------------------------
Agency Integration, Conflict Resolution and Resource Protection
    Each title of the legislation contributes to a more integrated and 
strategic ocean management regime. By providing for better 
intergovernmental communication; more complete information and an 
overarching national obligation across federal agencies to ensure eco-
system health, H.R. 21 will make ocean management more cohesive; it 
will also allow for management decisions to be more strategic.
    The Alliance has seen first hand, and has battled for years, the 
consequences of attempting to permit an energy project without adequate 
resource information or structured national guidelines for the review 
and approval of projects. Nantucket Sound has been the staging ground 
for the battle over the improper siting of Cape Wind, an offshore wind 
energy complex. The project continues to move forward through the 
agency, even though the government lacks baseline information about the 
natural resources that the project will impact, and has no guidelines 
by which to review or approve the project. Expert agencies including 
the Fish and Wildlife Service (FWS) and the Environmental Protection 
Agency (EPA) have raised concern about the lack of resource data. In 
addition, the proposed location is within close proximity to a major 
shipping channel, and the turbines are expected to affect the radar of 
airplanes flying in and out of local airports. It is also habitat to 
and located on the flight path of numerous birds, some species of which 
are statutorily protected, which will be negatively impacted by the 
development of a large wind facility. The project will seriously harm 
the regional economy, destroy historic values, and adversely affect 
cultural and recreational uses. H.R. 21 provides the tools to protect 
Nantucket Sound and other important federal waters from inappropriate 
development.
    H.R. 21 calls for the type of national ocean resource data that 
agencies need before they can make adequate development decisions 
regarding large scale construction of industrial sized turbines in 
functioning ecosystems.
    In addition, the Committee on Ocean Policy codified by H.R. 21 
could help to resolve interagency disputes, like the one between the 
FWS, EPA and Minerals Management Service regarding the need for 
additional resource data. H.R. 21 also requires reviewing agencies to 
address projects like Cape Wind from an eco-system based approach and 
under the precautionary principle of H.R. 21. This could help to avoid 
years of contention between the project developers and environmental 
advocates, fisherman, local towns and chambers of comers.
Conclusion
    Difficult but crucial decisions need to be made about zoning, use 
and development of the ocean so that the most environmentally sensitive 
and productive regions of our coastal waters are not depleted by adhoc 
project development. Project placement should be informed, deliberate 
and in the best interest of the public as a whole, not reactionary and 
deferential to industry as it is now. This requires an eco-system based 
national program that can guide the placement and regulation of 
projects and it requires funding and oversight to support agency 
efforts. H.R. 21 legislation provides all three. There is not doubt 
that the ecological, historical and cultural resources of Nantucket 
Sound, and of other sensitive ecosystems, would be better protected by 
the system established under H.R. 21. In short, the Alliance fully 
supports this legislation and urges Congress to work toward its passage 
promptly because we firmly believe that a national strategy based on 
the eco-system management it proposes is crucial to the well-being of 
our natural ocean resources, including Nantucket Sound.

                                 <all>

</pre></body></html>
